<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2007</title>
<body><pre>[Senate Hearing 109-]
[From the U.S. Government Printing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2007

                              ----------                              


                        WEDNESDAY, MAY 24, 2006

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Ted Stevens (chairman) presiding.
    Present: Senators Stevens and Inouye.

                       NONDEPARTMENTAL WITNESSES

             OPENING STATEMENT OF SENATOR DANIEL K. INOUYE

    Senator Inouye [presiding]. At the direction of the 
chairman of the subcommittee, I will be convening the hearing. 
The first panel consists of Major General William Matz, Jr., 
United States Army, retired, President of the National 
Association for Uniformed Services; Dr. William J. Strickland, 
Ph.D., American Psychological Association; Lieutenant Colonel 
Paul N. Austin, CRNA, Ph.D., retired, American Association of 
Nurse Anesthetists; fourth, Chris Hahn, Executive Director, 
Mesothelioma Applied Research Foundation; and fifth, Captain 
Robert C. Hurd, United States Navy, retired, and PO1 Jessica A. 
Vance, 2006 Naval Sea Cadet of the Year, U.S. Naval Sea Cadet 
Corps. Please come forward.
    General Matz, welcome to the subcommittee, Sir.

STATEMENT OF MAJOR GENERAL WILLIAM M. MATZ, JR., UNITED 
            STATES ARMY (RETIRED), PRESIDENT, NATIONAL 
            ASSOCIATION FOR UNIFORMED SERVICES (NAUS)
    General Matz. Well, thank you, sir. Good morning. It is 
very good to see you again.
    In representing the National Association for Uniformed 
Services, it is an honor, sir, for me to testify before such as 
distinguished a veteran as yourself from World War II. And it 
is a privilege to be invited to give our view on key issues 
before your Defense Subcommittee.
    Sir, the annual defense appropriations is one of the most 
critical bills Congress considers. It serves a number of roles. 
First, it provides the wherewithal to insure that our military 
has the resources to meet any threat from abroad. And second 
and just as important, this measure provides for the men and 
women standing today on the frontlines of our Nation's defense. 
And third, the underlying bill can support not only troop 
morale, but can sustain morale by providing the resources 
necessary to help keep our promise to those who served in past 
conflicts to defend America.
    And as a veteran and as a career combat infantryman, it 
gives me great pride to ask you to support the most 
professional and dedicated military in the world. And so in 
this very short time allowed, let me touch on just a few issues 
taken from our more comprehensive written testimony that we 
have provided you.
    Senator Stevens. Your statement will be made part of the 
record.
    General Matz. Sir, quality health care is a very strong 
incentive to make military service a career. I know you are 
aware of that. And at a time when we are relying on our Armed 
Forces, the Defense Department's blueprint for military health 
care raises serious concerns to National Association of 
Uniformed Services (NAUS). This Department of Defense (DOD) 
proposal would result in increases in TRICARE fees and higher 
co-pays for pharmaceuticals for over 3 million retirees under 
the age of 65, and their families. If passed, these proposals 
would double and even triple annual fees for retirees and 
families. The value of the benefit earned by military retirees 
would clearly be certainly diminished.
    We ask the Appropriations subcommittee to work with your 
colleagues to reject these DOD proposed increases, and then, 
sir, to clearly ensure full funding is provided to maintain the 
value of the health care benefit provided these men and women 
who are in the military.
    All we are asking is what is best for our troops. NAUS 
urges you to confirm America's solemn moral obligation to 
support our troops, our retirees, and their families. They have 
kept their promise to our Nation, and we must continue to keep 
our promise to them.
    Clearly, care for our catastrophically wounded troops with 
limb loss is also a matter of national concern. Recently, I had 
the opportunity to visit wounded warriors at Walter Reed Army 
Hospital, and also at the DOD hospitals in both San Antonio and 
Chicago. And sir, I can report that their spirits are very, 
very high, but they need our help.
    Senator Stevens [presiding]. Go on.
    General Matz. Chairman Stevens.
    According to the commander of the Army's Physical 
Disability Agency, which is located at Walter Reed and 
responsible for evaluating whether a soldier is physically able 
to return to active duty, the caseload the agency reviews has 
increased by almost 50 percent since the wars in Iraq and 
Afghanistan. The need is great. The chief of rehabilitation at 
Walter Reed says about 15 percent of the amputees have lost 
more than one limb.
    In order to help meet the challenge, Defense Department 
research must be adequately funded to continue its critical 
focus on treatment of troops surviving these very grievous 
injuries. The research program also requires funding for 
continued development of advanced prostheses that will focus on 
the use of prosthetics with microprocessors that will perform 
more like a natural limb.
    And so accordingly, sir, we encourage the subcommittee to 
ensure that funding for the Defense Department's prosthetic 
research is adequate to support the full range of programs 
needed to meet current and future health challenges facing 
these very seriously wounded veterans.
    It is also our view that providing a seamless transition 
for recently discharged military is especially important for 
servicemembers leaving the military for medical reasons related 
to combat, particularly the most severely injured patients. So 
we call on the subcommittee to ensure adequate funding is 
available to DOD to cover the expenses providing for seamless 
care of our servicemembers.
    Also, NAUS supports a higher--sir?
    Senator Stevens. We have a joint session this morning, so 
we are just going to have to keep moving. We will read your 
accompanying statement.
    General Matz. Okay, sir. Thank you for the opportunity to 
come before you.
    Senator Stevens. Thank you very much.
    [The statement follows:]

          Prepared Statement of Major General William M. Matz

    Chairman Stevens, ranking member Inouye, and Members of the 
subcommittee, good morning. It is a pleasure to appear before you today 
to present the views of The National Association for Uniformed Services 
on the 2007 Defense appropriations bill.
    My name is William M. Matz, president of The National Association 
for Uniformed Services (NAUS). And for the record, NAUS has not 
received any Federal grant or contract during the current fiscal year 
or during the previous 2 years in relation to any of the subjects 
discussed today.
    As you know, Mr. Chairman, NAUS, founded in 1968, represents all 
ranks, branches and components of uniformed services personnel, their 
spouses and survivors. The association includes all personnel of the 
active, retired, Reserve and National Guard, disabled veterans, 
veterans community and their families. We love our country, believe in 
a strong national defense, support our troops and honor their service.
    Mr. Chairman, as our terrorist enemies remind us, the first and 
most important responsibility of our government is the protection of 
our citizens. As we all know, we are at war. That is why the measure we 
are working on is so very important. It is critical that we provide the 
resources to those who fight for our protection and our way of life. We 
must support our courageous troops. And we must recognize as well that 
we must provide priority funding to keep the promises made to the 
generations of warriors whose sacrifice has paid for today's freedom.
    At the start, I want to express a NAUS concern about the amount of 
our investment in our national defense. Not since post-World War I has 
our provision for our military been so low a percentage--less than 4 
percent--of today's GNP. Resources are required to ensure our military 
is fully staffed, trained, and equipped to achieve victory against our 
enemies. Good-natured ignorance in a time when we face such serious 
threats is not a luxury we can afford. And we depend on leaders in 
Congress with the Nation's support to balance our priorities and ensure 
our defense in a dangerous world.
    Here, I would like to make special mention of the leadership and 
contribution this panel has made in providing the resources and support 
our forces need to complete their mission. Defending the United States 
homeland and the cause of freedom means that the dangers we face must 
be confronted. And it means that the brave men and women who put on the 
uniform must have the very best training, best weapons, best care and 
wherewithal we can give them.
    Mr. Chairman, you and those on this important panel have taken 
every step to give our fighting men and women the funds they need, 
despite allocations we view as insufficient for our total defense 
needs. You have made difficult priority decisions that have helped 
defend America and taken special care of one of our greatest assets, 
namely our men and women in uniform.
    And NAUS is very proud of the job this generation of Americans is 
doing to defend America. Every day they risk their lives, half a world 
away from loved ones. Their daily sacrifice is done in today's 
voluntary force. What they do is vital to our security. And the debt we 
owe them is enormous.
    In this regard, the members of NAUS applaud Congress for the 
actions you have taken over the last several years to close the pay 
gap, provide bonuses for specialized skill sets, and improve the 
overall quality of life for our troops and the means necessary for 
their support.
    Our association does have, however, some concerns about a number of 
matters. Among the major issues that we will address today is the 
provision of a proper health care for the military community and 
recognition of the funding requirements for TRICARE for retired 
military. Also, we will ask for adequate funding to improve the pay for 
members of our armed forces, to protect against expiring bonuses and 
allowances, and to address a number of other challenges including 
TRICARE Reserve Select and the Survivor Benefit Plan.
    We also have a number of related priority concerns such as the 
diagnosis and care of troops returning with Post Traumatic Stress 
Disorder (PTSD), the need for enhanced priority in the area of 
prosthetics research, and providing improved seamless transition for 
returning troops between the Department of Defense (DOD) and the 
Department of Veterans Affairs (VA). In addition, we would like to 
ensure that adequate funds are provided to defeat injuries from the 
enemy's use of Improvised Explosive Devices.

                 MILITARY QUALITY OF LIFE: HEALTH CARE

    Quality health care is a strong incentive to make military service 
a career. The Defense blueprint for military healthcare raises serious 
concern to NAUS. DOD recommends saving $735 million through sharp 
increases in TRICARE fees and higher copays for pharmaceuticals for 3.1 
million retirees under age 65 and their families.
    To achieve these savings, Defense officials want to triple annual 
enrollment fees for TRICARE Prime by October 2007 for officers, to $700 
from $230 a year for individuals and to $1,400 from $460 per year for 
families. For retired E-6 and below, the fee would jump nearly 50 
percent, to $325/$650 from $230/$460. And for E-7 and above, the jump 
would more than double to $475/$950 from $230/$460.
    The defense budget also requests the establishment of a TRICARE 
Standard enrollment fee and an increase in the annual amount of 
deductible charges paid by retirees using standard coverage. The 
standard beneficiary already pays a 25 percent cost share (and an added 
15 percent for non-participating providers). Should Congress approve 
the DOD request to increase deductibles and initiate an annual fee, the 
value of the benefit earned by military retirees using standard would 
be greatly diminished.
    DOD officials also recommend changes in TRICARE retail pharmacy 
copayments. The plan calls for reducing copays for mail order generic 
prescriptions to $0 (zero) from $3; and increasing copays for retail 
generic drugs to $5 from $3 and for retail brand drugs to $15 from $9. 
The copayment for non-formulary prescriptions would remain at $22.
    The assertion behind the proposals is to have working-age retirees 
and family members pay a larger share of TRICARE costs or use civilian 
health plans offered by employers. In recent testimony before your 
subcommittee, Dr. Winkenwerder indicated that the plan would force more 
than 100,000 retirees to leave their TRICARE coverage due to added 
costs.
    NAUS asks the appropriations panel to work with your colleagues to 
reject the DOD proposed increases; and then ensure full funding is 
provided to maintain the value of the healthcare benefit provided those 
men and women willing to undergo the hardships of a military career.
    When world events are in constant change and instability and 
uncertainty are the rule, we are concerned that the current 302(b) 
allocation given this subcommittee may not fully fill the gap from the 
lost ``revenue'' of the Pentagon's proposed TRICARE fees, which the 
administration estimated would bring in $735 million. We cannot believe 
this astonishing situation is something our elected Members of Congress 
would allow to go unfilled. Generations of us have fought to build a 
better Nation and now we are told that our health care benefits cost 
too much. Frankly, that kind of thinking can get America into trouble. 
You cannot recruit future military if the word gets out that America 
does not keep the promises made to those who served her.
    We urge the subcommittee to fill this funding gap. And we urge 
Congress to strip DOD's authority to raise certain TRICARE fees and 
copays unilaterally without partnership or even consultation with our 
elected Congress.
    NAUS firmly believes that the fiscal year 2001 landmark legislation 
establishing TRICARE providing new pharmacy and medical benefits to 
military retirees and their families represents an irreplaceable 
national investment, critical to the Nation and its warriors. The 
provision of quality, timely care is considered one of the most 
important benefits afforded the career military. What you have done 
reflects the commitment of a nation, and it deserves your wholehearted 
support.
    We urge the subcommittee to take the actions necessary for honoring 
our obligation to those men and women who have worn the Nation's 
military uniform. Clearly, when DOD does not receive adequate funding, 
it is forced to look toward benefits as a source of potential 
``revenue,'' and this should not be allowed to occur.
    All we are asking is what is best for our service men and women and 
those who have given a career to armed service. NAUS urges you to 
confirm America's solemn, moral obligation to support our troops, their 
families, military retirees, and theirs. They have kept their promise 
to our Nation, and now it's time for us to keep our promise to them.

                     MILITARY QUALITY OF LIFE, PAY

    For fiscal year 2007, the administration recommends a 2.2 percent 
across-the-board pay increase for members of the Armed Forces. While 
this is the lowest raise provided since 1994, the increase, according 
to the Pentagon, is designed to keep military pay in line with civilian 
wage growth. The Defense proposal also calls for an unspecified mid-
year targeted raise. NAUS trusts the panel will ensure that these 
targeted raises are aimed to reward certain necessary skills and aim as 
well at E-7s, E-8s and E-9s and warrant officers to help retention of 
experience.
    Congress and the administration have done a good job over the 
recent past to narrow the gap between civilian-sector and military pay. 
The gap, which was as great as 14 percent in the late 1990s, has been 
reduced to nearly 4.3 percent with the January 2006 pay increase.
    The pay differential is important to recruitment. As an example, an 
electronic technician is currently paid approximately 3.5 to 4 percent 
less than his counterpart in the private sector. A few years ago, the 
differential was as much as 12 percent. We've got to get it down, and 
we have made significant strides. But we can do better and we should.
    To attract high-quality personnel, we urge the appropriations panel 
to never lose sight of the fact that our DOD manpower policy needs a 
compensation package that is reasonable and competitive. Bonuses have 
role in this area. Bonuses for instance can pull people into special 
jobs that help supply our manpower for critical assets, and they can 
also entice ``old hands'' to come back into the game with their skills.
    Understanding that congressional leaders have under consideration 
provisions to raise basic pay for all individuals in the uniformed 
services by 2.7 percent, NAUS asks you to do all you can to ensure in 
this tight budget situation that any increase above the standard 
calculation accrue solely to those in the military rather than the 
civilian federal employees. The frank truth is that our Armed Forces 
face far greater risks and dangers than our civilian workforce. And 
though we may never be able to fully compensate these brave men and 
women for being in harm's way, we should clearly recognize the risks 
they face and make every effort to appropriately compensate them for 
the job they do.

                  MILITARY QUALITY OF LIFE, ALLOWANCES

    NAUS strongly supports revised housing standards within the Basic 
Allowance for Housing (BAH). We are most grateful for the congressional 
actions reducing out-of-pocket housing expenses for servicemembers over 
the last several years. Despite the many advances made, many enlisted 
personnel continue to face steep challenge in providing themselves and 
their families with affordable off-base housing and utility expenses. 
BAH provisions must ensure that rates keep pace with housing costs in 
communities where military members serve and reside. Efforts to better 
align actual housing rates can reduce unnecessary stress and help those 
who serve better focus on the job at hand, rather than the struggle 
with meeting housing costs for their families.
    NAUS urges the subcommittee to provide adequate funding for 
military construction and family housing accounts used by DOD to 
provide our servicemembers and their families quality housing. The 
funds for base allowance and housing should ensure that those serving 
our country are able to afford to live in quality housing whether on or 
off the base. The current program to upgrade military housing by 
privatizing defense housing stock is working well. We encourage 
continued oversight in this area to ensure joint military-developer 
activity continues to improve housing options. Clearly, we need to be 
particularly alert to this challenge as we implement BRAC and related 
rebasing changes.
    NAUS also asks special provision be granted the National Guard and 
Reserve for planning and design in the upgrade of facilities. Since the 
terrorist attacks of September 11, 2001, our Guardsmen and Reservists 
have witnessed an upward spiral in the rate of deployment and 
mobilization. The mission has clearly changed, and we must recognize 
they account for an increasing role in our national defense and 
homeland security responsibilities. The challenge to help them keep 
pace is an obligation we owe for their vital service.

                         SURVIVOR BENEFIT PLAN

    There are two primary ways in which survivors of military personnel 
receive military related benefits: The Survivor Benefits Plan (SBP), 
which is based on time and service; and, Dependency and Indemnity 
Compensation (DIC), which provides a flat monthly payment after a 
service-connected death.
    Many military members and retirees have paid for SBP and have the 
most obvious of expectations to receive what was paid for. 
Surprisingly, that's not what happens. Under current law, SBP is 
reduced one dollar for each dollar received under DIC. A dollar is 
taken from one benefit for every dollar a survivor receives in the 
other.
    Survivors of retirees, upon eligibility for DIC, lose a majority--
or all too often--the entire amount of their monthly SBP annuity.
    In addition, military retirees age 70 and older, who have paid into 
the plan for more than 30-years, are required to continue to pay until 
October 2008. Military retirees who enrolled for SBP at the initial 
enrollment date in 1972 will this year be paying premiums for 34 years 
and by 2008 36 years.
    NAUS encourages members of the panel to provide financing to 
correct this unfair situation. Allow military survivors the benefit 
their loved one paid for their quality of life. And press to see that 
retirees age 70 or more who have paid into SBP are no longer required 
to pay premiums.

   DEPARTMENT OF DEFENSE, SEAMLESS TRANSITION BETWEEN THE DOD AND VA

    The President's Task Force (PTF) to Improve Health Care Delivery 
for Our Nation's Veterans report, released in May 2003 regarding 
transition of soldiers to veteran status, stated, ``timely access to 
the full range of benefits earned by their service to the country is an 
obligation that deserves the attention of both VA and DOD.'' NAUS 
agrees with this assertion and believes that good communication between 
the two Departments means our government can better identify, locate 
and follow up with injured servicemembers separated from the military.
    It is our view that providing a seamless transition for recently 
discharged military is especially important for servicemembers leaving 
the military for medical reasons related to combat, particularly for 
the most severely injured patients.
    Most important in the calculus of a seamless transition is the 
capacity to share information at the earliest possible moment prior to 
separation or discharge. It is essential that surprises be reduced to a 
minimum to ensure that all troops receive timely, quality health care 
and other benefits earned in military service.
    To improve DOD/VA exchange, the hand-off should include a detailed 
history of care provided and an assessment of what each patient may 
require in the future, including mental health services. No veteran 
leaving military service should fall through the bureaucratic cracks.
    Another area that would enhance a seamless transition for our 
uniformed services is the further expansion of single-stop separation 
physical examinations. A servicemember takes a physical exam when he is 
discharged. While progress is being made in this area, we recommend 
expanding the delivery at discharge (BDD) program to all discharge 
locations in making determination of appropriate benefits before 
separation. This will allow more disabled veterans to receive their 
service-connected benefits sooner.
    NAUS compliments DOD and VA for following through on establishing 
benefits representatives at military hospitals. This is an important 
step and can often reduce the amount of frustration inherent in the 
separation process for service members and their families.
    NAUS calls on the subcommittee to ensure adequate funding is 
available to DOD and VA to cover the expenses of providing for these 
measures. Taking care of veterans is a national obligation, and doing 
it right sends a strong signal to those currently in military service 
as well as to those thinking about joining the military.

                  DEFENSE DEPARTMENT FORCE PROTECTION

    NAUS urges the subcommittee to provide adequate funding to rapidly 
deploy and acquire the full range of force protection capabilities for 
deployed forces. This would include resources for up-armored high 
mobility multipurpose wheeled vehicles and add-on ballistic protection 
to provide force protection for soldiers in Iraq and Afghanistan, 
ensure up-activity for joint research and treatment effort to treat 
combat blast injuries resulting from improvised explosive devices 
(IEDs), rocket propelled grenades, and other attacks; and facilitate 
the early deployment of new technology, equipment, and tactics to 
counter the threat of IEDs.
    We ask special consideration be given to counter IEDs, defined as 
makeshift or ``homemade'' bombs, often used by enemy forces to destroy 
military convoys and currently the leading cause of casualties to 
troops deployed in Iraq. These devices are the weapon of choice and, 
unfortunately, a very efficient weapon used by our enemy. The Joint 
Improvised Explosive Device Defeat Organization (JIEDDO) is established 
to coordinate efforts that would help eliminate the threat posed by 
these IEDs. We urge efforts to advance investment in technology to 
counteract radio-controlled devices used to detonate these killers. 
Maintaining support is required to stay ahead of the changing enemy and 
to decrease casualties caused by IEDs.

             DEFENSE HEALTH PROGRAM--TRICARE RESERVE SELECT

    Mr. Chairman, another area that requires attention is Reservist 
participation in TRICARE. As we are all aware, National Guard and 
Reserve personnel have seen an upward spiral of mobilization and 
deployment since the terrorist attacks of September 11, 2001. The 
mission has changed and with it our reliance on these forces has risen. 
Congress has recognized these changes and begun to update and upgrade 
protections and benefits for those called away from family, home and 
employment to active duty. We urge your commitment to these troops to 
ensure that the long overdue changes made in the provision of their 
heath care and related benefits is adequately resourced. We are one 
force, all bearing a full share of the load.

               DEPARTMENT OF DEFENSE, PROSTHETIC RESEARCH

    Clearly, care for our troops with limb loss is a matter of national 
concern. The global war on terrorism in Iraq and Afghanistan has 
produced wounded soldiers with multiple amputations and limb loss who 
in previous conflicts would have died from their injuries. Improved 
body armor and better advances in battlefield medicine reduce the 
number of fatalities, however injured soldiers are coming back 
oftentimes with severe, devastating physical losses.
    As of December 31, 2005, 16,329 troops had been wounded but 
survived their injuries, according to U.S. Defense Department figures. 
And according to Col. Daniel Garvey, USA, deputy commander of the U.S. 
Army Physical Disability Agency, located at Walter Reed and responsible 
for evaluating whether a soldier is physically able to return to active 
duty, the caseload the agency reviews has increased by almost 50 
percent since the wars in Afghanistan and Iraq began.
    The need is great. Lt. Col. Paul Pasquina, chief of physical 
medicine and rehabilitation at Walter Reed, says about 15 percent of 
the amputees at Walter Reed have lost more than one limb. And according 
to Lt. Col. Jeffrey Gambel, chief of the amputee clinic, about one-
third of the amputations done on recently injured service members have 
involved upper extremities, because of the types of munitions used by 
the enemy.
    In order to help meet the challenge, Defense Department research 
must be adequately funded to continue its intent on treatment of troops 
surviving this war with grievous injuries. The research program also 
requires funding for continued development of advanced prosthesis that 
will focus on the use of prosthetics with microprocessors that will 
perform more like the natural limb.
    NAUS encourages the subcommittee to ensure that funding for Defense 
Department's prosthetic research is adequate to support the full range 
of programs needed to meet current and future health challenges facing 
wounded veterans. To meet the situation, the subcommittee needs to 
focus a substantial, dedicated funding stream on Defense Department 
research to address the care needs of a growing number of casualties 
who require specialized treatment and rehabilitation that result from 
their armed service.
    We would also like to see better coordination between the 
Department of Defense Advanced Research Projects Agency and the 
Department of Veterans Affairs in the development of prosthetics that 
are readily adaptable to aid amputees.
    NAUS looks forward to working with you, Mr. Chairman, to see that 
priority is given to care for these brave men and women who in defense 
of freedom and our way of life were seriously wounded.
 department on veterans affairs, post traumatic stress disorder (ptsd)
    NAUS supports a higher priority on Defense Department care of 
troops demonstrating symptoms of mental health disorders and treatment 
for PTSD.
    The mental condition known as PTSD has been well known for over 100 
years under an assortment of different names. For example more than 50 
years ago, Army psychiatrists reported, ``That each moment of combat 
imposes a strain so great that psychiatric casualties are as inevitable 
as gunshot and shrapnel wounds in warfare.''
    According to a recent Government Accountability Office draft 
report, nearly four in five service members returning from the wars in 
Iraq and Afghanistan who were found to be at risk for PTSD were never 
referred for further help. The Defense Department has not explained why 
some troops are referred for help and some are not.
    Pre-deployment and post-deployment medicine is very important. Our 
legacy of the Gulf War demonstrates the concept that we need to 
understand the health of our service members as a continuum, from pre- 
to post-deployment. However, not only does DOD need programs to assess 
a service member's medical status and a method to evaluate their health 
during time in war, it also needs to administer treatment quickly and 
effectively to mitigate injuries and save lives.
    PTSD is a serious psychiatric disorder. While the government has 
demonstrated over the past several years a higher level of attention to 
those military personnel who exhibit PTSD symptoms, more should be done 
to assist servicemembers found to be at risk.
    NAUS applauds the extent of help provided by the Defense 
Department, however we encourage that more resources be made available 
to assist. Early recognition of the symptoms and proactive programs are 
essential to help many of those who must deal with the debilitating 
effects of mental injuries, as inevitable in combat as gunshot and 
shrapnel wounds.
    NAUS encourages the Members of the subcommittee to provide for 
these funds and to closely monitor their expenditure to see they are 
not redirected to other areas of defense spending.
    While Defense Department officials and congressional leaders have 
taken important steps to advance better care for those with mental 
health problems, many challenges still remain. NAUS urges the 
development of a consistent, seamless, and working approach that allows 
DOD to screen returning service members and provide more effective 
early intervention that leads to healing.

              MILITARY QUALITY OF LIFE, CONCURRENT RECEIPT

    Since the fiscal year 2003 National Defense Authorization Act 
(NDAA) authorized a special compensation for certain military retirees 
injured in combat, Congress has advanced NAUS-supported concurrent 
receipt to include benefits to most military retirees with combat 
related disabilities and personnel with service-connected VA disability 
ratings of 50 percent or higher.
    In last year's NDAA, Congress accelerated the phase in of 
concurrent receipt for individuals rated 100 percent disabled as a 
result of individual unemployability. NAUS urges members to press 
legislation for full and complete concurrent receipt to all disabled 
retirees, including those individuals medically discharged from service 
prior to achieving 20 years of service.
    NAUS would also like to see the availability of concurrent receipt 
to all those forced into retirement with less than 20 years service. 
Currently combat related special compensation is denied to those 
warriors who were so severely wounded they couldn't serve out their 
full careers. Retired short of their 20-years, through no fault of 
their own, they continue to pay for their battle wounds. We urge 
members of this panel to encourage Congress to care for these troops 
and never forget the price they paid for service to country.

                      ARMED FORCES RETIREMENT HOME

    NAUS is pleased to note the subcommittee's continued interest in 
providing funds for the Armed Forces Retirement Home (AFRH). As you 
know, home residents were evacuated for care and treatment to the 
Washington, DC, retirement home the day after Hurricane Katrina struck 
and damaged the facility at Gulfport, Mississippi. While the District 
of Columbia facility is currently undergoing transformation to absorb 
the change, we are seriously concerned about the future of the Gulfport 
home. We urge the subcommittee to provide adequate funding to help 
alleviate the strains on the Washington home. And we urge funding be 
set aside to do the planning and design work to rebuild the Gulfport 
home.
    NAUS also asks the subcommittee to investigate administration plans 
to sell great portions of the Washington AFRH to developers. The AFRH 
home is a historic national treasure, and we recommend that Congress 
find an alternate means to continue providing a residence for and 
quality-of-life support to these deserving veterans without turning 
most of this pristine campus over to developers.

          UNIFORMED SERVICES UNIVERSITY OF THE HEALTH SCIENCES

    As you know, the Uniformed Services University of the Health 
Sciences (USUHS) is the Nation's Federal school of medicine and 
graduate school of nursing. The medical students are all active-duty 
uniformed officers in the Army, Navy, Air Force and U.S. Public Health 
Service who are being educated to deal with wartime casualties, 
national disasters, emerging diseases and other public health 
emergencies.
    NAUS supports the USUHS and requests adequate funding be provided 
to ensure continued accredited training, especially in the area of 
chemical, biological, radiological and nuclear response. In this 
regard, it is our understanding that USUHS requires funding for 
training and educational focus on biological threats and incidents for 
military, civilian, uniformed first responders and healthcare providers 
across the Nation.

                JOINT POW/MIA ACCOUNTING COMMAND (JPAC)

    We also want the fullest accounting of our missing servicemen and 
ask for your support in DOD dedicated efforts to find and identify 
remains. It is a duty we owe to the families of those still missing as 
well as to those who served or who currently serve. And as President 
Bush said, ``It is a signal that those who wear our country's military 
uniform will never be abandoned.''
    In this regard, it is our understanding that the priority has been 
lowered for the mission of the Joint POW/MIA Accounting Command (JPAC). 
DOD funding has been redirected to other activities and POW/MIA 
operations in South East Asia have been canceled or scaled back. We 
request you look into this report and ensure that the $65 million 
required to support the JPAC mission for fiscal year 2007 is fully 
funded and allocated as needed.

                APPRECIATION FOR OPPORTUNITY TO TESTIFY

    As a staunch advocate for our uniformed service men and women, NAUS 
recognizes that these brave men and women did not fail us in their 
service to country, and we, in turn, must not fail them in providing 
the benefits and services they earned through honorable military 
service.
    Mr. Chairman, NAUS appreciates the subcommittee's hard work. We ask 
that you continue to work in good faith to put the dollars where they 
are most needed: in strengthening our national defense, ensuring troop 
protection, compensating those who serve, providing for DOD medical 
services including TRICARE, and building adequate housing for military 
troops and their families, and in the related defense matters discussed 
today. These are some of our Nation's highest priority needs and we ask 
that they be given the level of attention they deserve.
    NAUS is confident you will take special care of our Nation's 
greatest assets: the men and women who serve and have served in 
uniform. We are proud of the service they give to America every day. 
They are vital to our defense and national security. The price we pay 
as a Nation for their earned benefits is a continuing cost of war, and 
it will never cost more or equal the value of their service.
    We thank you for your efforts, your hard work. And we look forward 
to working with you to ensure we continue to provide sufficient 
resources to protect the earned benefits for those giving military 
service to America every day.
    Again, NAUS deeply appreciates the opportunity to present the 
association's views on the issues before the Defense Appropriations 
Subcommittee.

    Senator Stevens. Our next witness is Dr. William Strickland 
of the American Psychological Association. We do apologize for 
the timeframe here. We are going to have a vote at 9:30, and 
then a joint session--two votes at 9:30.
    Thank you, Dr. Strickland.

STATEMENT OF DR. WILLIAM J. STRICKLAND, Ph.D., VICE 
            PRESIDENT, HUMAN RESOURCES RESEARCH 
            ORGANIZATION, ON BEHALF OF THE AMERICAN 
            PSYCHOLOGICAL ASSOCIATION
    Dr. Strickland. Mr. Chairman, Senator Inouye, I'm Bill 
Strickland. I'm the former Director of Human Resources Research 
for the Air Force, and I'm currently the Vice President at the 
Human Resources Research Organization. I want to thank you for 
the opportunity to testify today on behalf of the American 
Psychological Association, or APA, a scientific and 
professional organization of more than 150,000 psychologists 
and affiliates.
    Although I'm sure you're both aware of the large number of 
psychologists providing clinical services to our military 
members and families here and abroad, you may be less familiar 
with the extraordinary range of research conducted by 
psychological scientists within DOD. Behavioral researchers at 
work on issues critical to national defense with support from 
the Army Research Institute, and Army Research Laboratory, the 
Office of Naval Research, the Air Force Research Laboratory, 
and smaller, human systems research programs in the office of 
the Secretary of Defense, Defense Advanced Research Projects 
Agency (DARPA), the Marine Corps, and Special Operations 
Command.
    In fiscal year 2006, the administration requested $10.52 
billion for defense, science, and technology; a huge cut from 
fiscal year 2005. Congressional appropriators in turn provided 
a significant increase to a total of $13.24 billion. For fiscal 
year 2007, the President's budget request of the $11.08 billion 
for defense service and technology (S&T) again falls short. The 
request for basic and applied defense research represents a 
16.3 percent decrease from the enacted fiscal year 2006 level. 
We ask the Appropriations subcommittee's help in restoring 
critical defense research funding. APA joins the coalition for 
national security research, a group of over 40 scientific 
associations and universities, in urging the subcommittee to 
reverse this cut.
    APA requests a total of $13.4 billion for defense S&T. This 
would maintain DOD spending on applied 6.2 and 6.3 research, 
and support a 10 percent increase in 6.1 research in fiscal 
year 2007, as recommended in the National Academy of Science's 
report, ``Rising Above the Gathering Storm.''
    The total spending on behavioral and cognitive research; in 
other words, human-centered research, within DOD also has 
declined in the President's fiscal year 2007 budget. In 
addition, the Senate Armed Services Committee has proposed 
cutting human-centered research in fiscal year 2007 in the 
fiscal year 2007 defense authorization. As one example, the 
authorizers recommend cutting by one-third a Navy research 
program on human factors.
    Behavioral and cognitive research in the broad categories 
of personnel, training, and later development; warfighter 
protection, sustainment, and physical performance; system 
interfaces and cognitive processing; and intelligence-related 
processes such as detection of deception; is absolutely 
critical to national security. And it is critical that DOD 
sponsor this research directly. As DOD noted in its own report 
to the Senate Appropriations Committee, quote: ``Military 
knowledge needs are not sufficiently like the needs of the 
private sector that retooling behavioral, cognitive, and social 
science research carried out for other purposes can be expected 
to substitute for service-supported research, development, 
testing, and evaluation. Our choice, therefore, is between 
paying for it ourselves and not having it,'' close quote.
    In today's environment, who would knowingly choose to live 
without research that enhances the recruiting, selection, 
training, and retaining of that fighting force required to 
operate, maintain, and support the advanced weapons systems we 
are supporting today? We urge you to support the men and women 
on the frontlines by reversing another round of dramatic, 
detrimental cuts to both the overall defense S&T account, and 
more specifically, to the human-oriented research programs 
within the military laboratories.
    Thank you for your time this morning.
    Senator Stevens. Thank you very much. We appreciate that. 
We are quite worried about those numbers. We will do our best.
    Dr. Strickland. Thank you, sir.
    [The statement follows:]

              Prepared Statement of William J. Strickland

    Mr. Chairman and Members of the subcommittee, I'm Dr. Bill 
Strickland, former director of Human Resources Research for the Air 
Force and current vice president of the Human Resources Research 
Organization. I am submitting testimony on behalf of the American 
Psychological Association (APA), a scientific and professional 
organization of more than 150,000 psychologists and affiliates.
    Although I am sure you are aware of the large number of 
psychologists providing clinical services to our military members here 
and abroad, you may be less familiar with the extraordinary range of 
research conducted by psychological scientists within the Department of 
Defense (DOD). Our behavioral researchers work on issues critical to 
national defense, with support from the Army Research Institute (ARI) 
and Army Research Laboratory (ARL); the Office of Naval Research (ONR); 
the Air Force Research Laboratory (AFRL), and additional, smaller human 
systems research programs in the Office of the Secretary of Defense, 
the Defense Advanced Research Projects Agency (DARPA), the Marine 
Corps, and the Special Operations Command.
    I would first like to address the fiscal year 2007 human-centered 
research budgets for the military laboratories and programs within the 
context of the larger DOD Science and Technology (S&T) budget, and 
close by mentioning a tremendous new Defense Graduate Psychology 
Education program to better train military and civilian psychologists 
who provide clinical care to our military personnel and their families.

                   DOD SCIENCE AND TECHNOLOGY BUDGET

    The President's budget request for basic and applied research at 
DOD in fiscal year 2007 is $11.08 billion, a 16.3 percent decrease from 
the enacted fiscal year 2006 level of $13.24 billion. APA joins the 
Coalition for National Security Research (CNSR), a group of over 40 
scientific associations and universities, in urging the subcommittee to 
reverse this cut. APA requests a total of $13.40 billion for Defense 
S&T. This would maintain DOD spending on applied (6.2 and 6.3 level) 
research and support a 10 percent increase for basic (6.1) defense 
research in fiscal year 2007, as recommended in the National Academies 
report ``Rising Above the Gathering Storm''.
    As our Nation rises to meet the challenges of current engagements 
in Iraq and Afghanistan as well as other asymmetric threats and 
increased demand for homeland defense and infrastructure protection, 
enhanced battlespace awareness and warfighter protection are absolutely 
critical. Our ability to both foresee and immediately adapt to changing 
security environments will only become more vital over the next several 
decades. Accordingly, DOD must support basic Science and Technology 
(S&T) research on both the near-term readiness and modernization needs 
of the department and on the long-term future needs of the warfighter.
    In fiscal year 2006, the administration requested $10.52 billion 
for defense S&T, a huge cut from fiscal year 2005. Congressional 
appropriators in turn provided a significant increase, for a total of 
$13.24 billion. For fiscal year 2007, the President's budget request of 
$11.08 billion for DOD S&T again falls short, and we ask for the 
Appropriations Subcommittee's help in restoring critical defense 
research funding.
    Despite substantial appreciation for the importance of DOD S&T 
programs on Capitol Hill, and within independent defense science 
organizations such as the Defense Science Board (DSB), total research 
within DOD has remained essentially flat in constant dollars over the 
last few decades. This poses a very real threat to America's ability to 
maintain its competitive edge at a time when we can least afford it. 
APA, CNSR and our colleagues within the science and defense communities 
recommend increasing the 6.1 basic research account within DOD S&T by 
10 percent and at a minimum, maintaining the current funding levels for 
the 6.2 and 6.3 applied research programs in order to maintain global 
superiority in an ever-changing national security environment.

      BEHAVIORAL RESEARCH WITHIN THE MILITARY SERVICE LABS AND DOD

    The Department of Defense met a previous Senate Appropriations 
Committee mandate by producing its report on ``Behavioral, Cognitive 
and Social Science Research in the Military''. The Senate requested 
this evaluation due to concern over the continuing erosion of DOD's 
support for research on individual and group performance, leadership, 
communication, human-machine interfaces, and decision-making. In 
responding to the committee's request, the Department found that ``the 
requirements for maintaining strong DOD support for behavioral, 
cognitive and social science research capability are compelling'' and 
that ``this area of military research has historically been extremely 
productive'' with ``particularly high'' return on investment and ``high 
operational impact.''
    Within DOD, the majority of behavioral, cognitive and social 
science is funded through the Army Research Institute (ARI) and Army 
Research Laboratory (ARL); the Office of Naval Research (ONR); and the 
Air Force Research Laboratory (AFRL). These military service 
laboratories provide a stable, mission-oriented focus for science, 
conducting and sponsoring basic (6.1), applied/exploratory development 
(6.2) and advanced development (6.3) research. These three levels of 
research are roughly parallel to the military's need to win a current 
war (through products in advanced development) while concurrently 
preparing for the next war (with technology ``in the works'') and the 
war after next (by taking advantage of ideas emerging from basic 
research). All of the services fund human-related research in the broad 
categories of personnel, training and leader development; warfighter 
protection, sustainment and physical performance; and system interfaces 
and cognitive processing.
    Behavioral and cognitive research programs eliminated from the 
mission labs due to cuts or flat funding are extremely unlikely to be 
picked up by industry, which focuses on short-term, profit-driven 
product development. Once the expertise is gone, there is absolutely no 
way to ``catch up'' when defense mission needs for critical human-
oriented research develop. As DOD noted in its own report to the Senate 
Appropriations Committee:

    ``Military knowledge needs are not sufficiently like the needs of 
the private sector that retooling behavioral, cognitive and social 
science research carried out for other purposes can be expected to 
substitute for service-supported research, development, testing, and 
evaluation . . . our choice, therefore, is between paying for it 
ourselves and not having it.''

    The following are brief descriptions of important behavioral 
research funded by the military research laboratories:

 ARMY RESEARCH INSTITUTE FOR THE BEHAVIORAL AND SOCIAL SCIENCES (ARI) 
                   AND ARMY RESEARCH LABORATORY (ARL)

    ARI works to build the ultimate smart weapon: the American soldier. 
ARI was established to conduct personnel and behavioral research on 
such topics as minority and general recruitment; personnel testing and 
evaluation; training and retraining; and attrition. ARI is the focal 
point and principal source of expertise for all the military services 
in leadership research, an area especially critical to the success of 
the military as future war-fighting and peace-keeping missions demand 
more rapid adaptation to changing conditions, more skill diversity in 
units, increased information-processing from multiple sources, and 
increased interaction with semi-autonomous systems. Behavioral 
scientists within ARI are working to help the Armed Forces better 
identify, nurture and train leaders.
    Another line of research at ARI focuses on optimizing cognitive 
readiness under combat conditions, by developing methods to predict and 
mitigate the effects of stressors (such as information load and 
uncertainty, workload, social isolation, fatigue, and danger) on 
performance. As the Army moves towards its goal of becoming the 
Objective Force (or the Army of the future: lighter, faster and more 
mobile), psychological researchers will play a vital role in helping 
maximize soldier performance through an understanding of cognitive, 
perceptual and social factors.
    ARL's Human Research & Engineering Directorate sponsors basic and 
applied research in the area of human factors, with the goal of 
optimizing soldiers' interactions with Army systems. Specific 
behavioral research projects focus on the development of intelligent 
decision aids, control/display/workstation design, simulation and human 
modeling, and human control of automated systems.

                     OFFICE OF NAVAL RESEARCH (ONR)

    The Cognitive and Neural Sciences Division (CNS) of ONR supports 
research to increase the understanding of complex cognitive skills in 
humans; aid in the development and improvement of machine vision; 
improve human factors engineering in new technologies; and advance the 
design of robotics systems. An example of CNS-supported research is the 
division's long-term investment in artificial intelligence research. 
This research has led to many useful products, including software that 
enables the use of ``embedded training.'' Many of the Navy's 
operational tasks, such as recognizing and responding to threats, 
require complex interactions with sophisticated, computer-based 
systems. Embedded training allows shipboard personnel to develop and 
refine critical skills by practicing simulated exercises on their own 
workstations. Once developed, embedded training software can be loaded 
onto specified computer systems and delivered wherever and however it 
is needed.

                  AIR FORCE RESEARCH LABORATORY (AFRL)

    Within AFRL, Air Force Office of Scientific Research (AFOSR) 
behavioral scientists are responsible for basic research on manpower, 
personnel, training and crew technology. The AFRL Human Effectiveness 
Directorate is responsible for more applied research relevant to an 
enormous number of acknowledged Air Force mission needs ranging from 
weapons design, to improvements in simulator technology, to improving 
crew survivability in combat, to faster, more powerful and less 
expensive training regimens.
    As a result of previous cuts to the Air Force behavioral research 
budget, the world's premier organization devoted to personnel selection 
and classification (formerly housed at Brooks Air Force Base) no longer 
exists. This has a direct, negative impact on the Air Force's and other 
services' ability to efficiently identify and assign personnel 
(especially pilots). Similarly, reductions in support for applied 
research in human factors have resulted in an inability to fully 
enhance human factors modeling capabilities, which are essential for 
determining human-system requirements early in system concept 
development, when the most impact can be made in terms of manpower and 
cost savings. For example, although engineers know how to build cockpit 
display systems and night goggles so that they are structurally sound, 
psychologists know how to design them so that people can use them 
safely and effectively.

         DEFENSE GRADUATE PSYCHOLOGY EDUCATION PROGRAM (D-GPE)

    Military psychologists also serve in roles other than researchers 
within the DOD system--many provide direct clinical care (mental and 
behavioral health services) to military personnel and their families 
and are responsible for training the next generation of military 
psychologists. The Defense Graduate Psychology Education (D-GPE) 
Program was launched in fiscal year 2006 to better train both military 
and civilian psychologists in providing this care, and APA requests $6 
million for D-GPE in fiscal year 2007. The foci will be on mental 
health for the severely medically injured (including those with 
traumatic brain injury and amputations), trauma and resilience for 
those suffering from depression and post traumatic stress disorder, and 
post-deployment reintegration and adjustment.
    The D-GPE program includes a tri-service Center for Deployment 
Psychology (CDP) at the Uniformed Services University of the Health 
Sciences (USUHS) with a board of directors from the Army, Air Force, 
and Navy Psychology Departments. A website will be developed for 
servicemembers, veterans and their families seeking assistance for 
mental health related issues, including contact information for 
psychologists in their geographic areas. Furthermore, curriculum will 
be developed designed to meet the specific needs of returning military 
personnel and their families, on topics including trauma and 
resilience. In the second year, Postdoctoral Fellows will be added to 
the clinical teaching faculty at USUHS and a research component would 
be initiated.

                                SUMMARY

    On behalf of APA, I would like to express my appreciation for this 
opportunity to present testimony before the subcommittee. Clearly, 
psychological scientists address a broad range of important issues and 
problems vital to our national security, with expertise in 
understanding and optimizing cognitive functioning, perceptual 
awareness, complex decision-making, stress resilience, recruitment and 
retention, and human-systems interactions. We urge you to support the 
men and women on the front lines by reversing another round of 
dramatic, detrimental cuts to the overall defense S&T account and the 
human-oriented research projects within the military laboratories. We 
also urge you to support military personnel and their families even 
more directly by providing funds for the new D-GPE program.
    Below is suggested appropriations report language for fiscal year 
2007 which would encourage the Department of Defense to fully fund its 
behavioral research programs within the military laboratories:

                         DEPARTMENT OF DEFENSE

    Research, Development, Test, and Evaluation:
    Behavioral Research in the Military Service Laboratories.-- The 
Committee notes the increased demands on our military personnel, 
including high operational tempo, leadership and training challenges, 
new and ever-changing stresses on decision-making and cognitive 
readiness, and complex human-technology interactions. To help address 
these issues vital to our national security, the committee has provided 
increased funding to reverse cuts to basic and applied psychological 
research through the military research laboratories: the Air Force 
Office of Scientific Research and Air Force Research Laboratory; the 
Army Research Institute and Army Research Laboratory; and the Office of 
Naval Research.

    Senator Stevens. Our next witness is Chris Hahn, executive 
director of Mesothelioma--I cannot pronounce that--pardon me, 
what's this? Lieutenant Colonel Paul Austin. Pardon me.
    Colonel Austin. Good morning, Chairman Stevens.
    Senator Stevens. Good morning.
    Colonel Austin. Hello, ranking member Inouye.

STATEMENT OF LIEUTENANT COLONEL PAUL N. AUSTIN, 
            CERTIFIED REGISTERED NURSE ANESTHETIST, 
            Ph.D., ON BEHALF OF THE AMERICAN 
            ASSOCIATION OF NURSE ANESTHETISTS (AANA)
    Colonel Austin. It is an honor and pleasure to provide 
testimony on behalf of the American Association of Nurse 
Anesthetists. My name is Dr. Paul Austin. I'm a certified 
registered nurse anesthetist (CRNA), and I retired last year 
from the U.S. Air Force after 24 years of proudly serving my 
country. For most of this time I served as a nurse anesthesia 
educator, serving as the director of the Air Force and 
Uniformed Services University nurse anesthesia programs, as 
well as the chief consultant to the Air Force Surgeon General 
for nurse anesthesia.
    The AANA is a professional organization representing 34,000 
CRNAs in the United States, including approximately 483 active 
duty and 790 reserve military CRNAs. CRNAs participate in about 
65 percent of the anesthetics given to patients each year in 
the United States. Nurse anesthetists are also the sole 
anesthesia providers in more than two-thirds of rural hospitals 
assuring access to surgical, obstetrical, and other health care 
services. Over 364 nurse anesthetists have been deployed to the 
Middle East in support of Operation Iraqi Freedom and Operation 
Enduring Freedom.
    Military CRNAs are often the sole anesthesia providers at 
certain facilities both at home and forward deployed. For 
example, Army CRNA Lieutenant Colonel Bruce Schoneboom, 
Director of the Uniformed Services Nurse Anesthesia Program, is 
currently deployed as a nurse anesthetist and a detachment 
commander for the Fourteenth Combat Surgical Hospital at 
Salerno forward operating base in Afghanistan.
    In addition, military CRNAs are called upon to assist with 
humanitarian efforts, both at the home front and abroad, and 
this subcommittee must ensure that we retain and recruit CRNAs 
now and in the future to serve in these military overseas 
deployments and humanitarian efforts, and to ensure the maximum 
readiness of America's armed services.
    Today, maintaining adequate numbers of active duty CRNAs is 
of the most importance to the Department of Defense to meet its 
military medical readiness mission. For several years, the 
number of CRNAs serving in active duty has fallen short of the 
number authorized by DOD. This is complicated by the strong 
demand for CRNAs, both in the public and private sectors. This 
considerable gap between civilian and military pay was 
addressed in the fiscal year 2003 Defense Authorization Act, 
with an incentive special pay, or ISP increase from $15,000 to 
$50,000.
    Earlier this month, the three services' Nurse Corps leaders 
testified before this subcommittee that there is an active 
effort to work with the Surgeons General to evaluate and adjust 
ISP rates and policies needed to support the recruitment and 
retention of CRNAs. The AANA thanks this subcommittee for its 
support of the annual ISP for nurse anesthetists. The AANA 
strongly recommends the continuation and an increase in annual 
funding of the ISP for fiscal year 2007. The ISP continues to 
recognize the special skills and advanced education that CRNAs 
bring to the Department of Defense health care system.
    Last, the establishment of the joint United States Army 
Veterans Administration Nurse Anesthesia Program at Fort Sam 
Houston in San Antonio continues to hope promise to make 
significant improvement to the military and VA CRNA workforce, 
as well as improving retention of VA-registered nurses in a 
cost-effective manner. These DOD partnerships are a cost-
effective model to fill the needs of the military and VA health 
care system.
    In conclusion, the AANA believes that recruitment and 
retention of CRNAs in the armed services is critical to 
America's readiness. By Congress supporting the efforts to 
recruit and retain CRNAs, the military can meet the unique 
mission of its health care system. The AANA would like to thank 
the Surgeons General and Nurse Corps leadership for their 
support of the profession within the military workforce, and we 
commend and thank this subcommittee for their continued support 
of CRNAs in the military.
    [The statement follows:]

                  Prepared Statement of Paul N. Austin

    Chairman Stevens, ranking member Inouye, and Members of the 
subcommittee:
    The American Association of Nurse Anesthetists (AANA) is the 
professional association representing over 34,000 certified registered 
nurse anesthetists (CRNAs) in the United States, including 483 Active 
Duty and 790 Reservists in the military reported in May 2005. The AANA 
appreciates the opportunity to provide testimony regarding CRNAs in the 
military. We would also like to thank this committee for the help it 
has given us in assisting the Department of Defense (DOD) and each of 
the services to recruit and retain CRNAs.

              BACKGROUND INFORMATION ON NURSE ANESTHETISTS

    In the administration of anesthesia, CRNAs perform the same 
functions as anesthesiologists and work in every setting in which 
anesthesia is delivered including hospital surgical suites and 
obstetrical delivery rooms, ambulatory surgical centers, health 
maintenance organizations, and the offices of dentists, podiatrists, 
ophthalmologists, and plastic surgeons. Today, CRNAs participate in 
approximately 65 percent of the anesthetics given to patients each year 
in the United States. Nurse anesthetists are also the sole anesthesia 
providers in more than two-thirds of rural hospitals, assuring access 
to surgical, obstetrical and other healthcare services for millions of 
rural Americans.
    CRNAs have a personal and professional commitment to patient 
safety, made evident through research into our practice. In our 
professional association, we state emphatically ``our members' only 
business is patient safety.'' Safety is assured through education, high 
standards of professional practice, and commitment to continuing 
education. Having first practiced as registered nurses, CRNAs are 
educated to the master's degree level and meet the most stringent 
continuing education and recertification standards in the field. Thanks 
to this tradition of advanced education, the clinical practice 
excellence of anesthesia professionals, and the advancement in 
technology, we are humbled and honored to note that anesthesia is 50 
times safer now than 20 years ago (National Academy of Sciences, 2000). 
Research further demonstrates that the care delivered by CRNAs, 
anesthesiologists, or by both working together yields similar patient 
safety outcomes. In addition to studies performed by the National 
Academy of Sciences in 1977, Forrest in 1980, Bechtholdt in 1981, the 
Minnesota Department of Health in 1994, and others, Dr. Michael Pine MD 
MBA recently concluded once again that among CRNAs and physician 
anesthesiologists, ``the type of anesthesia provider does not affect 
inpatient surgical mortality'' (Pine, 2003). Thus, the practice of 
anesthesia is a recognized specialty in nursing and medicine. Both 
CRNAs and anesthesiologists administer anesthesia for all types of 
surgical procedures from the simplest to the most complex, either as 
single providers or together.

                   NURSE ANESTHETISTS IN THE MILITARY

    Since the mid-19th Century, our profession of nurse anesthesia has 
been proud to provide anesthesia care for our past and present military 
personnel and their families. From the Civil War to the present day, 
nurse anesthetists have been the principal anesthesia providers in 
combat areas of every war in which the United States has been engaged.
    Military nurse anesthetists have been honored and decorated by the 
U.S. and foreign governments for outstanding achievements, resulting 
from their dedication and commitment to duty and competence in managing 
seriously wounded casualties. In World War II, there were 17 nurse 
anesthetists to every one anesthesiologist. In Vietnam, the ratio of 
CRNAs to physician anesthesiologists was approximately 3:1. Two nurse 
anesthetists were killed in Vietnam and their names have been engraved 
on the Vietnam Memorial Wall. During the Panama strike, only CRNAs were 
sent with the fighting forces. Nurse anesthetists served with honor 
during Desert Shield and Desert Storm. Military CRNAs have provided 
critical anesthesia support to humanitarian missions around the globe 
in such places as Bosnia and Somalia. In May 2003, approximately 364 
nurse anesthetists had been deployed to the Middle East for the 
military mission for ``Operation Iraqi Freedom'' and ``Operation 
Enduring Freedom.''
    Data gathered from the U.S. Armed Forces anesthesia communities' 
reveal that CRNAs have often been the sole anesthesia providers at 
certain facilities, both at home and while forward deployed. For 
decades CRNAs have staffed ships, isolated U.S. bases, and forward 
surgical teams without physician anesthesia support. The U.S. Army 
Joint Special Operations Command Medical Team and all Army Forward 
Surgical Teams are staffed solely by CRNAs. U.S. Air Force Medical 
Special Operation Teams are staffed solely by CRNAs. Anesthesiologists 
rarely substitute into these billets. Military CRNAs have a long proud 
history of providing independent support and quality anesthesia care to 
military men and women, their families and to people from many nations 
who have found themselves in harm's way.
    In the current mission ``Operation Iraqi Freedom'' CRNAs will 
continue to be deployed both on ships and on the ground, as well as in 
U.S. special operations forces. In addition, military CRNAs are called 
upon to assist with humanitarian efforts on the home front and abroad. 
This committee must ensure that we retain and recruit CRNAs now and in 
the future to serve in these military overseas deployments and 
humanitarian efforts, and to ensure the maximum readiness of America's 
armed services.

CRNA RETENTION AND RECRUITING: HOW THIS COMMITTEE CAN HELP THE DEFENSE 
                               DEPARTMENT

    In all of the Services, maintaining adequate numbers of active duty 
CRNAs is of utmost concern. For several years, the number of CRNAs 
serving in active duty has fallen somewhat short of the number 
authorized by the Department of Defense (DOD). This is further 
complicated by strong demand for CRNAs in both the public and private 
sectors.
    However, it is essential to understand that while there is strong 
demand for CRNA services in the public and private healthcare sectors, 
the profession of nurse anesthesia is working effectively to meet this 
workforce challenge. Our evidence suggests that while vacancies exist, 
there is not a crisis in the number of anesthesia providers. As of 
January 2006, there are 99 accredited CRNA schools to support the 
profession of nurse anesthesia. The number of qualified registered 
nurses applying to CRNA schools continues to climb. The growth in the 
number of schools, the number of applicants, and in production 
capacity, has yielded significant growth in the number of nurse 
anesthetists graduating and being certified into the profession. The 
Council on Certification of Nurse Anesthetists reports that in 2005, 
our schools produced 1,790 graduates, an 89 percent increase since 
1999, and 1,595 nurse anesthetists were certified. The growth is 
expected to continue. The Council on Accreditation of Nurse Anesthesia 
Educational Programs (COA) projects CRNA schools to produce over 1,900 
graduates in 2006.
    This committee can greatly assist in the effort to attract and 
maintain essential numbers of nurse anesthetists in the military by 
their support to increase special pays.

           INCENTIVE SPECIAL PAY (ISP) FOR NURSE ANESTHETISTS

    According to a March 1994 study requested by the Health Policy 
Directorate of Health Affairs and conducted by the Department of 
Defense, a large pay gap existed between annual civilian and military 
pay in 1992. This study concluded, ``this earnings gap is a major 
reason why the military has difficulty retaining CRNAs.'' In order to 
address this pay gap, in the fiscal year 1995 Defense Authorization 
bill Congress authorized the implementation of an increase in the 
annual Incentive Special Pay (ISP) for nurse anesthetists from $6,000 
to $15,000 for those CRNAs no longer under service obligation to pay 
back their anesthesia education. Those CRNAs who remain obligated 
receive the $6,000 ISP. New nurse anesthesia graduates should be 
eligible to receive the full ISP and not a reduced portion when they 
are completing their obligated service.
    Both the House and Senate passed the Fiscal Year 2003 Defense 
Authorization Act Conference report, H. Rept. 107-772, which included 
an ISP increase to $50,000. The report included an increase in ISP for 
nurse anesthetists from $15,000 to $50,000. There had been no change in 
funding level for the ISP since the increase was instituted in fiscal 
year 1995, while it is certain that civilian pay has continued to rise 
during this time. Per the testimony provided earlier this month from 
the three services Nurse Corps leaders, the AANA is aware that there is 
an active effort to work with the Surgeons General to closely evaluate 
and adjust ISP rates and policies needed to support the recruitment and 
retention of CRNAs. Major General Gale Pollock, MBA, MHA, MS, CRNA, 
FACHE, Deputy Surgeon General, Army Nurse Corps of the U.S. Army stated 
earlier this month in testimony before this subcommittee,

    ``I am particularly concerned about the retention of our certified 
registered nurse anesthetists (CRNAs). Our inventory of CRNAs is 
currently at 73 percent. The restructuring of the incentive special pay 
program for CRNAs last year, as well as the 180 (day)-deployment 
rotation policy were good first steps in stemming the loss of these 
highly trained providers. We are working closely with the Surgeon 
General's staff to closely evaluate and adjust rates and policies where 
needed.''

    Military CRNAs face frequent and lengthy deployments. The fewer 
military CRNAs, the more frequent the deployments, the more frequent 
the deployments, the greater the attrition. Congress needs to continue 
to support Military education of CRNA programs such as USUHS and FT Sam 
that produce our ``replacement'' military CRNAs.
    In addition, there still continues to be high demand for CRNAs in 
the healthcare community leading to higher incomes, widening the gap in 
pay for CRNAs in the civilian sector compared to the military. The 
fiscal year 2005 AANA Membership Survey measured income in the civilian 
sector by practice setting. The median income in a hospital setting is 
$135,000, anesthesiologist group $120,000, and self-employed CRNA 
$160,000. These median incomes include salary, call pay, overtime, 
bonus/incentives and other income. The median incomes in the Army, Navy 
and Air Force are $80,000, $87,750, and $88,824 respectively. These 
figures also include salary, call pay, overtime, bonus/incentives and 
other income, if applicable.
    In civilian practice, all additional skills, experience, duties and 
responsibilities, and hours of work are compensated for monetarily. 
Additionally, training (tuition and continuing education), healthcare, 
retirement, recruitment and retention bonuses, and other benefits often 
equal or exceed those offered in the military. Civilian practice offers 
a more stable lifestyle without threat of frequent moves or deployment 
into harms way. Salaries in the civilian sector will continue to create 
incentives for CRNAs to separate from the military, especially at the 
lower grades without a competitive incentive from the military to 
retain CRNAs. Therefore, it is vitally important that the Incentive 
Special Pay (ISP) be increased to ensure the retention of CRNAs in the 
military.
    The AANA thanks this committee for its support of the annual ISP 
for nurse anesthetists. The AANA strongly recommends the continuation 
and an increase in the annual funding for ISP for fiscal year 2007. The 
ISP recognizes the special skills and advanced education that CRNAs 
bring to the Department of Defense healthcare system.

             BOARD CERTIFICATION PAY FOR NURSE ANESTHETISTS

    Included in the fiscal year 1996 Defense Authorization bill was 
language authorizing the implementation of a board certification pay 
for certain healthcare professionals, including advanced practice 
nurses. AANA is highly supportive of board certification pay for all 
advanced practice nurses. The establishment of this type of pay for 
nurses recognizes that there are levels of excellence in the profession 
of nursing that should be recognized, just as in the medical 
profession. In addition, this type of pay may assist in closing the 
earnings gap, which may help with retention of CRNAs.
    The AANA encourages the Department of Defense and the respective 
Services to continue to support board certification pay. We greatly 
appreciate the support since it contributes to minimizing the Military/
Civilian pay gap.

    DOD/VA RESOURCE SHARING: U.S. ARMY-VA NURSE ANESTHESIA SCHOOL: 
   UNIVERSITY OF TEXAS HOUSTON HEALTH SCIENCE CENTER, HOUSTON, TEXAS

    The establishment of the joint U.S. Army-VA program in nurse 
anesthesia education at Fort Sam Houston in San Antonio, Texas holds 
the promise of making significant improvements in the VA CRNA 
workforce, as well as improving retention of VA registered nurses in a 
cost effective manner. The current program utilizes existing resources 
from both the Department of Veterans Affairs Employee Incentive 
Scholarship Program (EISP) and VA hospitals to fund tuition, books, and 
salary reimbursement for student registered nurse anesthetists (SRNAs).
    This VA nurse anesthesia program started in June 2004 with three 
openings for VA registered nurses to apply to and earn a Master of 
Science in Nursing (MSN) in anesthesia granted through the University 
of Texas Houston Health Science Center. Due to continued success and 
interest by VA registered nurses for the school, the program increased 
to five openings for the June 2005 class. This program continues to 
attract registered nurses into VA service, by sending RNs the strong 
message that the VA is committed to their professional and educational 
advancement. The faculty director would like to expand the program with 
an additional three VA registered nurses for the June 2006 class. In 
order to achieve this goal, it is necessary for full funding of the 
current and future EISP to cover tuition, books, and salary 
reimbursement.
    The 30-month program is broken down into two phases. Phase I, 12 
months, is the didactic portion of the anesthesia training at the U.S. 
AMEDD Center and School (U.S. Army School for Nurse Anesthesia). Phase 
II, 18 months, is clinical practice education, in which VA facilities 
and their affiliates would serve as clinical practice sites. In 
addition to the education taking place in Texas, the agency will use VA 
hospitals in Augusta, Georgia, increasing Phase II sites as necessary. 
Similar to military CRNAs who repay their educational investment 
through a service obligation to the U.S. Armed Forces, graduating VA 
CRNAs would serve a 3-year obligation to the VA health system. Through 
this kind of Department of Defense--DVA resource sharing, the VA will 
have an additional source of qualified CRNAs to meet anesthesia care 
staffing requirements.
    At a time of increased deployments in medical military personnel, 
VA-DOD partnerships are a cost-effective model to fill these gaps in 
the military healthcare system. At Fort Sam Houston nurse anesthesia 
school, the VA faculty director has covered her Army colleagues' 
didactic classes when they are deployed at a moments notice. This 
benefits both the VA and the DOD to ensure the nurse anesthesia 
students are trained and certified in a timely manner to meet their 
workforce obligation to the Federal government as anesthesia providers.
    We are pleased to note that the Department of Veterans' Affairs 
Acting Deputy Under Secretary for Health and the U.S. Army Surgeon 
General approved funding to start this VA nurse anesthesia school in 
2004. With modest levels of additional funding in the EISP, this joint 
U.S. Army-VA nurse anesthesia education initiative can grow and thrive, 
and serve, as a model for meeting other VA workforce needs, 
particularly in nursing.
    Department of Defense and VA resource sharing programs effectively 
maximize government resources while improving access to healthcare for 
Veterans.

                               CONCLUSION

    In conclusion, the AANA believes that the recruitment and retention 
of CRNAs in the armed services is of critical concern. By Congress 
supporting these efforts to recruit and retain CRNAS, the military is 
able to meet the mission to provide benefit care and deployment care--a 
mission that is unique to the military. The AANA would also like to 
thank the Surgeons General and Nurse Corp leadership for their support 
in meeting the needs of the profession within the military workforce. 
Last, we commend and thank this committee for their continued support 
for CRNAs in the military.

    Senator Stevens. Thank you. We note you have suggested that 
the incentive pay be increased to $50,000. How did you arrive 
at that figure?
    Colonel Austin. Actually, the authorization already went 
through for it to be increased to $50,000, and that is 
currently being implemented, depending on the number of years 
that the member signs his contract.
    Senator Stevens. It is already authorized at that level?
    Colonel Austin. It is.
    Senator Stevens. I didn't understand. Senator Inouye.
    Senator Inouye. What is the shortage among nurses?
    Colonel Austin. I'm sorry, sir?
    Senator Inouye. What is the shortage in the nurse 
anesthetist field?
    Colonel Austin. Currently, nationwide the vacancy rate is 
approximately 10 to 12 percent.
    Senator Inouye. Thank you.
    Senator Stevens. Well, thank you very much.
    Colonel Austin. Thank you, sir.
    Senator Stevens. Appreciate your testimony. Now, we will 
turn to Chris Hahn with the Applied Research Foundation.

STATEMENT OF CHRIS HAHN, EXECUTIVE DIRECTOR, 
            MESOTHELIOMA APPLIED RESEARCH FOUNDATION 
            (MARF)
    Mr. Hahn. Chairman Stevens, ranking member Inouye, and the 
distinguished members of the U.S. Senate Defense Appropriations 
Subcommittee, thank you for this opportunity a few days before 
Memorial Day to address a fatal disease afflicting our 
veterans.
    My name is Chris Hahn. I am the Executive Director of the 
Mesothelioma Applied Research Foundation, the national 
nonprofit advancing research to develop treatments for 
mesothelioma.
    Mesothelioma, or Meso, is an aggressive cancer caused by 
asbestos exposure. It is among the most painful of cancers, as 
the tumor invades the chest wall, destroys vital organs, and 
crushes the lungs. It is also among the worst prognoses. Meso 
patients survive 4 to 14 months average. There is no cure.
    From the 1930s through the 1970s, asbestos was used 
literally everywhere on Navy ships, from engine rooms to living 
spaces. Millions of servicemen and shipyard workers were 
exposed. Today, many of them are developing mesothelioma 
following the disease's 10 to 50 year latency period.
    These are heroes who served our country's defense. Former 
Chief of Naval Operations Elmo Zumwalt developed mesothelioma 
in 2000, and died just 3 months later. His son, Colonel James 
Zumwalt, is here with us today. Louis Dietz volunteered for the 
Navy at age 18. He was decorated for his courage in combat in 
Vietnam. On the U.S.S. Kitty Hawk, he tended the boilers. At 
age 55, he developed mesothelioma, and died 3 months later.
    Admiral Zumwalt's and sailor Dietz's stories are all too 
common. Of the 3,000 Americans each year who die of 
mesothelioma, one-third were exposed on U.S. ships and 
shipyards. That is 1,000 U.S. servicemen and shipyard workers 
each year lost through service to our country, just as if they 
had been on a battlefield. Many more heroes are being exposed 
now, and will develop the disease in the next 10 to 50 years. 
9/11 first responders were exposed to hundreds of tons of 
pulverized asbestos, and even though asbestos usage is not as 
heavy today as in the past, even low dose incidental exposures 
can cause Meso.
    Minnesota Congressman Bruce Vento happened to work near an 
asbestos-insulated boiler at his summer job while putting 
himself through college. In 2000, he developed mesothelioma and 
died.
    Despite this deadly toll on our heroes and patriots, 
mesothelioma research has been an orphan. The National Cancer 
Institute has provided virtually no funding. Of the $3.75 
billion spent so far through the DOD congressionally directed 
medical research program, none has been invested in Meso 
research, despite the military service connection. As a result, 
treatments for mesothelioma lag far behind other cancers. In 
fact, for decades, there was no treatment better than doing 
absolutely nothing at all.
    The hopelessness is starting to lift. Brilliant researchers 
and physicians are dedicated to mesothelioma. Just 2 years ago, 
the first drug ever for mesothelioma was approved when Doctor 
Nicholas Vogelsang, the head of the Nevada Cancer Institute and 
a member of our board of directors, proved that it was 
effective against the cancer. Dr. Harvey Pass, the Chief of 
Thoracic Surgery at NYU, is developing promising biomarkers for 
the disease. Gene therapy, anti-angiogenesis, and other 
promising approaches are being developed.
    There is hope, but we need the Federal Government to make a 
concerted investment. So we ask the DOD to include mesothelioma 
in the peer-reviewed medical research program. This will enable 
Meso investigators to compete for Federal funds, and will 
provide urgently needed resources to develop new treatments.
    Thank you very much, and we look to the subcommittee for 
your leadership to provide hope to our veterans who develop 
this cancer.
    Senator Stevens. Thank you very much, Mr. Hahn.
    [The statement follows:]

                    Prepared Statement of Chris Hahn

    Chairman Stevens, Ranking Member Inouye, and the distinguished 
members of the U.S. Senate Defense Appropriations Subcommittee:
    Thank you for this opportunity, a few days before Memorial Day, to 
address a fatal disease afflicting our military veterans, and those who 
helped build and protect our Nation. My name is Chris Hahn, I am the 
Executive Director of the Mesothelioma Applied Research Foundation, the 
national nonprofit collaboration of researchers, physicians, advocates, 
patients and families dedicated to advancing medical research to 
improve treatments for mesothelioma.

                         MALIGNANT MESOTHELIOMA

    Mesothelioma or meso is an aggressive cancer of the lining of the 
lungs, abdomen or heart, caused by asbestos exposure. The mesothelioma 
tumor is among the most painful of cancers, as it invades the sensitive 
chest wall, destroys vital organs, and crushes the lungs. It is also 
among the worst prognosis of cancers. Meso patients survive an average 
of 4 to 14 months; today there is no cure.

            THE ``MAGIC MINERAL''--EXPOSURES WERE WIDESPREAD

    As you may know, asbestos has so many beneficial properties that, 
until its fatal toxicity became fully recognized, it was regarded as 
the magic mineral. It has excellent fireproofing, insulating, filling 
and bonding properties. By the late 1930's and through at least the 
late 70's the Navy was using it extensively. It was used in engines, 
nuclear reactors, decking materials, pipe covering, hull insulation, 
valves, pumps, gaskets, boilers, distillers, evaporators, soot blowers, 
air conditioners, rope packing, and brakes and clutches on winches. In 
fact it was used all over Navy ships, even in living spaces where pipes 
were overhead and in kitchens where asbestos was used in ovens and in 
the wiring of appliances. Aside from Navy ships, asbestos was also used 
on military planes extensively, on military vehicles, and as insulating 
material on quonset huts and living quarters.
    As a result, military defense personnel, especially servicemen and 
shipyard workers, were heavily exposed. A study at the Groton, 
Connecticut shipyard found that over 100,000 workers had been exposed 
to asbestos over the years at just this one shipyard. Because of the 10 
to 50 year latency of the disease, many of the millions of exposed 
servicemen and shipyard workers are just now developing meso.

                     MESOTHELIOMA TAKES OUR HEROES

    These are the people who served our country's defense and built its 
fleet. They are heroes like former Chief of Naval Operations Admiral 
Elmo Zumwalt, Jr., who led the Navy during Vietnam and was renowned for 
his concern for enlisted men. Despite his rank, prestige, power, and 
leadership in protecting the health of Navy servicemen and veterans, 
Admiral Zumwalt died at Duke University in 2000, just 3 months after 
being diagnosed with mesothelioma.
    Lewis Deets was another of these heroes. Four days after turning 
the legal age of 18, Lewis joined the Navy. He was not drafted. He 
volunteered, willingly putting his life on the line to serve his 
country in Vietnam. He served in the war for over 4 years, from 1962 to 
1967, as a ship boilerman. For his valiance in combat operations 
against the guerilla forces in Vietnam he received a Letter of 
Commendation and The Navy Unit Commendation Ribbon for Exceptional 
Service. In December 1965, while Lewis was serving aboard the U.S.S. 
Kitty Hawk in the Gulf of Tonkin, a fierce fire broke out. The boilers, 
filled with asbestos, were burning. Two sailors were killed and 29 were 
injured. Lewis was one of the 29 injured; he suffered smoke inhalation 
while fighting the fire. After the fire, he helped rebuild the boilers, 
replacing the burned asbestos blocks. In 1999 he developed 
mesothelioma, and died 4 months later at age 55.
    Admiral Zumwalt's and Boilerman Deets' stories are not atypical. Of 
the approximately 3,000 U.S. citizens who die each year of meso, it is 
estimated that one-third were exposed on U.S. Navy ships or shipyards. 
That's 1,000 U.S. veterans and shipyard workers per year, lost through 
service to country, just as if they had been on a battlefield.
    In addition to these heroes, exposed 10 to 50 years ago and 
developing the disease today, many more are being exposed now and will 
develop the disease in 10 to 50 years. There is grave concern now for 
the heroic first responders from 9/11 who were exposed to hundreds of 
tons of pulverized asbestos at Ground Zero and throughout the city. 
Asbestos exposures have been reported among the troops now in Iraq. The 
utility tunnels in this very building may have dangerous levels. While 
active asbestos usage is not as heavy today as in the past, even low-
dose, incidental exposures can cause meso. Congressman Bruce Vento, the 
distinguished Member from Minnesota, happened to work near an asbestos-
insulated boiler in a brewery in Minneapolis for two summers while 
putting himself through college. As a result, he died of meso in 2000. 
His wife Susan now champions efforts to raise awareness about this 
deadly disease and the need for a federal investment in research toward 
a cure.

                 MESOTHELIOMA FUNDING HAS NOT KEPT PACE

    Despite this deadly toll on our heroes and patriots, meso has been 
an orphan disease. With the huge federal investment in cancer research 
through the NCI, and $3.75 billion spent in biomedical research through 
the DOD Congressionally Directed Research Program since 1992, we are 
winning the war on cancer and many other diseases. But for meso, the 
National Cancer Institute has provided virtually no funding, in the 
range of only $1.7 to $3 million annually over the course of the last 5 
years, and the DOD does not yet invest in any meso research despite the 
military-service connection. As a result, advancements in the treatment 
of mesothelioma have lagged far behind other cancers. In fact, for 
decades, there was no approved treatment better than doing nothing at 
all.

                           NEW OPPORTUNITIES

    But there is good news. A small but passionate community of 
physicians and researchers is committed to finding a cure. The decades-
long hopelessness that treatment was futile is no longer true. Two 
years ago, the FDA approved a drug shown to be effective against the 
tumor. This was based on the largest phase III trial ever conducted in 
meso, led by Meso Foundation Board of Directors member Nicholas 
Vogelzang, head of the Nevada Cancer Institute. Two very promising 
biomarkers have just been identified. Two of the most exciting areas in 
cancer research generally--gene therapy and anti-angiogenesis--look 
particularly applicable in meso. With its seed-money grant funding, the 
Meso Foundation is supporting research in these and other areas. To 
date we have funded over $3 million to investigators working on novel, 
promising research projects. The scientific community believes that we 
can continue to advance the treatment of this disease and increase its 
survivability if the federal government makes a concerted investment.
    Therefore, we urge the DOD to partner in the progress being made, 
by including meso as an area of emphasis in the DOD's Peer Reviewed 
Medical Research Program. Inclusion in the list of congressionally 
identified priority research areas will enable mesothelioma researchers 
to compete for Federal funds based on the scientific merit of their 
work. This will provide urgently needed resources to explore new 
treatments and build a better understanding this disease. We look to 
the Senate Defense Appropriations Subcommittee to provide leadership 
and hope to the servicemen and women and veterans who develop this 
cancer after serving our Nation. Thank you for the opportunity to 
provide testimony before the subcommittee and we hope that we can work 
together to develop life-saving treatments for mesothelioma.

    Senator Stevens. Our next witness is--you do not have any 
questions, Senator? Senator Inouye, you have any questions?
    [No response.]
    Senator Stevens. Next is Captain Robert Hurd and Jessica 
Vance, a Naval Sea Cadet.

STATEMENTS OF:
        PETTY OFFICER FIRST CLASS JESSICA A. VANCE, 2006 NAVAL SEA 
            CADET OF THE YEAR, U.S. NAVAL SEA CADET CORPS
        CAPTAIN ROBERT C. HURD, U.S. NAVY (RETIRED)
    Captain Hurd. Good morning, Mr. Chairman, Senator Inouye. 
It is my pleasure to introduce Petty Officer Vance, who is 
selected as a Naval Sea Cadet Corps cadet of the year, out of 
10,000 cadets last year. This Friday, she graduates from high 
school and is off to the Naval Academy almost immediately 
following that. Petty Officer Vance?
    Petty Officer Vance. Good morning. I am Naval Sea Cadet 
Corps Petty Officer Jessica Vance, leading Petty Officer of the 
Spruance Division in Fort Lauderdale, Florida, as well as a 
senior at Pine Crest School.
    It is an honor to address you on behalf of the Naval Sea 
Cadet Corps. There are now just under 10,000 young men and 
women ages 11 to 17 and adult volunteers proudly wearing the 
Naval Sea Cadet uniform in 374 units throughout the country. We 
are a congressionally chartered youth development and education 
program sponsored by the Navy League of the United States and 
supported by the Navy and Coast Guard. The program's main goals 
are development of young men and women while promoting interest 
and skill in seamanship and aviation, and instilling a sense of 
patriotism, courage, commitment, self-reliance, and honor, 
along with other qualities that mold strong moral character and 
self-discipline in a drug and gang-free environment.
    After completing boot camp, sea cadets choose from a 
variety of 2-week summer training sessions, including training 
aboard Navy and Coast Guard ships. Last summer, I was 
privileged to train aboard a Russian ship as one of the first 
U.S. participants in an international exchange program with 
Russia. During the year, we drill every weekend, and may 
complete Navy correspondence courses for advancement: this 
being the basis for accelerated promotion if a cadet should 
choose to enlist in the Navy or Coast Guard after leaving the 
program.
    Four hundred seventy-three former sea cadets now attend the 
United States Naval Academy, and approximately 400 former 
cadets annually enlist in the armed services, pre-screened, 
highly motivated, and well-prepared. I will be joining them in 
a few weeks as a new midshipmen at the Naval Academy. Knowing 
nothing about the military, the sea cadet program has prepared 
me for a life of service. Prior sea cadet experience has proven 
to be an excellent indicator of a potentially high career 
success rate, both in and out of the military.
    Whether or not we choose a service career, we all carry 
forth the forged values of good citizenship, leadership, and 
moral courage that we believe will benefit us and our country. 
A major difference between this and other federally chartered 
youth programs is that we are responsible for our own expenses, 
including uniforms, travel, insurance and training costs, which 
can amount to over $500 a year.
    The Corps, however, is particularly sensitive that no young 
person is denied access to the program because of socioeconomic 
status. Some units are financed in part by local sponsors. Yet 
this support, while greatly appreciated, is not sufficient to 
support all cadets. Federal funds over the past 6 years have 
been used to help offset cadets' out-of-pocket training costs. 
However, for a variety of reasons, current funding can no 
longer adequately sustain the program. These include inflation, 
base closures, and reduced base access, reduced afloat training 
opportunities, a lack of previously provided transportation, 
on-base berthing and based transportation, increase needs-base 
support for the cadets.
    We respectfully request your consideration and support for 
funding that will allow for the full amount of $2 million 
requested for the next year. Unfortunately, time precludes 
sharing the many stories that Captain Hurd has shared with your 
staffs this year, pointing out the many acts of courage, 
community service, and successful youth development of my 
fellow sea cadets, as well as those ex-cadets who are serving 
in our Armed Forces in Iraq, Afghanistan, and around the world. 
These stories and many more like them are unfortunately the 
youth stories that you do not always read about in the press.
    Thank you for this opportunity to speak to you today. I and 
the entire Sea Cadet Corps appreciate your support for this 
fine program that has meant so much to me over the past 5\1/2\ 
years, and will continue to influence me for the rest of my 
life. Thank you.
    Senator Stevens. Thank you very much. That is a nice 
statement. And Captain, we appreciate your support and we will 
do our best.
    Do you have any questions, Senator?
    [No response.]
    Senator Stevens. Thank you very much. Good luck to you at 
the Academy.
    Petty Officer Vance. Thank you.
    [The statement follows:]

                  Prepared Statement of Robert C. Hurd

                                REQUEST

    It is respectfully requested that $300,000 be appropriated for the 
NSCC in fiscal year 2007, so that when added to the Navy budgeted 
$1,700,000 will restore full funding at the $2,000,000 level. Further, 
in order to ensure future funding at the full $2,000,000 requirement, 
consideration of including the following conference language is 
requested:

    ``Congress is pleased to learn that Navy has funded the U.S. Naval 
Sea Cadet Corps in the fiscal year 2007 budget as urged by the Senate 
and House in the 2006 Defense Budget Conference Report. Conferees 
include an additional $300,000 for the U.S. Naval Sea Cadet Corps, that 
when added to the $1,700,000 in the fiscal year 2007 budget request 
will fund the program at the full $2,000,000 requested. Conferees urge 
the Navy to continue to fund this program and increase the POM level to 
$2,000,000 for the U.S. Naval Sea Cadet Corps.''

                               BACKGROUND

    At the request of the Department of the Navy, the Navy League of 
the United States established the Naval Sea Cadet Corps in 1958 to 
``create a favorable image of the Navy on the part of American youth.'' 
On September 10, 1962, the U.S. Congress federally chartered the Naval 
Sea Cadet Corps under Public Law 87-655 as a non-profit civilian youth 
training organization for young people, ages 13 through 17. A national 
board of directors, whose chairman serves as the National Vice 
President of the Navy League for Youth Programs, establishes NSCC 
policy and management guidance for operation and administration. A 
full-time executive director and small staff in Arlington, Virginia 
administer NSCC's day-to-day operations. These professionals work with 
volunteer regional directors, unit commanding officers, and local 
sponsors. They also collaborate with Navy League councils and other 
civic, or patriotic organizations, and with local school systems.
    In close cooperation with, and the support of, the U.S. Navy and 
U.S. Coast Guard, the Sea Cadet Corps allows youth to sample military 
life without obligation to join the Armed Forces. Cadets and adult 
leaders are authorized to wear the Navy uniform, appropriately modified 
with a distinctive Sea Cadet insignia.
    There are currently over 374 Sea Cadet units with a program total 
of over 10,000 participants (2,500 adult officers and instructors and 
10,000 cadets (about 33 percent female). This is an all time high 
enrollment for the program.

                            NSCC OBJECTIVES

    Develop an interest and skill in seamanship and seagoing subjects.
    Develop an appreciation for our Navy's history, customs, traditions 
and its significant role in national defense.
    Develop positive qualities of patriotism, courage, self-reliance, 
confidence, pride in our Nation and other attributes, which contribute 
to development of strong moral character, good citizenship traits and a 
drug-free, gang-free lifestyle.
    Present the advantages and prestige of a military career.
    Under the Cadet Corps' umbrella is the Navy League Cadet Corps 
(NLCC), a youth program for children ages 11 through 13. While it is 
not part of the Federal charter provided by Congress, the Navy League 
of the United States sponsors NLCC. NLCC was established ``. . . to 
give young people mental, moral, and physical training through the 
medium of naval and other instruction, with the objective of developing 
principles of patriotism and good citizenship, instilling in them a 
sense of duty, discipline, self-respect, self-confidence, and a respect 
for others.''

                                BENEFITS

    Naval Sea Cadets experience a unique opportunity for personal 
growth, development of self-esteem and self-confidence. Their 
participation in a variety of activities within a safe, alcohol-free, 
drug-free, and gang-free environment provides a positive alternative to 
other less favorable temptations. The Cadet Corps introduces young 
people to nautical skills, to maritime services and to a military life 
style. The program provides the young cadet the opportunity to 
experience self-reliance early on, while introducing this cadet to 
military life without any obligation to join a branch of the Armed 
Forces. The young cadet realizes the commitment required and routinely 
excels within the Navy and Coast Guard environments.
    Naval Sea Cadets receive first-hand knowledge of what life in the 
Navy or Coast Guard is like. This realization ensures the likelihood of 
success should they opt for a career in military service. For example, 
limited travel abroad and in Canada may be available, as well as the 
opportunity to train onboard Navy and Coast Guard ships, craft and 
aircraft. These young people may also participate in shore activities 
ranging from training as a student at a Navy hospital to learning the 
fundamentals of aviation maintenance at a Naval Air Station.
    The opportunity to compete for college scholarships is particularly 
significant. Since 1975, 188 cadets have received financial assistance 
in continuing their education in a chosen career field at college.

                               ACTIVITIES

    Naval Sea Cadets pursue a variety of activities including 
classroom, practical and hands-on training as well as field trips, 
orientation visits to military installations, and cruises on Navy and 
Coast Guard ships and small craft. They also participate in a variety 
of community and civic events.
    The majority of sea cadet training and activities occurs year round 
at a local training or ``drill'' site. Often, this may be a military 
installation or base, a reserve center, a local school, civic hall, or 
sponsor-provided building. During the summer, activities move from the 
local training site and involve recruit training (boot camp), 
``advanced'' training of choice, and a variety of other training 
opportunities (depending on the cadet's previous experience and 
desires).

                           SENIOR LEADERSHIP

    Volunteer Naval Sea Cadet Corps officers and instructors furnish 
senior leadership for the program. They willingly contribute their time 
and effort to serve America's youth. The Cadet Corps programs succeed 
because of their dedicated, active participation and commitment to the 
principles upon which the Corps was founded. Cadet Corps officers are 
appointed from the civilian sector or from active, reserve or retired 
military status. All are required to take orientation, intermediate and 
advanced officer professional development courses to increase their 
management and youth leadership skills. Appointment as an officer in 
the Sea Cadet Corps does not, in itself, confer any official military 
rank. However, a Navy-style uniform, bearing NSCC insignia, is 
authorized and worn. Cadet Corps officers receive no pay or allowances. 
Yet, they do derive some benefits, such as limited use of military 
facilities and space available air travel in conjunction with carrying 
out training duty orders.

                  DRUG-FREE AND GANG-FREE ENVIRONMENT

    One of the most important benefits of the sea cadet program is that 
it provides participating youth a peer structure and environment that 
places maximum emphasis on a drug and gang free environment. Supporting 
this effort is a close liaison with the U.S. Department of Justice Drug 
Enforcement Administration (DEA). The DEA offers the services of all 
DEA Demand Reduction Coordinators to provide individual unit training, 
as well as their being an integral part of our boot camp training 
program.
    Among a variety of awards and ribbons that cadets can work toward 
is the Drug Reduction Service Ribbon, awarded to those who display 
outstanding skills in he areas of leadership, perseverance and courage. 
Requirements include intensive anti-drug program training and giving 
anti-drug presentations to interested community groups.

                                TRAINING

Local Training
    Local training, held at the unit's drill site, includes a variety 
of activities supervised by qualified Sea Cadet Corps officers and 
instructors, as well as Navy and Coast Guard instructors.
    Cadets receive classroom and hands on practical instruction in 
basic military requirements, military drill, water and small boat 
safety, core personal values, social amenities, drug/alcohol abuse, 
cultural relations, Navy history, naval customs and traditions and 
other nautical skills. Training may be held aboard ships, small boats 
or aircraft, depending upon platform availability. In their training 
cadets also learn about and are exposed to a wide variety of civilian 
and military career opportunities through field trips and educational 
tours.
    Special presentations by military and civilian officials augment 
the local training, as does attendance at special briefings and events 
throughout the local area. Cadets are also encouraged and scheduled, to 
participate in civic activities and events to include parades, social 
work and community projects, all part of the ``whole person'' training 
concept.
    For all Naval sea cadets the training during the first several 
months is at their local training site and focuses on general 
orientation to and familiarization with, the entire program. It also 
prepares them for their first major away from home training event, the 
two weeks recruit training which all sea cadets must successfully 
complete.
    The Navy League Cadet Corps training program teaches younger cadets 
the virtues of personal neatness, loyalty, obedience, courtesy, 
dependability and a sense of responsibility for shipmates. In 
accordance with a Navy-oriented syllabus, this education prepares them 
for the higher level of training they will receive as Naval sea cadets.
Summer Training
    After enrolling, all sea cadets must first attend a 2-week recruit 
training taught at the Navy's Recruit Training Command, at other Naval 
Bases or stations, and at regional recruit training sites using other 
military host resources. Instructed by Navy or NSCC Recruit Division 
Commanders, cadets train to a condensed version of the basic training 
that Navy enlistees receive. The curriculum is provided by the Navy and 
taught at all training sites. In 2005 there were 19 recruit training 
classes at 18 locations, including one class conducted over the winter 
holiday break and another held over spring break for the first time. 
About 18 nationwide regional sites are required to accommodate the 
steady demand for quotas and also to keep cadet and adult travel costs 
to a minimum. Approximately 2,000 cadets attended recruit training in 
2005 supported by another 300 adult volunteers.
    A cadet who successfully completes recruit training is eligible for 
advanced training in various fields of choice. Cadets can experience 
the excitement of ``hands-on'' practical training aboard Navy and Coast 
Guard vessels, ranging from tugboats and cutters to the largest 
nuclear-powered aircraft carriers. Female cadets may also train aboard 
any ship that has females assigned as part of the ship's company. 
Qualified cadets choose from such sea cadet advanced training as basic/
advanced airman, ceremonial guard, seamanship, sailing, SEAL training, 
amphibious operations, leadership, firefighting and emergency services, 
homeland security, mine warfare operations, Navy diving submarine 
orientation and training in occupational specialties, including health 
care, legal, music, master-at-arms and police science and construction.
    The Cadet Corp programs excel in quality and diversity of training 
offered, with more than 8,000 training orders carried out for the 2005 
summer training program. Cadets faced a myriad of challenging training 
opportunities designed to instill leadership and develop self-reliance, 
enabling them to become familiar with the full spectrum of Navy and 
Coast Guard career fields.
    This steady and continuing participation once again reflects the 
popularity of the NSCC and the positive results of Federal funding for 
2001 through 2005. The NSCC still continues to experience an average 
increased recruit and advanced training attendance of well over 2,000 
cadets per year over those years in which Federal funding was not 
available.
    While recruit training acquaints cadets with Navy life and Navy 
style discipline, advanced training focuses on military and general 
career fields and opportunities, and also affords the cadets many 
entertaining, drug free, disciplined yet fun activities over the 
summer. The popularity of the training continues to grow not with just 
overall numbers but also as evidenced with numerous cadets performing 
multiple 2-week training sessions during the summer of 2005.
    Training highlights for 2005: The 2005 training focus was once 
again on providing every cadet the opportunity to perform either 
recruit or advanced training during the year. To that end emphasis was 
placed on maintaining all traditional and new training opportunities 
developed since Federal funding was approved for the NSCC. These 
include more classes in sailing and legal (JAG) training, expanded SEAL 
training opportunity, more SCUBA and diving training classes, more 
seamanship training onboard the NSCC training vessels on the Great 
Lakes, more aviation related training and additional honor guard 
training opportunities. Other highlights included:
  --With Federal funding continuing to be available, maintained once 
        again national recruit training opportunities for every cadet 
        wanting to participate with 19 training camps in 2005.
  --In spite of escalating costs and increased competition for base 
        resources, kept cadet summer training cost at only $40 per week 
        for the second consecutive year.
  --Continued NSCC's expanded use of Army and National Guard facilities 
        to accommodate demand for quotas for recruit training.
  --Maintained an aggressive NSCC Officer Professional Development 
        Program with three different weekend courses tailored to 
        improving volunteer knowledge and leadership skills. Between 
        400 and 500 volunteers attended 2005 training at over 37 
        different training evolutions. In support of this adult 
        volunteer training, maintained for a second year NSCC's program 
        for reducing volunteer out-of-pocket expenses.
  --Expanded opportunity for culinary arts training for cadets from one 
        to three classes at three different locations.
  --Implemented for the first time naval engineering classes for NSCC 
        cadets at the Naval Training Command, Great Lakes.
  --Increased attendance at the NSCC Petty Officer Leadership Academies 
        and implemented a pilot junior petty officer leadership program 
        for younger and more junior cadets new to the program.
  --Expanded sail training to include two additional classes onboard 
        ``tall ships'' in Newport, Rhode Island.
  --Conducted first NSCC marksmanship program at ANG Camp Perry, Port 
        Clinton, Ohio with the assistance and support of the Civilian 
        Marksmanship Program headquartered there.
  --Conducted first NSCC military vehicle maintenance class at Fort 
        Custer Training Center, Battle Creek, Michigan.
  --Placed cadets aboard USCG Barque Eagle for an orientation cruise 
        from Lisbon, Portugal to New London, Connecticut.
  --Placed cadets onboard U.S. Navy ships and USCG stations, cutters 
        and tenders.

                     INTERNATIONAL EXCHANGE PROGRAM

    For 2005 the NSCC again continued for the fourth year its' 
redesigned and highly competitive, merit based and very low cost to the 
cadet, International Exchange Program. Cadets were placed in Australia, 
United Kingdom, Sweden, Netherlands, Hong Kong, Korea and Bermuda to 
train with fellow cadets in these host nations. The NSCC and Canada 
maintained their traditional exchanges in Nova Scotia and British 
Columbia and the NSCC hosted visiting cadets in Newport. Rhode Island 
and at ANG Gowen Field in Boise, Idaho for 2 weeks of NSCC sponsored 
training. New in 2005 were exchanges to Saint Petersberg, Russia and 
also to Scotland.

                       NAVY LEAGUE CADET TRAINING

    In 2005, over 1,120 Navy league cadets and escorts attended 
orientation training at 17 different sites. This diversity in location 
made training accessible and reasonably available to each cadet who 
wished to attend. Over 373 league cadets and escorts attended advanced 
training at several sites. The advanced program was developed in 
recognition of the need to provide follow-on training for this younger 
age group to sustain their interest and to better prepare them for the 
challenges of Naval Sea Cadet Corps training. Navy league cadets who 
attend recruit orientation training are exceptionally well prepared for 
sea cadet ``boot camp.''

                              SCHOLARSHIPS

    The Naval Sea Cadet Corps Scholarship program was established to 
provide financial assistance to deserving cadets who wished to further 
their education at the college level. Established in 1975, the 
scholarship program consists of a family of funds: the NSCC Scholarship 
Fund; the Navy League Stockholm Scholarship and the NSCC ``named 
scholarship'' program, designed to recognize an individual, 
corporation, organization or foundation. In 2005, Morgan & Helen Fitch 
Scholarship was added to this group. Since the inception of the 
scholarship program, 198 scholarships have been awarded to 188 cadets 
(includes some renewals) totaling over $229,500.

                           SERVICE ACCESSIONS

    The Naval Sea Cadet Corps was formed at the request of the 
Department of the Navy as a means to ``enhance the Navy image in the 
minds of American youth.'' To accomplish this, ongoing presentations 
illustrate to Naval sea cadets the advantages and benefits of careers 
in the armed services, and in particular, the sea services.
    While there is no service obligation associated with the Naval Sea 
Cadet Corps program, many sea cadets choose to enlist or enroll in 
officer training programs in all the Services.
    Annually, the NSCC conducts a survey to determine the approximate 
number of cadets making this career decision. This survey is conducted 
during the annual inspections of the units. The reported cadet 
accessions to the services are only those that are known to the unit at 
that time. There are many accessions that occur in the 2-5 year 
timeframe after cadets leave their units, which go unreported. With 
about 80 percent of the units reporting, the survey indicates that 408 
known cadets entered the Armed Forces during the reporting year ending 
December 31, 2004. Further liaison with the USNA indicates that in 
fact, there are currently 482 Midshipmen with sea cadet backgrounds--
almost 10 percent of the entire Brigade. Navy accession recruiting 
costs have averaged over $14,500 per person, officer or enlisted, which 
applied to the number of sea cadet accessions represents a significant 
financial benefit to the Navy. Equally important is the expectation 
that once a more accurate measurement methodology can be found, is, 
that since sea cadets enter the Armed Forces as disciplined, well 
trained and motivated individuals, their retention, graduation and 
first term enlistment completion rates are perhaps the highest among 
any other entry group. USNA officials are currently studying graduation 
rates for past years for ex-sea cadets as a group as compared to the 
entire Brigade. Their preliminary opinion is that these percents will 
be among the highest. It is further expected that this factor will be 
an excellent indicator of the following, not only for the USNA, but for 
all officer and enlisted programs the sea cadets may enter:
  --Extremely high motivation of ex-cadets to enter the Service.
  --Excellent background provided by the U.S. Naval sea cadet 
        experience in preparing and motivating cadets to enter the 
        Service.
  --Prior U.S. Naval Sea Cadet Corps experience is an excellent pre-
        screening opportunity for young men and women to evaluate their 
        interest in pursuing a military career. This factor could 
        potentially save considerable tax-payer dollars expended on 
        individuals who apply for, then resign after entering the 
        Academy if they decide at some point they do not have the 
        interest or motivation.
  --U.S. Naval sea cadet experience prior to entering the Service is an 
        excellent indicator of a potentially high success rate.
    Data similar to the above has been requested from the United States 
Coast Guard Academy and the United States Merchant Marine Academy.
    Whether or not they choose a service career, all sea cadets carry 
forth learned values of good citizenship, leadership and moral courage 
that will benefit themselves and our country.

                            PROGRAM FINANCES

    Sea cadets pay for all expenses, including travel to/from training, 
uniforms, insurance and training costs. Out-of-pocket costs can reach 
$500 each year. Assistance is made available so that no young person is 
denied access to the program, regardless of social or economic 
background.
    Federally funded at the $1,000,000 level in fiscal year's 2001, 
2002, and 2003, and at $1,500,000 in fiscal year 2004 and $1,700,000 in 
2005 (of the $2,000,000 requested), all of these fund were used to 
offset individual cadet's individual costs for summer training, conduct 
of background checks for adult volunteers and for reducing future 
enrollment costs for cadets. In addition to the Federal fund received, 
NSCC receives under $700,000 per year from other sources, which 
includes around $226,000 in enrollment fees from cadets and adult 
volunteers. For a variety of reasons, at a minimum, this current level 
of funding is necessary to sustain this program and the full $2,000,000 
would allow for program expansion:
  --All time high in number of enrolled sea cadets.
  --General inflation of all costs.
  --Some bases denying planned access to sea cadets for training due to 
        increased terrorism threat level alerts and the associated 
        tightening of security measures--requiring cadets to utilize 
        alternative, and often more costly training alternatives.
  --Reduced availability of afloat training opportunities due to the 
        Navy's high level of operations related to the Iraq war.
  --Reduced training site opportunities due to base closures.
  --Non-availability of open bay berthing opportunities for cadets due 
        to their elimination as a result of enlisted habitability 
        upgrades to individual/double berthing spaces.
  --Lack of available ``Space Available'' transportation for group 
        movements.
  --Lack of on-base transportation, as the Navy no longer ``owns'' 
        busses now controlled by the GSA.
  --Navy outsourcing of messing facilities to civilian contractors 
        increases the individual cadet's meal costs.
    Because of these factors, cadet out-of-pocket costs have 
skyrocketed to the point where the requested $2,000,000 alone would be 
barely sufficient to handle cost increases.
    It is therefore considered a matter of urgency that the full amount 
of the requested $2,000,000 be authorized and appropriated for fiscal 
year 2005.

    Senator Stevens. Our next witness is Sherry Salway Black, 
Executive Director of the Ovarian Cancer National Alliance.

STATEMENT OF SHERRY SALWAY BLACK, EXECUTIVE DIRECTOR, 
            OVARIAN CANCER NATIONAL ALLIANCE
    Ms. Black. Good morning Chairman Stevens, Senator Inouye, 
and other members of the subcommittee. My name is Sherry Salway 
Black, and I am a 4-year survivor of ovarian and endometrial 
cancers. As such, I am lucky to stand before you today as the 
Executive Director of the Ovarian Cancer National Alliance. On 
behalf of the Alliance, thank you for the opportunity to 
testify about the Ovarian Cancer Research Program at the 
Department of Defense.
    As a national organization with 50 regional, State, and 
local groups, the Alliance unites and reaches more than 800,000 
grassroots activists, women health advocates, health care 
professionals, and the public, to bring national attention to 
ovarian cancer. Since its inception 9 years ago, the Alliance 
has worked to increase awareness of ovarian cancer and boost 
Federal resources to support scientific research into 
diagnostics and treatments of the disease.
    Among the most urgent challenges in the ovarian cancer 
field is late detection, which leads to poor survival rates. To 
that end, the Alliance respectfully requests the subcommittee 
to provide a federal investment of $15 million for the DOD 
Ovarian Cancer Research Program in fiscal year 2007. This 
amount would be a $5 million increase, and would be the first 
increase for the program in 4 years. According to the Centers 
for Disease Control and Prevention, $2.2 billion is spent on 
treatment for ovarian cancer yearly. This figure could be 
greatly reduced with an earlier diagnosis, which could only be 
achieved through an effective screening tool. Research 
conducted through the ovarian cancer research program aims at 
developing such a tool.
    Like many women, I was lucky when I received my diagnosis. 
I am considered truly one of the lucky ones. My two cancers 
were found early in stage one when I had the best chance of 
surviving, something only 19 percent of women with this disease 
can claim. Most of the 20,000 women who will receive a 
diagnosis of ovarian cancer this year will never have the 
opportunity to speak before this subcommittee, because they 
will fight ovarian cancer until it claims their lives. 
Currently, almost half, 45 percent, of women with ovarian 
cancer die within 5 years of diagnosis.
    Like most women diagnosed early, my good fortune was not 
the result of my awareness of the symptoms or knowledge that I 
was a higher risk, and it was not the result of my having 
access to a currently nonexistent early screening test. My good 
fortune was the lucky result of my perseverance with my doctor 
and my subsequent treatment by an appropriate gynecologic 
oncologist specialist.
    All women should have the opportunity to survive ovarian 
cancer. No one should have to rely on luck for survival. 
Consistent investment in ovarian cancer research is vital in 
our fight against this deadly disease. The DOD Ovarian Cancer 
Research Program is essential in our national research 
portfolio. This program strives to fill the myriad of gaps in 
our knowledge, and is searching for innovative unique 
approaches to solve the enigma of early detection.
    Awards made by the DOD ovarian cancer research program are 
designed to stimulate research that will attract new 
investigators into the field, challenge existing paradigms, and 
support collaborative ventures including partnerships with 
private and public institutions. The innovation grants offered 
by the DOD Ovarian Cancer Research Program are paramount to our 
success, since traditional research models have failed to make 
timely progress against ovarian cancer.
    Today, we rely on the grace of luck for protection against 
ovarian cancer, and therefore, mortality rates have not 
significantly decreased in decades. If your wife, mother, 
daughter, or friend, were diagnosed with ovarian cancer this 
year, her chances of surviving ovarian cancer would not be 
significantly different than your grandmother's chances. In the 
21st century, it is no longer acceptable to depend on luck to 
save women's lives. We must continue to learn more about this 
disease so we can definitively change the future for our 
daughters, granddaughters, and all women.
    The DOD Ovarian Cancer Research Program is small but it 
does tremendous work for the Nation. It is financially and 
scientifically sound, with a track record of success. The 
program operated with only a 6 percent management cost in 2005, 
and has received accolades. Just last week we learned that the 
House committee subcommittee agreed to appropriate $15 million 
for the DOD Ovarian Cancer Research Program. For the second 
year in a row they have recognized the urgent need to support 
this program with a $5 million increase, despite a tough budget 
climate.
    It is my sincere hope that this subcommittee will join them 
by appropriating $15 million to the Ovarian Cancer Research 
Program in fiscal year 2007. Thank you for the opportunity to 
testify, and I'm happy to answer any questions you might have.
    Senator Stevens. Thank you very much. Since this 
subcommittee first added money to the defense budget in 1981 
for medical research, and it was breast cancer at the time, and 
AIDS I think in 1982, it has grown from $25 million a year to 
over $1 billion. I expect we will get requests from every 
segment here today to increase that funding, but it really has 
reached its level where it would be very difficult to increase 
that much further, and maintain the support we have to maintain 
for our troops in the field. But we will try. Thank you very 
much.
    Ms. Black. Thank you very much.
    [The statement follows:]

               Prepared Statement of Sherry Salway Black

                   OVARIAN CANCER'S DEADLY STATISTICS

    According to the American Cancer Society, in 2006 more than 20,000 
American women will be newly diagnosed with ovarian cancer, and more 
than 15,000 women will lose their lives to it, making this disease the 
fifth leading cause of cancer death in women. Currently, almost half 
(45 percent) of women with ovarian cancer will die within 5 years of 
diagnosis. More than 75 percent of women with ovarian cancer are 
diagnosed in later stages, when the 5-year survival rate drops below 30 
percent. When detected early, the 5-year survival rate increases to 
more than 90 percent. The key to increased survival rates is early 
detection, but a valid and reliable screening test does not yet exist.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                Graph 1

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                Graph 2

    Today, it is both striking and disheartening to see that despite 
progress made in the scientific, medical and advocacy communities, 
ovarian cancer mortality rates have not significantly decreased. Behind 
the sobering statistics are the lost lives of our loved ones, 
colleagues and community members. While we have been waiting for the 
development of an early detection test, hundreds of thousands of our 
loved ones have lost their battle to ovarian cancer.
    Today, early diagnosis is rarely a result of a patients' awareness 
of symptoms or their physicians' awareness. Rather, early diagnosis is 
often the result of pure luck. In a country as wealthy and 
scientifically advanced as the United States, women should not have to 
rely on luck for their survival. Ovarian cancer research must continue 
through all possible avenues, building a comprehensive knowledge of its 
symptoms, causes and treatments. All women should have access to 
treatment by a specialist. All women should have access to a valid and 
reliable screening test. We must deliver new and better treatments to 
patients and the health care professionals who treat them. Research 
conducted through the DOD Ovarian Cancer Research Program works toward 
a better understanding of this cancer in collaboration with the 
National Cancer Institute (NCI) and the National Institutes of Health 
to avoid duplication of research.
    the ovarian cancer research program at the department of defense
    Congress has appropriated funds for the DOD Ovarian Cancer Research 
Program since 1997. The program was charged to attract new 
investigators into the field and fund multidisciplinary research that 
investigates innovative study methods for learning about early 
detection, screening and treatment of ovarian cancer. The program 
offers awards that specifically seek to fill gaps in ongoing research 
and to complement initiatives sponsored by other agencies.
    Since its inception, the DOD Ovarian Cancer Research Program has 
lead to numerous discoveries, including:
  --Risk Factor Breakthrough.--The discovery that the hormone progestin 
        is a key agent in oral contraceptives' activity in reducing the 
        risk of ovarian cancer.
  --Treatment Breakthrough.--The recognition of three new anti-
        angiogenesis agents; in cancer, excessive angiogenesis feeds 
        the cancerous tissue oxygen and nutrients, destroying 
        surrounding healthy tissues while allowing tumor cells to 
        metastasize. The development of anti-angiogenesis agents 
        through ovarian cancer research has had implications for all 
        cancers.
  --Early Detection Breakthrough.--The identification of new biomarkers 
        which have the potential to improve early detection. Increased 
        funding will allow investigators to begin early stage clinical 
        trials to determine the utility of their discoveries.
  --Treatment Breakthrough.--The use of alpha radiation to treat 
        advanced ovarian cancer; alpha radiation efficiently kills 
        ovarian cancer cells with multivesicular liposomes to control 
        negative results.

                        SPRINGBOARD OF DISCOVERY

    Research conducted through the DOD Ovarian Cancer Research Program 
has contributed 246 publications and 274 abstracts, serving to bolster 
and expand the limited body of scientific knowledge of ovarian cancer. 
Perhaps most significantly, the Ovarian Cancer Research Program is 
responsible for the recruitment of 28 new investigators. Additionally, 
the Fox Chase Cancer Center and the Fred Hutchinson Cancer Research 
Center reported that the progress made through their DOD Program 
Project Awards enabled both institutions to successfully compete for 
NCI SPORE (Specialized Programs of Research Excellence) funding to 
pursue additional long-term ovarian cancer research.
    This body of scientific accomplishments would enjoy significant 
growth with expanded funding. In fiscal year 2005, the Ovarian Cancer 
Research Program was only able to fund less than 15 percent of its 
received research proposals. With increased funding, additional 
research initiatives could be supported, resulting in an increase in 
our scientific knowledge of ovarian cancer.
    The maturation of the DOD Ovarian Cancer Research Program 
infrastructure and management, plus the culmination of past investments 
have combined for an explosion of exciting scientific discoveries in 
the past 2 years. In 2005 the pace of discovery increased notably. 
Researchers funded by the DOD Ovarian Cancer Research Program made 
substantial progress with the following breakthroughs:
  --Early Diagnosis.--Identification of three genes that control the 
        development of ovarian cancer, which may serve as molecular 
        markers for improved early diagnosis.
  --Early Diagnosis.--Recognition of two new serum biomarkers expressed 
        in early stage ovarian cancer, which may serve as the basis for 
        an early detection test.
  --Treatment Improvement.--Discovery of immune cells' role in ovarian 
        cancer, leading to the development of a new therapy that will 
        help prevent tumors from receiving the nutrients necessary to 
        grow and metastasize.
  --Treatment Improvement.--Detection of the inhibitory qualities of a 
        genetically-engineered protein on the growth of ovarian cancer, 
        which may develop into a viable treatment option.
  --Treatment Improvement.--Findings on the benefits of squalamine (an 
        organic compound) in increasing the effectiveness of classic 
        ovarian cancer chemotherapy treatments.
    These breakthroughs demonstrate that the science is ripe for 
significant advancement in our knowledge of ovarian cancer. We must 
take advantage of this opportunity by supporting the DOD Ovarian Cancer 
Research Program through sustained appropriations in fiscal year 2007.

                      INCREASED INVESTMENT NEEDED

    In fiscal year 2005, the DOD Ovarian Cancer Research Program 
received 225 proposals, but due to resource limitations, was only able 
to fund 16 awards. The program has achieved great success, but to 
decrease ovarian cancer mortality rates we must sustain our investment 
in ovarian cancer research. Without enhanced funding the discoveries 
outlined in this testimony will never be translated into clinical 
research.
    Funding allocated in fiscal year 2006 will support grants in three 
research areas: (1) etiology and tumor biology, (2) preclinical 
development of targeted therapeutics, and (3) early detection and 
diagnosis. If granted, fiscal year 2007 funds would help expand these 
research areas.
  --Concept Awards are grants that focus on attracting researchers who 
        wish to challenge current approaches in ovarian cancer 
        research, explore innovative concepts and pursue under-explored 
        hypotheses.
  --Idea Development Awards are grants for researchers who wish to 
        improve current approaches to prevention, detection, diagnosis 
        and treatment of ovarian cancer. These awards focus on the 
        implementation of innovative methods of research or novel 
        adaptations of existing methods of research.
  --Historically Black Colleges & Universities/Minority Institutions 
        Collaborative Research Awards link novice investigators with 
        well-established ovarian cancer researchers to encourage the 
        involvement of minority institutions in the fight against 
        ovarian cancer.
    The DOD Ovarian Cancer Research Program has received $10 million 
for each of the past 5 years for which we thank the subcommittee. 
However, when biomedical inflation is taken into account, the 
allocation represents an overall diminished level of funding--at the 
same time ovarian cancer mortality rates remain constant. With 
additional funding, the DOD Ovarian Cancer Research Program can support 
new grants, provide funding to promising young investigators, and 
allocate additional resources to grants that should be extended or 
renewed.

                         SUMMARY AND CONCLUSION

    We still do not fully understand the risk factors, symptoms or 
causes of ovarian cancer. We still do not have an early detection test 
for ovarian cancer. As a result, mortality rates for this deadly 
disease have remained constant far too long. Previous appropriations 
Congress has made for the DOD Ovarian Cancer Research Program are 
appreciated and have helped move the field forward. New resources are 
needed in the coming year to sustain current efforts, but more 
importantly to continue to reap benefits from previous and current 
Federal investments.
    The Alliance maintains a long-standing commitment to work with 
Congress, the administration, and other policymakers and stakeholders 
to improve the survival rate from ovarian cancer through education, 
public policy, research and communication. Please know we appreciate 
and understand that our Nation faces many challenges and Congress has 
limited resources to allocate; however, we are concerned that without 
increased funding to bolster and expand ovarian cancer research 
efforts, the Nation will continue to see growing numbers of women lose 
their battle with this terrible disease.
    Thank you for your consideration of our views and for providing $15 
million in fiscal year 2007 for the DOD Ovarian Cancer Research 
Program.

    Senator Stevens. Our next witness is Captain Marshall 
Hanson, the National Military Veterans Alliance. Good morning.
    Captain Hanson. Thank you, Mr. Chairman.

STATEMENT OF CAPTAIN MARSHALL HANSON, UNITED STATES 
            NAVY RESERVE (RETIRED), CO-DIRECTOR, 
            NATIONAL MILITARY VETERANS ALLIANCE
    Captain Hanson. As co-director of the National Military 
Veterans Alliance (NMVA), I am honored to testify on behalf of 
the National Military and Veterans Alliance. The Alliance has 
grown to 30 military retiree, veterans, and survivor 
associations, representing over 3.5 million members. The 
overall goal of the NMVA is a strong national defense.
    In the long war, recruiting and retention has become 
paramount. The willingness of our young people today to serve 
in this war will relate to their perception of how the veterans 
of this war are being treated. The NMVA supports various 
incentives and bonuses to encourage participation. Our serving 
members are patriots willing to accept peril and sacrifice to 
defend the value of this country. All they ask for is fair 
recompense for their actions. At a time of war, compensation 
really offsets the risks. Let's not undervalue our young 
warriors. These payments are an investment toward our national 
security.
    The targeted pay increases included in Senate Bill 2766 
align with NMVA's goals. It is also crucial that the military 
health care is funded. NMVA is concerned that the President's 
DOD health care budget may have been underestimated because of 
some suggested Pentagon initiatives. We ask that you continue 
to fully fund military health care in fiscal year 2007. We do 
not want our serving members to be distracted from their 
mission with worries about their families' health care. And if 
our servicemembers pay that ultimate sacrifice, we need to 
provide every financial support to their families to help them 
in transition.
    The survivor benefit plan dependency and indemnity 
compensation offset is a conflict between a purchased annuity 
and an indemnity program. It affects our serving members. 
Recently, Congress created active duty survivor benefit plan 
(SBP) as a benefit intended for families who lost 
servicemembers. With the present offsets, the vast majority of 
our enlisted families receive no benefit from this new program 
because SBP is completely offset by dependency and indemnity 
compensation (DIC). This affects both younger and older 
surviving families.
    Senate Bill 2766, section 642, repeals the requirement of 
reducing SBP to offset DIC. The NMVA respectfully requests that 
this subcommittee fund that provision.
    Further, NMVA supports funding section 606, which extends a 
continuation of housing allowances for spouses and dependents 
of members who have died on active duty. The NMVA also supports 
funding of full payment of premiums for coverage under the 
servicemembers' group life insurance program during service in 
Operation Enduring Freedom, or Operation Iraqi Freedom.
    Our Active and Reserve serving members face enough 
challenges as they adapt to a lifestyle with an ever-present 
war. The NMVA is confident in your ongoing support, and the 
Alliance would like to thank the subcommittee for its efforts, 
and this opportunity to testify. Please let us know how we can 
assist.
    Senator Stevens. Well, thank you very much. I think a lot 
of the things you suggested require the authorization 
subcommittee's concurrence first, before we can appropriate the 
moneys, but will follow their lead if we----
    Captain Hanson. Right, and they have been placed in the 
markup of the bill, and of course the Senate will be looking at 
that in the next couple of weeks.
    Senator Stevens. All right. Thank you very much.
    [The statement follows:]

                 Prepared Statement of Marshall Hanson

                              INTRODUCTION

    Mr. Chairman and distinguished Members of the committee, the 
National Military and Veterans Alliance (NMVA) is very grateful for the 
invitation to testify before you about our views and suggestions 
concerning defense funding issues. The overall goal of the National 
Military and Veteran's Alliance is a strong National Defense. In light 
of this overall objective, we would request that the committee examine 
the following proposals.
    While the NMVA highlights the funding of benefits, we do this 
because it supports National Defense. A phrase often quoted ``The 
willingness with which our young people are likely to serve in any war, 
no matter how justified, shall be directly proportional as to how they 
perceive the veterans of earlier wars were treated and appreciated by 
their country,'' has been frequently attributed to General George 
Washington. Yet today, many of the programs that have been viewed as 
being veteran or retiree are viable programs for the young veterans of 
this war. This phrase can now read ``The willingness with which our 
young people, today, are willing to serve in this war is how they 
perceive the veterans of this war are being treated.''
    In a long war, recruiting and retention becomes paramount. The 
National Military and Veterans Alliance, through this testimony hope to 
address funding issues that apply to the veterans of various 
generations.

                          PAY AND COMPENSATION

    Our serving members are patriots willing to accept peril and 
sacrifice to defend the values of this country. All they ask for is 
fair recompense for their actions. At a time of war, compensation 
rarely offsets the risks.
    The NMVA requests funding so that the annual enlisted military pay 
raise equals or exceeds the Employment Cost Index (ECI).
    Further, we hope that this committee supports targeted pay raises 
for those mid-grade members who have increased responsibility in 
relation to the overall service mission.
    NMVA would apply the same allowance standards to both Active and 
Reserve when it comes to Aviation Career Incentive Pay, Career Enlisted 
Flyers Incentive Pay, Diving Special Duty Pay, Hazardous Duty Incentive 
Pay and other special pays. We thank Congress for recognizing, last 
year that foreign language professional pay was for a special skill 
needing to be maintained 365 days a year.
    The Service chiefs have admitted one of the biggest retention 
challenges is to recruit and retain medical professionals.
    NMVA urges the inclusion of bonus/cash payments (Incentive 
Specialty pay IPS) into the calculations of retirement pay for military 
health care providers. NMVA has received feedback that this would be 
incentive to many medical professionals to stay in longer.

                       FORCE POLICY AND STRUCTURE

End Strength
    The NMVA supports funding increases in support of the end strength 
boosts of the active duty component of the Army and Marine Corps that 
have been recommended by Defense authorizers. New recruits need to be 
found and trained now to start the process so that American taxpayer 
can get a return on this investment. Such growth is not instantaneously 
productive. NMVA also hopes that this subcommittee would include 
language reminding the Department of Defense that once appropriated 
that each service should proactively recruit to try to attain these 
numbers.
    The NMVA would like to also put a freeze on reductions to the Guard 
and Reserve manning levels. With the Commission on the Guard and 
Reserve now active, it makes sense to put a moratorium on changes to 
End Strength until after they report back to Congress with 
recommendations. NMVA urges this subcommittee to fund to last year's 
levels.

         SURVIVOR BENEFITS PLAN (SBP) AND SURVIVOR IMPROVEMENTS

    The Alliance wishes to deeply thank this subcommittee for your 
funding of improvements in the myriad of survivor programs.
    However, there are still two remaining issues to deal with to make 
SBP the program Congress always intended it to be:
  --Ending the SBP/DIC offset and
  --Moving up the effective date for paid up SBP to October 1, 2006.
    SBP/DIC Offset affects several groups. The first is the family of a 
retired member of the uniformed services. At this time the SBP annuity 
he or she has paid for is offset dollar for dollar for the DIC survivor 
benefits paid through the VA, this puts a disabled retiree in a very 
unfortunate position. If he or she is leaving the service disabled it 
is only wise to enroll in the Survivor Benefit Plan (perhaps being 
uninsurable in the private sector). If death is service connected then 
the survivor looses dollar for dollar for what the DIC pays.
    SBP is a purchased annuity, an earned employee benefit. It is a 
retirement plan for the surviving spouse. Dependency and Indemnity 
Compensation (DIC) is an indemnity program to compensate a family for 
the loss of a loved one due to his or her military service. They are 
different programs created to fill different purposes and needs.
    A second group affected by this dollar for dollar offset is made up 
of families whose servicemember died on active duty. Recently Congress 
created active duty SBP. These service members never had the chance to 
pay into the SBP program. But clearly Congress intended to give these 
families a benefit. With the present off-set in place the vast majority 
of families receive no benefit from this new program, because the vast 
number of our losses are young men or women in the lower paying ranks. 
SBP is completely offset by DIC payments.
    Other affected families are servicemembers who have already served 
a substantial time in the military. Their surviving spouse is left in a 
worse financial position that a younger widow. The older widows will 
normally not be receiving benefits for her children from either Social 
Security or the VA and will normally have more substantial financial 
obligations (mortgages etc). This spouse is very dependent on the SBP 
and DIC payments and should be able to receive both.
    Thirty Year Paid-Up SBP.--In the fiscal year 1999 Defense 
Authorization Act Congress created a simple and fair paid up provision 
for the Survivor Benefit Plan. A member who had paid into the program 
for 30 years and reached the age of 70 could stop paying premiums and 
still have the full protection of the plan for his or her spouse. 
Except that the effective date of this provision is October 1, 2008. 
Many have been paying for as long as 34 years.
    The NMVA respectfully requests this subcommittee fund the SBP/DIC 
offset and 30 year paid-up SBP if authorized.

    CURRENT AND FUTURE ISSUES FACING UNIFORMED SERVICES HEALTH CARE

    The National Military and Veterans Alliance must once again thank 
this committee for the great strides that have been made over the last 
few years to improve the health care provided to the active duty 
members, their families, survivors and Medicare eligible retirees of 
all the Uniformed Services. The improvements have been historic. 
TRICARE for Life and the Senior Pharmacy Program have enormously 
improved the life and health of Medicare Eligible Military Retirees 
their families and survivors. It has been a very successful few years.
    Yet there are still many serious problems to be addressed:
Full Funding For The Defense Health Program
    The Alliance applauds the subcommittee's role in providing adequate 
funding for the Defense Health Program (DHP) in the past several budget 
cycles. As the cost of health care has risen throughout the country, 
you have provided adequate increases to the DHP to keep pace.
    This is again one of the Alliance's top priorities. With the 
additional costs that have come with the deployments to Southwest Asia, 
Afghanistan and Iraq, we must all stay vigilant against future 
budgetary shortfalls that would damage the quality and availability of 
health care.
    With the authorizers having postponed the Department of Defenses 
suggested fee increases, NMVA is concerned that the budget saving have 
already been adjusted out of the President's proposed budget. NMVA is 
confident that this subcommittee will continue to fund the DHP so that 
there will be no budget shortfalls.
    The National Military and Veterans Alliance urges the subcommittee 
to continue to ensure full funding for the Defense Health Program 
including the full costs of all new programs.
TRICARE Pharmacy Programs
    DOD is suggesting an increase in co-payments at retail pharmacy 
from $3 to $5 for generic prescriptions, and from $9 to $15 for brand 
drugs. Generic pharmacy mail order prescriptions would drop from $3 to 
$0 to align with military clinics.
    DOD's rationalize is that it costs the government twice as much for 
a drug through the TRICARE Retail Pharmacy program (TRRx) than it does 
for the same drug through the TRICARE Mail Order Pharmacy Program 
(TMOP). DOD believes the rise in the TRRx co-payments will increase 
revenue and force beneficiaries migrate to the TMOP program, where the 
costs for their prescriptions are lower.
    NMVA may understand the motives for this change, but has concerns 
about how it is being implemented. Often times the retail pharmacy 
network is the only source to immediately fill a prescription, as many 
pharmacy beneficiaries are unable to go to a military clinic for the 
initial prescription. To truly motivate beneficiaries to a shift from 
retail to mail order adjustments need to be made to both generic and 
brand name drugs co-payments.
    Ideally, the NMVA would like to see the reduction in mail order co-
payments without an increase in co-payments for retail pharmacy, but . 
. . .
    NMVA suggests that if pharmacy co-payments are adjusted that:
  --(1) The higher retail pharmacy co-payments not apply on an initial 
        prescription, but on refills of a serial maintenance 
        prescription, and
  --(2) If co-payments must be raised on retail pharmacy, that both 
        generic and brand name mail order prescriptions be reduced to 
        zero $ co-payments.
    The National Military and Veterans Alliance urges the subcommittee 
to adequate fund adjustments to co-payments in support of 
recommendations from defense authorizers.
TRICARE Standard Improvements
    TRICARE Standard grows in importance with every year that the 
global war on terrorism continues. A growing population of mobilized 
and demobilized Reservists depends upon TRICARE Standard. A growing 
number of younger retirees are more mobile than those of the past, and 
likely to live outside the TRICARE Prime network.
    An ongoing challenge for TRICARE Standard involves creating 
initiatives to convince health care providers to accept TRICARE 
Standard patients. Health care providers are dissatisfied with TRICARE 
reimbursement rates that are tied to Medicare reimbursement levels. The 
Alliance was pleased and relieved by the administration's and Congress' 
recent corrections and improvements in Medicare reimbursement rates, 
which helped the TRICARE program.
    Yet this is not enough. TRICARE Standard is hobbled with a 
reputation and history of low and slow payments as well as what still 
seems like complicated procedures and administrative forms that make it 
harder and harder for beneficiaries to find health care providers that 
will accept TRICARE. Any improvements in the rates paid for Medicare/
TRICARE should be a great help in this area. Additionally, any further 
steps to simplify the administrative burdens and complications for 
health care providers for TRICARE beneficiaries hopefully will increase 
the number of available providers.
    The Alliance asks the Defense Subcommittee to include language 
encouraging continued increases in TRICARE/Medicare reimbursement 
rates.

TRICARE Retiree Dental Plan (TRDP)
    The focus of the TRICARE Retiree Dental Plan (TRDP) is to maintain 
the dental health of Uniformed Services retirees and their family 
members. Several years ago we saw the need to modify the TRDP 
legislation to allow the Department of Defense to include some dental 
procedures that had previously not been covered by the program to 
achieve equity with the active duty plan.
    With ever increasing premium costs, NMVA feels that the Department 
should assist retirees in maintaining their dental health by providing 
a government cost-share for the retiree dental plan. With many retirees 
and their families on a fixed income, an effort should be made to help 
ease the financial burden on this population and promote a seamless 
transition from the active duty dental plan to the retiree dental plan 
in cost structure. Additionally, we hope the Congress will enlarge the 
retiree dental plan to include retired beneficiaries who live overseas.
    The NMVA would appreciate this committee's consideration of both 
proposals.

                 NATIONAL GUARD AND RESERVE HEALTH CARE

Funding Improved Tricare Reserve Select
    It is being suggested that the TRICARE Reserve Select healthcare 
plan be changed to allow the majority of Selected Reserve participate 
at a 28 percent co-payment level with the balance of the premium being 
paid by the Department of Defense.
    NMVA asks the committee for funding to support a revised TRICARE 
Reserve Select program.

Mobilized Health Care--Dental Readiness Of Reservists
    The number one problem faced by Reservists being recalled has been 
dental readiness. A model for healthcare would be the TRICARE Dental 
Program, which offers subsidized dental coverage for Selected 
Reservists and self-insurance for SELRES families.
    In an ideal world this would be universal dental coverage. Reality 
is that the services are facing challenges. Premium increases to the 
individual Reservist have caused some junior members to forgo coverage. 
Dental readiness has dropped. The military services are trying to 
determine how best to motivate their Reserve Component members but feel 
compromised by mandating a premium program if Reservists must pay a 
portion of it.
    Services have been authorized to provide dental treatment as well 
as examination, but without funding to support this service. By the 
time many Guard and Reserve are mobilized, their schedule is so short 
fused that the processing dentists don't have time for extensive 
repair.
    The National Military and Veterans Alliance supports funding for 
utilization of Guard and Reserve Dentists to examine and treat 
Guardsmen and Reservists who have substandard dental hygiene. The 
TRICARE Dental Program should be continued, because the Alliance 
believes it has pulled up overall dental readiness.

Demobilized Dental Care
    Under the revised transitional healthcare benefit plan, Guard and 
Reserve who were ordered to active duty for more than 30 days in 
support of a contingency and have 180 days of transition health care 
following their period of active service.
    Similar coverage is not provided for dental restoration. Dental 
hygiene is not a priority on the battlefield, and many Reserve and 
Guard are being discharged with dental readiness levels much lower than 
when they were first recalled. At a minimum, DOD must restore the 
dental state to an acceptable level that would be ready for 
mobilization, or provide some subsidize for 180 days to permit 
restoration from a civilian source.
    Current policy is a 30 day window with dental care being space 
available at a priority less than active duty families.
    NMVA asks the committee for funding to support a DOD's 
demobilization dental care program. Additional funds should be 
appropriated to cover the cost of TRICARE Dental premiums and co-
payment for the 6 months following demobilization if DOD is unable to 
do the restoration.

                       OTHER RESERVE/GUARD ISSUES

MGIB-SR Enhancements
    Approximately 7.8 percent of the enlisted Reservists have a 
Bachelors degree or higher. This makes the Montgomery G.I. Bill for 
Selective Reserves (MGIB-SR) an important recruiting and retention 
tool. With massive troop rotations the Reserve forces can expect to 
have retention shortfalls, unless the government provides incentives 
such as a college education. Education is not only a quality of life 
issue or a recruiting/retention issue it is also a readiness issue. 
Education a Reservist receives enhances their careers and usefulness to 
the military. The ever-growing complexity of weapons systems and 
support equipment requires a force with far higher education and 
aptitude than in previous years.
    The problem with the current MGIB-SR is that the Selected Reserve 
MGIB has failed to maintain a creditable rate of benefits with those 
authorized in Title 38, Chapter 30. Other than cost-of-living 
increases, only two improvements in benefits have been legislated since 
1985. In that year MGIB rates were established at 47 percent of active 
duty benefits. The MGIB-SR rate is 27 percent of the chapter 30 
benefits. Overall the allowance has inched up by only 7 percent since 
its inception, as the cost of education has climbed significantly.
    The NMVA requests appropriations funding to raise the MGIB-SR and 
lock the rate at 50 percent of the active duty benefit. Cost: $25 
million/first year, $1.4 billion over 10.

Bonuses
    Guard and Reserve component members may be eligible for one of 
three bonuses, prior enlistment bonus, reenlistment bonus and Reserve 
affiliation bonuses for prior service personnel. These bonuses are used 
to keep men and woman in mission critical military occupational 
specialties (MOS) that are experiencing falling numbers or are 
difficult to fill. During their testimony before this committee the 
reserve chiefs addressed the positive impact that bonuses have upon 
retention. This point cannot be understated. The operation tempo, 
financial stress and civilian competition for jobs make bonuses a 
necessary tool for the DOD to fill essential positions. Though the 
current bonus program is useful there is a change that needs to be 
addressed to increase effectiveness.
    The primary requirement for eligibility and payment of a bonus upon 
reenlistment is that the member must have completed less than 14 years 
of total military service and not be paid more than one 6-year bonus or 
two 3-year bonuses under this section. Increasing the eligibility for 
reenlistment bonuses to 20 years of total military service and 
increasing the number of bonuses that can be paid under this section 
could expand the available force pool, as mid-level enlisted Reserve 
members could take advantage of the new bonus criteria. Using a 20 year 
service cutoff instead of a 14 year period would encourage selected 
experienced mid-level subject matter experts to reenlist to established 
high year of tenure or mandatory separation dates and the added 
retained experience would boost each service's retention effort in 
critical skill areas. As each Service uses members of the Selected 
Reserve in different capacities, each Service Secretary may use this 
new authority as required as a force management tool.
    The NMVA would like to see the Reserve chiefs receive the funds and 
the authority to an increase in eligibility from 14 to 20 years and the 
ability for Reservists to receive bonuses while on active duty orders.

Reserve/Guard Funding
    We are concerned about ongoing DOD initiatives to end ``2 days pay 
for 1 days work,'' and replace it with a plan to provide one-thirtieth 
of a month's pay model, which would include both pay and allowances. 
Even with allowances, pay would be less than the current system. When 
concerns were addressed about this proposal, a retention bonus was the 
suggested solution to keep pay at the current levels. Allowances differ 
between individuals and can be affected by commute distances and even 
zip codes. Certain allowances that are unlikely to be paid uniformly 
include geographic differences, housing variables, tuition assistance, 
travel, and adjustments to compensate for missing health care.
    The NMVA strongly recommends that the Reserve pay system ``2 days 
pay for 1 days work,'' be funded and retained, as is.
    Ensure adequate funding to equip Guard and Reserve at a level that 
allows them to carry out their mission. Do not turn these crucial 
assets over to the active duty force. In the same vein we ask that the 
Congress ensure adequate funding that allows a Guardsman/Reservist to 
complete 48 drills, and 15 annual training days per member, per year. 
DOD has been tempted to expend some of these funds on active duty 
support rather than personnel readiness.
    The NMVA strongly recommends that Reserve Program funding remain at 
sufficient levels to adequately train, equip and support the robust 
Reserve force that has been so critical and successful during our 
Nation's recent major conflicts.

                     ARMED FORCES RETIREMENT HOMES

    Following Hurricane Kristina, Navy/Marine Corps residents from 
AFRJ-Gulfport were evacuated from the hurricane-devastated campus and 
were moved to the AFRH-Washington DC campus. Dormitories were reopened 
that are in need of refurbishing.
    NMVA urges this subcommittee to fund upgrades to the Washington DC 
facility, and also provide funding to rebuild the Gulfport facility.

                               CONCLUSION

    Mr. Chairman and distinguished Members of the subcommittee the 
Alliance again wishes to emphasize that we are grateful for and 
delighted with the large steps forward that the Congress has affected 
the last few years. We are aware of the continuing concern all of the 
subcommittee's Members have shown for the health and welfare of our 
service personnel and their families. Therefore, we hope that this 
subcommittee can further advance these suggestions in this committee or 
in other positions that the Members hold. We are very grateful for the 
opportunity to submit these issues of crucial concern to our collective 
memberships. Thank you.

    Senator Stevens. Our next witness is Seth Benge, the 
Associations for America's Defense. Good morning.

STATEMENT OF SETH BENGE, DIRECTOR OF LEGISLATION, 
            RESERVE ENLISTED ASSOCIATION, ON BEHALF OF 
            THE ASSOCIATIONS FOR AMERICA'S DEFENSE 
            (A4AD)
    Mr. Benge. Mr. Chairman, good morning.
    As a sergeant in the Marine Corps Reserve, I was deployed 
last year to Ramadi, Iraq for 7 months, from March to October. 
Presently, I serve as the legislative director for the Reserve 
Enlisted Association. I am testifying on behalf of the 
Associations for America's Defense. A4AD looks at national 
defense, equipment, force structure and policy issues not 
normally addressed by the military support community.
    First, we would like to thank the subcommittee for the 
ongoing stewardship on defense issues at a time of war. Its 
pro-defense, nonpartisan leadership sets the example.
    Support for our troops fighting the global war on terror is 
of primary importance and warrants top priority. The military 
needs to continually train with not only the tactics, 
techniques, and procedures, but with the equipment they will 
use while deployed. It is tempting to focus only on those that 
are in the fight. And they should be given what they need to 
complete the mission. But before any soldier gets to combat, 
they first must be trained, and we should continue to follow 
the axiom, ``train as you fight.''
    If we could buy enough equipment for units before 
deployment, the commanders would have a better chance to 
evaluate new gear and give our forces time to become more 
proficient in its use. Prior training frees soldiers to engage 
in more important aspect of their mission. Armored Humvees, 
personal body armor, and improvise explosive device (IED) 
jamming devices are saving lives. But we would rather stop the 
IEDs before they explode. I saw vehicles with their front ends 
blown off, or hit by rocket powered grenades (RPG), with 
relatively minor injuries to the crew. Conversely, the 
terrorists have tried to overcome the armor by larger 
explosives, and changing their tactics.
    Having Iraqis tell us the location of the IEDs, individual 
soldiers spotting them, or explosive ordnance disposal teams 
finding and clearing them, are the most common and preferred 
methods of defense against roadside bombs. Trying to master a 
vehicle can be a distraction from these important measures.
    Equipment is only a tool, and is far more effective when 
soldiers are given the time in advance to develop the skills to 
use it. A vehicle that weighs several tons more than an 
unarmored one drives differently. It turns, accelerates, and 
decelerates, and stops differently. The skills required to 
operate this equipment need to be learned before driving out 
the front gate of a base in a foreign land.
    Individual movement with personal gear should be a matter 
of muscle memory brought on by months of use. Just moving in 
and out of an armored vehicle with full gear and weapons is not 
the same as simply getting out of an unarmored Humvee with just 
a flack and Kevlar on. Running down streets or climbing over 
walls, or going into and out of houses, is also different in 
full combat gear. Without practice, it is easy to get tangled, 
tripped up, slowed down, and become an easy target.
    Recently, there was some debate in the media regarding 
marines being issued even more body armor; specifically, side 
plates. Many troops feel that the 70-plus pounds of gear, 
armor, and ammo, that today's marines and soldiers wear, is too 
much. These troops need to wear the gear earlier to adjust. 
Otherwise, it may not be worn or shed in the heat of battle.
    Another glaring area is with communication equipment. 
Currently, we have small handheld radios used to speak among 
individuals. But we didn't receive these until we were in the 
country for several weeks. In an environment where the enemy 
can appear and disappear into the crowd, where there are 
firefights around the corner, the ability to share information 
horizontally among the soldiers is as important as the ability 
to send information up the chain of command. Combat is not the 
time or place for hands-on training with such important tools.
    In the Guard and Reserve this training is especially 
difficult because they have become increasingly underequipped. 
With the shift to have these troops train, mobilize, deploy, so 
that they can be more operational, we need to assure that the 
Guard and Reserve also have the proper funding for equipment.
    As you continue to buy new equipment and start to put money 
into resetting the force, I would urge the subcommittee to 
remember that victory in combat begins the moment that young 
men and women step off of a bus and into basic training.
    Thank you again for this opportunity to testify before this 
subcommittee.
    Senator Inouye [presiding]. I thank you very much, sir.
    Mr. Benge. Thank you, Senator.
    [The statement follows:]

                    Prepared Statement of Seth Benge

                              INTRODUCTION

    Mr. Chairman and distinguished Members of the committee, the 
Associations for America's Defense (A4AD) are very grateful for the 
invitation to testify before you about our views and suggestions 
concerning current and future issues facing the defense appropriations.
    The Association for America's Defense is an adhoc group of 11 
military and veteran associations that have concerns about national 
security issues that are not normally addressed by either The Military 
Coalition, or the National Military and Veterans Alliance. Among the 
issues that are addressed are equipment, end strength, force structure, 
and defense policy. Collectively, we represent about members, who are 
serving our Nation, or who have done so in the past.
    A4AD, also, cooperatively works with other associations, who 
provide input while not including their association name to the 
membership roster.

              CURRENT VERSUS FUTURE; ISSUES FACING DEFENSE

    The Associations for America's Defense would like to thank this 
subcommittee for the on-going stewardship that it has demonstrated on 
issues of defense. At a time of war, its pro-defense and non-partisan 
leadership continues to set the example.
    Lessons learned from the war have only fueled the debate on what is 
needed for National Defense. Your committee faces numerous issues and 
decisions. You are challenged at weighing people against technology, 
and where to invest dollars. Multi-generations of weapons are being 
touted, forcing a competition for limited budgetary resources.
    Members of A4AD group are concerned that hasty recommendations 
about U.S. Defense policy could place national security at risk. 
Careful study is needed to make the right choice. A4AD is pleased that 
Congress and this subcommittee continue oversight in these decisions.
    Pentagon criticism is that our Armed Forces are archaic; structured 
for a Cold War. Yet it has been those legacy systems that have brought 
success in Iraq and Afghanistan.
Are Business Practices Practical?
    The 2005 QDR emphasizes the needs of the area combat commanders, 
and seeks a ``demand driven'' approach to ``reduce unnecessary program 
redundancy, improve joint interoperability and streamline acquisition 
and budgeting processes.'' In industry ``demand driven'' flow is called 
Just-in-Time (JIT) management.
    JIT attacks waste in the manufacturing process, working to identify 
and reduce or eliminate excess set-up and lead times, inventory, and 
scrap by exposing problems and bottlenecks and streamlining production.
    DOD's JIT concept is to reduce the amount and length in the 
logistics tail. The idea is to minimize investment, and get the bullet 
and spare parts to the troops on the line as they need them. The 
Pentagon wants to eliminate a ``steel mountain'' of supplies.
    Industry has been trying to perfect JIT for 30 years. A few 
industries have been able to use it, in others it causes hiccups. The 
risk is a shut down in production, and the more complex the system, the 
higher the risk. In many cases, the inventorying costs are shifted from 
producer to supplier to stock parts at a different site, which 
increases the costs of spare parts. Shipping expenses go up, as 
shortages tend to be ``overnighted'' when the scheduling goes haywire. 
In most cases, the bottom line is a more expensive product, which for 
the Pentagon would mean a higher DOD expense.
    The Pentagon has suggested the reduction of redundancy by 
consolidation and the elimination of military positions which would be 
replaced by contractors. The question that arises is ``What are the 
elements that ensure successful implementation outcomes between the 
government purchasing offices and various commercial contractors?'' If 
outcomes become less predictable the risk is not to contractors but to 
soldiers, sailors, marines, and airman and the war effort.
Dependence On Foreign Partnership
    The QDR highlights DOD's move ``from a large institutional force to 
a future force that is tailored for expeditionary operations.'' The QDR 
also states that ``the future force must be more tailored, more 
accessible to the joint commander, and better configured to operate 
with other agencies and international partners in complex operations.'' 
and that ``combatant commanders will expand the concept of contracting 
volunteers . . . ''
    Echoing the QDR, Gordon England, the deputy defense secretary 
stated in March at the Defense Security Cooperation Agency Worldwide 
Conference that in order ``to meet the diverse security challenges of 
the future, DOD must strengthen and adapt long-term alliances, as well 
as form relationships with new international partners, enabling them to 
enhance their capabilities.''
    "Effective multinational efforts are essential to solve the 
problems we face together,'' England added.
    The Navy seeks a ``1,000-ship Navy.'' The Chief of Naval 
Operations, Admiral Mike Mullen, called for ``a fleet-in-being . . . 
comprised of all freedom-loving nations, standing watch over the seas, 
standing watch over each other.'' Mullen's concept is to build on 
existing international security agreements to extend the global reach 
of sea power. ``We need to be a team player, a leader, for that 1,000-
ship Navy and a citizen in good standing for the city at sea,'' he 
said.
    The risk of basing a national security policy on foreign interests 
and good world citizenship is increasing uncertainty because the United 
States does not necessarily control our foreign partners, countries 
whose objectives may differ with from own. This is more an exercise of 
consensus building rather than security integration. Alliances should 
be viewed as a tool and a force multiplier, but not the foundation of 
National Security.
    While an idea or a vision can be a catalyst to enthusiasm, this 
should not lead directly to change. Ideas should be tested and be 
judged not by a logic structure but by an outcome. The United States 
will always need a minimum force structure that permits us to defend 
ourselves.

                  IS THERE A PLACE FOR LEGACY WEAPONS?

    A4AD suggests that existing legacy weapons be shifted from the 
active component to the Reserve. The last war's legacy may be the next 
war's necessity. Before 9/11 the Navy wanted to eliminate its USNR CB 
battalions as being a Cold War legacy. In Operation Iraqi Freedom, not 
only is the integrated Active and Reserve CB force national rebuilding, 
but is also involved in explosive disposal. In both the Army and the 
Marine Corps, artillery units are being retrained in civil affairs, but 
if military conflict breaks out in Korea, the units will be needed with 
their artillery.
    Both the Pentagon and the Task Force on a Unified Security Budget 
for the United States have suggested cutting $62 billion from what has 
been labeled as Cold War weapons programs. While the Pentagon 
emphasizes the need to seek new technologies, the Task Force wants to 
use this ``dividend'' for homeland security, halt the spread of nuclear 
weapons.
    The F-22 fighter, Joint Strike Fighter, the Virginia-class 
submarine, the DD(X) destroyer, the V-22 tilt-rotor aircraft and the C-
130J cargo plane are just examples of new technology that has been 
labeled as legacy weapons. The key is that these weapons are needed to 
replace earlier aging weapons systems.

                            AGING EQUIPMENT

    Crash Highlights An Aging Fleet.--A giant C-5A Air Force cargo 
plane that crashed and broke apart while making an emergency landing at 
Dover Air Force Base was part of an aging fleet whose future is being 
debated. The 21-year-old aircraft that crashed was one that's been 
modernized.
    The U.S. Military has a number of aging air frames, besides the C-
5A, the Air Force has the F-15 fighter. The Navy and the Marines are 
flying C-9 transports and H-46 helicopters. GAO Report 01-163 reported 
that tactical Aircraft modernization plans would not reduce the average 
age of these aircraft. Nearly 5 years of war have just added to the 
wear and fatigue.

Tactical Air
    The rapidly aging F-15 Eagle first flew in the 1970s. In mock 
combat against MiG, Sukhoi and Mirage fighters, foreign air forces have 
scored unexpected successes against the Eagles. Modern, Russian-
designed ``double-digit'' surface-to-air missile systems (SAMs) now 
available on the export market have also caught up to the F-15 in 
capability. New air dominance platforms are urgently needed. The F/A-22 
Raptor and the Joint Strike F-35 fighters represent vital and 
complementary capabilities must be fully funded.
    The recent Quadrennial Defense Review has cut the Air Force's 
planned F-22 buy in half--from 381 to 183 fighters. To compensate, the 
Air Force will be forced to extend the service lives of other fighters 
and depend more on advanced unmanned systems. Congress should reinstate 
full procurement of 381 fighters for a minimum deployment of one 
squadron for each of the service's 10 Air Expeditionary Forces.
    Air National Guard needs E-8C, A-10, F-16 block 42 re-engining.
    A4AD supports modernization of critical USMC aviation capabilities 
available through MV-22, JSF-STOVL, and HLR programs. The JSF 
development and support of constructive cost-control practices should 
be fully funded for both the Navy and Marine Corps.
    The Navy and Marine Corps are also approaching aging aircraft in a 
different fashion. They are transferring tactical F-18 aircraft from 
the Reserve to the Active Component. This will leave Reserve Component 
units without hardware this will either reduce readiness of Reserve 
operational units, or cause units to be disbanded.

Airlift
    Air Mobility Command assets fly 36,478 hours per month and 
participate in major operations including earthquake and hurricane 
relief, Operation Enduring Freedom, Operation Iraqi Freedom, Operation 
Noble Eagle, and SOUTHCOM. Their contributions in moving cargo and 
passengers are absolutely indispensable to American warfighters in the 
Global War on Terrorism. Both Air Force and Naval airframes and air 
crew are being stressed by these lift missions.
    As the U.S. military continues to become more expeditionary, it 
will require more airlift. DOD should complete the planned buy of 180 
C-17s, and add an additional 60 aircraft at a rate of 15 aircraft per 
year to account to ensure an adequate airlift force for the future and 
allow for attrition--C-17s are being worn out at a higher rate than 
anticipated in the Global War on Terrorism.
    DOD should also continue with a joint multi-year procurement of C-
130Js and press ahead with a C-5 Reliability Enhancement and Re-
engining Program test to see where airlift funds may be best allocated.
    The Navy and Marine Corps need C-40A replacements for the C-9B 
aircraft. The Navy requires Navy Unique Fleet Essential Airlift. The 
maximum range for the C-40A is approximately 1,500 miles more than the 
C-9 with a greater airlift capacity. The C-40A, a derivative of the 
737-700C is a Federal Aviation Administration (FAA) certified, while 
the aging C-9 fleet is not compliant with either future global 
navigation requirements or noise abatement standards that restrict 
flights into European airfields. Twenty-two aircraft remain to be 
replaced.

Tankers
    In need for air refueling is reconfirmed on a daily basis in 
worldwide DOD operations. A significant number of tankers are old and 
plagued with structural problems. The Air Force would like to retire as 
many as 131 of the Eisenhower-era KC-135E tankers by the end of the 
decade.
    The controversy that surrounded the KC-767 tanker-lease proposal 
has delayed acquisition of a new tanker. DOD and Congress must work 
together to replacement of these aircraft. A replacement could come in 
the form of a hybrid tanker/airlifter aircraft, which when produced 
could ``swing'' from one mission to the other as required. Congress 
should also look at re-engining a portion of the KC-135 fleet as a 
short-term fix until newer platforms come online.
    Procurement F-22, F-35, MV-22A, C40A and a replacement for the KC-
135 needs to be accelerated and modernized, and mobility requirements 
need to be reported upon.

Navy Fleet Size
    The number of ships in the fleet is dropping to 281 ships. The 
Chief of Naval Operations, Admiral Mike Mullen, has set the target for 
the new fleet at 313 ships.
    The Administration procurement rate has been too low.
    A4AD favors a fleet no smaller than 313 ships because of an added 
flexibility to respond to emerging threats. Congress should explore 
options to current methods of ship design, configuration, and 
shipbuilding that have created billion dollar destroyers.

                              OTHER ISSUES

Increasing End Strength
    Op tempo and deployment rotation will begin to wear. The official 
position of rotation of 1 year deployed for 3 years duty for active 
duty and 1 year in 6 for the Guard and Reserve are targets, but not yet 
reality. Increases are needed in the active component to reduce the 
building stress, and to reduce the need for Guard and Reserve call-up. 
Any unfunded end-strength increases would put readiness at risk.
    The A4AD supports funding increases in support of the end strength 
boosts of the Active Duty Component of the Army and Marine Corps that 
have been recommended by Defense authorizers.
    A4AD also hopes that this subcommittee would include language 
reminding the Department of Defense that once appropriated that each 
service should proactively recruit to try to attain these numbers.
    Now is not the time to be cutting the Guard and Reserve. Incentives 
should be utilized to attract prior service members into a growing 
Reserve. Additionally, a moratorium on changes to end strength of the 
Guard and Reserve should be put into place until Commission on the 
Guard and Reserve can report back to Congress with recommendations.
    The A4AD would like to also put a freeze on reductions to the Guard 
and Reserve manning level, holding to the fiscal year 2006 levels.
Regeneration/Resetting of Equipment
    A4AD would like to thank this committee for the regeneration money 
that was included in the supplemental.
    Aging equipment, high usage rates, austere conditions in Iraq, and 
combat losses are affecting future readiness. Equipment is being used 
at 5 to 10 times the programmed rate.
    Additionally, to provide the best protection possible for soldiers 
and marines in the combat theater, many units have left their equipment 
behind for follow-on units, and are returning with no equipment. 
Without equipment on which to train after de-mobilization, readiness 
will become an issue.
    The Army, Army Reserve, Army National Guard, Marines and Marine 
Forces Reserve need continued funding by Congress for equipment 
replacement.

Counter-measures to Improvised Explosive Devices
    A4AD would like to commend the committee for supporting enhanced 
countermeasures for air and ground troops now deployed. For ground 
troops, the biggest threat to safety continues to be the improvised 
explosive device or IED.
    Cost effective solutions that can provide an enhanced degree of 
safety do exist, however, in the form of electronic countermeasures. 
These devices work in one of two ways: either by pre-detonating an IED 
or by preventing the detonation through jamming of the signal. Officers 
returning from the field indicate the better choice is pre-detonation. 
Insurgents seem to be able to adapt to jamming technologies.
    Also, insurgents can overcome armored protection by increasing the 
explosive payload. With the right technology, it could be possible to 
detonate these weapons in the workshops.
    We encourage the committee to look at specifying additional funds 
for the purpose of researching, purchasing and deploying more 
electronic countermeasures for ground troops. In this way we can 
provide a greater degree of safety to all of the troops facing the IED 
threat, no matter what type of vehicle they may be operating.
    Continued emphasis is needed for the procurement of sufficient 
quantities of electronic countermeasures to protect personnel deployed 
in the battle space.

Aircraft Survivability Equipment
    Air crews face non-traditional threats used by non-conventional 
forces and deserve the best available warning and countermeasure 
equipment available to provide the greatest degree of safety possible. 
The majority of funds have been expended on fixed aircraft protection; 
approximately 75 percent of U.S. air losses have been rotary wing.
    A4AD hopes that the committee will continue to support the purchase 
and deployment of warning and countermeasures systems with an emphasis 
on rotary wing aircraft across all of the services and insure that the 
latest and most advanced versions of these protections are made 
available to all units now deployed or slated for deployment in the 
future--be they Active Duty, Guard or Reserve.

Maintaining the National Guard and Reserve Equipment List
    A single equipment appropriation for each service would not 
guarantee that the National Guard and Reserve Components would get any 
new equipment. The National Guard and Reserve Equipment Account (NGREA) 
is vital to ensuring that the Guard and Reserve has some funding to 
procure essential equipment that has not been funded by the services. 
Without congressional oversight, dollars intended for Guard and Reserve 
equipment might be redirected to Active Duty non-funded requirements. 
This will lead to decreased readiness.
    This move is reminiscent of the attempt by DOD to consolidate all 
pay and O&M accounts into one appropriation per service. Any action by 
the Pentagon to circumvent congressional oversight should be resisted.
    A4AD asks this committee to continue to provide appropriations 
against unfunded National Guard and Reserve equipment requirements. To 
appropriate funds to Guard and Reserve equipment would help emphasize 
that the Active Duty is exploring dead-ends by suggesting the transfer 
of Reserve equipment away from the Reservists.
Unfunded Equipment Requirements. (The services are not listed in 
        priority order.)

                        [In millions of dollars]
------------------------------------------------------------------------
                         Agency                               Amount
------------------------------------------------------------------------
Air Force:
    F/A-22 and F/35 Joint Strike Fighter................  ..............
    Accelerate C-17 and C-130J procurement..............  ..............
    Update Tanker Fleet.................................  ..............
    E-10 multi-sensor Command and Control Aircraft......  ..............
    Space Radar & Transformational Satellite (TSAT)       ..............
     system.............................................
Air Force Reserve:
    C-5A ADS............................................            11.8
    LAIRCM (Large Aircraft I/R Counter Measures)........           228.5
    F-16 ALR-69A........................................            18.8
    C-130 APN-241 Radar.................................            21.0
    MC-130E CARA/ETCAS..................................            14.6
Air Guard:
    Helmet Mounted Cueing System (HMCS).................           270.8
    A-10 SATCOM Radio...................................             6.3
    KC-135 Night Vision Compatibility Lighting..........            47.5
    C-130, C-5, C-17 LAIRCM/C-5 ADS.....................             656
    F-16, A-10, C-130, C-5 Simulators...................  ..............
Army:
    M88 Improved Recovery Vehicles......................           331.9
    C-47 Chinook Helicopters............................           331.5
    UH-60 Blackhawk replacement Helicopters.............              71
Army Reserve:
    Light Medium Tactical Vehicles [LMTV]...............             306
    Medium Tractors.....................................             304
    Night Vision systems................................  ..............
    Chemical/Bio/Radiological detection/alarm systems...              .8
    Medical Equipment...................................               3
Army Guard:
    High Mobility Multi-Purpose Wheeled Vehicle (HMHWV).           3,285
    Family of Medium Tactical Vehicles..................           4,582
    Single Channel Ground Air Radio Sys (SINCGARS                    222
     replaces VRC-12)...................................
    Small Arms..........................................              96
    Night Vision (AN/PVS-14/PAS-13).....................           1,439
Marine Corps:
    V-22 Osprey Aircraft in fiscal year 2007 (2)........             154
    (APN) KC-130J Aircraft Procurement (8)..............           678.7
    (PMC) High Mobility Artillery Rocket System (HIMARS)           170.7
    (PMC) M777A1 Lightweight 155MM Howitzer (LW 155)                12.4
     Program............................................
Reserve Marine Corps:
    (OMMCR)--Infantry Combat Equipment (ICE)--Reserves..            11.7
    Field Medical Equipment (FFME)......................             3.5
    Shelter and Tents (Command Post Large Tactical                   2.2
     Shelter)...........................................
    Shelters and Tents (Ultra Lightweight Camouflage Net             5.3
     System.............................................
    Individual First Aid Kit (IFAK).....................             3.5
    Infantry Combat Equipment (ICE).....................            11.7
    Portable Tent Lighting..............................             3.5
Navy:
    Improvised Explosives Device Countermeasure.........            16.8
    MH-60S/MH-60R procurement...........................             140
    Lease (3) commercial Scan Eagle (SHUAV) Systems.....            39.7
    Expeditionary Riverine Funding......................              20
    Accelerate (2) LCS..................................             520
Naval Reserve:
    Naval Coastal Warfare Table of Allowance Equipment..            24.3
    Explosive Ordnance Disposal Table of Allowance                   2.4
     Equipment..........................................
    NCF Tactical Vehicles and Support Equipment.........            30.1
    C-40 A Combo cargo/passenger Airlift................              76
------------------------------------------------------------------------

                               CONCLUSION

    A4AD is a working group of military and veteran associations 
looking beyond personnel issues to the broader issues of National 
Defense.
    Cuts in manpower and force structure, simultaneously in the Active 
and Reserve Component are concerns in that it can have a detrimental 
effect on surge and operational capability.
    This testimony is an overview, and expanded data on information 
within this document can be provided upon request.
    Thank you for your ongoing support of the Nation, the Armed 
Services, and the fine young men and women who defend our country. 
Please contact us with any questions.

    Senator Inouye. The next witness will be Lieutenant General 
Dennis McCarthy.

STATEMENT OF LIEUTENANT GENERAL DENNIS M. McCARTHY, 
            UNITED STATES MARINE CORPS (RETIRED), 
            EXECUTIVE DIRECTOR, RESERVE OFFICERS 
            ASSOCIATION OF THE UNITED STATES
    General McCarthy. Senator Inouye, thank you very much. And 
to the chairman and the members of the subcommittee, I 
appreciate the opportunity to give a brief statement.
    The magnificent contributions of over 500,000 members of 
the Reserve components have enabled our Nation to conduct the 
first extended war to be fought with an all volunteer force. 
When the concept of an all volunteer force was originated in 
the 1970s, it was considered primarily a peacetime solution. 
Most believed that an extended war would force the Nation to 
return to the draft. Instead, no draft has been necessary 
because the Reserve components have surged forward to augment 
and reinforce the Active component. In a very real sense, the 
Reserve components have saved the country from a draft.
    The Reserve component that surged in the past 5 years was 
not formed after September 11. It was formed in the 1990s based 
on the investments made by the Congress and by the dedication 
of its leaders, both Active and Reserve. The condition of the 
Reserve today is different than it was 5 years ago. In some 
ways, it is better. Almost every leader is a combat-tested 
veteran, and experience and confidence abound.
    In other ways, however, the condition is worse. Equipment 
has been destroyed, worn out, or left overseas. Financial 
resources are stressed. And although every defense leader has 
recognized the need to reset the force, my concern is that we 
are not putting sufficient resources toward resetting the 
Reserve force. I see a number of ominous signs.
    First, funding for Reserve training has been cut. Aviation 
units of several services are transferring aircraft from the 
Reserve component to the Active component, and decommissioning 
or putting into cadre status squadrons that flew just recently 
in combat. There is a widespread lack of equipment needed for 
homeland security and consequence management; primarily, 
engineering and vehicles. And there continues to be a serious 
lack of interoperable communications equipment.
    The rationale for these conditions is that current 
operations must be funded first, and that maybe the Reserve 
should just take a few years off and rest up. I believe that 
approach is fatally flawed. The caliber of young men and women 
that we have today are not going to sit around empty training 
centers and twiddle their thumbs because they do not have the 
equipment or funds to train. If the country is not interested 
in funding them, they will find other things to do.
    History teaches a valuable lesson. At the end of the Korean 
War, just about everybody in the Guard and Reserve was a combat 
veteran. And the units were probably at the high water mark of 
their combat capability. Ten or so years later, in the 1960s, 
those same units were in very poor shape. The country lacked 
confidence in them, called them ``weekend warriors,'' and used 
the draft to fill out the Active force.
    If we do not reset the Reserve force starting now, we will 
begin the trip down the same road. The next time the Nation 
needs its Guard and Reserve, whether at home or abroad, will 
they be the combat-capable citizen warriors of 2006, or will 
they be the next generation of weekend warriors? Put another 
way, will the Reserves be as ready for the next crisis as they 
were for this one? If they are not, is the Nation ready for a 
draft?
    These are tough questions, and I understand the competing 
priorities. I thank you and the subcommittee for your 
willingness to take action on them. Thank you, sir.
    Senator Inouye. Thank you, General McCarthy. And I can 
assure you that my colleagues and I are very sensitive to the 
questions you just raised.
    General McCarthy. Thank you, sir. We know you are.
    [The statement follows:]

                Prepared Statement of Dennis M. McCarthy

    The Reserve Officers Association of the United States (ROA) is a 
professional association of commissioned and warrant officers of our 
Nation's seven uniformed services, and their spouses. ROA was founded 
in 1922 during the drawdown years following the end of World War I. It 
was formed as a permanent institution dedicated to National Defense, 
with a goal to teach America about the dangers of unpreparedness. When 
chartered by Congress in 1950, the act established the objective of ROA 
to: ``. . . support and promote the development and execution of a 
military policy for the United States that will provide adequate 
National Security.'' The mission of ROA is to advocate strong Reserve 
Components and national security, and to support Reserve officers in 
their military and civilian lives.
    The association's 75,000 members include Reserve and Guard 
soldiers, sailors, marines, airmen, and coast guardsmen who frequently 
serve on active duty to meet critical needs of the uniformed services 
and their families. ROA's membership also includes officers from the 
U.S. Public Health Service and the National Oceanic and Atmospheric 
Administration who often are first responders during national disasters 
and help prepare for homeland security. ROA is represented in each 
State with 55 departments plus departments in Latin America, the 
District of Columbia, Europe, the Far East, and Puerto Rico. Each 
department has several chapters throughout the State. ROA has more than 
450 chapters worldwide.
    ROA is a member of The Military Coalition where it co-chairs the 
Tax and Social Security Committee. ROA is also a member of the National 
Military/Veterans Alliance. Overall, ROA works with 75 military, 
veterans and family support organizations.

                             ROA PRIORITIES

    The Reserve Officers Association calendar year 2006 legislative 
priorities are:
  --Full funding of equipment and training requirements for the 
        National Guard and Reserves.
  --Providing adequate resource and authorities to support the current 
        recruiting and retention requirements of the National Guard and 
        Reserves.

Issues To Help Fund, Equip, and Train
    Fully fund Military Pay Appropriation to guarantee a minimum of 48 
drills and 2 weeks training for each selected Reservist in every 
service.
    Sustain authorization and appropriation to National Guard and 
Reserve Equipment Account (NGREA) to permit flexibility for Reserve 
Chiefs in support of mission and readiness needs.
    Optimize funding for additional training, preparation and 
operational support.
    Regenerate the Reserve Components (RC) with current field, combat, 
and communication compatible equipment.
    Keep Active and Reserve personnel and Operation and Maintenance 
funding separate.
    Equip Reserve Component members with equivalent personal protection 
as Active Component Forces.

Issues To Assist Recruiting and Retention
    Support incentives for affiliation, reenlistment, retention and 
continuation in the RC. Allow RC bonus payments through 20 years of 
service.
            Pay and Compensation
    Differential pay for federal employees.
    Professional pay for RC medical professionals.
    Eliminate the one-thirtieth rule for Aviation Career Incentive Pay, 
Career Enlisted Flyers Incentive Pay, Diving Special Duty Pay, and 
Hazardous Duty Incentive Pay.
            Education
    Increase MGIB-Selected Reserve to 47 percent of MGIB-Active.
            Health Care
    Expand the 28 percent co-payment to TRICARE Reserve Select to 
unemployed and uninsured Ready Reservists.
    Extend military coverage for restorative dental care for up to 180 
days following deployment.
            Spouse Support
    Repeal the SBP-Dependency Indemnity Clause (DIC) offset.
    ROA's goals come from our members as they identify problems or 
suggest improvements to the situations they encounter. Since we are not 
in the Department of Defense's chain of command we provide a source for 
candid discourse without fear of retaliation. ROA will continue to 
support the troops in the field in any way we can.
      national guard and reserve equipment and personnel accounts

Resetting the Force
    Resetting or reconstitution of the force is the process to restore 
people, aircraft and equipment to a high state of readiness following a 
period of higher-than-normal, or surge, operations. The purpose of 
force reconstitution is to restore optimum combat power.
    Operations Iraqi Freedom and Enduring Freedom are consuming the 
force's equipment. Wear and tear is at a rate many times higher then 
planned. Battle damage expends additional resources. Factors affecting 
equipment availability:
  --Equipment Left in Theater.--Leaving equipment behind for follow is 
        practical. Yet, it also affects the returning units from which 
        the equipment was the original allowance. Future training is 
        downgraded, directly affecting readiness.
  --Repair.--Encompasses cost of parts, stand-down of assets while 
        waiting for parts, scheduling backlogs for added contingency 
        equipment into a normal repair cycle. This may require hiring 
        additional personnel to reduce scheduling overloads.
  --Depot Level Maintenance.--Factors in delayed scheduled maintenance 
        resulting in aircraft and equipment being in violation of 
        maintenance requirements during engagements.
  --Cannibalization.--Can be commonplace as units strip essential parts 
        and components from already ``broken'' equipment in order to 
        spare parts. This practice can lead to equipment loss.
  --Replace.--Loss of inventory that can't be salvaged and must be 
        replaced must be considered as part of the reconstitution 
        effort.

Personnel
    Training.--When Reserve Component personnel participate in an 
operation they are focused on the needs of the particular mission, 
which may not include everything required to maintain qualification 
status in their military occupation specialty (MOS, AFSC, NEC).
    There are many different aspects of training that are affected.
  --Skills that must be refreshed for specialty.
  --Training needed for upgrade but delayed.
  --Ancillary training missed.
  --Professional military education needed to stay competitive.
  --Professional continuing education requirements for single-managed 
        career fields and other certified or licensed specialties 
        required annually.
  --Graduate education in business related areas to address force 
        transformation and induce officer retention.
    Loss.--There are particular challenges that occur to the force when 
a loss occurs during a mobilization or operation and depending on the 
specialty this can be a particularly critical requirement that must be 
met.
  --Recruiting may require particular attention to enticing certain 
        specialties or skills to fill critical billets.
  --Minimum levels of training (84 days basic, plus specialty 
        training).
  --Retraining may be required due to force leveling as emphasis is 
        shifted within the service to meet emerging requirements.

End Strength
    The ROA would like to also put a freeze on reductions to the Guard 
and Reserve manning levels. ROA urges this subcommittee to fund to last 
year's levels.
    In a time of war and the highest OPTEMPO in recent history, it is 
wrong to make cuts to the end strength of the Reserve Components. The 
Commission on National Guard and Reserve will be examining Reserve 
Force Structure, and will make recommendations as to size in its report 
to the Congress in March 2007.
    As Congress maintained the Army Guard strengths, it is essential 
that the end strength of the Army Reserve should not be cut either. We 
urge you to fund the USAR at 205,000.
    To meet the challenge of changes in end strength, the AF Reserve 
Command has prioritized all of its unit and IMA personnel positions. 
Until recommendations are made by the Commission on the Guard and 
Reserve, end strength should not be changed.
    The Navy's Reserve has been cut over 18 percent in the last 5 years 
and by half in the last 15 years. We need to pause to permit force 
planning and strategy to catch-up with budget reductions.

Readiness
    Readiness is a product of many factors, including the quality of 
officers and enlisted, full staffing, extensive training and exercises, 
well-maintained weapons and authorized equipment, efficient procedures, 
and the capacity to operate at a fast tempo. The pace of wartime 
operations has a major impact on service members.
    The Defense Department does not attempt to keep all active units at 
the C-1 level. The risk is without resetting the force returning Active 
and Reserve units will be C-4 or lower because of missing equipment, 
and without authorized equipment their training levels will 
deteriorate.

                         NONFUNDED ARMY RESERVE

    Funding must be increased across the board for the Department of 
Defense. Shortfalls are especially glaring relative to the Army and the 
Army RC components of the Reserve and Guard. We urge substantial 
increases in funding for all these Army entities.
    If the USAR is to be an operational force in a high OPTEMPO then an 
investment must be made. The AR will have a deficit of over $632 
million for fiscal year 2007 in its Personnel ($446 million) and 
Operations and Maintenance ($186 million) accounts.
    The AR is projecting a long-term shortfall of nearly 5,000 company 
grade officers, yet its budget for the Army Reserve Basic Officer 
Course, which trains both new officers entering the Army Reserve and 
the Army National Guard, is funded for about 850 of the 2,300 AR and 
ARNG officers programmed for attendance. Similar major shortfalls will 
occur in recruiting and retention incentives ($322 million), 
sustainment training ($41 million), tuition assistance ($20 million), 
and in a variety of programs related to recruiter support ($14 
million), family ($9 million), marketing program ($11 million) and 
chaplain support ($8 million), and other areas as well.

New Usar Equipment Strategy--How It Works
    The Army Reserve has developed a new strategy to make the most 
effective and efficient use of its equipment. The new strategy supports 
the Army Force Generation and the Army Reserve Expeditionary Force 
(AREF) management systems. It ensures the best available equipment is 
provided to Army Reserve soldiers where and when they need it, as they 
move through the pre-mobilization training phase of the AREF cycle 
toward mobilization and deployment.
    Individual equipment, such as weapons and masks, will be maintained 
at unit stations, with enough of a unit's major items--trucks, 
forklifts, etc.--to allow for effective training and to support 
homeland defense requirements.
    In the new model, units will be moved to the equipment located at 
the training sites, rather than moving equipment to the units. Creating 
centrally located equipment pools to support directed and focused 
training, will enable the Army Reserve to yield efficiencies in 
resourcing and maintaining its equipment.

                   ARMY RESERVE EQUIPMENT PRIORITIES

                        [In millions of dollars]
------------------------------------------------------------------------
                        Equipment                             Amount
------------------------------------------------------------------------
Procurement of equipment to support modularity:
    Light-medium trucks (25 percent compatibility)......             306
    Medium tractors (50 percent compatibility)..........             305
    Night vision systems................................  ..............
    Chemical/biological/radiological detection/alarm                   8
     systems............................................
    Medical Equipment...................................               3
Sustainment:
    Sustainment of depot maintenance levels.............  ..............
    Recapitalization of tactical truck inventory........  ..............
    Army Reserve tactical maintenance contract labor to   ..............
     reduce mobilization and training equipment backlogs
------------------------------------------------------------------------

                 AIR FORCE RESERVE EQUIPMENT PRIORITIES

    ROA continues to support military aircraft Multi-Year Procurement 
(MYP) for more C-17s and more C-130Js for USAF. The Air Force Reserve 
(AFR) is working to continue as an interoperable member of the Total 
Air Force to support mission requirements of the joint warfighter. To 
achieve interoperability in the future, the Air Force Reserve top five 
priorities for ``Other Equipment'' are:

C-5A Airlift Defensive System (ADS)--$11,800,000
    Install ADS systems onto AFRC C-5As at Lackland and Wright-
Patterson AFBs where current aircraft do not have defense systems 
against IR threats.

Large Aircraft Infrared Countermeasures (LAIRCM)--$228,500,000
    Program of record for Mobility Air Forces (MAF) aircraft. The 
system increases crew-warning time, decreases false alarm rates and 
automatically counters advanced infrared missile systems. The missile 
warning subsystem will use multiple sensors to provide full spatial 
coverage for C-5B, C-17, C-130 H2/H3/J and HC-130s.

Advanced Threat Warning/Targeting System (ALR-69A-V) for F-16B30/32--
        $18,800,000
    Program of record for MAF and Air Force Special Operations Forces. 
The world's first all-digital radar warning receiver (RWR), the ALR-
69A(V) features capabilities previously unattainable in a tactical RWR: 
suppression of enemy air defenses, easy cross-platform integration, and 
enhanced spectral and spatial coverage for high-sensitivity detection 
in dense signal environments.
Low Power Color Radar (AN/APN-241) for C-130--$21,000,000
    Program of record for C-130 Avionics Modernization Program. Radar 
capabilities include high-resolution ground mapping that enables 
accurate low-level navigation and precision aerial drops.
Enhanced Traffic Alert and Collision Avoidance System (ETCAS) for MC-
        130--$14,600,000
    Install ETCAS (APN-241) all weather, color radar on MC-130s.
                   navy reserve equipment priorities
Naval Coastal Warfare Table of Allowance Equipment--$24,300,000
    Replacements of over-aged and unreliable tactical vehicles, CSCE 
and communications equipment are needed to improve operational support 
of Combatant Commanders.
Explosive Ordnance Disposal Table of Allowance Equipment--$2,400,000
    Explosive Ordnance Disposal (EOD) Reserve personnel require dive 
and protective gear, up-armored vehicles, boats and communications gear 
to improve operational support of Combatant Commanders.
NCF Tactical Vehicles and Support Equipment--$30,100,000
    Tactical vehicles, CESE and communications equipment are needed to 
improve operational support of Combatant Commanders.
C-40 A Combo cargo/passenger Airlift--$75,000,000
    The Navy requires a Navy Unique Fleet Essential Airlift Replacement 
Aircraft. This aircraft was designated as the C-40A and will replace 
the aging C-9 fleet. The maximum range for the C-40A is approximately 
1,500 miles more than the C-9.
    The C-40A, a derivative of the 737-700C is a Federal Aviation 
Administration (FAA) certified, high performance, fixed wing aircraft 
that will accommodate 121 passengers, or eight pallets of cargo (40,000 
lbs), or a combination configuration consisting of 3 pallets and 70 
passengers. The Navy's aging C-9 fleet is not compliant with either 
future global navigation requirements or noise abatement standards that 
restrict flights into European airfields. Twenty-two aircraft remain to 
be replaced.

               MARINE CORPS RESERVE EQUIPMENT PRIORITIES

                        [In millions of dollars]
------------------------------------------------------------------------
                        Equipment                             Amount
------------------------------------------------------------------------
Field Medical Equipment (FFME)..........................             3.5
Shelter and Tents (Command Post Large Tactical Shelter).             2.2
Shelters and Tents (Ultra Lightweight Camouflage Net                 5.3
 System)................................................
Individual First Aid Kit (IFAK).........................             3.5
Infantry Combat Equipment (ICE).........................            11.7
Portable Tent Lighting..................................             3.5
------------------------------------------------------------------------

             NATIONAL GUARD AND RESERVE EQUIPMENT ALLOWANCE

    Prior to 1997, the National Guard and Reserve Equipment 
Appropriation was a critical resource to ensure adequate funding for 
new equipment for the Reserve Components. The much-needed items not 
funded by the respective service budget were frequently purchased 
through this appropriation. In some cases it was used to bring unit 
equipment readiness to a needed state for mobilization.
    With the war, the Reserve and Guard are faced with mounting 
challenges on how to replace worn out equipment, equipment lost due to 
combat operations, legacy equipment that is becoming irrelevant or 
obsolete, and in general replacing that which is gone or aging through 
normal wear and tear. In the past, the use of ``cascading'' equipment 
from the Active Component to the Reserve Component has been a reliable 
source of serviceable equipment. However, with the changes in roles and 
missions that have placed a preponderance of combat support and combat 
service support in the reserve components, there has not been much left 
to cascade. Funding levels, rising costs, lack of replacement parts for 
older equipment, etc. has made it difficult for the Reserve Components 
to maintain their aging equipment, not to mention modernizing and 
recapitalizing to support a viable legacy force. The Reserve Components 
would benefit greatly from a National Military Resource Strategy that 
includes a National Guard and Reserve Equipment Appropriation.
    To optimize the readiness of the Guard and Reserve it is also 
imperative to maintain separate Reserve funds from the Active duty.
Recruiting and Retention
    The Reserve Officers Association would like to thank this committee 
for it support with funding recruiting and reenlistment bonuses for 
both the Active and Reserve.
            Army Reserve
    As combat operations in Iraq and Afghanistan become ``stability'' 
operations, it is expected that the Army Reserve and National Guard 
will make up 50 percent or more of the force. Both the Active Component 
and the Reserve Component will move to a rotational plan that will 
provide both predictability and stability for soldiers. Recruiting and 
retention bonuses are helping meet these requirements. The Army Reserve 
needs to fully fund their bonus program with $332 million and increase 
AGR recruiter positions with funding to $59.1 million.
            Navy Reserve
    In March, the Navy Reserve recruited 757 sailors, 87 percent of its 
goal. While the Navy's Reserve is downsizing to reach the new end-
strengths set by Congress of 73,100 from 83,400. There still remains a 
need to recruit. The enlistment bonus program supports the Navy's 
emerging human capital strategy. It enables the Navy to enlist 
personnel with the right skill and education mix to meet the needs of 
the force.
            Air Force Reserve
    In a 10-year period the Air Force Reserve went from accessing 
50,507 prior service members in 1992 to 14,950 in 2005. This has meant 
increased funding of $20.4 million for recruiting of non-prior service 
personnel to meet recruitment quotas.
    It can take from 1 to 2 years before an individual can perform 
military duty somewhat independently. Each year for the past 5 years, 
AF Reserve has enhanced its advertising effort due to the need to 
compete in the demographic pool with the Active and National Guard 
recruiters. The recruiting competition will be stiffer and the 
advertising dollar will produce less results.
    ROA recommends supporting bonus incentives and reverse cost 
avoidance reduction trends that cut the reserve personnel and 
technician accounts.

                       CIOR/CIOMR FUNDING REQUEST

    The Interallied Confederation of Reserve Officers (CIOR) was 
founded in 1948, and its affiliate organization, The Interallied 
Confederation of Medical Reserve Officers (CIOMR) was founded in 1947. 
The organization is a nonpolitical, independent confederation of 
national reserve associations of the signatory countries of the North 
Atlantic Treaty (NATO). Presently there are 16 member delegations 
representing over 800,000 reserve officers.
    CIOR is recognized as the representative of NATO's Reserve Forces, 
formalized in 1976. An International Staff Liaison Officer is 
designated and has, on behalf of the NATO Secretary General, 
responsibility for formal contacts between NATO and CIOR and for 
providing political advice. A Reserve Affairs Advisor has been 
appointed at Supreme Headquarters Allied Powers Europe (SHAPE). This 
officer's principle duties include liaison with CIOR for Allied Command 
Europe (ACE).
    CIOR supports four programs to improve professional development and 
international understanding.
    Military Competition.--The CIOR Military Competition is a strenuous 
3 day contest on warfighting skills among Reserve Officers teams from 
member countries. These contests emphasize combined and joint military 
actions relevant to the multinational aspects of current and future 
Alliance operations.
    Language Academy.--The two official languages of NATO are English 
and French. As a non-government body, operating on a limited budget, it 
is not in a position to afford the expense of providing simultaneous 
translation services. The Academy offers intensive courses in English 
and French at proficiency levels 1, 2 and 3 as specified by NATO 
Military Agency for Standardization. The Language Academy affords 
national junior officer members the opportunity to become fluent in 
English as a second language.
    Partnership for Peace (PfP).--Established by CIOR Executive 
Committee in 1994 with the focus of assisting NATO PfP nations with the 
development of reserve officer and enlisted organizations according to 
democratic principles. CIOR's PfP Committee, fully supports the 
development of civil-military relationships and respect for democratic 
ideals within PfP nations. CIOR PfP Committee also assists in the 
invitation process to participating countries in the Military 
Competition.
    Young Reserve Officers Workshop.--The workshops are arranged 
annually by the NATO International Staff (IS). Selected issues are 
assigned to joint seminars through the CIOR Defense and Security Issues 
(SECDEF) Commission. Junior grade officers work in a joint seminar 
environment to analyze Reserve concerns relevant to NATO.
    Dues do not cover the workshops and individual countries help fund 
the events. The Department of the Army as Executive Agent hasn't been 
funding these programs.

                             ROA LAW CENTER

    It was suggested that ROA could incorporate some federal military 
offices, such as recruiting offices, into the newly remodeled ROA 
Minuteman Memorial building. ROA would be willing to work with this 
committee on any suggestion.
    The Reserve Officers Association's recommendation would be to 
develop a Servicemembers Law Center, advising Active and Reserve 
servicemembers who have been subject to legal problems that occur 
during deployment.
    A legal center would help encourage new members to join the Active, 
Guard and Reserve components by providing a non-affiliation service to 
educate prior service about USERRA and Servicemember Civil Relief Act 
(SCRA) protections, and other legal issues. It would help retention as 
a member of the staff could work with Active and Reserve Component 
members to counsel those who are preparing to deploy, deployed or 
recently deployed members facing legal problems.
    The Legal Center could advise, refer by providing names of 
attorneys who work related legal issues and amicus curiae briefs, 
encourage law firms to represent service members, and educate and 
training lawyers, especially active and reserve judge advocates on 
servicemember protection cases. The center could also be a resource to 
Congress.
    ROA would set-aside office spaces. ROA's Defense Education Fund 
would hire an initial staff of one lawyer, and one administrative law 
clerk to man the Servicemembers Law Center to counsel individuals and 
their legal representatives.
    Anticipated startup cost, first year: $750,000.

                               CONCLUSION

    DOD is in the middle of executing a war and operations in Iraq are 
directly associated with this effort. The impact of the war is 
affecting the very nature of the Guard and Reserve, not just the 
execution of roles and missions. Without adequate funding, the Guard 
and Reserve may be viewed as a source to provide fund to the Active 
Component. It makes sense to fully fund the most cost efficient 
components of the Total Force, its Reserve Components.
    At a time of war, we are expending the smallest percentage of GDP 
in history on National Defense. Funding now reflects about 3.8 percent 
of GDP. ROA has a resolution urging that defense spending should be 5 
percent to cover both the war and homeland security. While these are 
big dollars, the President and Congress must understand that this type 
of investment is what it will take to equip, train and maintain an all-
volunteer force for adequate national security.
    The Reserve Officers Association, again, would like to thank the 
subcommittee for the opportunity to present our testimony. We are 
looking forward to working with you, and supporting your efforts in any 
way that we can.

    Senator Inouye. Our next witness is Dr. Gene E. Feigel, 
President of the American Society of Mechanical Engineers. 
Welcome, doctor.
    Dr. Feigel. Thank you.

STATEMENT OF GENE E. FEIGEL, Ph.D., PRESIDENT, AMERICAN 
            SOCIETY OF MECHANICAL ENGINEERS (ASME)
    Dr. Feigel. Good morning, Mr. Chairman. My name is Gene 
Feigel. I'm President of ASME, a 120,000 member professional 
organization focused on technical, educational, and research 
issues of importance to the engineering community.
    Engineers are a major portion of this Nation's technology 
base, a base that is essential for our defense and our economic 
vitality. We appreciate the opportunity to present our views on 
the DOD's science and technology programs, the S&T programs, 
which include basic and applied research, and advanced 
technology development programs at DOD.
    I want to specifically thank this subcommittee and 
especially you, Mr. Chairman, for the past and ongoing support 
you've shown for the defense S&T programs.
    The President's fiscal year 2007 budget request for defense 
S&T is $11 billion, which is $2 billion less than the fiscal 
2006 appropriated amount of $13 billion, representing a steep 
16 percent reduction.
    The 2001 Quadrennial Defense Review (QDR), the Defense 
Science Board, as well as senior Defense Department officials 
and commanders from the Air Force, Army, and Navy, have voiced 
strong support for the future allocation of at least 3 percent 
of the overall DOD budget for S&T programs. The fiscal 2007 
request if implemented would represent a significantly reduced 
investment in defense S&T.
    We strongly urge this subcommittee to consider additional 
resources to maintain at least stable funding in the S&T 
funding portion of the DOD budget. At a minimum, $13.2 billion, 
or approximately $2.1 billion above the President's request, is 
required to meet the 3 percent of total obligation authority 
guideline set in the 2001 QDR, and is also supported by many 
members of Congress.
    We also urge this subcommittee to support the university 
research initiative by restoring funds for the program to the 
fiscal 2006 level of $272 million for the forthcoming budget. A 
recent study by the National Academy of Sciences entitled, 
``Rising Above the Gathering Storm; Energizing and Employing 
America for a Brighter Economic Future,'' evaluated the 
position of the United States in several critical measures of 
technology, education, innovation, and high-skilled workforce 
development. While the report indicated that the United States 
maintains a slight lead in research and discovery, the academy 
committee observed that it is, quotes, ``deeply concerned that 
the scientific and technological building blocks critical to 
our economic leadership are eroding at a time when many other 
nations are gaining strength.''
    Proper attention should be given to the vital role that DOD 
S&T programs play in meeting this challenge. Study after study 
has linked over 50 percent of our economic growth over the past 
50 years to technological innovation. The ``Gathering Storm'' 
report places special emphasis on information sciences and 
basic research conducted by the DOD, because of its large 
influence on technological innovation and workforce 
development.
    The DOD funds 40 percent of all engineering research 
performed at our universities. The technological superiority of 
our young men and women in the services and in the campaigns 
waged in Afghanistan and Iraq is a direct result of investments 
made in S&T several decades ago.
    Moreover, this research is truly dual-use. As well as 
directly being critical to national security, it is critical to 
educating new generations of scientists and engineers.
    Thank you for the opportunity to present our views on this 
very important subject.
    Senator Inouye. Thank you very much, Dr. Feigel.
    [The statement follows:]

              Prepared Statement of Gene E. Feigel, Ph.D.

                              INTRODUCTION

    Greetings Mr. Chairman, ranking member, and Members of the 
committee. My name is Gene Feigel and I am honored to be here as the 
President of the American Society of Mechanical Engineers (ASME) to 
share our perspectives on the fiscal year 2007 budget request for the 
Research, Development, Test and Evaluation (RDT&E) and the Science and 
Technology (S&T) portion of the Department of Defense budget request.
    With 120,000 members, ASME is a worldwide engineering society 
focused on technical, educational and research issues. It conducts one 
of the world's largest technical publishing operations, holds 
approximately 30 technical conferences and 200 professional development 
courses each year, and sets many industry and manufacturing standards. 
This testimony represents the considered judgment of experts from 
universities, industry, and members from the engineering and scientific 
community who contribute their time and expertise to evaluate the 
budgets requests and legislative initiatives the DOD sends to Congress.
    Our testimony addresses three (3) primary funding areas: overall 
Engineering (RDT&E); Science and Technology (S&T); and the University 
Research Initiative (URI). Our testimony also outlines the consequences 
of inadequate funding for defense research. These include a degraded 
competitive position in developing advanced military technology versus 
potential peer competitors, which could harm the United States' global 
economic and military leadership.
    The fiscal year 2007 request, if implemented, would represent a 
significantly reduced investment in Defense S&T. We strongly urge this 
committee to consider additional resources to maintain stable funding 
in the S&T portion of the DOD budget. At a minimum, $13.2 billion, or 
about $2.1 billion above the President's request is required to meet 
the 3 percent of Total Obligational Authority (TOA) guideline set in 
the 2001 Quadrennial Defense Review and by Congress.

                         DOD REQUEST FOR RDT&E

    The administration requested $73.156 billion for the Research, 
Development, Test and Evaluation (RDT&E) portion of the fiscal year 
2007 DOD budget. These resources are used mostly for developing, 
demonstrating, and testing weapon systems, such as fighter aircraft, 
satellites, and warships. This amount represents growth from last 
year's appropriated amount of $71.046 billion of about 3.0 percent. 
Therefore, when adjusted for inflation, this represents a reduction of 
about 0.8 percent in real terms. Funds for Operational Test and 
Evaluation (OT&E) function remain low, where the proposed funding of 
$182 million is little more than half of the 2005 appropriated amount 
of $310 million. The OT&E organization and the testing it conducts was 
mandated by Congress, and is intended to insure that weapon systems are 
thoroughly tested so that they are effective and safe for our troops.
    While this testimony focuses on the fiscal year 2007 budget, the 
task force notes that the last multi-year spending plan from 2006, as 
provided in the Future Years Defense Program (FYDP), generally shows 
reduced spending in RDT&E accounts over the next 5 years, with spending 
in fiscal year 2011 being just $59.7 billion, or a 18.4 percent 
reduction from current levels. This reduced spending in R&D is 
inconsistent with the goal of developing new systems with advanced 
capabilities that support military transformation.

                 DOD REQUEST FOR SCIENCE AND TECHNOLOGY

    The fiscal year 2007 budget request for Defense Science and 
Technology (S&T) is $11.083 billion, which is $2.11 billion less than 
the fiscal year 2006 appropriated amount of $13.191 and represents a 16 
percent reduction. The S&T portion of overall DOD spending of $439 
billion would remain at 2.5 percent. The 2001 Quadrennial Defense 
Review (QDR), the Defense Science Board (DSB), as well as senior 
Defense Department officials and commanders from the Air Force, Army, 
and Navy have voiced strong support for the future allocation of at 
least three (3) percent for S&T programs. Clearly, this budget request 
is inadequate to meet the country's need for robust S&T funding.
    A relatively small fraction of the RDT&E budget is allocated for 
S&T programs. While the fiscal year 2007 S&T request represents only 
about 15 percent of the RDT&E total, these accounts support all of the 
new knowledge creation, invention and technology developments for the 
military. Funds for Basic Research (6.1), Applied Research (6.2), and 
Advanced Technology Development (6.3) and all categories are programmed 
for significant funding reductions.
    Basic Research (6.1) accounts would decrease from $1.47 billion to 
$1.43 billion, a 2.7 percent decline. While basic research accounts 
comprise only a small percentage over all RDT&E funds, the programs 
that these accounts support are critically important to fundamental, 
scientific advances and for maintaining a highly skilled science and 
engineering workforce.
    Basic research accounts are used mostly to support science and 
engineering research and graduate, technical education at universities 
in all 50 States. Almost all of the current high-technology weapon 
systems, from laser-guided, precision weapons, to the global 
positioning satellite (GPS) system, have their origin in fundamental 
discoveries generated in these basic research programs. Proper 
investments in basic research are needed now, so that the fundamental 
scientific results will be available to create innovative solutions for 
future defense challenges. In addition, many of the technical leaders 
in corporations and government laboratories that are developing current 
weapon systems, such as the F-22 and Joint Strike Fighter, were 
educated under basic research programs funded by DOD. Failure to invest 
sufficient resources in basic, defense-oriented research will reduce 
innovation and weaken the future scientific and engineering workforce. 
The Task Force recommends that Basic Research (6.1) be funded at a 
minimum level of $1.7 billion.
    Applied Research (6.2) would be reduced from $5.17 billion to $4.48 
billion, a 13 percent reduction. The programs supported by these 
accounts apply basic scientific knowledge, often phenomena discovered 
under the basic research programs, to important defense needs. Applied 
research programs may involve laboratory proof-of-concept and are 
generally conducted at universities, government laboratories, or by 
small businesses. Many of the successful demonstrations led to the 
creation of small companies, like the Small Business Innovative 
Research (SBIR) programs. Some devices created in these defense 
technology programs have dual use, such as GPS, and the commercial 
market far exceeds the defense market. However, without initial support 
by Defense Applied Research funds, many of these companies would not 
exist. Failure to properly invest in applied research would prevent 
stifle a key source of technological development and stunt the creation 
and growth of small entrepreneurial companies.
    The largest reduction would occur in Advanced Technology 
Development (6.3), which would experience a 21.5 percent decline, from 
$6.603 billion to $5.183 billion. These resources support programs that 
ready technology to be transitioned into weapon systems. Without the 
real system level demonstrations funded by these accounts, companies 
are reluctant to incorporate new technologies into weapon systems 
programs.
    The individual service's S&T accounts reflect the general trend of 
large reductions described above. However the largest reductions are in 
the Army's accounts, where Basic Research would be cut by 16.2 percent, 
Applied Research by 45.2 percent, and Advanced Technology Development 
by 48.0 percent. The only major S&T components with increases are 
``Defense-Wide'' Basic Research (6.1) and Applied Research (6.2) where 
9.1 percent and 6.5 percent increases are proposed respectively. We 
strongly support these increases, especially the 10.6 percent boost in 
the Defense Advanced Research Project Agency (DARPA) to $3.3 billion.

        DOD REQUEST FOR THE UNIVERSITY RESEARCH INITIATIVE (URI)

    The University Research Initiative (URI) supports graduate 
education in Mathematics, Science, and Engineering and would see a $23 
million decrease from $272 million to $249 million in fiscal year 2007 
next year, a 3.2 percent reduction. Sufficient funding for the URI is 
critical to educating the next generation of engineers and scientist 
for the defense industry. Since the URI programs were devolved, the 
services have not given a high priority to these programs. A lag in 
program funds will have a serious long-term negative consequence on our 
ability to develop a highly skilled scientific and engineering 
workforce to build weapons systems for years to come. While DOD has 
enormous current commitments, these pressing needs should not be 
allowed to squeeze out the small but very important investments 
required to create the next generation of highly skilled technical 
workers for the American defense industry. This would be shortsighted.

       REDUCED S&T FUNDING THREATENS AMERICA'S NATIONAL SECURITY

    Since World War II the United States has led the world in science, 
innovation, and defense technology. However, this lead is quickly 
eroding and within the next few years may be substantially reduced or 
may completely evaporate in some areas. A recent study performed by the 
National Academy of Sciences, entitled ``Rising Above the Gathering 
Storm: Energy and Employing America for a Brighter Economic Future,'' 
evaluated the position of the United States in several critical 
measures of technology, education, innovation, and high skilled 
workforce development. While the report indicated that the U.S. 
maintains a slight lead in research and discovery, the committee states 
that it is ``deeply concerned that the scientific and technological 
building blocks critical to our economic leadership are eroding at a 
time when many other nations are gaining strength.'' Proper attention 
should be given to the vital role that DOD S&T programs play in meeting 
this challenge.
    S&T have played a historic role in creating an innovative economy 
and a highly skilled workforce. Study after study has linked over 50 
percent of our economic growth over the past 50 years to technological 
innovation. The ``Gathering Storm'' report places a ``special emphasis 
on information sciences and basic research'' conducted by the DOD 
because of large influence on technological innovation and workforce 
development. The DOD, for example, funds 40 percent of all engineering 
research performed at our universities. U.S. economic leadership 
depends on the S&T programs that support the Nation's defense base, 
promote technological superiority in weapons systems, and educate new 
generations of sciences and engineers.
    Prudent investments also directly affect U.S. national security. 
There is a general belief among defense strategist that the United 
States must have the industrial base to develop and produce the 
military systems required for national defense. Many Members of 
Congress also hold this view. A number of disconcerting trends, such as 
outsourcing of engineering activities and low participation of U.S. 
students in science and engineering, threaten to create a critical 
shortage of the native, skilled, scientific and engineering work force 
is required. Programs that boost the available number of highly 
educated workers who reside in the United States are important to stem 
our growing reliance on foreign nations, including potentially hostile 
ones, to fill the ranks of our defense industries and to ensure that we 
continue to produce the innovative, effective defense systems of the 
future.

                            RECOMMENDATIONS

    In conclusion, we thank the subcommittee for its ongoing support of 
Defense S&T. This committee appreciates the difficult choices that 
Congress must make in this tight budgetary environment. We believe, 
however, that there are critical shortages in the DOD S&T areas, 
particularly in those that support in basic research and technical 
education that are critical to U.S. military and economic leadership.
    The Task Force recommends the following:
  --We urge this subcommittee to support an appropriation of $13.2 
        billion for S&T programs, which is 3 percent of the overall 
        fiscal year 2007 DOD budget. This request is consistent with 
        recommendations contained in the 2001 Quadrennial Defense 
        Review and made by the Defense Science Board (DSB), as well as 
        senior Defense Department officials and commanders from the Air 
        Force, Army, and Navy, who have voiced support for the future 
        allocation of 3 percent as a worthy benchmark for science and 
        technology programs.
  --We also recommend that the subcommittee support the University 
        Research Initiative by restoring funds for the program to the 
        fiscal year 2006 level of $272 million to the URI program for 
        fiscal year 2007. A strong investment in advanced technical 
        education will allow the Nation's armed services to draw from a 
        large pool of highly-skilled, native-born workers for its 
        science and engineering endeavors.
    ASME International is a non-profit technical and educational 
organization with 125,000 members worldwide. The Society's members work 
in all sectors of the economy, including industry, academic, and 
government. This statement represents the views of the ASME Department 
of Defense Task Force of ASME's Technical Communities and is not 
necessarily a position of ASME as a whole.

    Senator Inouye. Our next witness is Command Chief Master 
Sergeant Mark H. Olanoff, United States Air Force, retired, 
representing the Armed Forces Top Enlisted Association.

STATEMENT OF COMMAND CHIEF MASTER SERGEANT MARK H. 
            OLANOFF, UNITED STATES AIR FORCE (RETIRED), 
            ON BEHALF OF THE ARMED FORCES TOP ENLISTED 
            ASSOCIATION
    Sergeant Olanoff. Good morning, Senator Inouye.
    Senator Inouye. Good morning, sir.
    Sergeant Olanoff. It is nice to see you again. Thank you 
for everything that you've done for us in the past. And we know 
sometimes that we are preaching to the choir to you and Senator 
Stevens, because you've both done so much for us. I know time 
is short. There were comments earlier about the issues that we 
have to deal with--with the authorization committee, and we 
realize that, and you know that we brought up the issues here 
to you about the survivor benefits and the increases in 
retirement pay, the TRICARE problems, and those things.
    But there is one thing from a standpoint of appropriations 
that I think that is interesting. I've put it in my full 
statement, but I want to read you a portion of what the 
Government Accountability Office (GAO) said about ways to 
increase collections for health care for DOD, which is very 
similar to what the Department of Veterans Affairs can do. GAO 
says that: ``DOD's failure to effectively bill and collect from 
third-party insurers in effect reduces the amount third-party 
private sector insurance companies must pay out in benefits and 
unnecessarily add to DOD's increasing health care budget 
financed by taxpayers. While DOD has limited control over the 
burgeoning cost of providing health care benefits to DOD 
retirees and their dependents, and active duty dependents, DOD 
has an opportunity to offset the impact of its rising health 
care costs by collecting amounts due from its third-party 
collection program.''
    Now you know, Senator, that the Defense Department has 
proposed that military retirees pay more, and both the House 
and the Senate have rejected that. However, they haven't put 
the funding back into place, and it is about $735 million that 
needs to be funded.
    But overall, there is an imbalance between the 
discretionary funding and the mandatory funding; the 
operational cost and the personnel cost. And many of us have 
come before you over the years here, many of the associations, 
to bring this up. And we realize that although the 
authorization committees have to do things, we bring these 
things to your attention because many of us get to come here, 
and unfortunately the Armed Services Committee hearings are 
very limited. So we ask you to fully fund health care, and to 
look at all these other programs that we talk about in our 
statements, although we realize that the authorization 
committees have to do some things.
    The last issue I want to talk about is the Reserve 
component. You just heard a little bit of testimony about that. 
In the President's budget, he has asked to cut the Reserve 
components by 22,800 people, specifically the Army National 
Guard by 17,100. And as someone who's very familiar with the 
Guard and Reserve, I find it very unbelievable that the 
Secretary of Defense and others come before these committees 
and ask you, and explain to you that the Guard and Reserve need 
to do more, but now we want to propose cuts in their manning. 
It just doesn't make a whole lot of sense.
    And as you know, the National Guard is going to be 
supporting a mission to go to the border. And although the 
Secretary of Defense testified to you last week and said that 
most of that is going to be done through annual training tours, 
that can only be sustained for a very limited period of time.
    So I realize time is short, and I have provided detailed 
explanation in my written statement, and hopefully the 
subcommittee will do what they can this year to support the 
programs. Thank you, Senator Inouye.
    Senator Inouye. I can assure you that we will study your 
proposal very carefully, because we are concerned about the 
cutback.
    Sergeant Olanoff. Thank you, Senator Inouye.
    [The statement follows:]

                 Prepared Statement of Mark H. Olanoff

                             AFTEA MISSION

    The AFTEA mission is to advocate a strong national defense that 
will protect the security of the United States. We support a defense 
budget that will provide modern and sufficient equipment so that our 
military personnel can safely and effectively accomplish their mission.
    We seek to educate the public and Members of Congress about the 
uniformed services and their most important asset, its people.
    We promote improved quality-of-life and economic fairness that will 
support the well-being of the men and women of America's Uniformed 
Services and their families. We give voice to members' concerns about 
military pay, health care, pension and disability, survivor benefits, 
education, housing, child care, and other quality-of-life programs.
    The Armed Forces Top Enlisted Association is a non-profit 501C(19) 
veteran's organization, representing the professional and personal 
interests of Active Duty and retired men and women of America's 
Uniformed Services, National Guard and Reserve. Members in AFTEA are 
Sergeant Majors, Master Chief Petty Officers, Master Gunnery Sergeants, 
and Chief Master Sergeants from all branches of the Uniformed Services: 
Army, Navy, Air Force, Marine Corp, and Coast Guard. We are unique in 
that each member must have either retired as or currently hold the 
grade of E-9.
    Mr. Chairman and distinguished Members of the subcommittee: On 
behalf of our National President, Command Sergeant Major Albert G. 
Ybanez, USA (Ret), we are grateful to the subcommittee for this 
opportunity to express our views concerning the fiscal year 2007 
Department of Defense budget as it relates to issues affecting the 
uniformed service community.

           IMBALANCE BETWEEN OPERATIONAL AND PERSONNEL COSTS

    Our National President recently said: ``Faced with a budget that 
forced choices between costly weapons systems, first envisioned for war 
against the Soviets, and ground troops to fight wars like those in 
Afghanistan and Iraq, the Pentagon went for hardware. The 2007 budget 
gives hardware higher priority than men and women in uniform.''
    This budget proposes sharp increases in health care costs 
(enrollment fees, co-payments and deductibles) for the men and women of 
the armed services who served a career for their Nation, and are not 
yet eligible for TRICARE for Life (TFL). Further, this budget proposes 
increases in health care costs for those currently serving in reserve 
components. With the Nation at war, this is not the time to increase 
fees and co-payments for those who are currently serving and those who 
have served.
    Over the past years, Congress has significantly improved pay for 
the men and women serving on Active Duty and in the Reserve Components. 
Also, Congress has improved benefits for those who have served, 
including significant progress in receipt of retired pay for those with 
service-connected disabilities, full commissary benefits for grey-area 
reserve retirees, and increased survivor benefits for widows and 
widowers of military retirees.
    Yet, senior Defense Department officials have publicly stated in 
numerous newspaper ``op-eds'' and in testimony before committees of the 
Congress that these increased benefits are a ``drain on the defense 
budget.''
    Pentagon officials told the Senate Armed Services Subcommittee on 
Personnel that ``. . . a rich benefits package, coupled with expanded 
retiree coverage, has thrust the Pentagon into the same financial 
predicament that is threatening the profitability of such major 
companies as General Motors Corp.'' Dr. William Winkenwerder Jr., 
Assistant Secretary of Defense for Health Affairs, told the 
subcommittee ``. . . the facts show that our expansion of health 
benefits, such as those for our senior retirees, underlies the growth, 
and that growth could put today's operations and sustainability at 
risk.'' He went on to say ``. . . caring for military retirees is the 
principle underlying factor of the rising costs.''
    DOD has also convinced the Joint Chiefs of Staff to endorse these 
fee increases, saying the budget savings are needed to help fund 
weapons and other needs. Only a few years ago, then chairman of the 
Joint Chiefs General Shelton told the Congress that the Nation had a 
moral obligation to those who served their Nation and are now retired.
    So if the budget savings from these sharply higher costs to the men 
and women who served our Nation are needed to help fund weapons and 
other needs, let's take a look at DOD's track record of defense 
acquisitions according to the Government Accountability office (GAO).
    According to the Government Accountability Office (GAO), GAO-06-
391, Defense Acquisitions: Assessments of Selected Major Weapon 
Programs, dated March 31, 2006, ``In the last 5 years, the Department 
of Defense has doubled its planned investments in new weapon systems 
from about $700 billion in 2001 to nearly $1.4 trillion in 2006''. 
Further, GAO states ``GAO's reviews over the past 30 years have found 
consistent problems with weapon acquisitions such as cost increases, 
schedule delays and performance shortfalls''. GAO also states ``DOD 
often exceeds development cost estimates by approximately 30 to 40 
percent and experiences cuts in planned quantities, missed deadlines, 
and performance shortfalls. Such difficulties, absent definitive and 
effective reform outcomes, are likely to cause great turmoil in a 
budget environment in which there are growing fiscal imbalances as well 
as increasing conflict over increasingly limited resources''.
    On April 14, 2006 the GAO reported again, GAO-06-368, Defense 
Acquisitions: Major Weapon Systems Continue to Experience Cost and 
Schedule Problems under DOD's Revised Policy. GAO states ``The 
Department of Defense (DOD) is planning to invest $1.3 trillion between 
2005 and 2009 in researching, developing, and procuring major weapon 
systems. How DOD manages this investment has been a matter of 
congressional concern for years. Numerous programs have been marked by 
cost overruns, schedule delays, and reduced performance. Over the past 
3 decades, DOD's acquisition environment has undergone many changes 
aimed at curbing cost, schedule, and other problems. In order to 
determine if the policy DOD put in place is achieving its intended 
goals, we assessed the outcomes of major weapons development programs 
initiated under the revised policy. Additionally, we assessed whether 
the policy's knowledge-based, evolutionary principles are being 
effectively implemented, and whether effective controls and specific 
criteria are in place and being used to make sound investment 
decisions. Changes made in DOD's acquisition policy over the past 5 
years have not eliminated cost and schedule problems for major weapons 
development programs. Of the 23 major programs we assessed, 10 are 
already expecting development cost overruns greater than 30 percent or 
have delayed the delivery of initial operational capability to the 
warfighter by at least 1 year. The overall impact of these costly 
conditions is a reduction in the value of DOD's defense dollars and a 
lower return on investment. Poor execution of the revised acquisition 
policy is a major cause of DOD's continued problems. DOD frequently 
bypasses key steps of the knowledge-based process outlined in the 
policy, falls short of attaining key knowledge, and continues to pursue 
revolutionary--rather than evolutionary or incremental--advances in 
capability. Nearly 80 percent of the programs GAO reviewed did not 
fully follow the knowledge-based process to develop a sound business 
case before committing to system development. Most of the programs we 
reviewed started system development with immature technologies, and 
half of the programs that have held design reviews did so before 
achieving a high level of design maturity. These practices increase the 
likelihood that problems will be discovered late in development when 
they are more costly to address. Furthermore, DOD's continued pursuit 
of revolutionary leaps in capability also runs counter to the policy's 
guidance. DOD has not closed all of the gaps in the policy that GAO 
identified nearly 3 years ago, particularly with regard to adding 
controls and criteria. Effective controls require decision makers to 
measure progress against specific criteria and ensure that managers 
capture key knowledge before moving to the next acquisition phase. 
However, DOD's policy continues to allow managers to approach major 
investment decisions with many unknowns. Without effective controls 
that require program officials to satisfy specific criteria, it is 
difficult to hold decision makers or program managers accountable to 
cost and schedule targets. In this environment, decision-making 
transparency is crucial, but DOD is lacking in this area as well.
    It appears to us that the country (and the tax payers) would be 
best served by the Defense Department ``cleaning up'' its acquisition 
policies and practices, and stop trying to balance their budget on the 
backs of the uniformed services men and women who serve and have 
served. A record budget that focuses more on modernization than people 
programs is forgetting that it is people who make the military run.
    AFTEA was unable to find any GAO reports about planned investments 
in ``people programs''.
    AFTEA recommends an oversight hearing to include a complete review 
of the issues of entitlement and discretionary spending for the 
Department of Defense.

                            DOD HEALTH CARE

    Over the past few years, Congress has recognized the contributions 
of the men and women in the armed services who served a career for 
their Nation, and then retired. One important recognition is now 
referred to as TRICARE for Life (TFL).
    Now, the administration has proposed sharp increases in enrollment 
fees, co-payments and deductibles for those who have retired and are 
not yet eligible for TFL, specifically those under the age of 65. We 
view the Defense Department's proposal as a ``roll-back'' in the health 
care benefit that career military men and women earned.
    A great deal of the Pentagon's concern over rising health care 
costs involves the nearly $9 billion annual deposit to the Medicare-
Eligible Retiree Health Care Fund that the administration wrongly 
counts against the defense budget.
    Two years ago, when Defense leaders said the administration was 
making them take this deposit ``out of hide'' at the expense of other 
Defense programs, the Armed Services Committees acted to change the law 
to shift that deposit from the Defense budget to the U.S. Treasury 
budget. The clear intent was that TFL expenses were not to come at the 
expense of other readiness needs. Congress passed that provision as 
part of the fiscal year 2005 Defense Authorization Act (Public Law 108-
375). Section 725 provided revised funding methodology for military 
retiree health care benefits. Section 1116 of title 10, United States 
Code was amended. Section 1116(a) states: ``At the beginning of each 
fiscal year after September 30, 2005, the Secretary of Treasury shall 
promptly pay into the Fund from the General Treasury''. Subsections (1) 
and (2) provide for how the amount is determined. This section deals 
with the accrual amount for military retiree health care for those 
using TRICARE for Life.
    But the Office of Management and Budget has since worked against 
the clear letter of the law and has continued to charge the deposit 
against the defense budget. That's why the administration has wrongly 
forced the Joint Chiefs of Staff to choose between retiree health 
funding and weapons programs.
    The fiscal year 2007 NDAA that was marked-up by the House Armed 
Services Committee includes a provision (section 589) to correct this 
error. Section 589(b) states ``No funds authorized or appropriated to 
the Department of Defense may be used to fund, or otherwise provide 
for, the payments required by this section''.
    The President's budget request for the Office of Personnel 
Management (OPM) for fiscal year 2007 includes funding for the 
government's share of the cost of health insurance for annuitants, 
which includes retirees (Title 5, USC 8901, subsection 3A). This 
section also covers Members of Congress and the President. The funding 
requested for fiscal year 2007 is $8.78 billion.
    AFTEA urges the subcommittee to:
  --Fully fund DOD's health care account.
  --Appropriate the costs for military health care similar to federal 
        civilians and retirees enrolled in the Federal Employee Health 
        Benefits Plan (FEHBP). Provide the accrual funding for TRICARE 
        For Life and the deposit to the Medicare-Eligible Retiree 
        Health Care Fund by the Treasury, and not the Department of 
        Defense.
  --Direct report language that specifically prohibits the Department 
        of Defense from raising any TRICARE co-payments or enrollment 
        fees to include TRICARE Prime, TRICARE Extra, TRICARE Standard, 
        TRICARE for Life, TRICARE Reserve Select, TRICARE Dental and 
        TRICARE Prescriptions in fiscal year 2007.
    On February 20, 2004, the General Accounting Office (now Government 
Accountability Office), sent a report to the House Subcommittee on 
National Security, Emerging Threats and International Relations, 
Subject: Military Treatment Facilities: Improvements Needed to Increase 
DOD Third-Party Collections. On page 2 under ``Results in Brief'', GAO 
stated ``Based on our previous audit work and our analysis or reports 
issued by military service auditors, conservatively, tens of millions 
of dollars are not being collected each year because key information 
required to effectively bill and collect from third-party insurers is 
often not properly collected, recorded, or used by MTFs. DOD's failure 
to effectively bill and collect from third-party insurers, in effect, 
reduces the amount third-party private sector insurance companies must 
pay out in benefits and unnecessarily adds to DOD's increasing health 
care budget--financed by taxpayers. While DOD has limited control over 
the burgeoning cost of providing health care benefits to DOD retirees 
and their dependents and active duty dependents, DOD has an opportunity 
to offset the impact of its rising health care costs by collecting 
amounts due from its Third Party Collection Program.''
    AFTEA urges the subcommittee to:
  --Direct DOD to improve its collection of third-party insurance as 
        recommended by the GAO.
  --Support the House Armed Services Committee version of the fiscal 
        year 2007 NDAA that directs a complete study of DOD's 
        Healthcare system.

                               CONCLUSION

    AFTEA is very concerned about the imbalance between ``operational'' 
and ``personnel'' costs. We are also concerned that DOD has proposed 
shifting greater health care costs to beneficiaries to help fund 
weapons and other hardware needs.
    Defense Department officials would have the public believe that the 
growth in personnel costs, particularly for health care and retiree and 
survivor entitlements, is impacting on the military funding needed to 
carry out the Nation's wartime mission. They have complained about the 
cost of TRICARE for Life, concurrent receipt, SBP, and argued that 
these and other recent improvements in military and retirement benefits 
are unwarranted and will somehow bankrupt the defense budget.
    We believe that argument by the DOD to be false. Instead of 
balancing the budget on the backs of the men and women who serve and 
have served, our leaders should be honestly considering the requisite 
level of defense funding during this time of war. They must realize 
that defending the Nation costs money and the cost goes up with demand 
during wartime.
    This is a Nation of enormous wealth and it has not been the 
American tradition since the Civil War to spend, in support of war, 
with the intensity of war itself. Health care and other personnel costs 
are an ongoing cost of war. The administration and Congress need to 
adequately fund the war in all its dimensions, and mobilize and unit 
the country for the effort, and share in the sacrifice. However we 
fight the war, and whatever combination of military and nonmilitary 
means we use to win it, the war effort depends on the ability of the 
country to muster the needed resources and political will to pay for 
it.
    AFTEA is very grateful for this opportunity to testify before the 
Defense Appropriations Subcommittee and would like to thank Chairman 
Stevens and ranking member Inouye for their military service and many 
years of support to the defense of our country.
    We look forward to supporting a fiscal year 2007 Defense 
Appropriations bill that will not increase DOD's bottom line with ill-
timed increases for those beneficiaries who have made a significant 
contribution to our Nation.

    Senator Inouye. Our next witness is Colonel Steven 
Strobridge, United States Air Force, retired, co-chairman of 
the Military Coalition. Colonel, welcome, sir.

STATEMENT OF COLONEL STEVEN P. STROBRIDGE, UNITED 
            STATES AIR FORCE (RETIRED), DIRECTOR, 
            GOVERNMENT RELATIONS, THE MILITARY 
            COALITION
    Colonel Strobridge. Thank you very much, Senator Inouye, 
for the opportunity to be here today.
    The Military Coalition is concerned, like the previous 
witnesses have stated, that the defense budget is being 
squeezed significantly on a variety of fronts. We are 
particularly troubled that this is happening even as our 
military members and their families, who comprise less than 1 
percent of Americans, are being asked to bear virtually 100 
percent of the national burden of sacrifice in the global war 
on terror. Our forces are undermanned for the mission they are 
being asked to bear. We are having difficulty recruiting new 
servicemembers, and increasing numbers of today's forces are 
wondering whether the rewards inherent in a military career are 
worth the sacrifices.
    These concerns are being compounded as some in government 
now seek to carve funds from programs that are essential to 
sustain our troops and families through their extended trials. 
Our fervent hope is that the subcommittee will not allow that 
to happen.
    We urge full funding for the troop levels recommended 
earlier this month by the Armed Services Committee, an increase 
of 30,000 for the Army, 1,000 for the Marine Corps, and 17,000 
for the Army National Guard. These are all above the amounts 
requested in the President's budget, and additional funding is 
essential to ensure that the Pentagon is not forced to absorb 
these added costs in an already constrained budget.
    Ensuring full funding of the defense health program is 
another top priority. Both the House and the Senate Armed 
Services Committees have already categorically rejected 
Pentagon plans to double or triple military retiree health 
fees. The problem is that the President's budget already 
reduced the defense health program by $735 million in the 
expectation that these fees would dramatically reduce demand. 
And that is just not going to happen, and the $735 million 
needs to be restored, or military medicine is going to run out 
of money next summer.
    The House Appropriations Committee did not restore the 
necessary funding, saying it would wait to see what the 
authorizers would do. That has now been decided. They are not 
going to allow the fees. So it falls on this subcommittee to 
protect the integrity of the defense health program, and 
hopefully restore that vital $735 million.
    The coalition also asks the subcommittee to fund the full 
military pay raise proposed by the Armed Services Committee, 
including the additional targeted raises proposed for warrant 
officers and certain enlisted members. Family support funding 
is another vital area of interest. Military members will endure 
a lot in serving their country. Retention is a family issue. 
And military families are under a great deal of stress. 
Programs for Guard and Reserve families, most of whom do not 
live near military installations, are a continuing special 
priority.
    As base realignment and closure (BRAC) and global re-basing 
begins, we will be relocating large numbers of families between 
installations. Funding simply has to be provided to ensure that 
support facilities at closing bases continue until the families 
are gone, and we must fund housing, schools, health care 
networks, and child care needs, among other things, so those 
facilities are fully ready at gaining installation before the 
incoming thousands of families arrive.
    Finally, we've just seen reports that at least some 
services are dramatically curtailing funding for some on-base 
facilities, such as libraries, swimming pools, gymnasiums, and 
other base support facilities, in order to make up for 
operations and equipment shortfalls. We hope you will provide 
the operation and maintenance (O&M) funding as needed, and 
check into that so that these services do not have to further 
compound the already inordinate sacrifices the families are 
observing through these kinds of penny-wise and pound-foolish 
tradeoffs.
    Thank you, Mr. Chairman, Senator Inouye, for this 
opportunity to provide the coalition's inputs.
    Senator Stevens [presiding]. Thank you for your testimony. 
Senator, do you have any questions?
    [No response.]
    Senator Stevens. No. We appreciate, and we share your 
feelings.
    [The statement follows:]

               Prepared Statement of Steven P. Strobridge

    Mr. Chairman and distinguished Members of the committee. On behalf 
of The Military Coalition, a consortium of nationally prominent 
uniformed services and veterans' organizations, we are grateful to the 
committee for this opportunity to express our views concerning issues 
affecting the uniformed services community. This testimony provides the 
collective views of the following military and veterans' organizations, 
which represent approximately 5.5 million current and former members of 
the seven uniformed services, plus their families and survivors.
  --Air Force Association
  --Air Force Sergeants Association
  --Air Force Women Officers Associated
  --American Logistics Association
  --AMVETS (American Veterans)
  --Army Aviation Association of America
  --Association of Military Surgeons of the United States
  --Association of the United States Army
  --Chief Warrant Officer and Warrant Officer Association, U.S. Coast 
        Guard
  --Commissioned Officers Association of the U.S. Public Health 
        Service, Inc.
  --Enlisted Association of the National Guard of the United States
  --Fleet Reserve Association
  --Gold Star Wives of America, Inc.
  --Jewish War Veterans of the United States of America
  --Marine Corps League
  --Marine Corps Reserve Association
  --Military Chaplains Association of the United States of America
  --Military Officers Association of America
  --Military Order of the Purple Heart
  --National Association for Uniformed Services
  --National Guard Association of the United States
  --National Military Family Association
  --National Order of Battlefield Commissions
  --Naval Enlisted Reserve Association
  --Naval Reserve Association
  --Non Commissioned Officers Association
  --Reserve Enlisted Association
  --Society of Medical Consultants to the Armed Forces
  --The Retired Enlisted Association
  --United Armed Forces Association
  --United States Army Warrant Officers Association
  --United States Coast Guard Chief Petty Officers Association
  --Veterans of Foreign Wars of the United States
  --Veterans' Widows International Network
    The Military Coalition, Inc., does not receive any grants or 
contracts from the Federal Government.
    Mr. Chairman, The Military Coalition (TMC) thanks you and the 
entire subcommittee for your continued, unwavering support of our 
active duty, Guard, Reserve, retired members, and veterans of the 
uniformed services, to include their families and survivors.
    In testimony today, The Military Coalition offers its collective 
recommendations on what needs to be done to address these important 
issues and sustain long-term personnel readiness.

                              HEALTH CARE

    Full Funding for the Defense Health Program.--The Defense 
Department, Congress and The Military Coalition all have reason to be 
concerned about the rising cost of military health care. But it is 
important to recognize that the bulk of the problem is a national one, 
not a military-specific one. It's also important, in these times of 
focus on deficits, to keep in perspective the government's unique 
responsibility as the recruiter, retainer, employer, and custodian of a 
career military force that serves multiple decades under 
extraordinarily arduous conditions to protect and preserve our national 
welfare.
    In this regard, the government's responsibility and obligations to 
its servicemembers go well beyond those of corporate employers. The 
Constitution itself puts the responsibility on the government to 
provide for the common defense, and on Congress to raise and maintain 
military forces. No corporate employer shares any such awesome 
responsibility and obligation, and there is no other employee 
population upon whom the entire Nation depends for its very freedom.
    Congress has pursued its responsibilities with vigor on behalf of 
those who are sacrificing, have sacrificed, and will continue to 
sacrifice so much for the rest of America. Continuing those vigorous 
efforts will be essential in addressing the budget challenges of the 
years ahead.
    The Military Coalition urges the subcommittee to ensure continued 
full funding for Defense Health Program needs.
    Protecting Beneficiaries Against Cost-Shifting.--The administration 
is proposing a significant increase in fees paid by retired uniformed 
services beneficiaries under age 65, including doubling or tripling 
enrollment fees for TRICARE Prime and tripling or quadrupling fees for 
TRICARE Standard. In addition, the President's budget recommends a 67-
percent increase in retail pharmacy fees for all Active Duty, Guard, 
Reserve, retired, and survivor beneficiaries.
    Eroding benefits for career service can only undermine long-term 
retention/readiness. Today's troops are very conscious of Congress' 
actions toward those who preceded them in service. One reason Congress 
enacted TRICARE For Life is that the Joint Chiefs of Staff at that time 
said that inadequate retiree health care was affecting attitudes among 
active duty troops.
    Reducing military retirement benefits would be penny-wise and 
pound-foolish when recruiting is already a problem and an overstressed 
force is at increasing retention risk.
    The Coalition believes strongly that these proposed increases are 
disproportional, inequitable, inappropriate, and unwise.
    The Coalition recommends against implementing any increases in 
health fees for uniformed services beneficiaries this year. The 
Coalition believes strongly that America can afford to and must pay for 
both weapons and military health care.
    Unrealistic Budget Assumptions Will Leave TRICARE Underfunded.--The 
DOD budget proposal assumes the proposed fee increases and co-payment 
changes will save money by shifting 14 percent of pharmacy users away 
from retail outlets and causing hundreds of thousands of current 
beneficiaries to exit TRICARE by 2011. Thus, DOD has reduced the amount 
budgeted for health care on the assumption that it will be treating 
fewer beneficiaries.
    Many Defense and Service analysts believe it is unrealistic to 
assume that this number of beneficiaries will leave TRICARE if such 
fees are introduced, largely because switching to civilian coverage 
usually would entail even larger fees for beneficiaries.
    Because the assumed level of beneficiary flight is extremely 
unlikely to occur, the Department almost certainly will experience a 
substantial budget shortfall before the end of the year. This would 
then require supplemental funding, further benefit cutbacks, and even 
greater efforts to shift more costs to beneficiaries in future years.
    Thus, the most likely result of this misguided cost-shifting 
proposal would be to disproportionately penalize retirees, undermine 
military health benefits, and further threaten future retention and 
readiness.
    Alternative Options to Make TRICARE More Cost-Efficient.--The 
Coalition believes strongly that the Defense Department has not 
sufficiently investigated other options to make TRICARE more cost-
efficient without shifting costs to beneficiaries. The Coalition has 
offered a long list of alternative cost-saving options, including:
  --Eliminating DOD-unique administrative requirements that drive 
        higher overhead fees.
  --Changing the law to limit incentives private firms can offer 
        employees to shift to TRICARE, or require such matching 
        payments to TRICARE.
  --Improving education on the advantages of using the mail-order 
        pharmacy.
  --Centralizing the military treatment facility pharmacy budget/
        funding process, with emphasis on accountability.
    Pharmacy Copayment Changes.--The Coalition is concerned that, 5 
years after pharmacy copayment levels were established, the Department 
is proposing a 67-percent increase in retail copayments. The rationale 
for the proposed increase is the rapid growth in retail pharmacy use 
since enactment of TRICARE For Life.
    The Coalition believes strongly that uniformed services 
beneficiaries deserve more stability in their benefit levels, and that 
DOD has not performed due diligence in exploring other ways to reduce 
pharmacy costs without shifting such increased expense burdens to 
beneficiaries. Thus far, the Department has refused to negotiate with 
drug companies for discounts in the retail arena. Not enough has been 
done to educate beneficiaries and providers on the advantages of the 
mail-order program. The Department has failed to centralize purchasing 
and filling of prescriptions for high-cost drugs, as the Air Force has 
done successfully.
    The Department has ignored what the Coalition believes would create 
the most powerful incentive for beneficiaries to shift from the more 
costly retail program to the mail order program--eliminating mail-order 
copays. The average drug purchased in the mail-order system saves the 
government $58 to $157 relative to providing the drug through the 
retail system. If all mail-order copayments would be eliminated, the 
savings would still be at least $50 per prescription. Elimination of 
mail-order copays would save the government $20 million for each 1 
percent of prescriptions that migrate from the retail to the mail-order 
pharmacy system.
    The Coalition recommends eliminating beneficiary copayments in the 
mail-order pharmacy system for generic and brand name medications to 
incentivize use of this lowest-cost venue and generate substantial cost 
savings.

                          ACTIVE FORCE ISSUES

    The Coalition appreciates the subcommittee's many actions to help 
relieve the stress of repeated deployments--end strength increases, 
bonus improvements, family separation, and danger area pay increases, 
and more.
    From the servicemembers' standpoint, the increased personnel tempo 
necessary to meet continued and sustained training and operational 
requirements has meant having to work progressively longer and harder 
every year. They are enduring longer duty days; increased family 
separations; cutbacks in installation services; less opportunity to use 
education benefits; and significant out-of-pocket expenses with each 
permanent change of station move.
    Intensified and sustained operations in Iraq and Afghanistan are 
being met by servicemembers' patriotic dedication, but retention must 
be an increasing concern as 1 percent of Americans continue to bear 
virtually 100 percent of the burden of national sacrifice in the global 
war on terrorism. Service leaders may tout seemingly high retention 
figures, but the Coalition cannot reconcile this with the ever-
increasing stresses on military families.
    Military families have continued to demonstrate their exceptional 
support of servicemembers' long, recurring deployments; yet, many 
servicemembers and their families debate among themselves whether the 
rewards of a service career are sufficient to offset the attendant 
demands and sacrifices inherent in uniformed service. Unless they see 
some prospect of near-term respite, many of our excellent soldiers, 
sailors, airmen and marines will opt for civilian career choices, not 
because they don't love what they do, but because their families just 
can no longer take the stress. High retention simply cannot continue to 
co-exist with such levels of high operations tempo and family 
separations, despite the reluctance of some to see anything but rosy 
scenarios.
    The Coalition views with alarm the Defense Department's 
determination to sacrifice troop levels to pay for weapons systems, 
with seemingly little regard for the impact these decisions will have 
on servicemembers and their future retention. The finest weapon systems 
in the world will be of little use if the services don't have enough 
high quality, well-trained people to operate, maintain and support 
them.
    The Coalition believes the ``weapons or people'' debate is a 
patently false one--akin to forcing a choice between one's left and 
right arms.
    Pay Raises.--Since 1999, when the cumulative gap between military 
and private sector pay raises reached 13.5 percent--resulting in 
predictable readiness crises--this subcommittee has provided funding 
for increased military raises--reducing the pay gap to 4.5 percent in 
2006.
    The subcommittee also has supported previous Department of Defense 
plans to fix problems within the basic pay table by authorizing special 
``targeted'' adjustments for specific grade and longevity combinations 
in order to align career servicemembers' pay with private sector 
earnings of civilians with similar education and experience.
    The Coalition believes it is essential to continue that progress as 
the global war on terror enters its sixth year.
    The Military Coalition strongly recommends providing military pay 
raises that exceed the Employment Cost Index until such time as full 
military pay comparability has been restored. The Coalition further 
recommends targeted increases for selected non-commissioned officers/
petty officers and warrant officers as needed to attain the 70th-
percentile comparability standard.
    Maintain Well-funded Family Readiness, Support Structure, and 
Morale, Welfare and Recreation (MWR) Programs.--Today, two-thirds of 
active duty families and virtually all Guard and Reserve families live 
off military installations, and more than one-half of these 
servicemembers are married. A fully funded family readiness program to 
include financial education and benefit information has never been a 
more crucial component to the military mission and overall readiness 
than it is today, especially when military families are coping with the 
increased deployments and separation.
    More needs to be done to ``connect'' servicemembers and their 
families with important resources. Military One Source has provided a 
great start to improve family readiness; however, a more aggressive 
outreach effort is needed to educate servicemembers and their families 
on the benefits and programs to which they are entitled. These outreach 
efforts need to address the unique needs of National Guard and Reserve 
families to include transitioning to and from active duty status. 
Traditional delivery systems of ``build it and they will come'' no 
longer serve the transforming military community of today that is 
increasingly non-installation based. More robust outreach delivery 
systems and programs are called for that can be accessed anywhere and 
anytime.
    Because of multiple DOD modernization efforts (global rebasing, 
Army modularity, and BRAC initiatives) that are occurring 
simultaneously, TMC is concerned about the synchronization, pace of 
planning, implementation timetables, timing of budgets and resource 
allocations, and the evaluation of the rebasing and BRAC plans. TMC 
asks Congress to ensure necessary family support/quality of life 
program dollars are in line with the DOD/Military Services overseas 
rebasing and BRAC plans. Further, the Coalition urges Congress to 
insist that support services and infrastructure remain in place at both 
the closing and the gaining installations, throughout the transition 
period.
    The Coalition appreciates the recent congressional enhancements in 
military childcare, family readiness, and supportive counseling 
programs to assist families in dealing with deployments and the return 
of servicemembers. Family support, Quality of Life, and MWR programs 
are especially critical to the readiness of our forces and the support 
of their families during periods of conflict and extended separations. 
In order for these programs to flourish, they require consistent 
sourcing, deliberate outreach, and must remain flexible to meet 
emerging challenges.
    The Military Coalition urges Congress to maintain a well-funded 
family readiness and support structure to enhance family well-being and 
to improve retention and morale.
    The Coalition also asks Congress to highlight and protect the 
interests of all beneficiaries impacted by overseas rebasing, Army 
modularity, and BRAC and ensure support services and infrastructure 
remain in place throughout the entire transition period for all 
beneficiary populations.
    Personnel Strengths.--The Coalition has been disappointed at the 
Defense Department's annual resistance to Congress' repeated offers to 
permanently increase service end strength to relieve the stress on 
today's Armed Forces. While we are encouraged by the subcommittee's 
work to fund increased Army and Marine Corps end strength and much 
needed recruiting and retention bonuses; however, we are deeply 
concerned that administration-proposed plans rely too heavily on overly 
optimistic retention assumptions, overuse of the Guard and Reserves, 
optimistic scenarios in Southwest Asia, and the absence of new 
contingency needs.
    The Department has indicated that it prefers to ``transform'' 
forces, placing non-mission essential resources in core war fighting 
skills, and transferring certain functions to civilians. However, any 
such implementation will take a long time while we continue to exhaust 
our downsized forces.
    In addition, the Department is already cutting back even on those 
plans, proposing to reduce six Army National Guard brigades, reduce 
planned growth in the number of active duty brigades, continue 
systematic personnel reductions within the Navy, and impose further 
dramatic reductions in Air Force personnel. Media reports indicate that 
previous plans to civilianize military positions have been changed, and 
that substantial numbers of military positions now will simply be 
eliminated, without civilian replacements--imposing even greater stress 
on the remaining force.
    Force reductions envisioned in the Quadrennial Defense Review are 
being undertaken not because of any reduction in mission, but simply to 
free up billions of dollars for weapons programs.
    Defense leaders warn that the long-term mission against terrorism 
will require sustained, large deployments to Central Asia and 
elsewhere, but the Services are being denied the manpower to meet those 
requirements without unacceptable impacts on members' and families' 
quality of life.
    If the administration does not recognize when extra missions exceed 
the capacity to perform them, Congress must assume that obligation. 
Deferral of additional meaningful action to address this problem cannot 
continue without risking serious consequences.
    The Military Coalition strongly urges funding to sustain end 
strengths to meet mission requirements, and opposition to force 
reductions that have the primary purpose of paying for other programs.
    Dependent Education Needs.--Quality education is an instrumental 
retention tool for DOD--we recruit the member, but retain the family. 
However, many ongoing initiatives--housing privatization, Service 
transformation, overseas rebasing, and BRAC--will have a direct impact 
on the surrounding communities that provide educational programs for 
our military families. A positive step in the right direction is 
reflected by the subcommittee's efforts that provided increased Impact 
Aid funding for highly impacted school districts with significant 
military student enrollment.
    The Coalition urges the subcommittee to continue its priority of 
providing additional funding to support schools educating military 
children.

                        GUARD AND RESERVE ISSUES

    More than a half million members of the National Guard and Reserve 
have been mobilized since September 11, 2001, and many thousands more 
are in the activation pipeline. Today, they face the same challenges as 
their active counterparts, with a deployment pace greater than at any 
time since World War II.
    Guard/Reserve operational tempo has placed enormous strains on 
Reservists, their family members, and their civilian employers that 
were never anticipated by the designers of Guard and Reserve personnel 
and compensation programs.
    The Coalition fully supports the prominent role of the Guard and 
Reserve forces in the national security equation. However, many Guard 
and Reserve members are facing increased family stresses and financial 
burdens under the current policy of multiple extended activations over 
the course of a Reserve career. Many Reserve component leaders are 
rightly alarmed over likely manpower losses if action is not taken to 
relieve pressures on Guard and Reserve troops.
    The Coalition believes it is essential to substantively address 
critical Guard and Reserve personnel, pay, and benefits issues--along 
with active duty manpower increases--to alleviate those pressures and 
help retain these qualified, trained professionals.
    We believe that more must be done to ensure that Guard and Reserve 
members' and their families' readiness remains a viable part of our 
national security strategy. It is clear that our country is absolutely 
dependent on these valuable members of our national military team to 
meet ongoing readiness requirements.
    Guard/Reserve Health Care.--The Military Coalition recognizes 
Congress' significant progress over the last 2 years in authorizing and 
funding ``TRICARE Reserve Select'' coverage for all drilling Guard and 
Reserve members. Nevertheless, the Coalition believes strongly that the 
program approved last year fall short of meeting the needs of these 
members and their families.
    We believe the enrollment fees will prove cost-prohibitive for 
members who have not been mobilized since 9/11, and the high fees 
represent an ill-advised deterrent to members we need to retain in the 
Reserve components. Such fees are particularly unfair for members who 
do not have access to other health insurance coverage.
    The Coalition strongly recommends funding to increase subsidy 
levels for TRICARE coverage for drilling Guard/Reserve members not yet 
mobilized and having one premium for all members of the Guard and 
Reserve who continue to be drilling members.
    Guard and Reserve Family Support Programs.--The increase in Guard 
and Reserve operational tempo is taking a toll on the families of these 
servicemembers. These families are routinely called upon to make more 
and more sacrifices as the global war on terror continues. Reserve 
component families live in communities throughout the Nation, and most 
of these communities are not close to military installations. These 
families face unique challenges in the absence of mobilized members, 
since they don't have access to traditional family support services 
enjoyed by active duty members on military installations.
    Providing a core set of family programs and benefits that meet the 
unique needs of these families is essential to meeting family readiness 
challenges. These programs would promote better communication with 
servicemembers, specialized support for geographically separated Guard 
and Reserve families, and training (and back-up) for family readiness 
volunteers. Such access would include:
  --Web-based assistance programs such as Military OneSource and Guard 
        Family.org;
  --Expanded programs between military and community religious leaders 
        to support servicemembers and families during all phases of 
        deployments;
  --Robust preventive counseling services for servicemembers and 
        families and training so they know when to seek professional 
        help related to their circumstances;
  --Enhanced education for Guard and Reserve family members about their 
        rights and benefits;
  --Meeting needs for occasional child care, particularly for 
        preventive respite care, volunteering, and family readiness 
        group meetings and drill time;
  --A joint family readiness program to facilitate understanding and 
        sharing of information between all family members, no matter 
        what the service.
    TMC urges Congress to continue and expand its emphasis on providing 
consistent funding and increased outreach to connect Guard and Reserve 
families with these support programs.
     overseas rebasing, base realignment and closure (brac) issues
    Thousands military members and families will be under great stress 
in the months and years ahead as a result of rebasing, closure, and 
transformation actions. But the impact extends beyond the active duty 
personnel currently assigned to the affected installations. The entire 
local community--school districts, chambers of commerce, Guard/Reserve, 
retirees, survivors, civil servants, and others--experiences the 
traumatic impact of a rebasing or closure action. Jobs are lost or 
transferred, installation support facilities are closed, and 
beneficiaries who relied on the base for support are forced to search 
elsewhere.
    The Coalition urges the subcommittee to ensure rebasing plans are 
not executed without ensuring full support funding is available to 
families as long as they are present at losing installations and before 
they arrive at gaining installations. The critical family support/
quality of life programs include MWR, childcare, exchanges and 
commissaries, housing, health care, education, family centers, and 
other traditional support programs.
    The Coalition will actively be engaged in ensuring the 
implementations of the BRAC decisions, Service transformation 
initiatives, global repositioning, and Army modularity initiatives not 
only take each beneficiary community into consideration, but also to 
advocate for beneficiaries significantly impacted by these initiatives.
    The Military Coalition urges the subcommittee to monitor the 
implementation of rebasing, BRAC, and Service Transformation 
initiatives to ensure protection of funding for support services for 
all military members and their families.

                               CONCLUSION

    The Military Coalition reiterates its profound gratitude for the 
extraordinary progress this subcommittee has made in funding a wide 
range of personnel and health care initiatives for all uniformed 
services personnel and their families and survivors in recent years. 
The Coalition is eager to continue its work with the subcommittee in 
pursuit of the goals outlined in our testimony. Thank you very much for 
the opportunity to present the Coalition's views on these critically 
important topics.

    Senator Stevens. Our next witness is Dr. Edwin Thomas from 
the Institute for Soldier Nanotechnologies. Good morning.

STATEMENT OF DR. EDWIN THOMAS, PROFESSOR, FOUNDING 
            DIRECTOR, INSTITUTE FOR SOLDIER 
            NANOTECHNOLOGIES, MASSACHUSETTS INSTITUTE 
            OF TECHNOLOGY (MIT)
    Dr. Thomas. Good morning, Chairman Stevens, Senator Inouye. 
I'm a professor at MIT, and it is a great honor to be able to 
testify before this subcommittee. I have written testimony, and 
I have some Powerpoints, and I do not know if you can find 
them. I might take you through them. My testimony is somewhat 
visual, but perhaps I can do it with words, as well.
    Key thing here is that 4 years ago, the Army decided to put 
together a competition for a university affiliated research 
center that would focus on soldier protection using 
nanotechnology. About 50 schools competed, and this university 
affiliated research center was placed at MIT in 2002.
    Well, nanotechnology is certainly in the news these days, 
and the notion here is to try to use nano approaches for 
soldier protection. Of course, a millennia-old problem of how 
to protect soldiers.
    One of the sort of visions of the Institute for Soldier 
Nanotechnology (ISN) is to look at a typical paratrooper, who 
is carrying 120 pounds, a very bulky, heavy, good equipment but 
very burdensome. And these young men and women that we send 
into battle are not as well protected as one would hope, and 
they are burdened with heavy amounts of weight. So the notion 
and the vision of the ISN is to really use nanotechnology to 
dramatically decrease the weight and the volume that the 
warfighters need. So it is basic 6.1 research. It is 
nonclassified on-campus research.
    Our vision is something called a dynamic battle suit. And 
if I might, when you get in your vehicle in the morning, you do 
not ask yourself the question whether or not you take your 
airbag. It is always there. And if you are in an accident, you 
do not reach over and say, ``Ah, time to activate the airbag.'' 
The airbag system is all autonomous. It senses a threat, and it 
deploys to mitigate that threat.
    Our notion for soldiers is in fact a dynamic battle suit 
that would have attributes of, kind of, airbags, except these 
would be defense mechanisms that would sense bio and chemical 
threats. They would sense ballistic and blast threats, and they 
would then act quickly, using nanotechnologies to mitigate 
those threats, and protect the soldier.
    Let me take you through three kinds of examples of things 
we've been working on. Some are further off in the future, and 
some are in fact in Iraq right now. The first one is on 
situational awareness. We envision fibers that can actually see 
color and hear. So part of the fabric of the soldier's battle 
suit of the future would have these fibers that would have the 
ability to detect whether a soldier was being lazed, and by 
what wavelength the laser was. So in a sense, they could see in 
color, 360 degrees. This could be terrific, for example, 
avoiding fratricide, identification of friend or foe.
    Another technology that we are working on is body armor. As 
you know, the interceptor body armor right now has been 
improved. I guess if you're not wearing it, it is improved. If 
you're wearing it, it went from 16 pounds to 31 pounds, and so 
we are asking our men and women to carry 31\1/2\ pounds of 
Kevlar and ceramic, not including the batteries and the bullets 
and the water, and all the rest of the kit that they have to 
carry. So a clear need that nano may be able to do something 
about is improved body armor.
    And finally, an area that is something that is actually 
molecules, I'm proud to say, that are made in Cambridge, 
Massachusetts, are working to protect men and women in Iraq. 
These are molecules that can detect TNT, which is the main 
component in the IED threats. Working with an industrial 
partner called Nomadics, a sensor has been developed. The 
sensor works in the hands of an 18-year-old when it is hot and 
muddy and wet. It will actually work underwater. It will work 
in diesel fuel. It is being mounted and incorporated onto 
robots. They've been putting these at checkpoints, and instead 
of having a soldier go up with a handheld device to be able to 
check for TNT in a vehicle or on a person, they are actually 
able to send a robot up and thus get standoff, and save lives.
    Thank you.
    [The statement follows:]

                 Prepared Statement of Edwin L. Thomas

    The Institute for Soldier Nanotechnologies (ISN) is dedicated to 
the development of nano-enabled technologies to protect dismounted 
soldiers. Nanotechnological research approaches have not previously 
been significantly applied to soldier protection, thus presenting many 
opportunities for revolutionary advances in soldier survivability. 
Nanoscience and nanoengineering will lead to the development of new 
materials and properties unattainable with conventional materials. Nano 
allows minaturization and increased response speed for devices, key 
attributes for dramatic improvements of the soldier's kit.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The ISN mission is to increase capabilities while simultaneously 
decreasing the weight soldiers must carry. Present day soldiers, like 
the young paratrooper from northern Iraq, often carry in excess of 120 
pounds of equipment, which reduces their effectiveness and 
survivability in the field. The ISN is an on-campus basic, 6.1 research 
center (a University Affiliated Research Center (UARC)) started in 
2002. The ISN vision is to design from the ground up, a new battlesuit 
with a number of integrated systems that sense for threats and 
automatically activate protection-on-demand, much in the same way as 
airbags deploy in automobiles. The future battlesuit will include 
sensing subsystems to detect chemical and biological threats as well as 
perform physiological monitoring. It will further provide mechanical 
performance enhancements, integrated power, and informational systems. 
Blast and ballistic protection are of key importance. Novel lightweight 
materials that can adapt and transform their properties are essential 
enabling components. Nanotechnology will help us to realize new 
properties and attributes and to integrate these many functions into 
the uniform. One materials platform we envision is the fabric of the 
uniform itself wherein a diversity of functional nanostructured fibers, 
will be developed which provide massive new capabilities to the soldier 
with an insignificant increase in weight and no loss of mobility. The 
ISN has over 30 active research projects, but today I will focus on 
three examples of new nanotech systems for enhanced situational 
awareness, flexible body armor and IED detection.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    New nanostructured fibers have been developed to detect specific 
wavelengths of light from targeting lasers or to detect a local change 
in surface temperature, for example, from a wound. These fibers are 
comprised of semiconductors, metals and polymers and are produced by a 
drawing process. When illuminated with light, electrical currents are 
generated between the electrodes or if a fiber is exposed to a higher/
lower temperature, the electrical current is altered. Thus, these 
fibers can ``see'' and ``feel''. We are currently working on additional 
fibers with piezoelectric materials inside, so that the future 
battlesuit can also ``hear.''

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    A huge need is to provide future soldiers with lightweight, 
flexible body armor that not only protects from ballistic threats 
(bullets, shrapnel etc.) but also protects from blast pressure waves. 
Current body armor weights 15 lbs. and the new add-on body armor pushes 
the weight up to 31.5 lbs. Engineers create lightweight, stiff and 
strong structures--such as cellphone towers using truss designs. Our 
idea is to extend this concept down to the nanometer regime using 
photolithography to sculpt polymers into ultralight, breatheable 
microtrusses for unprecedented soldier protection. Interestingly, the 
``nano'' sized nature of the struts in the truss structure imparts 
exciting new toughed mechanical behavior, highly promising for soldier 
protection.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    We have also developed networks of photonic molecular wires for the 
detection of explosives. These materials are electronic plastics that 
absorb and emit light and have a high sensitivity to explosives like 
TNT. The polymer chains have the unusual ability to self-amplify their 
own sensory responses due the transport of energy packets throughout 
the network. This process behaves similarly to a string of holiday 
lights wherein only one light need be broken to cause the entire system 
to become dark. When illuminated using ultraviolet light, the set of 
sensor wires glows green. When molecules of TNT vapor bind to the 
polymers, the fluorescence is quenched--that is the green light goes 
out signaling detection of TNT. To transition our 6.1 proof of concept 
to an actual fieldable technology for the military, the ISN works with 
partner companies, both large and small, distributed throughout the 
United States. MIT has licensed our explosives detection technology to 
Nomadics, a small company based in Oklahoma, which has developed small, 
ultra-sensitive explosive detectors. The Nomadics sensor, known as 
Fido<SUP>TM</SUP>, detects vapors of explosives as they pass through a 
capillary containing a nanocoating of the MIT electronic plastic. These 
systems can rapidly detect explosive vapors at distances more than 2 
meters away from the source. Only trained dogs are capable of similar 
detection limits, and hence Fido represents an important new capability 
for our soldiers.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Fido sensors are undergoing evaluation in Iraq both as hand held 
systems and on robotic platforms. This integrated system can be used at 
checkpoints for vehicle interrogation at safe distances. It can also be 
used for investigating potential roadside bombs and identifying 
individuals who have recently handled explosives. The feedback from 
soldiers in Iraq to date has been very promising. This is a great 
example of how basic research at universities guided by Army needs with 
close coupling to industry has paid off.
    The research portfolio of the ISN continues to evolve as faculty 
bring their ideas on how nano can provide for soldier and first 
responder needs. Exciting new areas of research have been initiated via 
a combination of applications-pull and fundamental discovery-push. 
Science for the soldier is one way that universities can both work at 
the cutting edge of research and help with national needs.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Senator Stevens. Well, thank you. I do not understand that 
one exhibit you have, which shows the bullet still traveling 
through the fabric. What's that meant to mean?
    Dr. Thomas. What we imagined they are on the bullet going 
to the fabric, these are fibers that would sense temperature. 
So one of the problems is when someone is wounded, the medic 
who comes up doesn't know where the wound is, generally, and 
has to strip search the person, taking off that 120 pounds 
worth of stuff to find the worst wound.
    The notion here is that these fibers would be incorporated 
into the uniform next to the body, and would measure the 
temperature of the body at all times. So when you are wounded, 
the notion is there would be blood flow, say, and then there 
would be a local excursion of temperature that would be a way 
to wirelessly communicate to the medic that (a) ``tell the 
person, tell the medic that someone's down,'' and (b) where to 
look on that person to look for the wound.
    Senator Stevens. Well, we appreciate your statement. We are 
quite interested in that, and we will be pleased to follow up 
on it. I do think that there's a lot to reducing the weight. We 
had one young woman who came to testify, and she weighed less 
than the pack she jumped with. So it is a real problem.
    Dr. Thomas. Yes, sir.
    Senator Stevens. Thank you very much.
    Our next witness is Master Chief Joseph Barnes, the 
National Executive Secretary of the Fleet Reserve Association.

STATEMENT OF MASTER CHIEF JOSEPH L. BARNES, UNITED 
            STATES NAVY (RETIRED), NATIONAL EXECUTIVE 
            SECRETARY, FLEET RESERVE ASSOCIATION
    Chief Barnes. Mr. Chairman, thank you for the opportunity 
to present the Fleet Reserve Association's (FRA's) views on the 
2007 defense budget.
    FRA's top priority is supporting adequate funding for 
protective devices, body armor, equipment, and specially 
outfitted combat vehicles, to protect personnel serving in 
Operations Iraqi Freedom and Enduring Freedom.
    We must also ensure that resources are available so that 
wounded troops, their families, and the survivors of those 
killed in action, are cared for by a grateful nation.
    Fleet Reserve Association is committed to working with 
Congress and DOD to ensure full funding of the defense health 
budget, and ensure access to the health care system for all 
uniformed services beneficiaries. This is critical to readiness 
and the retention of qualified uniform services personnel. FRA 
opposes the establishment of a TRICARE standard enrollment fee, 
and supports the restoration of $735 million to the defense 
health care budget. FRA believes other cost-saving initiatives 
should be implemented as alternatives to DOD's drastic plan to 
shift health care costs to military retirees.
    The association also supports appropriations to make 
TRICARE available on an optional basis for all selected 
reservists and families, on a cost-sharing basis. FRA supports 
appropriations necessary to implement a 2.7 percent across-the-
board military pay increase on one January 2006, plus funding 
for additional targeted pay increases for senior enlisted 
personnel, and certain officer grades.
    These increases will help achieve additional progress 
toward closing the pay gap between military and civilian pay 
levels. Adequate Active and Reserve end strengths are important 
to maintaining readiness, and FRA strongly supports increasing 
the Marine Corps end strength to 180,000. If force size is 
inadequate and op tempo too intense, the performance of 
individual servicemembers is negatively affected.
    An issue important to FRA's membership is the acceleration 
of SBP paid update from 2008 to 2006 for participants having 
paid premiums for 30 years, and being at least 70 years of age. 
If authorized, the association asks for support from this 
distinguished subcommittee to fund this enhancement.
    FRA also supports funding to maintain the commissary 
benefit, increase Reserve Montgomery G.I. bill (MGIB) education 
benefits, fund family readiness and spouse employment 
opportunities, and supplemental impact aid funding for school 
districts with large numbers of military-sponsored students.
    Thank you, Mr. Chairman, for the opportunity to present the 
association's recommendations.
    Senator Stevens. Thank you, Chief. We appreciate your 
testimony.
    [The statement follows:]

                 Prepared Statement of Joseph L. Barnes

    Mr. Chairman and other distinguished Members of the subcommittee: 
The Fleet Reserve Association (FRA) is most grateful for your support 
of our military men and women and, particularly, those serving or 
having served in Afghanistan, Iraq and other troubled spots around the 
globe. At the top of the association's gratitude list is the quality of 
life improvements funded during the First Session of the 109th 
Congress. Thanks so much for the effort. FRA appreciates the support to 
making a tough life much easier for those that might make the ultimate 
sacrifice in the service of this Nation. BRAVO ZULU.
    This statement lists the concerns of our members, keeping in mind 
that the association's primary goal is to endorse any positive safety 
programs, rewards, and quality of life improvements that support 
members of the uniformed services, particularly those serving in 
hostile areas, and their families, and survivors.
    FRA remains concerned that many of our sailors, marines and coast 
guardsmen serving in Operation Iraqi Freedom (OIF) and Operation 
Enduring Freedom (OEF) may not be fully armed with the best protective 
devices available for their personal safety. Advocating the funding for 
and receipt of these protective devices; including vehicle protection, 
armor and electronic equipment to disrupt IEDs for every uniformed 
member sent into harm's way is FRA's No. 1 priority.
    The association's next priority is to ensure adequate resources so 
our wounded troops, their families, and the surviving families of the 
men and women killed in action are cared for by a grateful Nation.

                              HEALTH CARE

    Full Funding for the Defense Health Program: A top priority for FRA 
is to continue to work with Congress and DOD to ensure adequate funding 
for the Defense Health Program in order to meet readiness needs, and 
improve access to all beneficiaries regardless of age, status, or 
location. FRA believes other cost saving options should be reviewed by 
DOD before TRICARE fees are increased as proposed in the 
administration's fiscal year 2007 budget request. DOD has not 
sufficiently investigated other options to make TRICARE more cost-
efficient as alternatives to shifting costs to retiree beneficiaries 
who have earned this benefit by serving their country.
    FRA recommends making TRICARE a true second-payer to other health 
insurance. The association questions DOD's assumptions about driving 
some 150,000 retirees with other health care coverage away from 
TRICARE.
    DOD should also negotiate with drug manufacturers for retail 
pharmacy discounts, or change the law to mandate Federal pricing for 
the retail pharmacy network. FRA believes this change could result in 
significant savings to the Defense Health System.
    DOD should eliminate all mail-order co-pays to boost use of this 
lowest cost option for beneficiaries to receive prescription 
medications. The elimination of all co-pays will help drive many more 
beneficiaries to this pharmacy cost-savings benefit option. 
Accelerating DOD/VA cost sharing initiatives will ensure full 
implementation of seamless transition, including electronic medical 
records and one stop military discharge physicals--all strongly 
supported by FRA.
    The proposed future fee adjustments which are pegged to health care 
inflation will also significantly erode the value of retired pay, 
particularly for enlisted retirees who retired prior to larger and 
targeted recent pay adjustments enacted to close the pay gap. Military 
service is very different from work in the corporate world and requires 
service in often life threatening duty commitments and the associated 
benefits offered in return must be commensurate with these realities.

                       PROTECT PERSONNEL PROGRAMS

    FRA is concerned about DOD's apparent decision to reduce end 
strength to pay for weapons systems. DOD's priority of money for 
weapons before people will have an impact on retention and recruitment.
    Active Duty Pay.--FRA supports additional annual active duty pay 
increases that are at least .05 percent above the Employment Cost Index 
(ECI) along with increases for mid-career and senior enlisted personnel 
to help close the pay gap between active duty and private sector pay, 
and work to restore the ratio of pay between junior and senior enlisted 
personnel which existed prior to the advent of the All Volunteer Force.
    For fiscal year 2007, the administration recommended a 2.2 percent 
across the board basic pay increase for members of the Armed Forces. 
This increase will be the smallest increase since 1994.
    The statutory requirement to peg annual active duty pay adjustments 
at 0.5 percent above the Employment Cost Index (ECI) expired in fiscal 
year 2006. Compensation is directly related to recruitment and 
retention of quality personnel in an all-volunteer environment and FRA 
believes that maintaining a high level of morale and readiness is 
critical in winning the war on terror. With the addition of targeted 
raises authorized by Congress since fiscal year 2001, the formula has 
reduced the pay gap with the private sector from 13.5 percent to 4.4 
percent. These targeted pay increases for middle grade and senior petty 
and noncommissioned officers and warrant officers have contributed 
significantly to improved morale, readiness, and retention, and the 
Association strongly supports targeted increases for fiscal year 2007.
    Military service is very different from work in the private sector 
and often involves life threatening duty assignments, with long periods 
of separation from service member's families. Their pay and benefits 
must reflect these realities.
    Commissaries.--FRA supports adequate funding for the Defense 
Commissary Agency (DeCA) to preserve the value of the current benefit 
for all patrons. FRA is concerned about store closures, staff 
reductions, or other initiatives that may diminish the scope and 
quality of the benefit.
    Family Readiness and Support.--FRA supports a well-funded family 
readiness and support structure to enhance family cohesion that will 
improve retention and recruitment. It's most important that DOD and the 
military services concentrate on providing information and education 
programs for the families of our service members. There are a number of 
existing spousal and family programs that have been fine tuned and are 
successfully contributing to the well-being of this community. The 
Navy's Fleet and Family Centers and the Marines' Marine Corps Community 
Services (MCCS) and Family Services programs are providing 
comprehensive, 24/7 information and referral services to the service 
member and family through its One Source links. One Source is 
particularly beneficial to mobilized reservists and families who are 
unfamiliar with benefits and services available to them.
    It's true that ``the servicemember enlists in the military 
service--but it's the family that reenlists.'' To ensure the family 
opts for a uniformed career, the family must be satisfied with life in 
the military. To assist in bringing that satisfaction, FRA recommends 
the following.
    Child and Youth Programs.--Both programs rank high in priority for 
the families of sailors and marines. As an integral support system for 
mission readiness and deployments, its imperative these programs 
continue to be improved and expanded to cover the needs of both married 
and single parents. Currently, the Navy's program cares for over 31,000 
children 6 months to 12 years in 227 facilities, and in 3,180 on and 
off base licensed child development homes. However the Navy continues 
to fall short on child care development homes. Access to child care is 
important and FRA urges Congress to authorize adequate funding for this 
important benefit.
    Spousal Employment.--The association urges Congress to continue its 
support of the military's effort to affect a viable spousal employment 
program and to authorize sufficient funds to assure the program's 
success. Today's all-volunteer environment requires the services to 
consider the whole family. It is no longer adequate to focus only on 
the morale and financial well-being of the member. Now, his or her 
family must be considered. A major consideration for spousal employment 
is that it could be a stepping-stone to retention of the service 
member--a key participant in the defense of this Nation.
    DOD Schools.--FRA recommends that the subcommittee provide the 
necessary funds to continue the effective operation of the Department 
of Defense's school system and to cease and desist from using 
appropriated funds to find ways and means to close or transfer its 
school system to local school districts. Further threats of closures 
impact the morale of our Nation's military personnel and families. FRA 
notes with concern the Department of Defense's (DOD's) repeated quest 
to close some or all DOD-sponsored schools operating on military 
installations in CONUS. FRA is adamantly opposed to reducing the 
quality of education now enjoyed by the children of military personnel 
by forcing them to enroll in public schools.
    Morale, Welfare, and Recreation Programs (MWR).--FRA recommends the 
subcommittee increase funding for MWR programs. FRA believes these 
programs are vital to supporting the servicemember and his or her 
family. They include recreation, fitness, social and community support 
activities, spouse employment, personal financial management, 
counseling, family advocacy, safety, transition and relocation 
programs--all having a positive affect on fleet readiness. Sailors have 
consistently ranked fitness centers and gyms available to them a top 
priority and are the most used MWR program.
    Currently, the shortage of funds is curtailing or closing some of 
the activities while the costs of participating in others have recently 
increased. Regarding Navy fitness centers, the biggest challenge is to 
update older fitness structures and providing the right equipment, and 
ensure availability of trained staff.
    Active Duty and Reserve Component Personnel End Strengths.--FRA 
strongly supports adequate end strength to win the war on terror and to 
maintain other needed military commitments around the world. America is 
at war and FRA believes the Sea Services should have adequate numbers 
of personnel to meet the demands of fighting the war on terror and 
sustain other operational commitments. Many are concerned that the 
fiscal year 2007 DOD budget request sacrifices manpower for technology 
and does not address adequate service end strengths. Accordingly, FRA 
strongly supports increased USMC end strength of 180,000. The 
association is also concerned about the impact of Navy end strength 
reductions of 12,000, a 3 percent cut from last year. Inadequate end 
strengths increase stress on the military personnel and their families 
and contribute to greater reliance on the Guard and Reserves.
    Education Funding.--FRA strongly supports supplemental Impact Aid 
for highly impacted school districts. FRA is most appreciative for the 
Impact Aid authorized in previous defense measures. FRA believes it is 
important to ensure our service members, many serving in harm's way, 
have less concern about their children's educations but more to do with 
the job at hand.
    Reform of PCS Process.--FRA supports upgrading permanent change-of-
station allowances to reflect the expenses members are forced to incur 
in complying with government-directed relocations. Specifically, the 
overwhelming majority of service families own two privately owned 
vehicles, driven by the financial need for the spouse to work, or the 
distance some families must live from an installation and its support 
services. FRA supports funding necessary to ship a second POV at 
government expense to overseas accompanied assignments. In many 
overseas locations, families have difficulty managing without a second 
family vehicle because family housing is often not co-located with 
installation support services. FRA also continues to support resources 
necessary to provide full replacement value for lost or damaged 
household goods during the PCS process.

                             RESERVE ISSUES

    FRA stands foursquare in support of the Nation's Reservists. They 
were once known as ``weekend warriors.'' But today, it's a different 
story. Given the pressure of the war on terror, Reserve units are now 
increasingly being mobilized to augment active duty components. Up to 
75 percent of the U.S. Coast Guard Reserve has been mobilized, with 
many members serving multiple tours of active duty in support of 
contingency operations. More than 5,000 Reserve sailors are mobilized, 
mostly in the desert. In fact, wherever active-duty marines are engaged 
around the world, Marine Reservists are there.
    Inadequate benefits for Reservists and the Guard can only undermine 
long-term retention and readiness. Because of increasing demands on 
these personnel to perform multiple missions abroad over longer periods 
of time, it's essential to improve compensation and benefits packages 
to attract recruits and retain currently serving personnel.
    Healthcare.--FRA supports making the TRICARE program available on 
an optional basis for all selected Reservists and families on a cost-
sharing basis. FRA recommends funding to increase subsidy levels for 
TRICARE coverage for drilling Reserve members not yet mobilized and 
having one premium for all members of the Guard and Reserve who 
continue to be drilling members. TRICARE Reserve Select is a very 
important benefit, particularly because consistency of healthcare 
benefits and continuity of care are major concerns for Reserve 
personnel and their families. DOD must rely more heavily upon the Guard 
and Reserve personnel to prosecute the war and sustain other 
operational commitments. In addition, deployments are also becoming 
longer and more frequent and these personnel are indispensable to our 
Armed Forces.
    Retirement.--FRA recommends that Congress reduce the age when 
Reserve members are eligible for retirement pay, particularly for those 
members who have experienced extended mobilizations.
    Family Readiness.--FRA supports more emphasis on providing 
consistent funding and increased outreach to connect Guard and Reserve 
families with these support programs. FRA therefore supports increasing 
funding for family readiness especially for those geographically 
dispersed and not readily accessible to military installations and 
inexperienced with the military. Unlike active duty families who often 
live near military facilities and support services, many Reserve 
families live in civilian communities. This poses a major challenge for 
them, because military information and support is not readily 
available. Congressional hearing witnesses have indicated that many of 
the half million mobilized Guard and Reserve personnel have not 
received transition assistance services they and their families need to 
make a successful transition back to civilian life.

                             BASE CLOSINGS

    BRAC.--FRA strongly supports resources to support retention of 
military treatment and other facilities at BRAC sites that are 
patronized by sizeable retiree and Reserve populations. Thousands of 
military members and families will be under great stress in the months 
and years ahead as a result of rebasing, closure, and transformation 
actions. But the impact extends beyond the active duty personnel 
currently assigned to the affected installations. The entire 
beneficiary community--Reserve, retirees, survivors, veterans, and 
others--experience the traumatic impact of a realignment and closure 
actions. Support facilities are usually closed, and beneficiaries who 
relied on the base for support are forced to search elsewhere.

                               CONCLUSION

    FRA is grateful for the opportunity to present the organization's 
views to this distinguished subcommittee. The association reiterates 
its profound gratitude for the extraordinary progress this subcommittee 
has made in advancing a wide range of military personnel benefits and 
quality-of-life programs for all uniformed services personnel and their 
families and survivors. Thank you again for the opportunity to present 
the FRA' views on these critically important topics.

    Senator Stevens. Our next witness is Lesli Foster of 
Channel 9 News.
    I hope you all realize what we are doing. There are votes 
going on on the floor, and Senator Inouye goes to vote, and 
then he comes back, and then I go to vote. Thank you.
    Good morning.

STATEMENT OF LESLI FOSTER MATHEWSON, WEEKEND ANCHOR, 
            CHANNEL 9 NEWS, WASHINGTON, DC
ACCOMPANIED BY JOHN MATHEWSON, EXECUTIVE VICE PRESIDENT, THE HSC 
            FOUNDATION

    Ms. Foster. Good morning. Chairman Stevens, thank you for 
the opportunity to share my thoughts. My name is Lesli Foster 
Mathewson, and I am a news anchor and reporter for WUSATV9 in 
Washington, DC. I am here today with my husband, a proud 
prostate cancer survivor, to share our story about fighting 
this disease.
    I feel it is personally important for us to be here because 
cancer happens to the family, not just the man who is impacted 
by the disease.
    Our story is that 89 days after we got married in September 
2004, my husband was diagnosed with prostate cancer. I was 
stunned, scared, and worried about the prospect of what I'd do 
without the love of my life. And I thought, like many, that 
prostate cancer was a disease that struck only older men. My 
grandfather succumbed to prostate cancer just 4 years earlier.
    It is still hard for me to reconcile this in my head some 
days, because John was active and committed to healthy living, 
and we had a lifetime ahead of us. Why him? Why us?
    Surgery was the best option because of the age and stage of 
his particular cancer, but his treatment did present one 
significant challenge. We would have a good chance to eradicate 
the cancer from his body, but in doing so we would lose our 
opportunity to conceive children naturally. We only had 6 weeks 
prior to his surgery to try and conceive, and thankfully, we 
were able to get pregnant with what we call our miracle baby 
before my husband had his surgery in February 2005 at Johns 
Hopkins. We gave birth to our daughter, Jordan Elise, in 
October of last year, and best of all, John has remained 
cancer-free.
    I am relieved and feel incredibly blessed to know that John 
is healthy, and we certainly hope that he will be around for us 
to celebrate many more years together, and he'll be able to see 
our daughter grow up. But I am always concerned about his 
cancer because we still need to do more research to determine 
why young men like him are being stricken at alarming rates, 
and what if anything we can do to prevent this disease.
    Mr. Mathewson. Senator Stevens, thank you also for the 
opportunity to share my thoughts. My name is John Mathewson, 
and I serve as Executive Vice President of the HSC Foundation, 
a nonprofit hospital system based here in Washington. I am 
especially proud to be here with my rock and pillar, my wife. I 
am so fortunate that she was and is unwavering in her support.
    Shocked, scared, queasy, why me. At 45 years old, at the 
time I was too young. It doesn't run in my family. I do not 
smoke. How long do I have to live? Will it hurt? My wife is 
only 30. Those are just some of the thoughts that ran through 
my mind on December 2, 2004. I understand how to access the 
health care system. Outside of my age, my greatest risk factor 
for prostate cancer was being an African-American male.
    And like so many other diseases, the incidence among black 
men compared to other culture groups is agonizing. We tend to 
be diagnosed later, have a form of the disease that advances 
faster, and have a higher mortality rate than whites. Good 
treatment options are fine, but wouldn't it be better if we 
could do a better job of preventing the disease in the first 
place?
    I should share that since I had been treated, one of my 
older brothers has also now been diagnosed with the disease. He 
was 62 at the time, and had never had a PSA exam. So now all 
the remaining four of my brothers must get checked annually.
    If I could leave you with two things today, they would be 
this: the public as well as primary care physicians need better 
education about prostate cancer. I had a false sense of 
security about my health, largely revolving around the 
education that is available for prostate cancer prevention, 
because I didn't know enough until I was finally treated at 
Hopkins.
    The next is that it takes 5 to 7 years to develop this 
disease. So waiting until age 40 to educate African-American 
men is too late. It needs to begin in their 30s.
    I also hope that there is a significant acknowledgment 
about how deadly this disease is for all men. All men are at 
risk.
    In closing, I want to say that we support the National 
Prostate Cancer Coalition, and I urge you to fund the Prostate 
Cancer Research Program in the Department of Defense at $85 
million for fiscal year 2007. We urge you to continue to 
support these programs that provide access to new discoveries 
that will help us understand and cure prostate cancer.
    This concludes our testimony. Thank you for the privilege 
to present our story.
    Senator Stevens. And thank you very much, both of you. I 
guess you know I'm a survivor of prostate cancer also, so I 
appreciate your testimony very much.
    I'm going to go out of order and ask Dr. Polly to come up 
now, with Senator Inouye's consent. I am going to have to leave 
and not come back because I'm one of the people that has to go 
meet the Speaker for the joint session. But Dr. Polly, Senator 
Inouye knows, is the only reason I'm sitting up here, and can 
walk and run and play tennis and lift weights. So I honor you, 
Doctor, and would like to hear your statement.

STATEMENT OF DR. DAVID W. POLLY, JR., M.D., ON BEHALF 
            OF THE AMERICAN ACADEMY OF ORTHOPAEDIC 
            SURGEONS
    Dr. Polly. Thank you, Mr. Chairman. My name is Dr. David 
Polly, and I'm speaking on behalf of the American Academy of 
Orthopaedic Surgeons.
    As a graduate of West Point and an airborne ranger who 
served as a line officer in the Army, I subsequently attended 
medical school at the Uniformed Services University, and then 
trained in orthopaedic surgery at Walter Reed. I have 
personally cared for injured soldiers at Walter Reed during 
four different military conflicts, and have served in a war 
zone as a military orthopaedic surgeon. My last assignment 
before retiring was as chair of Orthopaedic Surgery at Walter 
Reed.
    I'm here today to thank the members of the subcommittee for 
establishing and funding the fiscal year 2006 orthopaedic 
trauma research program at the Institute of Surgical Research, 
at Brooke. I urge continuation of funding for this vital 
program. More than half of the trauma out of Afghanistan and 
Iraq is orthopaedic related, with a vast majority being to the 
upper and lower extremities, as well as the spine.
    Body armor, as you've heard earlier, does a remarkable job 
of protecting the soldier's torso, but his or her extremities 
are particularly vulnerable, especially to IEDs. Wounded 
soldiers who have died in previous conflicts are now surviving, 
and have to recover from these devastating injuries. These 
injuries are producing unprecedented numbers of mangled 
extremities, with severe reconstructive challenge. And 
infection is often a problem.
    What has been done so far? An extremity war injury 
symposium was held here in Washington, DC, in January 2006 as a 
partnership between organized orthopaedic surgery industry and 
military surgeons. And I'd like to thank you, sir, for 
attending that conference. Proceedings of the symposium 
included a list of prioritized research needs that closely 
parallels those released on February 13 for the Orthopaedic 
Trauma Research Program.
    Among these priorities include reduction of infection, 
improved healing of segmental bone defects, and many others.
    The intent of the Orthopaedic Trauma Research Program is to 
foster collaboration between civilian and military orthopaedic 
surgeons and researchers. Civilian researchers have the 
expertise and the resources to assist their military colleagues 
with the growing number of musculoskeletal war wound 
challenges, to augment military research efforts. This 
collaboration will provide wide-ranging benefits to civilian 
trauma patients, as well.
    Senator Stevens. Doctor, I'm summoned. I do thank you for 
coming. And again, I honor you, my friend. Thank you.
    Dr. Polly. Thank you, sir.
    Early stages of the program revealed a strong interest. 
Close to 100 pre-proposals have been received, totaling over 
$20 million in requests. Of these, 76 merited full proposal 
submission, and will be reviewed in July. Intelligence 
surveillance reconnaissance (ISR) expects to receive much 
higher numbers of proposals in subsequent years when the time 
line is less compressed.
    With orthopedic trauma being the most common form of trauma 
seen in military conflicts, it is crucial that there be funding 
dedicated specifically to the enhancement of orthopaedic trauma 
research. The academy has worked closely with top orthopaedic 
surgeons in the military to identify the gaps in research and 
care, and the needs are overwhelming. Especially considering 
that military trauma is not a research focus for the National 
Institutes of Health (NIH).
    I commend Congress for its commitment to amputee care 
funding, but our goal must be to do everything we can to avoid 
having this need to provide this care, and to salvage these 
injured limbs in the first place. Expanded Federal commitment 
to the orthopaedic extremity trauma research program would move 
us closer to this goal. On behalf of America's soldiers, 
military orthopedic surgeons, and the American Academy of 
Orthopaedic Surgeons, I respectfully request that the 
subcommittee continue the Orthopaedic Trauma Research Program 
at a funding level of $25 million. As this program is only in 
its infancy, continuity is critical to its future success.
    Thank you once again for this opportunity, and I'd be glad 
to answer any questions.
    Senator Inouye [presiding]. You may be assured that we will 
do our best, sir.
    Dr. Polly. Yes, sir. Thank you for your efforts in the 
past, and your continuing efforts today.
    Senator Inouye. Thank you.
    [The statement follows:]

               Prepared Statement of David W. Polly, Jr.

    Chairman Stevens, ranking member Inouye, Members of the Senate 
Defense Appropriations Subcommittee, thank you for the opportunity to 
testify today. My name is David W. Polly, Jr., M.D., and I speak today 
on behalf of the American Academy of Orthopaedic Surgeons (AAOS), of 
which I am an active member, as well as on behalf of military and 
civilian orthopaedic surgeons involved in orthopaedic trauma research 
and care.
    I am a graduate of the United States Military Academy at West Point 
and as an airborne ranger, served as a line officer in the Army. 
Subsequently, I attended medical school at the Uniformed Services 
University of the Health Sciences and trained in orthopaedic surgery at 
Walter Reed Army Medical Center. I have personally cared for injured 
soldiers at Walter Reed during four different military conflicts and 
have been deployed to a war zone as a military orthopaedic surgeon. My 
last assignment was as chair of the Department of Orthopaedic Surgery 
and Rehabilitation at Walter Reed. I retired at the end of 2003 after 
more than 24 years of service. I am currently professor of Orthopaedic 
Surgery and Chief of Spine Surgery at the University of Minnesota.
    First and foremost, I am here today to thank the Members of this 
subcommittee for establishing funding in fiscal year 2006 for the 
Orthopaedic Trauma Research Program (OTRP) and urge continuation of 
funding for this vital program. I will discuss the common types of 
orthopaedic trauma seen out of Iraq and Afghanistan and offer a 
military perspective on the direction in which orthopaedic research 
should head in order to better care for soldiers afflicted with 
orthopaedic trauma. Finally, I will provide an update on the progress 
of OTRP, which is administered by the U.S. Army Institute of Surgical 
Research (USAISR).

ORTHOPAEDIC TRAUMA FROM OPERATION IRAQI FREEDOM AND OPERATION ENDURING 
                                FREEDOM

    The Armed Forces are attempting to return significantly injured 
soldiers to full function or limit their disabilities to a functional 
level in the case of the most severe injuries. The ability to provide 
improved recovery of function moves toward the goal of keeping injured 
soldiers part of the Army or service team. Moreover, when they do leave 
the Armed Forces, these rehabilitated soldiers have a greater chance of 
finding worthwhile occupations outside of the service to contribute 
positively to society. The Army believes that it has a duty and 
obligation to provide the highest level of care and rehabilitation to 
those men and women who have suffered the most while serving the 
country.
    It probably comes as no surprise that more than half of the trauma 
seen out of Iraq and Afghanistan is orthopaedic-related, especially 
upper and lower extremity and spine. From October, 2001 through 
January, 2005, extremity injuries alone accounted for 54 percent of the 
wounds sustained in Operation Iraqi Freedom (OIF) and Operation 
Enduring Freedom (OEF) according to the Joint Theater Trauma Registry, 
a database of medical treatment information from a theater of combat 
operations treated at U.S. Army medical treatment facilities. Other 
reports suggest this number is closer to 60-70 percent for OIF, and 
these estimates do not include non-American and civilians receiving 
medical care through U.S. military facilities. By comparison to 
previous wars, the current conflicts are experiencing a greater 
proportion of upper extremity fractures in particular.
    Of 256 battle casualties treated at the Landstuhl Regional Medical 
Center in Germany during the first 2 months of OIF, 68 percent 
sustained an extremity injury. The reported mechanism of injury was 
explosives in 48 percent, gun-shot wounds in 30 percent and blunt 
trauma in 21 percent. As the war has moved from an offensive phase to 
the current counter-insurgency campaign, higher rates of injuries from 
explosives can be expected. (Johnson BA. Carmack D, Neary M, et al. 
Operation Iraqi Freedom: the Landstuhl Regional Medical Center 
experience. J Foot Ankle Surg. 2005; 44:177-183.) According to the 
JTTR, between 2001 and 2005, explosive mechanisms accounted for 78 
percent of the war injuries compared to 18 percent from gun shots.
    While medical and technological advancements, as well as the use of 
fast-moving Forward Surgical Teams, have dramatically decreased the 
lethality of war wounds, wounded soldiers who may have died in previous 
conflicts from their injuries are now surviving and have to learn to 
recover from devastating injuries. While body armor does a great job of 
protecting a soldier's torso, his or her extremities are particularly 
vulnerable during attacks.

Characteristics of Military Orthopaedic Trauma
    According to the New England Journal of Medicine, blast injuries 
are producing an unprecedented number of ``mangled extremities''--limbs 
with severe soft-tissue and bone injuries. (``Casualties of War--
Military Care for the Wounded from Iraq and Afghanistan,'' NEJM, 
December 9, 2004). The result of such trauma is open, complex wounds 
with severe bone fragmentation. Often there is nerve damage, as well as 
damage to tendons, muscles, vessels, and soft-tissue. In these types of 
wounds, infection is often a problem. According to the JTTR, 53 percent 
of the extremity wounds are classified as penetrating soft-tissue 
wounds, while fractures compose 26 percent of extremity wounds. Other 
types of extremity wounds composing less than 5 percent each are burns, 
sprains, nerve damage, abrasions, amputations, contusions, 
dislocations, and vascular injuries.

Military Versus Civilian Orthopaedic Trauma
    While there are similarities between orthopaedic military trauma 
and the types of orthopaedic trauma seen in civilian settings, there 
are several major differences that must be noted. First, with 
orthopaedic military trauma, there are up to five echelons of care, 
unlike in civilian settings when those injured are most likely to 
receive the highest level of care immediately. Instead, wounded 
soldiers get passed from one level of care to the next, with each level 
of care implementing the most appropriate type of care in order to 
ensure the best possible outcome. The surgeon in each subsequent level 
of care must try to recreate what was previously done. In addition, a 
majority of injured soldiers have to be medevaced to receive care and 
transportation is often delayed due to weather or combat conditions. It 
has been our experience that over 65-percent of the trauma is urgent 
and requires immediate attention.
    Second, soldiers wounded are often in fair or poor health, are 
frequently malnourished, and usually fatigued due to the demanding 
conditions. This presents many complicating factors when determining 
the most appropriate care.
    Third, the setting in which care is initially provided to wounded 
soldiers is less than ideal, to say the least, especially in comparison 
to a sterile hospital setting. The environment, such as that seen in 
Iraq and Afghanistan, is dusty and hot, leading to concerns about 
sterilization of the hospital setting. For example, infection from 
acinetobacter baumanni, a ubiquitous organism found in the desert soil 
of Afghanistan and Iraq, is extremely common. In addition, the surgical 
environment is under constant threat of attack by insurgents. In fact, 
a considerable percentage of the care provided by military surgeons is 
for injured Iraqis, both friendly and hostile. Finally, the surgical 
team is faced with limited resources that make providing the highest 
level of care difficult.
    While, as I have stated, there are many unique characteristics of 
orthopaedic military trauma, there is no doubt that research done on 
orthopaedic military trauma benefits trauma victims in civilian 
settings. Many of the great advancements in orthopaedic trauma care 
have been made during times of war, such as the external fixateur, 
which has been used extensively during the current conflict as well as 
in civilian care.

Future Needs of Orthopaedic Trauma Research
    An Extremity War Injuries (EWI) Symposium was held in Washington, 
DC on January 24-27, 2006. This extraordinary symposium was a 
partnership effort between organized orthopaedic surgery, military 
surgeons and industry. It was attended by 98 military and civilian 
physicians and researchers committed to the care of extremity injuries. 
The symposium addressed current challenges in the management of 
extremity trauma associated with recent combat in Iraq and Afghanistan.
    The focus of the symposium was to identify opportunities to improve 
the care for the sons and daughters of America who have been injured 
serving our Nation. Proceedings from the symposium included a list of 
prioritized research needs:
    Timing of Treatment.--Better data are necessary to establish best 
practices with regard to timing of debridement, timing of temporary 
stabilization and timing of definitive stabilization. Development of 
animal models of early versus late operative treatment of open injuries 
may be helpful. Prospective clinical comparisons of treatment groups 
will be helpful in gaining further understanding of the relative role 
of surgical timing on outcomes.
    Techniques of Debridement.--More information is necessary about 
effective means of demonstrating adequacy of debridement. Current 
challenges, particularly for surgeons with limited experience in wound 
debridement, exist in understanding how to establish long-term tissue 
viability or lack thereof at the time of an index operative 
debridement. Since patients in military settings are typically 
transferred away from the care of the surgeon performing the initial 
debridement prior to delivery of secondary care, opportunities to learn 
about the efficacy of initial procedures are lost. Development of 
animal models of blast injury could help establish tissue viability 
markers. Additional study is necessary to understand ideal frequencies 
and techniques of debridement.
    Transport Issues.--Clinical experience suggests that current air 
evacuation techniques are associated with development of complications 
in wound and extremity management although the specific role of 
individual variables in the genesis of these complications is unclear. 
Possible contributing factors include altitude, hypothermia and 
secondary wound contamination. Clinical and animal models are necessary 
to help develop an understanding of transport issues. Development, 
testing and approval of topical negative pressure devices for use 
during aeromedical transport should be facilitated.
    Coverage Issues.--Controlled studies defining the role of timing of 
coverage in outcome following high-energy extremity war injuries are 
lacking. Also necessary is more information about markers and 
indicators to help assess the readiness of a wound and host for 
coverage procedures. Both animal modeling and clinical marker 
evaluation are necessary to develop understanding in this area.
    Antibiotic Treatments.--Emergence of resistant organisms continues 
to provide challenges in the treatment of infection following high-
energy extremity war injuries. Broader prophylaxis likely encourages 
development of antibiotic resistance. In the context of a dwindling 
pipeline of new antibiotics, particularly those directed toward gram-
negative organisms, development of new technologies to fight infection 
is necessary. This patient population offers opportunity to assess 
efficacy of vaccination against common pathogens. Partnerships with 
infectious disease researchers currently involved in addressing similar 
questions should be developed.
    Management of Segmental Bone Defects.--A multitude of different 
techniques for management of segmental bone defects is available. These 
include bone transport, massive onlay grafting with and without use of 
recombinant proteins, delayed allograft reconstruction, and acute 
shortening. While some techniques are more appropriate than others 
after analysis of other clinical variables, controlled trials comparing 
efficacy between treatment methods are lacking. Variables that may 
affect outcome can be grouped according to patient characteristics 
including co-morbidities, injury characteristics including severity of 
bony and soft-tissue wounds, and treatment variables including method 
of internal fixation selected. Evaluation of new technologies for 
treatment of segmental bone defects should include assessment of 
efficacy with adequate control for confounding variables and assessment 
of cost-effectiveness.
    Development of an Animal Model.--A large animal survival military 
blast injury model is necessary to serve as a platform for multiple 
research questions including: VAC v. bead pouch v. dressing changes; 
Wound cleaning strategy; Effect of topical antibiotics; Modulation of 
inflammatory response; Timing of wound closure; and Vascular shunt 
utilization.
    Amputee Issues.--Development and validation of ``best practice'' 
guidelines for multidisciplinary care of the amputee is essential. 
Treatment protocols should be tested clinically. Studies should be 
designed to allow for differentiation between the impacts of the 
process versus the device on outcome. Failure analysis as a tool to 
evaluate efficacy of treatment protocols and elucidate shortcomings 
should be utilized. Clinically, studies should focus on defining 
requirements for the residual limb length necessary to achieve success 
without proceeding to higher level amputation. Outcomes based 
comparisons of amputation techniques for similar injuries and similar 
levels should be performed. Use of local tissue lengthening and free 
tissue transfer techniques should be evaluated. In the context of 
current results and increasing levels of expectation for function 
following amputation, development of more sensitive and military 
appropriate outcomes monitors is necessary.
    Heterotopic Ossification.--Animal models of heterotopic 
ossification should be utilized to develop early markers for 
heterotopic ossification development that could identify opportunities 
for prevention. Better information is needed about burden of disease 
including prevalence following amputation for civilian versus military 
trauma and frequency with which symptoms develop. Treatment methods 
such as surgical debridement, while effective, necessarily interrupt 
rehabilitation. Prevention could expedite recovery and potentially 
improve outcome.
    Data Collection System.--A theme common to virtually all 
discussions on research and patient care for our soldiers has been the 
need for access to better longitudinal patient data. Current patient 
care processes both in theatre and at higher echelon care centers do 
not include data captured in a way that allows simple electronic 
linkage of medical records from one level of care to the next. At least 
two electronic medical records systems are in use, and they are not 
necessarily compatible with one another. Any electronic medical record 
used should be web based to allow for linkage of patient data from the 
earliest echelon of documented care through the VA system. The system 
must be user friendly and not cumbersome to encourage entry of 
information critical to outcomes analysis. An example of one system 
with some of the necessary components is the current Joint Patient 
Tracking Application (JPTA). The system unfortunately lacks integration 
with a trauma registry or database to allow for retrospective or 
prospective analyses of specific injuries and treatments. Funding is 
necessary for platform development, information systems infrastructure 
and data entry personnel.

Stories from the Frontlines
    There have been many heroic stories of injured soldiers struggling 
to regain function and to return to normal life, or even back to 
service. A story highlighted in a March 2005 National Public Radio 
(NPR) series titled ``Caring for the Wounded: The Story of Two 
Marines,'' followed two Marines injured in Iraq: 1st Sgt. Brad Kasal 
and Lance Cpl. Alex Nicoll. Lance Cpl. Nicoll had to have his left leg 
amputated as a result of his injuries from gunshot wounds. Nicoll has 
undergone physical therapy at Walter Reed to adjust to his new 
prosthetic leg, made from graphite and titanium. While Sgt. Kasal was 
so seriously injured that he lost four inches of bone in his right leg, 
due to medical advances in limb salvaging, he did not have to have his 
leg amputated. Kasal underwent a bone growth procedure, called the 
Illizarov Technique, which grows the bone one millimeter a day.
    The Iraq war has created the first group of female amputees. Lt. 
Dawn Halfaker is one of approximately 11 military women who have lost 
limbs from combat injuries in Iraq, compared to more than 350 men. She 
lost her arm to a life-threatening infection, after sustaining major 
injuries, along with another soldier, when on a reconnaissance patrol 
in Baqouba, Iraq, a rocket-propelled grenade exploded inside her 
armored Humvee. Maj. Ladda ``Tammy'' Duckworth lost both legs when a 
rocker-propelled grenade slammed into her Black Hawk helicopter near 
Balad. Juanita Wilson, an Army staff sergeant, lost her left hand when 
an improvised bomb exploded near her Humvee on a convoy mission north 
of Baghdad. All three women are successfully moving forward in military 
or civilian careers.
    Bone problems, seldom seen in soldiers from previous wars who have 
lost limbs, have complicated recoveries for Iraq and Afghanistan-
stationed soldiers. Heterotopic ossification, or H.O., a condition in 
which bone grows where it doesn't belong, has developed in nearly 60 
percent of 318 amputees treated at Walter Reed Army Medical Center. 
Nearly 70 patients from across the military have been treated for H.O. 
at Brooke Army Medical Center. Rarely occurring in civilian amputees, 
high-intensity blasts, which can shred muscles, tendons and bone, 
appears to stimulate adult stem cells to heal damage, but repair 
signals often go awry. Advances in body armor resulting in higher 
survival rates and ability to preserve more damaged tissue, have lead 
to the high number of H.O. cases where little research exists on how to 
treat the condition among amputees. (``Bone condition hampers soldiers' 
recovery,'' USA TODAY, February 12, 2006)
    These stories clearly illustrate the benefits of, and need for, 
orthopaedic trauma research for America's soldiers.

Orthopaedic Trauma Research Program
    The AAOS and military and civilian orthopaedic surgeons and 
researchers are grateful that the subcommittee included language in the 
fiscal year 2006 Defense Appropriations Bill to create the 
``Orthopaedic Trauma Research Program'' (OTRP) as part of the Medical 
Research and Material Command's (MRMC) medical research program, 
administered by the U.S. Army Institute of Surgical Research (USAISR) 
at Fort Sam Houston, Texas.
    The OTRP is the first program created in the Department of Defense 
dedicated exclusively to funding peer-reviewed intramural and 
extramural orthopaedic trauma research. Having the program administered 
by the USAISR ensures that the research funding follows closely the 
research priorities laid out by the Army and the Armed Forces, and 
ensures collaboration between military and civilian research 
facilities. USAISR has extensive experience administering similar grant 
programs and is the only Department of Defense Research laboratory 
devoted solely to improving combat casualty care.
    The intent of the OTRP is to foster collaboration between civilian 
and military orthopaedic surgeons and researchers. Civilian researchers 
have the expertise and resources to assist their military colleagues 
with the growing number of patients and musculoskeletal war wound 
challenges, to build a parallel research program in the military. 
Civilian investigators are interested in advancing the research and 
have stepped up to engage in these efforts, which will also provide 
wide ranging benefits to civilian trauma patients as well.
    It is important to note that military orthopaedic surgeons, in 
addition to personnel at the U.S. Army Medical Research and Materiel 
Command, Fort Detrick, have had significant input into the creation of 
this program and fully support its goals. The $7.5 million awarded for 
OTRP in fiscal year 2006 is hopefully the beginning of a stronger focus 
of a core mission in the military to dedicate Department of Defense 
research resources to injured soldiers.
    The Broad Agency Announcement (BAA) for the OTRP grants was 
released on February 13, 2006, and identified the following basic, 
transitional and clinical research funding priorities: Improved healing 
of segmental bone defects; improved healing of massive soft tissue 
defects; improved wound healing; tissue viability assessment and wound 
irrigation and debridement technologies; reduction in wound infection; 
prevention of heterotopic ossification; demographic and injury data on 
the modern battlefield and the long-term outcomes of casualties (i.e. 
joint theatre trauma registry); and improved pre-hospital care of 
orthopaedic injuries.
    The number of full proposals submitted under this program will be 
up to 76 grant applications by the time they are reviewed, expected in 
July of this year. This number is relatively high considering the 
shortened time period this year for submitting pre-proposals, due by 
the first week in May, and considering the funding level of $7.5 
million. Close to 100 pre-proposals were received for consideration, 
with 76 invited to compete with a full proposal. An upper limit of 
$500,000 has been established for any one grant, to give a reasonable 
number of grantees an opportunity to participate. Ordinarily grants 
would generally be awarded for much higher amounts to support the 
research required. Larger multi-institutional studies had to limit what 
they were proposing.
    More funding would allow for a broader scope of work and multi-
institutional collaboration. The requests from these 76 proposals for 
year one of the grants totaled over $20 million and several grants 
requested funding for multiple years. USAISR expects to receive a much 
higher number of pre-proposals in subsequent years, when the timeline 
for submission will be longer, with more lead time in notification.
    With orthopaedic trauma being the most common form of trauma seen 
in military conflicts, it is crucial that there be funding dedicated 
specifically to the advancement of orthopaedic trauma research. The 
AAOS has worked closely with the top military orthopaedic surgeons, at 
world-class facilities such as the U.S. Army Institute of Surgical 
Research, Brooke Army Medical Center, and Walter Reed Army Medical 
Center to identify the gaps in orthopaedic trauma research and care and 
the needs are overwhelming. Especially considering military trauma is 
not a research focus for the National Institutes of Health (NIH).

                               CONCLUSION

    I hope that I have given you a well-rounded perspective on the 
extent of what orthopaedic trauma military surgeons are seeing and a 
glimpse into the current and future research for such trauma. Military 
trauma research currently being carried out at military facilities, 
such as WRAMC and the USAISR, and at civilian medical facilities, is 
vital to the health of our soldiers and to the Armed Forces' objective 
to return injured soldiers to full function in hopes that they can 
continue to be contributing soldiers and active members of society.
    Mr. Chairman, the American Academy of Orthopaedic Surgeons, as well 
as the entire orthopaedic community, stands ready to work with this 
subcommittee to identify and prioritize research opportunities for the 
advancement of orthopaedic trauma care. Military and civilian 
orthopaedic surgeons and researchers are committed to advancing 
orthopaedic trauma research that will benefit the unfortunately high 
number of soldiers afflicted with such trauma and return them to full 
function. It is imperative that the Federal Government, when 
establishing its defense health research priorities in the fiscal year 
2007 Defense Appropriations bill, ensure that orthopedic trauma 
research is a top priority.
    I urge you to continue the Orthopaedic Trauma Research Program at a 
funding level of $25 million. While Congress funds an extensive array 
of medical research through the Department of Defense, with over half 
of military trauma being orthopaedic-related, no other type of medical 
research would better benefit our men and women serving in the war on 
terror and in future conflicts. Especially as this program is only in 
its infancy stage, continuity is critical to its success.

    Senator Inouye. Our next witness, Dr. Robert Recker, 
National Coalition for Osteoporosis and Related Bone Diseases. 
Dr. Recker.

STATEMENT OF DR. ROBERT RECKER, M.D., DIRECTOR, 
            OSTEOPOROSIS RESEARCH CENTER, CREIGHTON 
            UNIVERSITY, ON BEHALF OF THE NATIONAL 
            COALITION FOR OSTEOPOROSIS AND RELATED BONE 
            DISEASES
    Dr. Recker. Mr. Chairman and members of the subcommittee, I 
am Dr. Robert Recker, Director of the Osteoporosis Research 
Center at Creighton University in Omaha, Nebraska, and I am 
testifying on behalf of the National Coalition for Osteoporosis 
and Related Bone Diseases, the Bone Coalition.
    The Bone Coalition is committed to research and education 
that reduces the impact of bone diseases. It includes the 
American Society for Bone and Mineral Research, the National 
Osteoporosis Foundation, the Osteogenesis Imperfecta 
Foundation, and the Paget Foundation. We appreciate this 
opportunity to discuss funding of the Bone Health and Military 
Medical Readiness Research Program within the Department of 
Defense.
    The purpose of this program is to improve the bone health 
of our military personnel. Current efforts focus on eliminating 
stress fractures during training and deployment. Stress 
fractures occur in military recruits and trainees who undergo 
rigorous physical conditioning in a brief period of time. 
Increases in military recruitment have led to an upsurge in 
stress fracture cases. In soldiers on lengthy deployments, 
medical dispensaries report stress fractures in unprecedented 
numbers.
    Among new recruits, approximately 40 percent of men and 60 
percent of women with stress fracture do not complete basic 
training. Those who do return to duty must first undergo a 
rehabilitation period of 80 to 120 days. Stress fractures are a 
significant health and financial burden, increasing training 
time, program costs, and time to military readiness.
    It is critical that we continue to build on recent findings 
that have led to the following advances: one, an Army-wide 
physical training program with reduced running and increased 
resistance training, without compromising physical fitness. 
Studies of this new program continue.
    Modifications in the physical fitness program for female 
Marine Corps recruits in training, without compromising 
physical fitness.
    Animal studies showing that short-term exercise training 
improves material and structural properties of bone, improving 
fatigue resistance by 80-fold. Studies are underway in humans.
    Discovery that a nonsteroidal anti-inflammatory medication 
slows stress fracture healing in animals. A study of these 
medications in humans is nearing completion.
    To eliminate stress fracture in basic training, to optimize 
physical training and nutrition standards, and to develop 
practical methods to predict impending injury; expanded 
research is needed that will one, utilize genetic, lifestyle, 
and other risk factors, to establish a risk factor profile that 
identifies individuals at high risk for stress fracture; expand 
on pulmonary findings of gender differences in their response 
of bone to physical training; study the relationship between 
exercise training regimen: timing, type, volume of training, 
and onset of micro damage in bone; examine the impact of load 
bearing and muscle fatigue on bone during prolonged standing 
and marching; and finally, to test promising interventions that 
might improve bone quality prior to entry into basic training.
    These studies and other DOD studies in progress will 
determine cost effective approaches to diagnose, prevent, and 
treat stress fractures, and accelerate return to duty.
    Mr. Chairman and members of the subcommittee, stress 
fractures continue to be a critical obstacle to military 
readiness and deployment. It is imperative that the Department 
of Defense build on recent findings, and maintain an aggressive 
and sustained bone health and military medical readiness 
program. The National Coalition for Osteoporosis and Related 
Bone Diseases urges you to fund this program at a level of $5 
million in fiscal year 2007. We appreciate the opportunity to 
express our concerns.
    Senator Inouye. Doctor, we assure you we will do our utmost 
on this one.
    Dr. Recker. Thank you.
    [The statement follows:]

                  Prepared Statement of Robert Recker

    Mr. Chairman and Members of the committee: I am Robert Recker, 
M.D., Director of the Osteoporosis Research Center at Creighton 
University in Omaha, Nebraska and I am testifying on behalf of the 
National Coalition for Osteoporosis and Related Bone Diseases (the Bone 
Coalition).
    The Bone Coalition is committed to reducing the impact of bone 
diseases through expanded basic, clinical, epidemiological and 
behavioral research leading to improvement in patient care. The 
Coalition participants are leading national bone disease 
organizations--the American Society for Bone and Mineral Research, the 
National Osteoporosis Foundation, the Osteogenesis Imperfecta 
Foundation, and the Paget Foundation for Paget's Disease of Bone and 
Related Disorders.
    We appreciate this opportunity to discuss with you the necessity 
for continued funding of the Bone Health and Military Medical Readiness 
Program within the Department of Defense.
    The purpose of this small, but important, program is to improve the 
bone health of our military men and women. An effort currently underway 
is targeting the elimination of stress fractures that occur during 
training and deployment. Stress fracture has been a principal concern 
to military readiness and a major cause of low soldier retention during 
basic training and thereafter.
    Stress fractures are usually reported in young military recruits 
and trainees who are subjected to rigorous physical conditioning over a 
relatively short period of time. According to the Bone Health and 
Military Medical Readiness program, recent increases in military 
recruitment have led to an upsurge in the number of reported stress 
fracture cases. An additional concern is the increased number of 
documented stress fractures over the last 2 years in soldiers who have 
recently returned from lengthy deployments. Reports from troop medical 
clinics indicate that these soldiers are sustaining stress fractures in 
unprecedented numbers.
    Among new recruits, approximately 40 percent of men and 60 percent 
of women who sustain a stress fracture do not complete basic training. 
For soldiers who are able to return to duty, a rehabilitation period of 
80-120 days is necessary prior to resumption of training. The high 
incidence of stress fractures has a marked impact on the health of 
recruits and imposes a significant financial burden on the U.S. Armed 
Forces by increasing the length of training time, program costs and 
time to military readiness.
    It is critical that we continue to build on the promising results 
emanating from this research program. Recent findings have led to:
  --Recommendations to implement a new Army-wide physical training 
        program that emphasizes reduced running and increased 
        resistance training without compromising physical fitness at 
        the end of basic training. Studies are underway to determine 
        the efficacy of this new program in reducing stress fracture 
        and other overuse injuries in soldiers.
  --Modifications in the physical fitness conditioning programs for 
        female Marine Corps recruits in training, again without 
        compromising physical fitness of trainees.
  --Animal studies revealing that short-term exercise training improves 
        both material and structural properties of bone that increase 
        fatigue resistance by 80-fold. Studies are ongoing to determine 
        if similar exercise programs lead to improved bone strength in 
        humans.
  --Research demonstrating that the use of a non-steroidal anti-
        inflammatory medication slows stress fracture healing in rats. 
        A study to assess the effect of these commonly used medications 
        on bone in humans is nearing completion.
    To eliminate stress fracture in basic training in the military; to 
optimize physical training and nutrition standards for healthy young 
men and women; and to develop practical methods and markers to predict 
impending injury, expanded investigations are needed that will:
  --Utilize genetic, lifestyle, and other risk factors to establish a 
        risk factor profile that identifies individuals at high risk 
        for stress fracture injury.
  --Expand on preliminary findings that revealed gender differences in 
        the response of bone to physical training.
  --Study the relationship between exercise training regimen (timing, 
        type and volume of training) and onset of microdamage in bone.
  --Examine the impact of load bearing and/or muscle fatigue on bone 
        strain during prolonged standing and marching activities.
  --Test promising interventions that might improve bone quality prior 
        to entry into basic training.
    These studies, along with other DOD studies in progress, will 
determine the most cost effective approach to diagnosis and treatment 
of stress fracture, and accelerate return to duty. An improved 
understanding of these injuries will also form the basis of potential 
preventive measures.
    Mr. Chairman and members of the committee, stress fractures 
continue to be a critical obstacle to military readiness and time to 
deployment. Therefore, it is imperative that the Department of Defense 
build on recent findings and maintain an aggressive and sustained Bone 
Health and Military Medical Readiness program. The National Coalition 
for Osteoporosis and Related Bone Diseases urges you to fund this 
program at a level of $5 million in fiscal year 2007.
    We appreciate the opportunity to testify before the committee.

    Senator Inouye. Our next witness is the President of the 
National Breast Cancer Coalition, Fran Visco. Ms. Visco.

STATEMENT OF FRAN VISCO, J.D., PRESIDENT, NATIONAL 
            BREAST CANCER COALITION
    Ms. Visco. Thank you, Senator Inouye, and I want to thank 
you for your continued leadership and support for the DOD peer-
reviewed Breast Cancer Research Program, and also of course 
thank Chairman Stevens and the other members of the 
subcommittee.
    As you know, this program has been an enormous success. And 
I am here today as a wife, a mother, and as the head of the 
National Breast Cancer Coalition (NBCC). When I was 39 years 
old, I was diagnosed with breast cancer. My son was 14 months 
old. I'm fortunate, because after surgery, a very toxic 
treatment with lifelong side effects, I am still here today to 
testify to you about this extraordinary program, and on behalf 
of NBCC, a coalition of more than 600 member organizations, and 
tens of thousands of individuals.
    The DOD peer-reviewed Breast Cancer Program is incredibly 
efficient. More than 90 percent of the funds appropriated fund 
research. It is unbelievably effective. It fills gaps in 
traditional funding mechanisms and supports new ideas. And our 
collaboration among the advocacy community, the worldwide 
scientific committee, and the United States Army, has created 
new models for biomedical research and for decisionmaking, that 
have been copied by other Army programs, by other institutions, 
agencies, even States and other countries.
    This program has had an independent review on three 
separate occasions. And those reviews have stressed the unique 
role the program plays, that it is not duplicative, and has 
given incredibly high praise for the substance of the program. 
It is transparent. It is accountable to the public. It is--
every 2 years we have an Era of Hope meeting where everything 
that has been funded with taxpayer dollars is reported to the 
public.
    We are proud to be partners with the Army in this program. 
The women across the country, their families, their friends, 
their supporters, look to this program because this is where we 
are saving lives of breast cancer. So I want to again thank you 
so very much for your continued support, and I look forward to 
continuing our collaboration and partnership.
    Thank you very much.
    Senator Inouye. I thank you very much, Ms. Visco. As you 
know, we will do our best.
    Ms. Visco. Yes, I know. Thank you.
    [The statement follows:]

                    Prepared Statement of Fran Visco

    Thank you, Mr. Chairman and Members of the Appropriations 
Subcommittee on Defense, for the opportunity to talk to you about a 
program that has made a significant difference in the lives of women 
and their families. You and your committee have shown great 
determination and leadership in searching for answers by funding the 
Department of Defense (DOD) Peer-Reviewed Breast Cancer Research 
Program (BCRP) at a level that has brought us closer to eradicating 
this disease. Chairman Stevens and ranking member Inouye, we have 
appreciated your support of this program in the past. I am hopeful that 
you and your committee will continue that determination and leadership.
    I am Fran Visco, a breast cancer survivor, a wife and mother, a 
lawyer, and President of the National Breast Cancer Coalition (NBCC). 
On behalf of NBCC, and the more than 3 million women living with breast 
cancer, I would like to thank you again for the opportunity to testify. 
As you know, the National Breast Cancer Coalition is a grassroots 
advocacy organization made up of hundreds of organizations and tens of 
thousands of individuals and has been working since 1991 toward the 
eradication of breast cancer through advocacy and action. NBCC supports 
increased funding for breast cancer research, increased access to 
quality health care for all women, and increased influence of breast 
cancer activists at every table where decisions regarding breast cancer 
are made. That is why this program is so important in the fight against 
this disease.
    Much of the progress toward ending breast cancer has been made 
possible by the Appropriations Committee's investment in breast cancer 
research through the DOD BCRP. This program has launched new models of 
biomedical research that have benefited other agencies and both public 
and private institutions. It has changed for the better the way 
research is performed and has been replicated by programs focused on 
other diseases, by other countries and individual States. To support 
this unprecedented progress moving forward, we ask that you support a 
separate, $150 million appropriation for fiscal year 2007. In order to 
continue the success of this program, you must ensure that it maintains 
its integrity and separate identity, in addition to the requested level 
of funding. This is important not just for breast cancer, but also for 
all biomedical research that has benefited from this incredible 
government program. In addition, as an Institute of Medicine (IOM) 
report concluded in 2004, there continues to be excellent science that 
goes unfunded, but for this program. It is only through a separate 
appropriation that this program is able to continue to focus on breast 
cancer yet impact all other research, rapidly respond to changes and 
new discoveries in the field and fill the gaps created by traditional 
funding mechanisms.
    Despite the enormous successes and advancements in breast cancer 
research made through funding from the DOD BCRP, we still do not know 
what causes breast cancer, how to prevent it, or how to cure it. It is 
critical that innovative research through this unique program continues 
so that we can move forward toward eradicating this disease.

           OVERVIEW OF THE DOD BREAST CANCER RESEARCH PROGRAM

    The DOD Peer-Reviewed Breast Cancer Research Program has 
established itself as model medical research program, respected 
throughout the cancer and broader medical community for its innovative 
and accountable approach. The groundbreaking research performed through 
the program has the potential to benefit not just breast cancer, but 
all cancers, as well as other diseases. Biomedical research is being 
transformed by the BCRP's success.
    This program is both innovative and incredibly streamlined. It 
continues to be overseen by a group of distinguished scientists and 
activists, as recommended by the IOM. Because there is little 
bureaucracy, the program is able to respond quickly to what is 
currently happening in the scientific community. Because of its 
specific focus on breast cancer, it is able to rapidly support 
innovative proposals that reflect the most recent discoveries in the 
field. It is responsive, not just to the scientific community, but also 
to the public.
    Since its inception, this program has matured from an isolated 
research program to a broad-reaching influential voice forging new and 
innovative directions for breast cancer research and science. The 
flexibility of the program has allowed the Army to administer this 
groundbreaking research effort with unparalleled efficiency and 
effectiveness.
    In addition, an integral part of this program has been the 
inclusion of consumer advocates at every level. As a result, the 
program has created an unprecedented working relationship between the 
public, scientists and the military, and ultimately has led to new 
avenues of research in breast cancer. Since 1992, over 400 breast 
cancer survivors have served on the BCRP review panels. Their vital 
role in the success of the BCRP has led to consumer inclusion in other 
biomedical research programs at DOD. This program now serves as an 
international model.
    It is important to note that the DOD Integration Panel that designs 
this program has a plan of how best to spend the funds appropriated. 
This plan is based on the state of the science--both what scientists 
know now and the gaps in our knowledge--as well as the needs of the 
public. This plan coincides with our philosophy that we do not want to 
restrict scientific freedom, creativity or innovation. While we 
carefully allocate these resources, we do not want to predetermine the 
specific research areas to be addressed.

                      UNIQUE FUNDING OPPORTUNITIES

    Developments in the past few years have begun to offer breast 
cancer researchers fascinating insights into the science of breast 
cancer and have brought into sharp focus the areas of research that 
hold promise and will build on the knowledge and investment we have 
made. The Innovative Developmental and Exploratory Awards (IDEA) grants 
of the DOD program have been critical in the effort to respond to new 
discoveries and to encourage and support innovative, risk-taking 
research. The IDEA grants have been instrumental in the development of 
promising breast cancer research. These grants have allowed scientists 
to explore beyond the realm of traditional research and have unleashed 
incredible new ideas and concepts. IDEA grants are uniquely designed to 
dramatically advance our knowledge in areas that offer the greatest 
potential.
    IDEA grants are precisely the type of grants that rarely receive 
funding through more traditional programs such as the National 
Institutes of Health, and private research programs. Therefore, they 
complement, and do not duplicate, other federal funding programs. This 
is true of other DOD award mechanisms as well.
    For example, the Innovator awards are structured to invest in world 
renowned, outstanding individuals, rather than projects, from any field 
of study by providing funding and freedom to pursue highly creative, 
potentially breakthrough research that could ultimately accelerate the 
eradication of breast cancer. The Era of Hope Scholar is intended to 
support the formation of the next generation of leaders in breast 
cancer research, by identifying the best and brightest independent 
scientists early in their careers and giving them the necessary 
resources to pursue a highly innovative vision toward ending breast 
cancer.
    Also, Historically Black Colleges and Minority Universities/
Minority Institutions Partnership Awards are intended to provide 
assistance at an institutional level. The major goal of this award is 
to support collaboration between multiple investigators at an applicant 
Minority Institution and a collaborating institution with an 
established program in breast cancer research, for the purpose of 
creating an environment that would foster breast cancer research, and 
in which Minority Institution faculty would receive training toward 
establishing successful breast cancer research programs.
    These are just a few examples of innovative approaches at the DOD 
BCRP that are filling gaps in breast cancer research. It is vital that 
these grants are able to continue to support interest in breast cancer 
research--$150 million for peer-reviewed research will help sustain the 
program's momentum.
    The DOD BCRP also focuses on moving research from the bench to the 
bedside. A major feature of the awards offered by the BCRP is that they 
are designed to fill niches that are not offered by other agencies. The 
BCRP considers translational research to be the application of well-
founded laboratory or other pre-clinical insight into a clinical trial. 
To enhance this critical area of research, several research 
opportunities have been offered. Clinical Translational Research awards 
have been awarded for investigator-initiated projects that involve a 
clinical trial within the lifetime of the award. The BCRP expanded its 
emphasis on translational research by offering five different types of 
awards that support work at the critical juncture between laboratory 
research and bedside applications.
    The Centers of Excellence awards mechanism brings together the 
world's most highly qualified individuals and institutions to address a 
major overarching question in breast cancer research that could make a 
major contribution towards the eradication of breast cancer. These 
centers put to work the expertise of basic, epidemiology and clinical 
researchers, as well as consumer advocates to focus on a major question 
in breast cancer research. Many of these centers are working on 
questions that will translate into direct clinical applications.

                        SCIENTIFIC ACHIEVEMENTS

    The BCRP research portfolio is comprised of many different types of 
projects, including support for innovative ideas, infrastructure 
building to facilitate clinical trials, and training breast cancer 
researchers.
    A groundbreaking outcome of research funded by the BCRP was the 
development of Herceptin, a drug that prolongs the lives of women with 
a particularly aggressive type of advanced breast cancer; and has been 
shown in recent studies to decrease relapses in women with this type of 
breast cancer, which constitute about 25 percent of those diagnosed. 
This drug could not have been developed without first researching and 
understanding the gene known as HER-2/neu, which is involved in the 
progression of some breast cancers. Researchers found that over-
expression of HER-2/neu in breast cancer cells results in very 
aggressive biologic behavior. Most importantly, the same researchers 
demonstrated that an antibody directed against HER-2/neu could slow the 
growth of the cancer cells that over-expressed the gene. This research, 
which led to the development of the drug Herceptin, was made possible 
in part by a DOD BCRP-funded infrastructure grant. Other researchers 
funded by the BCRP are currently working to identify similar kinds of 
genes that are involved in the initiation and progression of cancer. 
They hope to develop new drugs like Herceptin that can fight the growth 
of breast cancer cells.
    Another example of success from the program is a study of sentinel 
lymph nodes (SLNs). This study confirmed that SLNs are indicators of 
metastatic progression of disease. The resulting knowledge from this 
study and others has lead to a standard of care that includes lymph 
node biopsies. If the first lymph node is negative for cancer cells, 
then it is unnecessary to remove all the lymph nodes. This helps 
prevent lymphodema, which can be painful and have lasting 
complications.
    Those are just two example of success stories come out of the DOD 
BCRP. In addition, there are still other studies in earlier stages of 
research coming out of the program that could lead to important 
breakthroughs in our knowledge of the disease, as well as how to treat 
it. For example, some studies are using advances in gene expression 
profiling technologies to allow them to identify breast cancer 
``types''. Researchers have found that there are different kinds of 
breast cancer, each responding differently to different treatments. The 
recognition that breast cancer is a heterogeneous disease will allow 
for more targeted therapies and better selection of patient subgroups 
for clinical trials.
    Finally, some studies are using nanotechnology to identify the 
location and size of a cancerous tumor. In addition, that same 
technology is being studied to determine whether it is possible to 
deliver treatment directly to the tumor and destroying it, but leaving 
other, non-cancerous tissue in tact.

                        FEDERAL MONEY WELL SPENT

    The DOD BCRP is as efficient as it is innovative. In fact, 90 
percent of funds go directly to research grants. The flexibility of the 
program allows the Army to administer it in such a way as to maximize 
its limited resources. The program is able to quickly respond to 
current scientific advances, and fulfills an important niche by 
focusing on research that is traditionally under funded. This was 
confirmed and reiterated in an IOM report released in 2004. It is 
responsive to the scientific community and to the public. This is 
evidenced by the inclusion of consumer advocates at both the peer and 
programmatic review levels. The consumer perspective helps the 
scientists understand how the research will affect the community, and 
allows for funding decisions based on the concerns and needs of 
patients and the medical community.
    Since 1992, the BCRP has been responsible for managing $1.81 
billion in appropriations. From its inception through fiscal year 2004, 
4,293 awards at over 420 institutions throughout the United States and 
the District of Columbia have been awarded. Approximately 150 awards 
will be granted for fiscal year 2005. The areas of focus of the DOD 
BCRP span a broad spectrum and include basic, clinical, behavioral, 
epidemiology, and alternative therapy studies, to name a few. The BCRP 
benefits women and their families by maximizing resources and filling 
in the gaps in breast cancer research. Scientific achievements that are 
the direct result of the DOD BCRP grants are undoubtedly moving us 
closer to eradicating breast cancer.
    The outcomes of the BCRP-funded research can be gauged, in part, by 
the number of publications, abstracts/presentations, and patents/
licensures reported by awardees. To date, there have been more than 
9,500 publications in scientific journals, more than 9,600 abstracts 
and more than 300 patents/licensure applications. The Federal 
Government can truly be proud of its investment in the DOD BCRP.

               INDEPENDENT ASSESSMENTS OF PROGRAM SUCCESS

    The National Breast Cancer Coalition has been the driving force 
behind this program for many years. The success of the DOD Peer-
Reviewed Breast Cancer Research Program has been illustrated by several 
unique assessments of the program. The IOM, which originally 
recommended the structure for the program, independently re-examined 
the program in a report published in 1997. They published another 
report on the program in 2004. Their findings overwhelmingly encouraged 
the continuation of the program and offered guidance for program 
implementation improvements.
    The 1997 IOM review of the DOD Peer-Review Breast Cancer Research 
Program commended the program and stated that, ``the program fills a 
unique niche among public and private funding sources for cancer 
research. It is not duplicative of other programs and is a promising 
vehicle for forging new ideas and scientific breakthroughs in the 
Nation's fight against breast cancer.'' The IOM report recommended 
continuing the program and established a solid direction for the next 
phase of the program. The 2004 report reiterated these same statements 
and indicated that is important for the program to continue. It is 
imperative that Congress recognizes the independent evaluations of the 
DOD Breast Cancer Research Program, as well as reiterates its own 
commitment to the program by appropriating the funding needed to ensure 
its success.
    The DOD Peer-Reviewed Breast Cancer Research Program not only 
provides a funding mechanism for high-risk, high-return research, but 
also reports the results of this research to the American people at a 
biennial public meeting called the Era of Hope. The 1997 meeting was 
the first time a federally funded program reported back to the public 
in detail not only on the funds used, but also on the research 
undertaken, the knowledge gained from that research and future 
directions to be pursued. The transparency of the BCRP allows 
scientists, consumers and the American public to see the exceptional 
progress made in breast cancer research.
    At the 2005 Era of Hope meeting, all BCRP award recipients from the 
past 2 years were invited to report their research findings, and many 
awardees from previous years were asked to present advancements in 
their research. Themes for the 2005 meeting included: Understanding 
Risk--A Different Perspective; Understanding Who Needs Intervention and 
Understanding Treatments--Effectively Treating Primary and Metastatic 
Disease. Researchers presented their research on many important topics 
ranging from the development of new techniques for detecting breast 
cancer to identifying and destroying progenitor breast cancer cells to 
determining ways to stop tumor growth by preventing angiogenesis to 
applying new models for developing and implementing communications 
strategies in order to enhance decision making and improve quality of 
life for breast cancer patients.
    The DOD Peer-Reviewed Breast Cancer Research Program has attracted 
scientists across a broad spectrum of disciplines, launched new 
mechanisms for research and has continued to facilitate new thinking in 
breast cancer research and research in general. A report on all 
research that has been funded through the DOD BCRP is available to the 
public. Individuals can go to the Department of Defense website and 
look at the abstracts for each proposal at http://cdmrp.army.mil/
bcrp/.

           COMMITMENT OF THE NATIONAL BREAST CANCER COALITION

    The National Breast Cancer Coalition is strongly committed to the 
DOD program in every aspect, as we truly believe it is one of our best 
chances for finding cures and preventions for breast cancer. The 
coalition and its members are dedicated to working with you to ensure 
the continuation of funding for this program at a level that allows 
this research to forge ahead.
    Over the years, our members have showed their continuing support 
for this program through petition campaigns, collecting more than 2.6 
million signatures, and through their advocacy on an almost daily basis 
through the country asking for support of the DOD BCRP.
    As you know, there are 3 million women living with breast cancer in 
this country today. This year more than 40,000 will die of the disease 
and nearly 220,000 will be diagnosed. We still do not know how to 
prevent breast cancer, how to diagnose it truly early or how to cure 
it. While the mortality rate seems to be decreasing, it is not by much 
and it is not for all groups of women. The incidence of breast cancer 
continues to rise. It is an incredibly complex disease. We simply 
cannot afford to walk away from these facts, we cannot go back to the 
traditional, tried and not so true ways of dealing with breast cancer. 
We must, we simply must, continue the innovative, rapid, hopeful 
approach that is the DOD BCRP.
    Just a few weeks ago, many of the women and family members who 
supported the campaign to gather the 2.6 million signatures came to 
NBCCF's Annual Advocacy Training Conference here in Washington, D.C. 
More than 600 breast cancer activists from across the country, 
representing groups in their communities and speaking on behalf of tens 
of thousands of others, joined us in continuing to mobilize our efforts 
to end breast cancer. The overwhelming interest in, and dedication to 
eradicate this disease continues to be evident as people not only are 
signing petitions, but were willing to come to Washington, D.C. from 
across the country to tell their Members of Congress about the vital 
importance of continuing the DOD BCRP.
    Since the very beginning of this program in 1992, Congress has 
stood with us in support of this important investment in the fight 
against breast cancer. In the years since, Mr. Chairman, you and this 
entire committee have been leaders in the effort to continue this 
innovative investment in breast cancer research.
    NBCC asks you, the Defense Appropriations Subcommittee, to 
recognize the importance of what you have initiated. You have set in 
motion an innovative and highly efficient approach to fighting the 
breast cancer epidemic. What you must do now is support this effort by 
funding the program at $150 million and maintaining its integrity. This 
is research that will help us win this very real and devastating war 
against a cruel enemy.
    Thank you again for the opportunity to testify and for giving hope 
to the 3 million women in the United States living with breast cancer.

    Senator Inouye. Our next witness is Rear Admiral Casey 
Coane, the United States Navy Executive Director of the Naval 
Reserve Association. Admiral.

STATEMENT OF REAR ADMIRAL CASEY COANE, UNITED STATES 
            NAVY (RETIRED), EXECUTIVE DIRECTOR, NAVAL 
            RESERVE ASSOCIATION
    Admiral Coane. Senator Inouye, on behalf of the 22,000 
members of the Naval Reserve Association and the 70,000 serving 
Navy reservists, I want to thank you and the entire 
subcommittee for your continued unwavering support of our Navy, 
Navy Reserve, Navy veterans, and their families. We are 
grateful for the opportunity to submit testimony, and for your 
efforts in this hearing.
    Your willingness to address and correct issues facing 
Reservists affirms their value to the defense of our great 
Nation. Your willingness to look at issues related to the use 
of the Reserve on the basis of national security and homeland 
defense is very important.
    In the interest of time, I will depart from our written 
testimony and get straight to the point. I will raise two broad 
issues, and then get to Navy Reserve equipment.
    First, we see a trend developing whereby the Active 
components are taking Guard and Reserve equipment from those 
units in order to replace shortfalls on the active ledger. The 
long war is using up mechanized equipment and flying years off 
of our aircraft of all types. We do not see a plan within DOD 
for the replacement of this equipment. The subcommittee is 
certainly aware of that within Navy, all Navy Reserve squadrons 
are being decommissioned--that is Navy Reserve patrol 
squadrons--are being decommissioned, and their aircraft have 
already been transferred to the Active squadron. The same thing 
is happening now with our Navy Reserve FA-18 squadrons, 
including VFA-201 in Dallas, which was mobilized and carried 
out some of the very first strikes as Operation Iraqi Freedom 
began. Navy Reserve combat support helicopter squadrons HCS-4 
and -5 have had detachments in Baghdad for over 3 years 
straight. They are set to merge with three other Reserve 
squadrons, with the result being that what was once five will 
become three, with three squadrons' worth of aircraft.
    All this is being accomplished under the banner of 
integration. We believe it is a fiscal decision, not a national 
readiness decision. Second, Guardsmen and Reservists need 
equipment on which to train. It is what motivates them and 
brings them to the table. It is what allows our country to 
maintain the reservoir of combat skill sets that enable the VFA 
201 to respond to the call, and out perform every other 
squadron in its air wing.
    History tells us that when that squadron decommissions, the 
vast majority of its reservists will leave the service, those 
hard-earned combat skills lost to the country forever. Now, the 
Navy Reserve does have an unfunded list this year. Greater Navy 
chose not to put any of those items on its unfunded list. The 
Navy had begun to buy C-40 aircraft to replace its rapidly 
aging DC-9's. Boeing has made a very attractive accelerated 
purchase offer to the Navy, which would save the taxpayers 
millions of dollars.
    All Navy airlift is in the Reserve component. And if the C-
9s are not replaced, the Navy will lose the capability that it 
has argued for years that it must have. We particularly urge 
the subcommittee to fund these aircraft, at least two of them, 
this year.
    For years, the Navy Reserve has been the Navy leader in 
port security in the brown water Navy. The Reserve tactical 
vehicles and communications gear is aging and needs replacement 
now. The Navy has just stood up its new Riverine Squadron, and 
while the second squadron is to be a Reserve squadron, the 
Reserve piece is not in the program objective memorandum (POM). 
We urge the subcommittee to fund this squadron.
    We also ask the subcommittee to address the other items on 
the Navy unfunded list, and ensure that reservists continue to 
have equipment on which to train.
    We thank you for your time.
    Senator Inouye. Admiral, I thank you very much, and I'm 
certain the chairman joins me. We will do our very best, sir.
    Admiral Coane. Thank you, sir.
    [The statement follows:]

             Prepared Statement of Rear Admiral Casey Coane

                      THE NAVY RESERVE ASSOCIATION

    Chairman Stevens, Senator Inouye and distinguished Members of the 
subcommittee: The Naval Reserve Association thanks you and the entire 
subcommittee for your continued, unwavering support of our Navy 
Reserve, Navy Active Duty, retired members, and veterans of the 
uniformed services, to include their families and survivors.
    On behalf of our 22,000 members, and in advocacy for the 72,000 
active Naval Reservists and the interest of all Guard and Reserve 
personnel, we are grateful for the opportunity to submit testimony, and 
for your efforts in this hearing. Your willingness to address and 
correct issues facing Reservists affirms their value to the defense of 
our great Nation. Your willingness to look at issues related to the use 
of the Reserve on the basis of national security sets the Legislative 
Branch apart from the Executive Branch which seemingly develops its 
positions on the basis of cost.
    We hope that many of these equipment issues will be addressed by 
the Commission on the Guard and Reserve. We look forward to that body 
giving Congress and the administration a holistic view of the myriad 
issues facing today's Guard and Reserve but, as you know, they have 
just begun their review.

                         NAVY RESERVE EQUIPMENT

    That said, there are equipment issues that need to be addressed by 
this committee and this Congress, now. As you know, DOD and the 
services have not provided all necessary hardware for the Guard and 
Reserve forces throughout recent history. The Senate has led the way in 
providing the right equipment at the right time for our Guard and 
Reserve forces, and especially for the Navy Reserve force.
    It is imperative that at this time you recognize that in 
transforming and rebalancing the Navy Reserve, Navy has made a decision 
to disestablish Navy Reserve hardware units. We believe this is based 
solely on budgetary reasons, since no vision of the Navy Reserve exists 
for review.
    To put this in perspective, in 2003 the Chief of Naval Reserve 
testified before this committee that he needed a variety of additions 
and upgrades to Reserve equipment. In 2004 a different chief testified 
before this committee and while he thanked the committee for the 2004 
National Guard and Reserve equipment appropriation; he made no further 
request for equipment or upgrades to equipment. He did tout the 
extraordinary performance of Strike Fighter Squadron 201 which had been 
mobilized aboard Theodore Roosevelt and Helicopter Combat Support 
Squadrons 4 and 5 for their deployments to Iraq.
    These were the first Navy Reserve squadron fighter and helicopter 
squadron call-ups since Korea and, as was testified to by their Chief 
of Navy Reserve, they performed superbly--better than other air wing 
squadrons in the case of VFA-201. HCS-4 and 5 have no Active Component 
counterparts but performed equally well. These deployments validated 
the wisdom of having assets in reserve that the country could call 
upon. Today those same squadrons are scheduled to be decommissioned!
    Within the last 5 years, Navy, has disestablished--60 percent of 
the Navy Air Reserve force, with most of the remaining force on the 
books to disestablish. 33 percent of the Navy Surface Reserve force has 
been lost. This has occurred in a time of increased usage of Reservists 
by the Navy. Some of these units are described as excess, yet they have 
proven the wisdom of having them available.
    While it may be understandable that Navy has the right to shape the 
force, it seems to me that for the tax payers--the Navy Reserve 
hardware units are a fantastic buy for the tax payer's dollar. They 
cost one-third less, and provide surge capabilities when called. VFA-
201 is serving as the Navy's surge ready fighter/attack squadron at 
this time. And, they do respond when called. VFA-201 (Texas), HSC 4-5 
(California, Virginia), Naval Coastal Warfare (nationwide), Seabees 
(nationwide), ELF (nationwide), and VR (nationwide)--are just some 
examples of Naval Reservist doing what the country needs and wants--
when we need and want them! Yet--Navy is well on the way to 
disestablishing all air assets for budgetary reasons. We believe you 
must provide for these capabilities, and maintain these capabilities 
that are being utilized, are needed, and do respond to our national 
security requirements and to our national homeland defense 
requirements.
    The recent QDR indicates a continued requirement for our Armed 
Forces to be engaged worldwide. To meet the national security strategy, 
the homeland security strategy and to ensure that our country meets the 
emerging threats of the long war and global war on terrorism it is 
evident that we will need the Navy Reserve well into the 21st Century 
to meet world wide threats. We are activating these citizen sailors 
today for OIF, OEF, and worldwide GWOT operations. I hasten to add that 
when concerns are raised by our association we are often accused of 
living in the past; of not understanding the newly-integrated Navy 
Reserve mission. It is not the past that concerns us but the 
unpredictability of the future and future military requirements.
    The Senate has frequently reminded DOD that they do not plan well 
for the next war. That is why we have maintained assets and skills in a 
Reserve force--because we can't predict accurately. The Navy now seems 
bent on a Reserve force that functions only as a day to day operational 
manpower pool. We have strong reservations that going forward this will 
not provide surge capability nor will it result in the retention of 
skill sets that are maintained today because Reservists have their own 
equipment on which to train.
    Within the units that the Navy says it will retain, there are 
significant Navy Reserve equipment shortages that need your attention. 
The following items are both necessary and affordable for the country, 
in this time of increased utilization and requirements as forecast by 
the QDR.
    C-40A.--Navy Reserve transport squadrons provide 100 percent of the 
Navy's intra theater logistic requirements. The C-40 will replace aging 
and expensive C-9B aircraft. Boeing has made significant accelerated 
purchase offers to the Navy at great savings to the taxpayer. We urge 
you to fund these aircraft, and to provide resources for two (2) C-40s 
this year.
    Naval Coastal Warfare Equipment.--The Navy Reserve has been the 
leader in port security and the brown-water Navy. These units have 
existed in the Navy Reserve for sometime. Their equipment is ageing and 
needs replacement. They supplied initial response during 9/11, and have 
responded to our Nations call for OIF and OEF. As the Active component 
moves into addressing the brown water Navy requirements--we have to 
keep the Navy Reserve fully equipped with reliable tactical vehicles, 
communications equipment, and combat support equipment.
    Naval Expeditionary Equipment.--The Navy Reserve expeditionary 
forces are actively and constantly engaged in OIF and OEF. They are an 
integral part of the Defense Department's homeland defense strategy. 
Tactical vehicles and small arms simulators are critically needed to 
make sure Navy Reservist are effectively and efficiently trained for 
deployments.
    The Naval Reserve Association asks that you provide committee 
language to cease disestablishment of Navy Reserve hardware units, 
maintain and fund hardware units in the Navy Reserve before the 
capabilities are cut, and that you fund the three critical equipment 
shortages listed.

  OTHER CRITICAL NAVY RESERVE, GUARD AND RESERVE PROGRAMS REQUIREMENTS

End Strength
    The NRA would like to also put a freeze on reductions to the Guard 
and Reserve manning levels. With the Commission on the Guard and 
Reserve now active, it makes sense to put a moratorium on changes to 
end strength until after they report back to Congress with 
recommendations. NRA urges this subcommittee to fund end strength for 
Navy Reserve to last year's levels.

Survivor Benefits Pan (SBP) and Survivor Improvement
    The Naval Reserve Association thanks this subcommittee for your 
funding of improvements in the myriad of survivor programs. However, 
there are still two remaining issues to deal with to make SBP the 
program Congress always intended it to be:
  --Ending the SBP/DIC offset and
  --Moving up the effective date for paid up SBP to October 1, 2006.
    SBP is a purchased annuity. It is an earned employee benefit. It is 
a retirement plan for the surviving spouse. Dependency Indemnification 
Compensation's (DIC) is an indemnity program to compensate a family for 
the loss of a loved one due to his or her military service. They are 
different programs created to fill different purposes and needs.
    SBP/DIC Offset affects several groups.
  --The first is the family of a retired member of the uniformed 
        services. At this time the SBP annuity he or she has paid for 
        is offset dollar for dollar for the DIC survivor benefits paid 
        through the VA. This puts a disabled retiree in an unfortunate 
        position. If death is service connected then the survivor 
        looses dollar for dollar for what the DIC pays.
  --A second group affected by this dollar for dollar offset is made up 
        of families whose servicemember died on Active Duty. Recently 
        Congress created Active Duty SBP. These servicemembers never 
        had the chance to pay into the SBP program. But clearly 
        Congress intended to give these families a benefit. With the 
        present off-set in place the vast majority of families receive 
        no benefit from this new program, because the vast number of 
        our losses are young men or women in the lower paying ranks. 
        SBP is completely offset by DIC payments.
  --Other affected families are servicemembers who have already served 
        a substantial time in the military. Their surviving spouse is 
        left in a worse financial position that a younger widow. The 
        older widow's will normally not be receiving benefits for her 
        children from either Social Security or the VA and will 
        normally have more substantial financial obligations. This 
        spouse is very dependent on the SBP and DIC payments and should 
        be able to receive both.
    Thirty Year Paid Up SBP.--In the fiscal year 1999 Defense 
Authorization Act Congress created a simple and fair paid up provision 
for the Survivor Benefit Plan. A member who had paid into the program 
for 30 years and reached the age of 70 could stop paying premiums and 
still have the full protection of the plan for his or her spouse. 
Except that the effective date of this provision is October 1, 2008. 
Many have been paying for as long as 34 years.
    The Naval Reserve Association respectfully requests this 
subcommittee fund the SBP/DIC offset and 30 year paid-up SBP if 
authorized.

Full Funding for the Defense Health Programs
    The Naval Reserve Association thanks the subcommittee's role in 
providing adequate funding for the Defense Health Program (DHP) in the 
past several budget cycles. As the cost of health care has risen 
throughout the country, you have provided adequate increases to the DHP 
to keep pace.
    This is again one of our membership's top priorities. With the 
additional costs that have come with the deployments to Southwest Asia, 
Afghanistan and Iraq, we must all stay vigilant against future 
budgetary shortfalls that would damage the quality and availability of 
health care.
    With the authorizers having postponed the Department of Defenses 
suggested fee increases, NRA is concerned that the budget saving have 
already been adjusted out of the President's proposed budget. We ask 
this subcommittee to continue to fund the DHP so that there will be no 
budget shortfalls.
    The Naval Reserve Association urges the subcommittee to continue to 
ensure full funding for the Defense Health Program including the full 
costs of all new TRICARE Reserve Select programs.

MGIG-SR Enhancements
    The Department of the Navy has changed requirements for enlisted to 
advancement. Future enlisted leaders will be required to have associate 
and bachelor degrees in order to advance. This requirement will apply 
to Navy Reservists and will be difficult to obtain. This makes the 
Montgomery G.I. Bill for Selective Reserves (MGIB-SR) an important 
recruiting and retention tool as well as mandatory for those currently 
serving. With massive rotations the Reserve forces can expect to have 
retention shortfalls, unless the government provides incentives such as 
a college education. Education is not only a quality of life issue or a 
recruiting/retention issue it is also a readiness issue. Education a 
Reservist receives enhances their careers and usefulness to the 
military. The ever-growing complexity of weapons systems and support 
equipment requires a force with far higher education and aptitude than 
in previous years.
    The problem with the current MGIB-SR is that the Selected Reserve 
MGIB has failed to maintain a creditable rate of benefits with those 
authorized in Title 38, Chapter 30. Other than cost-of-living 
increases, only two improvements in benefits have been legislated since 
1985. In that year MGIB rates were established at 47 percent of active 
duty benefits. The current MGIB-SR rate is 27 percent of the Chapter 30 
benefits. Overall the allowance has inched up by only 7 percent since 
its inception, as the cost of education has climbed significantly.
    The NRA requests appropriations funding to raise the MGIB-SR and 
lock the rate at 50 percent of the Active Duty benefit.
    The Naval Reserve Association is fully appreciative of the 
subcommittee's actions and concerns for the health and welfare of our 
service personnel and their families. Therefore, we hope that this 
subcommittee can further advance these suggestions in this committee. 
We are very grateful for the opportunity to submit these issues of 
crucial concern to our collective memberships.
    I thank the committee for consideration of these equipment and 
manpower requirements that greatly impact our Active Duty and Reserve 
Component programs to assist the Navy Reserve in an age of increased 
sacrifice and utilization of these forces.

    Senator Inouye. Our next witness is the President of the 
Morris Heritage Foundation, Robert V. Morris.

STATEMENT OF ROBERT V. MORRIS, PRESIDENT, MORRIS 
            HERITAGE FOUNDATION, INC.
    Mr. Morris. Thank you, Senator Inouye, and it is certainly 
nice to see you again.
    The historic educational recognition opportunity--HERO--
pilot program is critical to the future of America's armed 
forces and the long-term defense of our Nation. HERO seeks to 
stimulate the learning environment of America's diverse teenage 
population with accurate portrayals of black and female 
contributions to military history and their impact on equal 
opportunity in greater society. This youth education will 
enhance their understanding of and support for America's armed 
forces leading to escalating enlistment in the face of sharp 
declines, and of the long-term educational and socioeconomic 
benefits of military service.
    The number of blacks and females enlisting in America's 
armed forces has been in steady decline, reaching 40 percent 
for blacks over the past 5 years while black high school 
dropout, unemployment, and incarceration rates continue to 
increase. Black Army troops declined from 23.5 percent in 
fiscal year 2000 to 14 percent in fiscal year 2005, with 
females sliding from 22 to 17 percent over the same period. 
Contributing factors such as an improving economy, increased 
college enrollments, and fear of combat death in Iraq and 
Afghanistan, are shrinking black and female enlistment levels.
    In a rapidly expanding war against terrorism and 
aggression, direct and long-term action is needed to reverse 
this trend and revive black and female interest in military 
service. According to recruiters, respect for and knowledge of 
military service within a recruit's family, race, or gender, 
are proven determinants of enlistment, and current recruitment 
efforts are not going far enough.
    The HERO pilot program will create multicultural non-sexist 
academic lessons promoting the racial and gender equality 
legacy of the American military in the spirit of our patriarch, 
Lieutenant James B. Morris, who graduated the first Army black 
officers candidate class at Fort Des Moines in 1917, and led 
the U.S. Army 92d division, 366th infantry, in World War I 
France in 1918.
    The 5-year pilot program funding will be replaced by long-
term private sector support and will initially target six 
public school districts of various sizes and geographic areas. 
The success of the bipartisan HERO pilot program will allow 
expansion to other minority groups in the future to invigorate 
the military enlistment pool for years to come.
    The HERO pilot program has been affirmatively reviewed by 
the U.S. Army recruiting command and consulting educators at 
the University of Iowa and U.S. Military Academy, among others. 
HERO has also been personally reviewed and acknowledged by a 
number of prominent military leaders and educators, including 
former Secretary of State General Colin Powell, and Major 
General Thomas Bostic, the Commander of the U.S. Army 
Recruiting Command.
    With this testimony, we request a $3.25 million 
appropriation for the HERO pilot program as a direct grant 
through the U.S. Army operations and maintenance funding.
    Thank you very much.
    Senator Inouye. I thank you, sir. Would you care to have 
this pamphlet made part of the record?
    Mr. Morris. Yes.
    Senator Inouye. Without objection, so ordered.
    Mr. Morris. Thank you.
    Senator Inouye. And I thank you, sir.
    [The information follows:]

 Historic Educational Recognition Opportunity (HERO) Pilot Program 2006

                              THE MISSION

    To win the hearts and minds of American's diverse teenage 
population with an accurate portrayal of black and female contributions 
to military history and their impact on equality in greater society 
through a consulting relationship with two legendary educational 
institutions. This youth education will stimulate their understanding 
of and support for America's Armed Forces leading to escalating 
enlistments in the face of sharp declines and of the long-term 
educational and socio-economic benefits of military service.

                              THE PROJECT

    With youth education a primary goal of the Morris Heritage 
Foundation, Inc. (MHF), and in consultation with the University of Iowa 
and the United States Military Academy, we are creating multi-cultural, 
non-sexist academic lessons promoting the racial and gender equality 
history of the U.S. military in the spirit of our founders. The target 
audience for the lessons will be black and female youth who possess a 
limited historical knowledge of multi-cultural military contributions 
to the Nation. Initial public funding for the program will be replaced 
with long-term private sector support through success and exposure. 
This pilot program will target public school districts in six (6) 
target States representing diverse geographic and population 
characteristics. Pilot program success will key expansion to include 
other minority groups including Hispanic, Native, Asian and Pacific 
Islander. The HERO program is bi-partisan and non-political regarding 
any current issues or events.

                            THE ORGANIZATION

    MHF is an educational not-for-profit (IRS 501c3) organization based 
in Des Moines, Iowa founded in 2004. Our patriarch, Lt. James B. 
Morris, Sr., (1890-1977) graduated the Army's first black officer 
candidate class at Fort Des Moines, Iowa on October 15, 1917 and served 
with the American Expeditionary Force 3rd Battalion, 92nd Division, 
366th Infantry on the battlefields of WWI France where he survived two 
combat wounds in 1918. He returned to Iowa in 1919 where he began a 
legendary career as lawyer, educator and publisher of the oldest black 
newspaper west of the Mississippi River while co-founding the National 
Bar Association (NBA) in 1925 and the National Newspaper Publishers 
Association (NNPA) in 1940. His son, Captain James B. Morris, Jr. 
(1919-1976) served with the 6th Army in the WWII South Pacific where he 
won 4 bronze star medals of valor with an integrated intelligence unit 
within a racially segregated Army. His youngest son and MHF president 
Robert V. Morris created the $10 million Fort Des Moines Memorial Park 
to honor the original black officer class 1997 and chronicled Morris 
military achievements in Tradition And Valor: A Family Journey 
(Sunflower Press 1999). Fort Des Moines was also the birthplace of the 
WWII Women's Army Auxiliary Corps (WAAC) in 1942.

            THE PROBLEM: BLACK AND FEMALE ENLISTMENT DECLINE

    The number of blacks and females enlisting in America's Armed 
Forces has been in steady decline reaching forty percent over the past 
5 years while black high school drop outs, unemployment and 
incarceration rates continue to increase. Black Army troops have 
declined from 23.5 percent in fiscal year 2000 to less than 14 percent 
in fiscal year 2005 with females sliding from 22 percent to 17 percent 
over the same period. Questionable factors including an improving 
economy, increased college enrollment, long-term engagements and fear 
of combat deaths particularly in Iraq are pushing black troop levels 
toward general population levels of 12 percent. In a rapidly expanding 
war against terrorism and aggression, direct action is needed to 
reverse this trend and revive black and female interest in military 
service. According to recruiters, respect for and knowledge of military 
service within a recruit's family, race or gender have long been key 
determinants of potential military service. These factors are the 
direct target of the HERO program.

                             THE CURRICULUM

    To implement the program, 40 lessons will be developed which focus 
upon the stories and ideals representative of racial and gender 
equality in the Armed Forces and greater society. The lessons will 
focus upon the backgrounds, goals, motivations and achievements of 
black and female troops throughout history. Other lessons will present 
the social contexts of race and gender by defining the status and roles 
of blacks and women in America during the first half of the 20th 
century so the uniqueness and far-sightedness of the military can be 
appreciated. Twenty lessons will be created for upper-elementary or 
middle school students and 20 for high school students taking United 
States History during their sophomore and junior years. At each level, 
the curriculum will also be adult friendly. Besides content and appeal, 
the lessons will share the following qualities:
    Self-Contained.--Because most teachers are severely overworked and 
have little time to research and develop quality lessons themselves, 
each lesson will be self-contained so that teachers will have all the 
materials and directions needed to implement the lesson in their 
classroom whether it be in a large city or small, isolated rural 
community.
    Interactive Nature.--Every lesson will include interactive 
materials of high interest to students. For example, a lesson about the 
traits and backgrounds of those who entered the black officers training 
program at Fort Des Moines in 1917 will direct students to existing 
data bases in order to develop hypotheses about the socio-economic 
characteristics of those attracted to the program. Another lesson could 
do the same on the women of the WAC.
    Diverse Learning.--In order to broaden the appeal and use of 
lessons they will appeal to diverse learning styles and abilities. For 
example, students who learns hands-on will use gaming programs in the 
lessons which present problems such as issues of racial and gender 
discrimination while younger learners deal with how to survive boot 
camp in which both groups develop strategies for overcoming the 
obstacles.
    Primary Source Materials.--Drawing from the MHF data base, the 
lessons will include primary source materials including reproduced 
letters, photos, film clips, training manuals, newspaper articles and 
other documents. Not only will students use primary sources as 
essential components of the lessons, but will the MHF data base and 
other sources.
    Independent Nature.--One problem teachers of history and social 
sciences experience is the dilemma of too much material and too little 
time to teach it which discourages teachers from using materials which 
do not fit the learning objectives of courses they teach.
    Independent Study.--All lessons will be linked to an ``independent 
study'' strand utilizing the data base so that students (and adults) 
individually may work the lessons without teacher assistance.
    Internet Distribution.--Lessons will be made available to teachers, 
students and adults via MHF website and other curriculum distribution 
sites. This is essential because printed lessons are often lost or 
discarded making them unavailable to new teachers of the subjects.
    Teacher Guide.--Each lesson will include a teacher guide, student 
pages, related research and primary sources and internet links to other 
sites. The Internet pages will be exciting, youth friendly, and will 
include animation and simulations. It is estimated that each lesson 
will require approximately 15 internet pages, so the entire project 
will require over 600 new pages on the website.

                    CURRICULUM DISTRIBUTION METHODS

    In order to market the lessons to school districts and teaching 
professionals, project staff will conduct workshops at selected teacher 
conferences and market the program through educational like the 
Association of Supervision and Curriculum Development and the National 
Middle School Association. In addition, our staff will utilize existing 
educational distribution sources like Scholastic, Channel One and 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="70313f3c302333383f3f3c">[email&#160;protected]</a> and link to key websites.

                         TELEVISION PRODUCTION

    MHF will produce five (5) high definition (HD) television 
documentaries of 28:00 in length which will be broken into 14:00 shorts 
for classroom use. The documentaries will bring history to life and 
feature animation and celebrity narrators in bi-lingual formats and 
also be available for telecast on Armed Forces Television world-wide.

                         INITIAL LESSON TOPICS

    The original eleven (11) lesson topics analyze how the military led 
greater American society toward racial and gender equality, including:
    The Revolution.--Black freeman Crispus Attucks became the first 
soldier to die in the Revolutionary War. The tragic incident began the 
long history of black military service in support of the United States 
of America.
    Slavery and the Civil War.--The slave revolts of Nat Turner and 
abolitionist John Brown highlight the cruel and savage industry of 
American slavery. How the slaves reacted to the Civil War and black 
troop participation in the Union Army changed America forever. Lessons 
will examine slave culture, the underground railroad and black military 
participation in the Civil War as well as post-war freemen flight to 
the north and western United States that often ended in disaster.
    Buffalo Soldiers and Western Expansion.--After the Civil War, many 
Union Army soldiers and freemen formed four legendary black units on 
the plains and in the southwest. The U.S. Army's 9th and 10th Cavalry 
``Buffalo Soldiers'' and the 24th and 25th Infantry fought Indians, 
Mexicans and whites in a variety of settings and also performed tedious 
and dangerous assignments rooted in racial discrimination. Lessons will 
separate fact from fiction as to who these men were and what they did 
during and after their military service.
    WWI Black Officers Take Charge.--The Army's first officer candidate 
class for blacks drew an elite group of men to Fort Des Moines, Iowa in 
1917. Although three blacks had previously graduated West Point, the 
1,250 candidates of the 17th Provisional Training Regiment represented 
the first group training ever performed. The class consisted of 1,000 
college graduates and faculty and 250 non-commissioned officers from 
the 9th and 10th Cavalry ``Buffalo Soldiers'' and the 24th and 25th 
Infantry stationed on the plains and in the southwest. The 639 
graduating captains and lieutenants served valiantly with the 3rd 
Battalion 92nd Division of the American Expeditionary Force on the 
battlefields of World War One France in 1918 as the first black combat 
regiment commanded by black officers. Lessons will explore who these 
men were and their impact on the military command structure and greater 
society.
    WWI Negrophilia and the New Negro.--The black officers of the U.S. 
Army played a major role in the European avant-garde cultural 
revolution during and after World War One. Lt. John Reece Europe's 
fabulous ``Hell Fighters Band,'' along with others, introduced the 
continent to the jazz craze that drove Paris wild and impacted every 
aspect of European culture between 1918 and 1930. Paralleling the 
Harlem (New York) Renaissance, participants ranged from entertainers 
Josephine Baker and Paul Robeson to legendary French artist Picasso. 
The highly educated black officers, labeled ``New Negroes'' by the 
French, presented a direct contradiction to the popular European 
colonial concept of primitivism. These lessons are culture and arts 
oriented.
    WWII Women at War and Beyond.--Over 72,000 women trained at Fort 
Des Moines, Iowa between 1942 and 1945 including 7,000 college educated 
officers becoming the first female Army troops. The racially integrated 
training contained 3,600 black enlisted women and 118 officers. Lessons 
will preview who they were, where they came from and what they did 
during and after World War Two. What they and their military 
descendants' impact was on gender equality throughout the military and 
greater society.
    WWII Tuskegee Airmen.--Within a legendary World War Two combat 
unit, Iowan Luther Smith could be the greatest Tuskegee Airmen story of 
them all. After 133 combat missions, a fiery plane crash with severe 
injuries and 7 months as a Nazi POW, how could Captain Smith survive to 
become NASA's first black aerospace engineer and one of seven veterans 
invited to accompany President William Clinton to Europe for the 50th 
anniversary of WWII? Lessons will study unit history and individual 
stories of the Tuskegee Airmen themselves and their impact of greater 
society.
    Korea and Combat Integration.--After President Truman's 1948 
executive order ending racial segregation in America's Armed Forces was 
effectively ignored by military leaders, China's entrance into the 
Korean conflict made black troopers the combat replacement of choice. A 
new level of popularity and danger led to heroic service by black 
troops in the midst of discrimination and hatred but opened the door 
for integration on the battlefield. Lessons will discuss the many 
contradictions of the Korean War and the fledgling civil rights 
movement back home.
    Black Troops in Vietnam.--From the ``Black Power'' movement of 
urban America to the dangerous jungles of Vietnam, black troops served 
with distinction in an unpopular war. The Vietnam War contradicted the 
racial segregation of WWII by loading combat units with black draftees 
resulting in disproportionately high casualty rates. Lessons will 
examine the racial, socio-economic and political reasons black troops 
fought overseas and protested at home and what American society learned 
from this controversial period.
    The War on Terrorism.--International relations from century old 
European colonialism to religious, ethnic and racial intolerance 
provide a bloody history creating today's events. Distinguish players 
in the deadly game of international and domestic terrorism and their 
impact on American society before and after 9/11 are identified and 
analyzed. Lessons will concentrate on understanding all aspects of 
terrorism and its roots.
    Today's Military.--Discusses the socio-economic and educational 
opportunities and risks of service in today's modern military in every 
branch and the future. The impact of military service alternatives on 
black and female high school drop-out, teen-pregnancy, unemployment and 
incarceration rates are analyzed. Lessons will also review selected 
military careers and resulting career opportunities after service.

                             ACADEMIC NEED

    According to the U.S. Department of Education, youth residing in 
both urban and rural areas have limited exposure to accurate multi-
cultural historical curricula and thus possess a narrow interpretation 
of American history. The Federal Government, and most States, mandate 
multi-cultural non-sexist education. Although very worthy, little has 
been done by educational agencies to help teachers fulfill their multi-
cultural non-sexist goals. The problem is particularly critical for 
teachers in small rural school districts where they are often assigned 
many duties and academic preparations and have little time to develop 
effective lessons with multi-cultural, non-sexist themes. The problem 
is accentuated by the reality that because an aging national teacher 
workforce, more young, inexperienced teachers are assigned to teach 
history courses.

                           PROGRAM EVALUATION

    HERO pilot project success will be evaluated in a number of ways 
including:
  --Number of hits on project website and internet surveys.
  --Evaluations from teachers who attend in-service presentations 
        conducted by project staff and follow-up questionnaires.
  --Evaluations from focus groups of teachers from targeted school 
        districts.
  --Surveys from participating faculty and students in targeted school 
        districts.
  --Increase in black and female military enlistments from targeted 
        school districts.

                             PILOT PROGRAM

    This original program will be implemented in selected school 
districts in six (6) States and school districts representing the 
Nation's geographic resources and large to small black population areas 
according to the 2004 U.S. Census and National Center for Education 
Statistics, including:

----------------------------------------------------------------------------------------------------------------
                                               Black                                    High School     Black
                   State                     Population         School District           Students     Percent
----------------------------------------------------------------------------------------------------------------
New York..................................    3,361,053  New York City................    1,049,831         34.4
Texas.....................................    2,633,219  Houston ISD..................      210,950         31.3
Georgia...................................    2,612,936  Atlanta City.................       56,586         89.2
California................................    2,436,678  Los Angeles Unified..........      735,058         12.4
Michigan..................................    1,450,583  Detroit City.................      166,675         90.8
Iowa......................................       67,596  Des Moines Independent.......       32,010         15.3
----------------------------------------------------------------------------------------------------------------


------------------------------------------------------------------------
               Program Budget (estimated)                      Total
------------------------------------------------------------------------
Website development.....................................         $50,000
HD Television production................................         400,000
Project staff...........................................         980,000
Equipment and office expenses...........................         250,000
Marketing and distribution..............................         950,000
Travel and entertainment................................         270,000
School District Participation Fee (6)...................         250,000
Education consultants (curriculum and program                    100,000
 development)...........................................
                                                         ---------------
      Total.............................................       3,250,000
------------------------------------------------------------------------

                            BUDGET NARRATIVE

    Website Development.--A new website with over forty (40) new web 
pages requires a professional developer who will also provide on-going 
updates and maintenance. This expense includes creation, page design 
and 60-months of website hosting, $50,000.
    Documentary Production.--The expense includes pre-production 
including script development, high definition (HD) production and post-
production services with 3D and 2D digital effects of the ten 28:00 
programs broken into 14:00 blocks. It also includes program satellite 
uplink, website upload or DVD and VHS bicycling as needed to distribute 
the products. This category also includes director and crew services 
and remote and post-production equipment and services, $400,000.
    Project Staff.--The project team will include full time director 
and administrative assistant with two part-time researchers and two 
teacher advisory committees totaling $980,000.
  --Project Director will be an experienced educator and energetic 
        self-starter with solid leadership and communications skills. 
        The director will possess considerable teaching, writing and 
        research skills and a firm command of the Internet, anticipated 
        costs are $75,000 salary and $15,000 (20 percent) for benefits 
        or $90,000 for 5 years totaling $450,000.
  --Project Coordinator supports project director with administrative 
        and managerial services and provides secondary leadership to 
        project operations. This position includes non-profit 
        managerial and accounting experience working with accounting 
        and auditing support to insure financial, insurance and 
        institutional efficiency and support, $50,000 salary and 
        $10,000 (20 percent) benefits.
  --Administrative Assistant is a full-time position including all 
        administrative and clerical duties over a 5 year period. Salary 
        is $20,000 plus $4,000 (20 percent) benefits or $24,000 at 5 
        years $120,000.
  --Research Assistants consist of two (2) experienced part-time 
        researchers for content and curriculum development and then 
        statistical recovery, interpretation and analysis throughout 
        the project term. They will assist director and pre-production 
        script development. Anticipated cost for each part-time 
        researcher are $25,000 salary and $5,000 (20 percent) for 
        benefits with a 5 year total of $300,000.
  --Teacher Advisors will consist of eight (8) experienced history 
        teachers, including military history, who possess knowledge of 
        electronically provided lessons at the upper elementary, middle 
        and high school levels. This group will also participate in 
        focus groups and receive $2,400 per year and related expenses 
        for their 2 years of time for a total of $40,000.
    Equipment Expenses at base office consist of computer hardware and 
software and additional office rent, utilities, equipment and furniture 
totaling $250,000 including:
  --Office rent, utilities, etc.
  --Desk (3) and laptop (3) computers with software.
  --Color printer, scanner, copy and fax machines with telephone 
        system.
  --HD video recorder/players with time code readers and monitor for 
        logging tapes and pre-paring rough edit cuts will reduce final 
        edit costs.
    Marketing and Public Relations includes professional agency 
services to directly reach high school administrators, educators, 
students and parents with an uplifting and positive message about the 
program and its long-range benefits. These activities include 
developing press releases and custom kits, fact sheets, Q&As and 
testimonials from successful black and female veterans and selected 
celebrities. Establishing distribution collaborations with <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f5b4bab9b5a6b6bdbabab9">[email&#160;protected]</a>, 
scholastic and other existing educational networks and scheduling 
interviews for radio, television, print media and direct group 
presentations by staff, veterans and selected celebrities, $950,000.
    Travel and Entertainment consists of staff travel to selected 
educational, historical and military conferences and for meetings with 
participant school districts, media entities and corporate sponsors. 
All per diem and related expenses will be consistent with federal 
government guidelines, $270,000.
    School District Participation Fees will reimburse six public 
districts for efforts in implementing and reporting the program results 
in their respective cities reducing political and anti-military 
resistance, $250,000.
    Educational Consultants include industry professionals, the 
University of Iowa and U.S. Military Academy providing assistance in 
curriculum development, program implementation and success reporting 
and interpretation from participating districts, $100,000.

                          COMPLETION SCHEDULE

    Upon funding confirmation and team hiring, the following schedule 
will be completed over a 24-month development and 36-month maturation 
period are as follows:
  --Month 1: Identify teacher advisory teams and website and 
        distribution experts.
  --Month 2-7: Perform research, interviews including research trips as 
        mentioned in the narrative.
  --Month 8: Present research to teacher teams and develop lesson 
        formats.
  --Month 9-14: Develop lessons and perform lesson planning and 
        documentary pre-production.
  --Month 15: Perform lesson revisions including evaluation process and 
        conference presentation formats.
  --Month 16-19: Pilot lessons ready, finish website, data base and 
        documentary production.
  --Month 20: Final revisions of lessons with modifications from 
        teacher advisors.
  --Month 21-24: Website, data base and documentary post-production 
        completed with marketing activities in full swing.
  --Month 25-60: Marketing to grow project to full pilot state and 
        national recognition.

                           PROJECT LEADERSHIP

    The project leadership team includes a wide-variety of 
distinguished professionals and educational institutions bringing 
considerable expertise to all elements of the HERO project including:

                    MORRIS HERITAGE FOUNDATION, INC.

    Morris Heritage Foundation, Inc. (MHF) is a 501c3 not-for-profit 
Iowa corporation specializing in mass communications and educational 
projects and based in Des Moines, Iowa. MHF president Robert V. Morris, 
who created the HERO program, is a consultant, educator, publisher, 
author and television producer. A 1982 graduate of the University of 
Iowa and former Iowa State University journalism instructor (1994), he 
founded the $10 million Fort Des Moines Memorial Park in 1997, the Iowa 
Tuskegee Airmen Memorial in 2002 and the Architecture, Construction and 
Engineering (ACE) Mentor Iowa program in 2005. Morris has produced 
numerous educational mass media projects including the award winning 
documentary Tradition And Valor (56:00) with Iowa Public Television in 
1994. MHF board of directors includes Steven T. Berry, a masters 
graduate of the prestigious UCLA Film School and a professor of mass 
communications at Howard University in Washington, DC., Robert A. 
Wright, Sr., a noted attorney and former national board member of the 
NAACP and Luther H. Smith a legendary WWII Tuskegee Airman, aerospace 
engineer and educator.

                           UNIVERSITY OF IOWA

    Professor Frederick Woodard is an intellectual historian heading 
the African-American English department at the prestigious Big 10 
University and will lead a graduate student consulting team on an as 
needed basis. Professor Woodard is the author of Reasons To Dream (UI 
Press) and has produced international documentaries on Africa for the 
U.S. Information Agency.

                     UNITED STATES MILITARY ACADEMY

    Col. Lance Betros, history department head at the historic United 
States Military Academy at West Point, New York will provide historical 
consultation on a voluntary as-needed basis.
    NOTE: Additional professional consultants could be utilized on an 
as needed basis.

                    GEN. COLIN L. POWELL, USA (RET)

    The HERO Program was reviewed by former U.S. Secretary of State and 
Chairman of the Joint Chiefs of Staff Gen. Colin L. Powell who 
responded affirmatively on April 2, 2006.

                      U.S. ARMY RECRUITING COMMAND

    M/Gen. Thomas P. Bostick, commander, U.S. Army Recruiting Command 
at Fort Knox. Kentucky since October 2005 is a West Point and Stanford 
University graduate who personally reviewed the HERO program. HERO was 
also evaluated by USAREC G-5 office of marketing, partnerships and 
outreach and a program content support letter was released on March 28, 
2006.

 PILOT PROGRAM PARTICIPATING SCHOOL DISTRICT CONTACTS (PENDING CONTACT 
                           AND CONFIRMATION)

    Atlanta Public School District--Beverly L. Hall, Ed.D, 
superintendent, 130 Trinity Avenue, SW, Atlanta, Georgia 30303. Tel: 
404-802-2820.
    Des Moines Independent School District--Linda Lane, superintendent, 
1801 16th Street, Des Moines, Iowa 50314-1902, Tel: 515-242-7837.
    Detroit Public Schools--Beverly A. Gray, Ed.D, curriculum 
development, Albert Kahn Building, 7430 2nd Avenue, 3rd Floor, Detroit, 
Michigan 48202, Tel: 313-873-7705.
    Houston Independent School District--Dr. Abelardo Saavedra, 
superintendent, 3830 Richmond Avenue, Houston, Texas 77027. Tel: 713-
892-6300.
    Los Angeles Unified--Roy Romer, superintendent, 333 South Beaudry 
Avenue, 24th Floor, Los Angeles, California 90017, Tel; 213-241-7000.
    New York City Public School District--Laura Kotch, executive 
director of curriculum development, 52 Chambers Street, New York, New 
York 10007, Tel; 212-374-0396.

                       POTENTIAL FUNDING SOURCES

    Funding ($3.25 million) for the HERO pilot program will be sought 
from one or a combination of the following sources upon proposal 
finalization.
  --U.S. Congressional Defense (O-1) ``Civilian Education and 
        Training'' earmark for fiscal year 2007 submitted to the Senate 
        Defense Appropriations Subcommittee chaired by Senator Ted 
        Stevens (R-AK) with ranking member Sen. Daniel Inouye (D-HI) 
        sponsored by appropriations committee member Senator Tom Harkin 
        (D-IA) with support from finance committee chairman Senator 
        Charles Grassley (R-IA). Note: MHF President Morris has 
        testified four times before the committee winning $8.5 million 
        in three earmarks for Fort Des Moines Memorial Park between 
        1998-2002.
  --Corporate Prime Defense Contractor foundations of top industry 
        companies will be approached including: Northrop Grumman, 
        Lockheed Martin, General Dynamics, Raytheon, Boeing, etc.

    Senator Inouye. Our next witness is the Deputy Director of 
the American Legion, Mr. Dennis Duggan.

STATEMENT OF DENNIS DUGGAN, DEPUTY DIRECTOR, AMERICAN 
            LEGION
    Mr. Duggan. Good morning, Senator Inouye. It is good to see 
you again, sir.
    Senator Inouye. Welcome, sir.
    Mr. Duggan. On behalf of the Nation's largest organization 
of wartime veterans, the American Legion is always grateful to 
you and members of the subcommittee, in order to present its 
views on defense appropriations for fiscal year 2007. We have 
always valued your leadership, as well as your extensive 
experience as a veteran, sir, and the most highly decorated 
one, at that, in assessing and authorizing adequate 
appropriations for a strong national defense, especially during 
this challenging war on terrorism, in which are Active, 
Reserves, and National Guard, are fighting, and are being 
wounded and killed practically daily.
    Although the President's 2007 defense budget represents 
about 3.9 percent of the gross domestic product, we understand, 
we have been reminded, particularly by the Army, that past 
defense budgets during time of war and in some buildups have 
been nearly twice that percentage at about 8 percent of gross 
domestic product.
    We are aware that there is an accompanying supplemental 
budget also to pay for the cost of the war, as well.
    This defense budget has several--in fact, a number of 
major, major, hefty objectives; that is, to continue to advance 
ongoing efforts to prevail in the global war on terror, defend 
the homeland against threats, maintain America's military 
superiority, and to support servicemembers and their families.
    The administration's proposed 2.2 percent pay raise in the 
face of an increasing inflation rate, we believe needs to be 
raised to 2.7 percent in the Senate, as was previously done in 
the House.
    As mentioned previously, the American Legion also believes 
that the Army and Marine Corps manpower strength should be 
statutorily increased to 30,000 more for the Army, 1,000 for 
the Marine Corps, and some 17,000 for the National Guard.
    With the Army's recruiting picture somewhat improved, the 
Army has indicated that they have been trying to recruit 
actually for an increased authorization, and they are making 
some progress in that regard.
    Likewise, TRICARE fees for working military retirees under 
the age of 65 should not be increased, we believe. We believe 
that should be set aside, and for sure not increased for fiscal 
year 2007. What we are saying here is that the defense health 
program, as originally programmed, we believe should be fully 
funded.
    Likewise we believe, though, that the premium-based TRICARE 
health care plan--and I know this will be expensive--should be 
extended to drilling reservists and guardsmen, or what they 
call a Select Reserve, a measure which we believe passed the 
Senate last year, but not the House.
    We are particularly supportive of a bill also, and it was 
sponsored by Senator Boxer from California, and recognizably, 
this is an authorization issue and not strictly an 
appropriations one. But it would provide for the posthumous 
awarding of purple hearts for American prisoners of war who 
died in or due to hostile captivity. Amazingly, that provision 
is not provided for in service or Purple Heart regulations. And 
we would like to see it taken back, applied to any member of 
the Armed Forces who was held as a prisoner of war in any 
conflict after December 7, 1941.
    Finally, Senator Inouye, we would ask that the defense 
prisoner of war (POW) missing in action (MIA) personnel office 
be fully funded now and in the future years, so they can 
continue in their essential function of attempting to achieve 
full accounting, mainly through excavations, in Vietnam and 
Korea.
    Mr. Chairman, this concludes my statement, and again we 
appreciate this opportunity very much, and thank you for all 
you do for the national defense of this country.
    Senator Inouye. I thank you very much. Your recommendation 
on POW purple hearts and the MIA is not only reasonable; I 
think it should be done right away.
    Mr. Duggan. Okay, sir.
    Senator Inouye. Thank you, sir.
    Just in case some of you are wondering why this empty 
chamber, at this moment the House and Senate Members are 
gathering to listen to the speech of the new prime minister of 
Israel. And so I'm here to listen to you.
    [The statement follows:]

              Prepared Statement of Dennis Michael Duggan

    Mr. Chairman: The American Legion is grateful for the opportunity 
to present its views on defense appropriations for fiscal year 2007. 
The American Legion values your leadership in assessing and authorizing 
adequate funding for quality-of-life (QOL) features of the Nation's 
Armed Forces to include the Active, Reserve and National Guard forces 
and their families, as well as quality of life for military retirees 
and their dependents.
    Since September 2001, the United States has been involved in the 
war against terrorism in Operations Iraqi Freedom and Enduring Freedom. 
American fighting men and women are again proving they are the best-
trained, best-equipped and best-led military in the world. As Secretary 
of Defense Donald Rumsfeld has noted, the war in Iraq is part of a 
long, dangerous global war on terrorism. The war on terrorism is being 
waged on two fronts: overseas against armed insurgents and at home 
protecting and securing the homeland. Casualties in the shooting wars, 
in terms of those killed and seriously wounded, continue to mount 
daily. Indeed, most of what we as Americans hold dear is made possible 
by the peace and stability that the Armed Forces provide by taking the 
fight to the enemy.
    The American Legion adheres to the principle that this Nation's 
Armed Forces must be well-manned and equipped, not just to pursue war, 
but to preserve and protect the peace. The American Legion strongly 
believes past and current military downsizing were budget-driven rather 
than threat-focused. Once Army divisions, Navy warships and Air Force 
fighter squadrons are downsized, eliminated or retired from the force 
structure, they cannot be reconstituted quickly enough to meet new 
threats or emergency circumstances. The Active-Duty Army, Army National 
Guard and the Reserves have failed to meet their recruiting goals, and 
the Army's stop-loss policies have obscured retention and recruiting 
needs. Clearly, the Active Army is struggling to meet its recruitment 
goals. Military morale undoubtedly has been adversely affected by the 
extension and repetition of Iraq tours of duty.
    The administration's fiscal year 2007 budget requests more than 
$441 billion for defense or about 17 percent of the total budget. The 
fiscal year 2007 defense budget represents a 6.8 percent increase in 
defense spending over current funding levels. It also represents about 
3.9 percent of our Gross National Product. Active duty military 
manpower end-strength is now over 1.41 million. Selected Reserve 
strength is about 863,300 or reduced by about 25 percent from its 
strength levels during the Gulf War of 14 years ago.
    Mr. Chairman, this budget must advance ongoing efforts to prevail 
in the global war on terrorism, defend the homeland against threats, 
maintain America's military superiority, and to support servicemembers 
and their families. A decade of over-use of the military and past 
under-funding, necessitates a sustained investment. The American Legion 
believes the budget must continue to maintain Army end-strengths, fully 
fund Tricare programs, accelerate improved Active and Reserve 
Components' quality of life features, provide increased funding for the 
concurrent receipt of military retirement pay and VA disability 
compensation (``Veterans Disability Tax'') and elimination of the 
offset of survivors benefit plan (SBP) and Dependency and Indemnity 
Compensation (DIC) that continues to penalize military survivors.
    If we are to win the war on terror and prepare for the wars of 
tomorrow, we must take care of the Department of Defense's greatest 
assets--the men and women in uniform. They do us proud in Iraq, 
Afghanistan and around the world. They need our help.
    In order to attract and retain the necessary force over the long 
haul, the Active Duty force, Reserves, and National Guard continue to 
look for talent in an open market place and to compete with the private 
sector for the best young people this Nation has to offer. If we are to 
attract them to military service in the Active and Reserve Components, 
we need to count on their patriotism and willingness to sacrifice, to 
be sure, but we must also provide them the proper incentives. They love 
their country, but they also love their families--and many have 
children to support, raise and educate. We have always asked the men 
and women in uniform to voluntarily risk their lives to defend us; we 
should not ask them to forego adequate pay and allowances, adequate 
health care and subject their families to repeated unaccompanied 
deployments and sub-standard housing as well. Undoubtedly, retention 
and recruiting budgets need to be substantially increased if we are to 
keep and recruit quality servicemembers.
    The President's fiscal year 2007 defense budget requests over $10.8 
billion for military pay and allowances, including a 2.2 percent 
across-the-board pay raise. This pay raise is inadequate and needs to 
be substantially increased. It also includes billions to improve 
military housing, putting the Department on track to eliminate most 
substandard housing by 2007--several years sooner than previously 
planned. The fiscal year 2006 budget further lowered out-of-pocket 
housing costs for those living off base. The American Legion encourages 
the subcommittee to continue the policy of no out-of-pocket housing 
costs in future years and to end the military pay differential with the 
private sector.
    Together, these investments in people are critical, because smart 
weapons are worthless to us unless they are in the hands of smart, 
well-trained soldiers, sailors, airmen, marines and coast guard 
personnel.
    The American Legion National Commander has visited American troops 
in Europe, Iraq, Guantanamo Bay, and South Korea as well as a number of 
installations throughout the United States, including Walter Reed Army 
Medical Center and Bethesda National Naval Medical Center. During these 
visits, he was able to see first-hand the urgent, immediate need to 
address real quality of life challenges faced by servicemembers and 
their families. Severely wounded servicemembers who have families and 
are convalescing in military hospitals clearly need to continue to 
receive the best of care, particularly for PTSD, and the DOD interface 
with the VA must be seamless. Also, the medical evaluation board 
process needs to be expedited so that military severance and disability 
retirement pays will be more immediately forthcoming. The soldiers' 
best interests must be fairly represented before the medical evaluation 
boards. Our national commanders have spoken with families on Women's 
and Infants' Compensation (WIC), which is an absolute necessity to 
larger military families. Quality-of-life issues for servicemembers, 
coupled with combat tours and other operational tempos, play a role in 
recurring recruitment and retention efforts and should come as no 
surprise. The operational tempo and lengthy deployments, to include 
multiple combat tours, must be reduced or curtailed. Military missions 
were on the rise before September 11 and deployment levels remain high. 
The only way to reduce repetitive overseas tours and the overuse of the 
Reserves is to recruit and fill authorized Army endstrengths and 
perhaps Reserve endstrengths for the services.
    Military pay must be on a par with the competitive civilian sector. 
Activated Reservists must receive the same equipment, the same pay and 
timely health care as Active Duty personnel. The Reserve Montgomery GI 
Bill must be as lucrative as the MGI Bill for Active Duty personnel. If 
other benefits, like health care improvements, commissaries, adequate 
quarters, quality child care and impact aid for DOD education are 
reduced, they will only serve to further undermine efforts to recruit 
and retain the brightest and best this Nation has to offer.
    To step up efforts to bring in enlistees, all the Army components 
are increasing the number of recruiters. The Army National Guard sent 
1,400 new recruiters into the field last February. The Army Reserve is 
expanding its recruiting force by about 80 percent. If the recruiting 
trends and the demand for forces persist, the Pentagon under current 
policies could eventually ``run out'' of Reserve forces for war zone 
rotation, a Government Accountability Office expert warned. The 
Pentagon projects a need to keep more than 100,000 Reservists 
continuously over the next 3 to 5 years. The Defense Appropriations 
bill for fiscal year 2005 provided the funding for the first year force 
level increases of 10,000. The Army's end-strength increased 30,000 and 
the Marine Corps end-strength increased 3,000.
    Army restructuring would have increased the number of Active Army 
maneuver brigades by 30 percent by fiscal year 2007. Neither Active 
Duty nor National Guard combat brigades should be reduced. Clearly, 
reducing combat units during wartime should not be the bill payer for 
modernization.
    The budget deficit is projected to be $427 billion which is the 
largest in U.S. history, and it appears to be heading higher perhaps to 
$500 billion. National defense spending must not become a casualty of 
deficit reduction.
                     force health protection (fhp)
    As American military forces are again engaged in combat overseas, 
the health and welfare of deployed troops is of utmost concern to The 
American Legion. The need for effective coordination between the 
Department of Veterans Affairs and the DOD in the force protection of 
U.S. forces is paramount. It has been 15 years since the first Gulf 
War, yet many of the hazards of the 1991 conflict are still present in 
the current war.
    Prior to the 1991 Gulf War deployment, troops were not 
systematically given comprehensive pre-deployment health examinations 
nor were they properly briefed on the potential hazards, such as 
fallout from depleted uranium munitions they might encounter. Record 
keeping was poor. Numerous examples of lost or destroyed medical 
records of Active Duty and Reserve personnel were identified. Physical 
examinations (pre/and post-deployment) were not comprehensive and 
information regarding possible environmental hazard exposures was 
severely lacking. Although the government had conducted more than 230 
research projects at a cost of $240 million, lack of crucial deployment 
data resulted in many unanswered questions about Gulf War veterans' 
illnesses.
    The American Legion would like to specifically identify an element 
of FHP that deals with DOD's ability to accurately record a 
servicemember's health status prior to deployment and document or 
evaluate any changes in his or her health that occurred during 
deployment. This is exactly the information VA needs to adequately care 
for and compensate servicemembers for service-related disabilities once 
they leave active duty. Although DOD has developed post-deployment 
questionnaires, they still do not fulfill the requirement of 
``thorough'' medical examinations nor do they even require a medical 
officer to administer the questionnaires. Due to the duration and 
extent of sustained combat in Operations Iraqi Freedom and Enduring 
Freedom, the psychological impact on deployed personnel is of utmost 
concern to The American Legion. VA's ability to adequately care for and 
compensate our Nation's veterans depends directly on DOD's efforts to 
maintain proper health records/health surveillance, documentation of 
troop locations, environmental hazard exposure data and the timely 
sharing of this information with the VA.
    The early signs of PTSD must be detected early-on and completely 
treated by the military and the VA. The American Legion strongly urges 
Congress to mandate separation physical exams for all servicemembers, 
particularly those who have served in combat zones or have had 
sustained deployments. DOD reports that only about 20 percent of 
discharging servicemembers opt to have separation physical exams. 
During this war on terrorism and frequent deployments with all their 
strains and stresses, this figure, we believe, should be substantially 
increased.

                        MILITARY QUALITY OF LIFE

    Our major national security concern continues to be the enhancement 
of the quality of life issues for Active Duty servicemembers, 
Reservists, National Guardsmen, military retirees and their families. 
During the last congressional session, President Bush and the Congress 
made marked improvements in an array of quality of life issues for 
military personnel and their families. These efforts are vital 
enhancements that must be sustained.
    Mr. Chairman, during this period of the war on terrorism, more 
quality of life improvements are required to meet the needs of 
servicemembers and their families as well as military retiree veterans 
and their families. For example, the proposed 2.2 percent pay-raise 
needs to be significantly increased. The 4.4 percent military 
comparability gap with the private sector needs to be eliminated; the 
improved Reserve MGIB for education needs to be completely funded as 
well; combat wounded soldiers who are evacuated from combat zones to 
military hospitals need to retain their special pays and base pay and 
allowances continued at the same level so as not to jeopardize their 
family's financial support during recovery. Furthermore, the medical 
evaluation board process needs to be expedited and considerate of the 
soldiers' best interest so that any adjudicated military severance or 
military disability retirement payments will be immediately 
forthcoming; recruiting and retention efforts, to include the provision 
of more service recruiters, needs to be fully funded as does recruiting 
advertising. The Defense Health Program and, in particular, the Tricare 
healthcare programs need to be fully funded.
    The Defense Department, Congress and The American Legion all have 
reason to be concerned about the rising cost of military healthcare. 
But it is important to recognize that the bulk of the problem is a 
national one, not a military specific one. It is also extremely 
important, in these days of record deficits, that we focus on the 
government's unique responsibility and moral obligation to fully fund 
the Defense Health program, particularly its Tricare programs, to 
provide for the career military force that has served for multiple 
decades under extraordinarily arduous conditions to protect and 
preserve our national welfare. In this regard, the government's 
responsibility and obligations to its servicemembers and military 
retirees go well beyond those of corporate employers. The Constitution 
puts the responsibility on the government to provide for the common 
defense and on the Congress to raise and maintain military forces. No 
corporate employer shares such awesome responsibilities.
    The American Legion recommends against implementing any increases 
in healthcare fees for uniformed services and retiree beneficiaries. 
Dr. William Winkenwerder, Assistant Secretary of Defense (Heath 
Affairs), briefed The American Legion and other VSOs/MSOs that rising 
military healthcare costs are ``impinging on other service programs.'' 
Other reports indicate that the DOD leadership is seeking more funding 
for weapons programs by reducing the amount it spends on military 
healthcare and other personnel needs. The American Legion believes 
strongly that America can afford to, and must, pay for both weapons and 
military healthcare. The American Legion also believes strongly that 
the proposed defense budget is too small to meet the needs of national 
defense. Today's defense budget, during wartime, is less than 4 percent 
of GDP, well short of the average for the peacetime years since WWII. 
Defense leaders assert that substantial military fee increases are 
needed to bring military beneficiary costs more in live with civilian 
practices. But such comparisons with corporate practices is 
inappropriate as it disregards the service and sacrifices military 
members, retirees and families have made in service to the Nation.
    The reciprocal obligation of the government to maintain an 
extraordinary benefit package to offset the extraordinary sacrifices of 
career military members is a practical as well as moral obligation. 
Eroding benefits for career service can only undermine long-term 
retention and readiness. One reason why Congress enacted Tricare for 
Life is that the Joint Chiefs of Staff at the time said that inadequate 
retiree healthcare was affecting attitudes among active duty troops. 
The American Legion believes it was inappropriate to put the Joint 
Services in the untenable position of being denied sufficient funding 
for current readiness needs if they didn't agree to beneficiary benefit 
cuts.
    Reducing military retirements budgets, such as Tricare healthcare, 
would be penny-wise and pound-foolish when recruiting is already a 
problem and an overstressed and overstrengthened force is at increasing 
retention risks. Very simply the DOD should be required to pursue 
greater efforts to improve Tricare and find more effective and 
appropriate ways to make Tricare more cost-effective without seeking to 
``tax'' beneficiaries and making unrealistic budget assumptions.
    The American Legion applauds Congress for extending Tricare Reserve 
Select coverage to all members of the Selected Reserve. DOD is relying 
on the Guard and Reserve more heavily and deployments are becoming 
longer and more frequent as they are indispensable parts of our Armed 
Forces, and many Reservists and their families have no medical 
insurance.
    Likewise, military retiree veterans as well as their survivors, who 
have served their country for decades in war and peace, require 
continued quality of life improvements as well. First and foremost, The 
American Legion strongly urges that FULL concurrent receipt and Combat-
Related Special Compensation (CRSC) be authorized for disabled retirees 
whether they were retired for longevity (20 or more years of service) 
or military disability retirement with fewer than 20 years. In 
particular, The American Legion urges that disabled retirees rated 40 
percent and below be authorized CRPD and that disabled retirees rated 
between 50 percent and 90 percent disabled be authorized non-phased-in 
concurrent receipt. Additionally, The American Legion strongly urges 
that all military disability retirees with fewer than 20 years service 
be authorized to receive CRSC and VA disability compensation provided, 
of course, they're otherwise eligible for CRSC under the combat-related 
conditions. The funding for these military disability retirees with 
fewer than 20 years is a ``cost of war'' and perhaps should be paid 
from the annual supplemental budgets.
    Secondly, The American Legion urges that the longstanding inequity 
whereby military survivors have their survivors benefit plan (SBP) 
offset by the Dependency and Indemnity Compensation (DIC) be 
eliminated. This ``Widows' Tax'' needs to be corrected as soon as 
possible. It is blatantly unfair and has penalized deserving military 
survivors for years. A number of these military survivors are nearly 
impoverished because of this unfair provision. As with concurrent 
receipt for disabled retirees, military survivors should receive both 
SBP AND DIC. They have always been entitled to both and should not have 
to pay for their own DIC. The American Legion will continue to convey 
that simple, equitable justice is the primary reason to fund FULL 
concurrent receipt of military retirement pay and VA disability 
compensation, as well as the SBP and DIC for military survivors. Not to 
do so merely perpetuates the same inequity. Both inequities need to be 
righted by changing the unfair law that prohibits both groups from 
receiving both forms of compensation.
    Mr. Chairman, The American Legion as well as the Armed Forces and 
veterans continue to owe you and this subcommittee a debt of gratitude 
for your support of military quality of life issues. Nevertheless, your 
assistance is needed in this budget to overcome old and new threats to 
retaining and recruiting the finest military in the world. 
Servicemembers and their families continue to endure physical risks to 
their well-being and livelihood as well as the forfeiture of personal 
freedoms that most Americans would find unacceptable. Worldwide 
deployments have increased significantly and the Nation is at war. The 
very fact that over 300,000 Guardsmen and Reservists have been 
mobilized since September 11, 2001 is first-hand evidence that the 
United States Army desperately needs to increase its end-strengths and 
maintain those end-strengths so as to help facilitate the rotation of 
Active and Reserve component units to active combat zones.
    The American Legion congratulates and thanks congressional 
subcommittees such as this one for military and military retiree 
quality of life enhancements contained in past National Defense 
Appropriations Acts. Continued improvement however is direly needed to 
include the following:
  --Completely Closing the Military Pay Gap with the Private Sector.--
        With U.S. troops battling insurgency and terrorism in Iraq and 
        Afghanistan, The American Legion supports a proposed 3.1 
        percent military pay raise as well as increases in Basic 
        Allowance for Housing (BAH).
  --Commissaries.--The American Legion urges the Congress to preserve 
        full federal subsidizing of the military commissary system and 
        to retain this vital non-pay compensation benefit for use by 
        Active Duty families, Reservist families, military retiree 
        families and 100 percent service-connected disabled veterans 
        and others.
  --DOD Domestic Dependents Elementary and Secondary Schools (DDESS).--
        The American Legion urges the retention and full funding of the 
        DDESS as they have provided a source of high quality education 
        for military children attending schools on military 
        installations.
  --Funding the Reserve Montgomery GI Bill for Education.
  --Providing FULL concurrent receipt of military retirement pay and VA 
        disability compensation for those disabled retirees rated 40 
        percent and less; providing non-phased concurrent receipt for 
        those disabled retirees rated between 50 percent and 90 percent 
        disabled by the VA; and authorizing those military disability 
        retirees with fewer than 20 years service to receive both VA 
        disability compensation and Combat-Related Special Compensation 
        (CRSC).
  --Eliminating the offset of the survivors benefit plan (SBP) and 
        Dependency and Indemnity Compensation (DIC) for military 
        survivors.

                   OTHER QUALITY OF LIFE INSTITUTIONS

    The American Legion strongly believes that quality of life issues 
for retired military members and their families are augmented by 
certain institutions which we believe need to be annually funded as 
well. Accordingly, The American Legion believes that Congress and the 
administration must place high priority on insuring these institutions 
are adequately funded and maintained:
  --The Uniformed Services University of the Health Sciences.--The 
        American Legion urges the Congress to resist any efforts to 
        less than fully fund, downsize or close the USUHS through the 
        BRAC process. It is a national treasure, which educates and 
        produces military physicians and advanced nursing staffs. We 
        believe it continues to be an economical source of CAREER 
        medical leaders who enhance military health care readiness and 
        excellence and is well-known for providing the finest health 
        care in the world.
  --The Armed Forces Retirement Homes.--The United States Soldiers' and 
        Airmen's Home in Washington, D.C. and the United States Naval 
        Home in Gulfport, Mississippi, have been under-funded as 
        evidenced by the reduction in services to include on-site 
        medical health care and dental care. Increases in fees paid by 
        residents are continually on the rise. The medical facility at 
        the USSAH has been eliminated with residents being referred to 
        VA Medical Centers or Military Treatment Facilities such as 
        Walter Reed Army Medical Center. The Naval Home at Gulfport, 
        Mississippi was destroyed by Hurricane Katrina, The American 
        Legion recommends that the Congress conduct an independent 
        assessment of the USSAH facilities and the services being 
        provided with an eye toward federally subsidizing the Home as 
        appropriate. The facility has been recognized as a national 
        treasure until recent years when a number of mandated services 
        had been severely reduced and resident fees have been 
        substantially increased.
  --Arlington National Cemetery.--The American Legion urges that the 
        Arlington National Cemetery be maintained to the highest of 
        standards. We urge also that Congress mandate the eligibility 
        requirements for burial in this prestigious Cemetery reserved 
        for those who have performed distinguished military service and 
        their spouses and eligible children.
  --2005 Defense Base Realignment and Closure Commission.--The American 
        Legion was disappointed that certain base facilities such as 
        military medical facilities, commissaries, exchanges and 
        training facilities and other quality of life facilities were 
        not preserved for use by the Active and Reserve components and 
        military retirees and their families. We urge that Walter Reed 
        Medical Center be rebuilt at the National Naval Medical Center 
        and that the Fort Belvoir Medical Facility be expanded.
  --Finally, The American Legion urges that the Navy continue to 
        maintain 12 aircraft carriers as the minimum essential.

               THE AMERICAN LEGION FAMILY SUPPORT NETWORK

    The American Legion continues to demonstrate its support and 
commitment to the men and women in uniform and their families. The 
American Legion's Family Support Network is providing immediate 
assistance primarily to activated National Guard families as requested 
by the director of the National Guard Bureau. The American Legion 
Family Support Network has reached out through its departments and 
posts to also support the Army Wounded Warrior program (AW2). Many 
thousands of requests from these families have been received and 
accommodated by the American Legion Family across the United States. 
Military family needs have ranged from requests for funds to a variety 
of everyday chores which need doing while the ``man or woman'' of the 
family is gone. The American Legion, whose members have served our 
Nation in times of adversity, remember how it felt to be separated from 
family and loved ones. As a grateful Nation, we must ensure than no 
military family endures those hardships caused by military service, as 
such service has assured the security, freedom and ideals of our great 
country.

                              CONCLUSIONS

    Thirty-three years ago, America opted for an all-volunteer force to 
provide for the national defense. Inherent in that commitment was a 
willingness to invest the needed resources to bring into existence and 
maintain a competent, professional and well-equipped military. The 
fiscal year 2007 defense budget, while recognizing the war on terrorism 
and homeland security, represents another good step in the right 
direction. Likewise our military retiree veterans and military 
survivors, who in yesteryear served this Nation for decades, continue 
to need your help as well.
    Mr. Chairman, this concludes our statement.

    Senator Inouye. Our next witness is the Deputy Director of 
Government Relations of the National Military Family 
Association, Ms. Kathleen Moakler.

STATEMENT OF KATHLEEN B. MOAKLER, DEPUTY DIRECTOR, 
            GOVERNMENT RELATIONS, NATIONAL MILITARY 
            FAMILY ASSOCIATION
    Ms. Moakler. Thank you, Senator Inouye. The National 
Military Family Association (NMFA) would like to thank you and 
Chairman Stevens for the opportunity to present testimony to 
this subcommittee on quality of life issues affecting 
servicemembers and their families. We thank you for your 
continued focus on these issues.
    In our written testimony we discuss many issues of 
importance to military families. This morning I will highlight 
some of the most critical.
    Family member readiness is imperative for servicemember 
readiness. Family readiness requires the availability of 
coordinated, consistent family support provided by well-trained 
professionals and volunteers. Adequate child care, easily 
unavailable preventative mental health counseling, as well as 
therapeutic mental health care. Employment assistance for 
spouses, and youth programs that assist parents to effectively 
address the concerns of their children, especially during times 
of deployment.
    Paramount among these issues is the family's ability to 
access quality health care in a timely manner and at a cost 
that is commensurate with the sacrifices made by both 
servicemembers and families.
    This year, with the proposal by DOD to raise TRICARE fees 
by exorbitant amounts, families are concerned. They see the 
proposal as an effort to change an earned entitlement to health 
care into an insurance plan. We appreciate congressional 
recognition that more study is needed before increases are 
imposed. NMFA is most concerned however about the $735 million 
shortfall that will exist because DOD deducted this from the 
budget proposal in anticipation of fee increases. NMFA urgently 
requests that this amount be reinstated to maintain quality 
health care for our servicemembers and their families.
    As the length and danger of deployments increase, there is 
a greater need for confidential preventative mental health 
services. NMFA believes that Government-provided access to 
appropriate services for both servicemembers and their families 
need to be available for the long term.
    In 2005, NMFA received almost 1,600 responses to its web 
survey on the cycles of deployment. The message from military 
families came through loud and clear: Families cannot, nor 
should they have to make it through a deployment alone. Though 
much has been done to improve existing deployment support 
programs and develop new initiatives, deployment support 
requires consistent funding, training of family readiness 
support volunteers, and information and support provided across 
the board. Military Onesource, DOD's virtual assistance 
program, continues to be an excellent resource for military 
families. NMFA is pleased that DOD has committed to funding the 
counseling provided under the Onesource contract, and 
appreciates congressional support for this program.
    NMFA recently asked military service family program 
personnel what they needed to meet the challenges their 
families faced. Each identified unfunded requirements within 
their service budgets, and requested additional dedicated 
resources for family readiness. Common in all requests was the 
need for additional funding to improve outreach and support to 
Active duty, National Guard, and Reserve families, through 
programs and increased staff, enhanced counseling services and 
resources, the ability to make childcare more available, and 
the ability to provide additional support for volunteers.
    NMFA asks Congress to provide the services with sufficient 
resources to sustain robust quality of life and family support 
programs through the entire deployment cycle, and recommends 
that at least $20 million be allocated to the individual 
military service, operations, and maintenance accounts to be 
directed toward these programs, with more dedicated to services 
bearing the largest deployment burden.
    Thank you for your kind attention this morning, and I'm 
ready to answer any questions you may have.
    Senator Inouye. I thank you very much. How large is your 
membership?
    Ms. Moakler. We represent all military family members, 
whether they are members of our organization or not.
    Senator Inouye. Thank you very much.
    Ms. Moakler. You're welcome.
    [The statement follows:]

               Prepared Statement of Kathleen B. Moakler

    Mr. Chairman and distinguished Members of this subcommittee, the 
National Military Family Association (NMFA) would like to thank you for 
the opportunity to present testimony on quality of life issues 
affecting servicemembers and their families. Once again, we thank you 
for your focus on many of the elements of the quality of life package 
for servicemembers and their families: housing, health care, family 
support, and education.

                            FAMILY READINESS

    Servicemember readiness is imperative for mission readiness. Family 
readiness is imperative for servicemember readiness. Family readiness 
requires the availability of coordinated, consistent family support 
provided by well trained professionals and volunteers; adequate child 
care; easily available preventative mental health counseling as well as 
therapeutic mental health care; employment assistance for spouses, and 
youth programs that assist parents to more effectively address the 
concerns of their children, particularly during stressful times. 
However, no one issue is more important to family readiness than the 
family's ability to access quality health care in a timely manner and 
at a cost that is commensurate with the sacrifices made by both 
servicemembers and families.

Health Care
    NMFA thanks this subcommittee for continued funding to provide for 
a robust military health care system. This system must continue to meet 
the needs of servicemembers and the Department of Defense (DOD) in 
times of armed conflict. It must also acknowledge that military members 
and their families are indeed a unique population with unique duties, 
who earn an entitlement to a unique health care program.
    The proposal by DOD to raise TRICARE fees by exorbitant amounts has 
resonated throughout the beneficiary population. Beneficiaries see the 
proposal as a concentrated effort by DOD to change their earned 
entitlement to health care into an insurance plan. NMFA appreciates the 
concern shown by Members of Congress since the release of DOD's 
proposals regarding the need for more information about the budget 
assumptions used to create the proposals, the effects of possible 
increases on beneficiary behavior, the need for DOD to implement 
greater efficiencies in the Defense Health Care Program (DHP), and the 
adequacy of the DHP budget as proposed by DOD. We appreciate the many 
questions Members of Congress are asking about these proposals and urge 
Congress to continue its oversight responsibilities on these issues.
    NMFA believes DOD has many options available to make the military 
health system more efficient and thus make the need for large increases 
in beneficiary cost shares unnecessary. We encourage DOD to investigate 
cost saving measures such as: a systemic approach to disease 
management, a concentrated marketing campaign to increase use of the 
TRICARE Mail Order Pharmacy, eliminating contract redundancies, 
delaying the recompetition of the TRICARE contracts, speeding 
implementation of the Uniform Formulary process, and optimizing 
military treatment facilities.
    NMFA is especially concerned about DOD's proposal to create a 
TRICARE Standard enrollment fee. The precursor to TRICARE Standard, the 
basic benefit provided for care in the civilian sector, was CHAMPUS, 
which was then, as TRICARE Standard is now, an extension of the earned 
entitlement to health care. Charging a premium (enrollment fee) for 
TRICARE Standard moves the benefit from an earned entitlement to an 
opportunity to buy into an insurance plan. Also, because TRICARE Prime 
is not offered everywhere, Standard is the only option for many 
retirees and their families and survivors who need to access their 
military health care benefit.
    In the current debate about whether or not to raise beneficiary 
fees for TRICARE, NMFA believes it is important to understand the 
difference between TRICARE Prime and TRICARE Standard and to 
distinguish between creating a TRICARE Standard enrollment fee and 
raising the Standard deductible amount. TRICARE Prime has an enrollment 
fee for military retirees; however, it offers enhancements to the 
health care benefit: lower out-of-pocket costs, access to care within 
prescribed standards, additional preventive care, assistance in finding 
providers, and the management of one's health care. In other words, 
enrollment fees for Prime are not to access the earned entitlement, but 
for additional services. These fees, which have not changed since the 
start of TRICARE, are $230 per year for an individual and $460 per year 
for a family.
    DOD's proposal to increase TRICARE Prime enrollment fees, while 
completely out-of-line dollar wise, is not unexpected. In fact, NMFA 
was surprised DOD did not include an increase as it implemented the new 
round of TRICARE contracts last year. NMFA does have concerns about the 
amount of DOD's proposed increases for TRICARE Prime and the plan to 
impose a tiered system of enrollment fees and TRICARE Standard 
deductibles. We believe the tiered system is arbitrarily devised and 
fails to acknowledge the needs of the most vulnerable beneficiaries: 
survivors and wounded servicemembers.
    Acknowledging that the annual Prime enrollment fee has not 
increased in more than 10 years and that it may be reasonable to have a 
mechanism to increase fees, NMFA has presented an alternative to DOD's 
proposal should Congress deem some cost increase necessary. NMFA 
suggests DOD apply the cumulative retiree cost of living adjustment 
(COLA) to the base annual Prime enrollment fee of $230 for an 
individual and $460 for a family. Using the 31.4 percent cumulative 
COLA for the years from 1995 through 2006, the annual fee would rise to 
approximately $302 for a single retiree and $604 for a family. If DOD 
thought $230/$460 was a fair fee for all in 1995, then it would appear 
that raising the fees simply by the percentage increase in retiree pay 
since then is also fair. NMFA also suggests that, to avoid another 
``sticker shock,'' fees be raised annually by the same percent as the 
retiree COLA. NMFA further believes adjusting the current fees over a 
2-year period would decrease the effect of ``sticker shock'' and allow 
families to adjust their budgets. We are aware the current system does 
require retirees/survivors with smaller incomes to pay a higher 
percentage of their pension/annuity for Prime than those with higher 
incomes; however, we believe the benefits of simply updating the 
current fees are greater for almost all concerned than devising another 
option, especially an arbitrarily-designed tier system. NMFA also 
suggests it would be reasonable to adjust the TRICARE Standard 
deductibles in the same manner: cumulative COLA for the years since 
1995 and then tie future increases to the percent of the retiree annual 
COLA.
    NMFA applauds DOD's proposal to encourage migration to the TRICARE 
Mail Order Pharmacy (TMOP) by removing cost shares for generic 
medications. NMFA and other associations have long encouraged DOD to 
launch a concentrated marketing effort to promote use of the TMOP, as 
it provides significant savings to beneficiaries as well as huge 
savings to the Department. The proposed beneficiary cost share 
increases in the pharmacy retail network program (TRRx) are not as 
exorbitant as the proposals for increases in Prime enrollment fees, the 
premium to access TRICARE Standard, or the increase in Standard 
deductibles, but do represent a 67 percent increase for all 
beneficiaries. If some additional cost share for TRRx is instituted, 
NMFA believes it should not be implemented until all of the medications 
available through TRRx are also available through TMOP and DOD joins 
the associations in actively and strongly promoting use of the TMOP.
    It is imperative that adequate funding be restored to the Defense 
Health Budget should Congress reject TRICARE fee increases for this 
year. Based on beneficiary input--most recently in an NMFA web survey 
completed by approximately 600 respondents--NMFA believes the military 
health system is operating close to the financial edge and that the 
strains of meeting the military mission and providing care to active 
duty families, military retirees, their families, and survivors are 
taking a toll on the system, especially in the direct care system. 
Beneficiaries repeatedly tell NMFA of difficulties in obtaining timely 
appointments and that prescribed access standards are not being met for 
enrolled TRICARE Prime beneficiaries at military treatment facilities 
(MTFs). No one is more cognizant of the need for superior health care 
to be provided to servicemembers in harm's way than their families. In 
addition, no one is more willing to change providers or venues of care 
to accommodate the need for military health care providers to deploy 
than the families of those deployed. However, a contract was made with 
those who enrolled in Prime. Beneficiaries must seek care in the manner 
prescribed in the Prime agreement, but in return they are given what 
are supposed to be guaranteed access standards.
    MTFs must have the resources and the encouragement to ensure their 
facilities are optimized to care for the most beneficiaries possible 
and must be held accountable for meeting stated access standards. If 
funding or personnel resource issues are the reason access standards 
are not being met, then assistance must be provided to ensure MTFs are 
able to meet access standards, support the military mission, and 
continue to provide quality health care. NMFA urgently requests that 
the $735 million deducted by DOD from the budget proposal for the 
Defense Health Program to reflect its savings due to increased TRICARE 
fees be reinstated.
    As servicemembers and families experience numerous lengthy and 
dangerous deployments, NMFA believes the need for confidential, 
preventative mental health services will continue to rise. The Services 
must balance the demand for mental health personnel in theater and at 
home to help servicemembers and families deal with unique emotional 
challenges and stresses related to the nature and duration of continued 
deployments. NMFA remains concerned about access to mental health care, 
both preventative and therapeutic, for the long haul. Unfortunately the 
costs of war may linger for servicemembers and their families for many 
years. It is imperative that whether or not the member remains on 
active duty and entitled to military health care there are provisions 
for both servicemembers and their families to access appropriate mental 
health services paid for by their government.

Caring for Military Children and Youth
    Frequent deployments and long work hours make the need for quality 
affordable and accessible child care critical. We thank Congress for 
making additional funding available for child care since the beginning 
of the global war on terror. Currently, DOD estimates it has a shortage 
of 31,000 child care spaces within the system, not counting the demand 
from the mobilized Guard and Reserve community. While efforts are being 
made to bridge this gap, thanks in part to congressional funding for 
child care over the past few years, innovative new strategies are 
needed--sooner rather than later. We congratulate the Navy for the 
incredible 24-hour centers they have opened in Norfolk and Hawaii. 
These centers provide a home-like atmosphere for children of sailors 
working late night or varying shifts. More of these centers are needed, 
but they need to be funded at a level that enables them to provide the 
same quality of care as the standard the Navy has established in its 
first two centers. Providing high quality, after-hours care for service 
members working long hours in support of the mission is a cost of that 
mission.
    Families continually tell NMFA that respite and drop-in care is in 
critically short supply worldwide. Families who cannot access military 
child development centers or family child care providers talk about the 
expense and difficulty they face in finding quality, affordable care. 
Programs such as Military Child Care in Your Neighborhood and Operation 
Military Child Care, which assist military families in finding and 
paying for child care, are welcome pieces of the solution, but are 
insufficient to completely meet the needs of our families.
    Older children and teens cannot be overlooked. Schools want to be 
educated on issues affecting military students. Teachers and 
administrators want to be sensitive to the needs of military children. 
To achieve this goal they need tools. Parents are the primary advocates 
for their children and they also want the resources to help them 
accomplish this task. NMFA is working to meet this need through 
programs such as our Operation Purple summer camps and a pilot after 
school program for children of deployed servicemembers.
    Schools serving military children, whether DOD or civilian schools, 
need the resources to meet military parents' expectation that their 
children receive the highest quality education possible. Because Impact 
Aid funding from the Department of Education is not fully funded and 
has remained flat in recent years, NMFA recommends increasing the DOD 
supplement to Impact Aid to $50 million to help districts better meet 
the additional demands caused by large numbers of military children, 
deployment-related issues, and the effects of military programs and 
policies such as family housing privatization. Initiatives to assist 
parents and to promote better communication between installations and 
schools should be expanded across all Services.

Spouse Employment
    DOD has sponsored a variety of programs, including a partnership 
with Monster.com, to promote spouse employment. Spouses can also 
receive career counseling through Military OneSource. However, with 
700,000 active duty spouses, the task of enhancing military spouse 
employment is too big for DOD to handle alone. Improvements in 
employment for military spouses and assistance in supporting their 
career progression will require increased partnerships and initiatives 
by a variety of government agencies and private employers. NMFA was 
concerned by recent press reports chronicling the end of a Department 
of Labor grant program that provided employment assistance to military 
spouses at several installations across the United States. We urge 
Congress to ensure funds are available to assist the military Services 
in initiatives to encourage more private employers to step up to the 
plate and form partnerships supporting military spouse employment and 
career progression. We encourage DOD to reach out to potential 
employers and acquaint them with the merits of hiring members of this 
talented and motivated work force. DOD must also encourage military 
spouses to use all available resources to educate themselves about 
factors to consider regarding employment benefits, to include 
investments, health care, portability and retirement.

What's Needed for Family Readiness?
    NMFA recognizes and appreciates the continued focus that all the 
Services are placing on the issue of family readiness. In particular, 
the increased access to information for family members has had a 
tremendous positive impact on their ability to sustain ``normal'' lives 
while dealing with the issues that arise in military life. There is, 
however, still much to be done. DOD must continue to refine and improve 
family readiness programs not only because it is the right thing to do, 
but also to retain highly trained and qualified servicemembers.
    NMFA has found Military OneSource, DOD's virtual assistance 
program, to be an excellent resource for military families. OneSource 
provides 24/7 access to counselors and information through the web 
(www.militaryonesource.com) and toll-free phone number. Because it is 
available 24/7, families do not have to wait for the installation 
family center to open or for someone to return a call. It also helps 
returning servicemembers and families access local community resources 
and receive up to six free face-to-face mental health visits with a 
professional outside the chain of command. NMFA is pleased DOD has 
committed to funding the counseling provided under the OneSource 
contract and appreciates congressional support for this program. This 
counseling is not medical mental health counseling, but rather 
assistance for family members in dealing with the stresses of 
deployment or reunion. It can be an important preventative to forestall 
more serious problems down the road.

                        FAMILIES AND DEPLOYMENT

    From April through November, 2005, NMFA received 1,592 responses to 
its web survey on the Cycles of Deployment. The message from military 
families came through loud and clear: families cannot, nor should they 
have to, make it through a deployment alone. They expect family support 
to be available to all military families, regardless of their Service 
component or where the family lives. Respondents acknowledged they had 
a role to play in their own family readiness; however they looked to 
their commands, their unit volunteers, and their communities to 
recognize their sacrifice and help them make it through a deployment.
    NMFA could not agree more. Although much has been done to improve 
existing deployment support programs and develop new initiatives to 
meet emerging needs, deployment support requires consistent funding, 
training of family readiness/support volunteers, and information and 
support provided across installations, services, and components. 
Deployment support programs must also have the potential to be 
``purple.'' According to our survey respondents, ``The Military'' has 
established an expectation that the uniformed services are family 
friendly. Families assume all the support systems should work together. 
They do not know (and do not really care) who is in charge of what, who 
is paid or not. How far the family lives from the unit does not really 
matter, nor do service or component distinctions. What does matter is 
that the promised support and information are provided.
    The Services are making strides in providing more staffing--whether 
uniformed or civilian--to support the logistics of family support, but 
NMFA believes they must have additional resources to meet ongoing 
deployment needs and be ready to meet emerging ones. NMFA recently 
asked family readiness professionals from each Service what they needed 
to meet the challenges their families faced. In addition to initiatives 
funded at the Defense-wide level, each identified unfunded requirements 
within their Service budgets and requested additional dedicated 
resources for family readiness in their individual Service Operations 
and Maintenance accounts. Common in all requests was the need for 
additional funding to improve outreach, communication, and support to 
Active Duty, National Guard, and Reserve families; increase the 
availability of counseling resources; make child care services more 
available; and provide additional support for volunteers.
    Higher stress levels caused by open-ended and multiple deployments 
require a higher level of community support. We ask Congress to provide 
the Services with sufficient resources to sustain robust quality of 
life and family support programs during the entire deployment cycle: 
pre-deployment, deployment, post-deployment, and in that critical 
period between deployments. To ensure a solid, but by no means gold-
plated family readiness program to support families throughout this 
cycle, NMFA recommends additional funding be provided in the individual 
military Service Operations and Maintenance accounts to be directed 
toward enhancing family support initiatives such as outreach, 
counseling, aligning Guard and Reserve support programs with their 
active counterparts, child care, and providing assistance and training 
for family support volunteers. NMFA recommends that at least $20 
million be allocated to each Service Operations and Maintenance 
account, with more dedicated to Services bearing the largest deployment 
burden.

                        FAMILIES AND TRANSITION

    Transitions are part of the military life. For the individual 
military family, transitions start with the servicemember's entrance in 
the military and last through changes in duty station until the 
servicemember's separation or retirement from the service. Another 
transition comes with the injury or death of the servicemember. 
National Guard and Reserve families face a transition with each call-up 
and demobilization of the member. The transition to a restructured 
military under Service transformation initiatives, Global Rebasing, and 
Base Realignment and Closure (BRAC) will affect servicemembers, their 
families, and their communities.

Transformation, Global Rebasing, and BRAC
    As the Global Rebasing and the BRAC process are implemented, 
military families look to Congress to ensure key quality of life 
benefits and programs remain accessible. Members of the military 
community, especially retirees, are concerned about the impact base 
closures will have on their access to health care and the commissary, 
exchange, and MWR benefits they have earned. They are concerned that 
the size of the retiree, survivor, Guard, and Reserve populations 
remaining in a location will not be considered in decisions about 
whether or not to keep commissaries and exchanges open. In the case of 
shifts in troop populations because of Service transformation 
initiatives, such as Army modularity and changes in Navy home ports, or 
the return of servicemembers and families from overseas bases, 
community members at receiving installations are concerned that 
existing facilities and programs may be overwhelmed by the increased 
populations.
    Quality of life issues that affect servicemembers and families must 
be considered on an equal basis with other mission-related tasks in any 
plan to move troops or to close or realign installations. Maintaining 
this infrastructure cannot be done as an afterthought. Ensuring the 
availability of quality of life programs, services, and facilities at 
both closing and receiving installations, and easing servicemembers and 
families' transition from one to another, will take additional funding 
and personnel. NMFA looks to Congress to ensure that DOD has programmed 
for costs of family support and quality of life as part of its base 
realignment and closure calculations from the beginning and receives 
the resources it needs. DOD cannot just program for costs of a new 
runway or tank maintenance facility. It must also program in the cost 
of a new child development center or new school, if needed.
    NMFA cannot emphasize enough the urgency for DOD and Congress to 
allocate resources now to support communities involved in movements of 
large numbers of troops. The world in which the American overseas 
downsizing occurred a decade ago no longer exists. Troop movements and 
installation closings and realignments today occur against the backdrop 
of the ongoing war on terror and a heavy deployment schedule. The 
military of today is more dependent on contractors and civilian 
agencies to perform many of the functions formerly performed by 
uniformed military members. Changes in the military health care system 
and the construction and operation of military family housing will have 
an impact on the ability of an installation to absorb large numbers of 
servicemembers and families returning from overseas. Increased 
visibility of issues such as the smooth transition of military children 
from one school to another and a military spouse's ability to pursue a 
career means that more family members will expect their leadership to 
provide additional support in these areas.
    We thank Congress for providing funds to assist schools in meeting 
the additional costs that come with the arrival of large numbers of 
military students. We believe this DOD funding--$7 million appropriated 
for this year--will be needed in larger amounts for several years until 
districts are able to secure resources from other Federal, State or 
local resources. We want these districts to welcome military children 
and not blame them for cutbacks in services because the schools could 
not receive DOD funds to assist them in supporting these children.
    NMFA looks to Congress to ensure DOD's plans for these troop shifts 
will maintain access to quality of life programs and support facilities 
until the last servicemember and family leaves installations to be 
closed. In the same manner, we ask you to ensure that housing, schools, 
child development and youth programs, and community services are in 
place to accommodate the surge of families a community can expect to 
receive as a result of the movement of troops to a new location.

Survivors
    We believe the obligation as articulated by President Lincoln, ``. 
. . to care for him who shall have borne the battle and for his widow 
and his orphan,'' is as valid today as it was at the end of the Civil 
War. NMFA appreciates the work done this year by DOD and Services to 
improve the education of casualty assistance officers and to make sure 
survivors are receiving accurate information in a timely manner. While 
we still hear from some widows that they received wrong or incomplete 
information from their casualty assistance officer, these problems are 
quickly resolved when surfaced to the higher headquarters. We are 
concerned, however, about the widows or parents who still do not know 
who to call when there is a problem.
    A new DOD publication is now available on the DOD Military 
Homefront website (www.militaryhomefront.DOD.mil) for each surviving 
spouse and/or parent outlining the benefits available to them. This on-
line document can be easily updated as changes occur. It will be 
supplemented by Service-specific information. NMFA also looks forward 
to the results of the GAO study on the casualty notification and 
assistance process.
    NMFA believes the benefit change that will provide the most 
significant long term advantage to the surviving family's financial 
security would be to end the Dependency Indemnity Compensation (DIC) 
offset to the Survivor Benefit Plan (SBP). DIC is a special indemnity 
(compensation or insurance) payment that is paid by the Department of 
Veterans Affairs (VA) to the survivor when the servicemember's service 
causes his or her death. It is a flat rate monthly payment of $1,033 
for the surviving spouse and $257 for each surviving child. The SPB 
annuity, paid by the Department of Defense (DOD) reflects the longevity 
of the service of the military member. It is ordinarily calculated at 
55 percent of retired pay. Those who give their lives for their country 
deserve more fair compensation for their surviving spouses. NMFA urges 
Congress to authorize legislation to eliminate the offset and to 
provide funding necessary to implement such legislation.

Wounded Service Members Have Wounded Families
    Post-deployment transitions could be especially problematic for 
injured servicemembers and their families. NMFA asserts that behind 
every wounded servicemember is a wounded family. Spouses, children, 
parents, and siblings of service members injured defending our country 
experience many uncertainties. Fear of the unknown and what lies ahead 
in future weeks, months, and even years, weighs heavily on their minds. 
Other concerns include the injured servicemember's return and reunion 
with their family, financial stresses, and navigating the transition 
process to the VA. When designing support for the wounded/injured in 
today's conflict, the government, especially the VA, must take a more 
inclusive view of military families. Those who have the responsibility 
to care for the wounded servicemember must also consider the needs of 
the spouse, children, and the parents and siblings of single 
servicemembers.

                       COMPENSATION AND BENEFITS

    NMFA appreciates the pay raises for servicemembers over the past 
several years. They serve as both an acknowledgement of service and 
recognition of the need for financial incentives as a retention tool. 
As DOD prepares its Quadrennial Review of Military Compensation, NMFA 
hopes that Congress, in evaluating its recommendations, considers the 
effects of those recommendations on the whole pay and compensation 
package. Changes in individual elements of that package can have 
unintended consequences on other elements or on the package as a whole. 
And, while pay raises are important, equally important is the need to 
maintain the non-pay benefit package that makes up such a vital part of 
military compensation.

Funding for Commissaries, MWR and Other Programs
    Commissaries, exchanges, recreational facilities and other Morale, 
Welfare, and Recreation (MWR) programs are an integral part of military 
life and enhance the overall quality of life for servicemembers and 
their families. Respondents to NMFA's recent survey on military 
benefits spoke emphatically about the value of commissaries, exchanges, 
and MWR programs. This spring, as in previous years, NMFA has been 
dismayed to hear from families and installation leaders that 
installations are being forced to cut MWR services, reduce child 
development center hours, and limit access to facilities because of the 
shortage of base operating funds. At high deployment installations, 
just when families needed them the most, they are routinely being asked 
to do without. Commanders should not have to make a choice between 
paying the installation utility bills or providing family support 
services. While we understand the Services have obligated additional 
funds to installation operations accounts, we still hear from families 
that some services are being cut back or that these accounts are being 
funded at less than 100 percent of the need. We urge increased funding 
for installation operations so that valuable support programs remain 
available to communities undergoing the multiple stresses of deployment 
and high operations tempo at home.

                         FAMILIES AND COMMUNITY

    Military families are members of many communities. NMFA has heard 
how these communities want to help the uniformed service families in 
their midst. As the sacrifice of servicemembers and families continue 
in the global war on terror, many States have implemented military 
family friendly programs and passed legislation to support families. 
NMFA applauds the States assisting servicemembers and their families 
with in-State tuition, unemployment compensation for spouses, licensing 
reciprocity, and education and sports provisions for military children. 
The DOD State Liaison office works to promote these policies and 
publicizes them on the DOD website USA4MilitaryFamilies.org, a web 
forum for sharing information about State and local initiatives to 
support military families.
    Concern for deployed servicemembers from North Carolina, and 
compassion for their loved ones left behind, prompted the creation of a 
unique partnership to help the combatants' families, particularly those 
in remote areas. The Citizen-Soldier Support Program (CSSP) is a 
collaborative effort, funded by Congress through a DOD grant, and 
coordinated by the University of North Carolina at Chapel Hill. CSSP is 
designed to mobilize communities and make them aware of the needs of 
local military families so people can reach out and help when help is 
needed. The program is designed as a preventative measure, as opposed 
to a crisis-response structure, to help with little things before they 
become big things. The support program uses existing agencies within 
counties and communities to broadcast the needs of military families. 
Other States have expressed interest in starting similar programs. We 
hope North Carolina will be the training center to expand the program 
to other States and communities.
    NMFA recommends increased funding for community-based programs, 
including the North Carolina Citizen-Soldier Support Program, to reach 
out to meet the needs of geographically dispersed servicemembers and 
their families.
    NMFA would like to thank these military community members, 
especially the community organizations, schools, youth groups, 
fraternal and service groups, and churches, who reach out the military 
families in their midst and offer them support, a hug, a listener, a 
lawn mowed, a tire changed. They too are part of the tapestry of 
support. By keeping military families strong, they are ensuring the 
force will remain strong.

    Senator Inouye. Our next witness is Brigadier General 
Stephen Koper, retired, President of the National Guard 
Association of the United States. General Koper, welcome, sir.

STATEMENT OF BRIGADIER GENERAL STEPHEN KOPER, UNITED 
            STATES NATIONAL GUARD (RETIRED), PRESIDENT, 
            NATIONAL GUARD ASSOCIATION OF THE UNITED 
            STATES
    General Koper. Thank you, Senator Inouye, and thanks to 
you, Chairman Stevens, and members of the subcommittee for the 
opportunity to testify before you again today. The National 
Guard Association thanks you for your many years of outstanding 
support to the National Guard.
    I want to share with you a couple of critical resources so 
necessary for the National Guard to carry out its growing role 
in the Nation's defense. It comes as no surprise to this 
subcommittee that these items are holdovers from our testimony 
1 year ago.
    While we are encouraged by the establishment of TRICARE 
Reserve Select 2 years ago, a program where members earn 
medical coverage through deployments, and then the addition of 
a tiered system which provides for two more categories of 
health care coverage for the Guard and Reserve, we do not 
believe it offers the final answer. More importantly, we have 
created a system of haves and have-nots within the Guard and 
Reserve, each category of member having a level of merit for 
health care coverage as reflected by a higher or lower premium 
rate.
    This is the sixth year that our association has brought the 
health care issue before you. We appreciate the efforts made 
here on the Hill to provide for our soldiers and airmen, and we 
hope that you will join with the House in providing language 
that would bring us to a simple one level of premium program 
for all members of the Guard and Reserve who are members of 
drilling units.
    Another issue of serious concern is full-time manning for 
the Army National Guard. While already engaged in conflicts 
worldwide, the Army National Guard continues to prepare for 
future missions. The vision of a more responsive force capable 
of full spectrum dominance to meet threats whenever and 
wherever they arise is a reality for the National Guard. The 
National Guard Association has worked with Congress to effect 
an Army National Guard full-time manning ramp to 71 percent 
over a 10-year period by 2012.
    The United States Army validated the ramp and began funding 
in fiscal year 2003, and has continued funding this requirement 
through fiscal year 2006.
    The National Guard Association believes there is a 
requirement to reach the 71 percent of full-time manning level 
by 2010, versus the target of 2012. The full-time manning issue 
will bear even closer scrutiny as the Army National Guard 
continues to transform, modularize, and reset. No matter what 
final decisions are made on Guard end strength and force 
structure, the availability of full-time manning is paramount 
to the Guard's continued success.
    I want to turn now to a concern that goes to the very heart 
of the National Guard. Bold and innovative Members of the 
Senate and the House and have recently introduced Senate 2658 
and its companion, H.R. 5200, the National Defense Enhancement 
and National Guard Empowerment Act of 2006. This legislation 
offers solution to the institutional bias within the Active 
components that has plagued the National Guard, or militia, 
since the birth of the Republic. In our view, this situation 
can no longer be swept under the rug. We must do all that we 
can to provide the American people the most cost-effective 
defense structure. Certainly we believe that structure in many 
cases is the National Guard.
    The Department of Defense announced this week its 
opposition to all sections of S. 2658, and launched a campaign 
in Congress to either delay consideration of the legislation by 
referring it to the Commission on the National Guard and 
Reserve, or to dismiss the bill completely on the grounds that 
neither the Chairman of the Joint Chiefs, nor the Secretary of 
Defense, believe the changes are either necessary or warranted.
    Unfortunately, this same dismissive response to the Guard 
reaching out to be heard as strategic level force structure, 
policy, and funding decisions are being made, is the very 
reason this legislation is needed. Senior Pentagon officials 
will openly tell you that the Guard has been and is at the 
table, and that except for a few isolated incidences, their 
inputs are being regularly factored into decisionmaking.
    If that were true, then why wasn't the Guard in the huddle 
for the Quadrennial Defense Review, and other high-level budget 
debates that ultimately led to proposed cuts of 17,000 
personnel in the Army Guard, and 14,000 less in the Air 
National Guard? The fact of the matter is that senior Guard 
leadership has only been involved in Pentagon decisionmaking as 
an afterthought, requiring the Adjutants General, Governors, 
Congress, this association, and others, to launch vigorous 
campaigns to reverse decisions that were made without adequate 
Guard input. Action by the Senate was necessary to remind the 
Army of this very fact earlier this year.
    The Guard's only goal is to have a seat at the table, and a 
relative voice in the decisions that affect our readiness. 
Based on the Pentagon's standard response to these entreaties, 
we now have the National Guard Empowerment Act of 2006 as a 
means to achieve the level of Defense Department involvement we 
have earned and deserve.
    In closing, NGAUS would ask that this subcommittee lend its 
full support to favorable consideration of S. 2658. While the 
Secretary of Defense is wont to say the war on terror could not 
be fought without the National Guard, clearly a serious 
disconnect still exists. Senator Inouye, our thanks to you and 
Chairman Stevens and the subcommittee, for the opportunity. 
I'll be glad to answer any questions.
    [The statement follows:]

                 Prepared Statement of Stephen M. Koper

    Chairman Stevens, Members of the committee, thank you for this 
opportunity to testify before you again today and the National Guard 
Association thanks you for your many years of outstanding support to 
the National Guard.
    I want to share with you a couple of those critical resources so 
necessary for the National Guard to carry out its growing role in the 
Nation's defense. It comes as no surprise to this committee that these 
items are hold-overs from our testimony 1 year ago.
    At the top of that list of resources is access to health care. The 
National Guard Association believes every member of the National Guard 
should have the ability to access TRICARE coverage, on a reasonable 
cost-share basis, regardless of duty status.
    While we are encouraged by the establishment of TRICARE Reserve 
Select 2 years ago, a program where members ``earn'' medical coverage 
through deployments, and the addition of the ``tiered system'' which 
provides for two more categories of health care coverage for the Guard 
and Reserve, we don't believe it offers the final answer. More 
importantly, we have created a system of haves and have-nots within the 
Guard and Reserve, each category of member having a level of merit for 
health care coverage as reflected by a higher or lower premium rate.
    This is the sixth year that our association has brought the health 
care issue before you. We appreciate the efforts made here on the Hill 
to provide for our soldiers and airmen. From the beginning we have felt 
that there were some underlying justifications for our health care 
proposal:
  --Healthcare coverage for our members is a readiness issue. Guard 
        members called to duty are expected to be ``ready for duty''.
  --TRICARE coverage for all would finally end the turbulence visited 
        on soldiers and their families who are forced to transition 
        from one health care coverage to another each time they answer 
        the Nation's call.
  --Access to TRICARE would also be a strong recruitment and retention 
        incentive. In an increasingly challenging recruiting/retention 
        environment, TRICARE could make a significant difference.
    Currently TRICARE language to accompany H.R. 5122 (NDAA) is in 
place. This section would provide coverage under the TRICARE Standard 
program to all members of the Selected Reserves and their families 
while in a non-active duty status. Participants would be required to 
pay a premium that would be 28 percent of the total amount determined 
by the Secretary of Defense as being reasonable for the TRICARE 
coverage. Further, it would repeal the three tiered cost share TRICARE 
program for reserves established by the fiscal year 2006 National 
Defense Authorization Act. We believe this is the appropriate solution. 
We are seeking similar language from the long-time TRICARE stalwarts 
here in the Senate. We earnestly request this committee's support for 
such action.
    Another issue of serious concern is full time manning for the Army 
National Guard. While already engaged in conflicts worldwide, the Army 
National Guard continues to prepare for future missions. The vision of 
a more responsive force capable of full-spectrum dominance to meet 
threats whenever and wherever they arise is a reality for the National 
Guard.
    The National Guard Association of the United States has worked with 
Congress to affect an Army National Guard full-time manning ramp to 71 
percent over a 10-year period (by 2012). The United States Army 
validated the ramp and began its funding in fiscal year 2003 and has 
continued funding this requirement through fiscal year 2006. The 
National Guard Association of the United States believes there is a 
requirement to reach the 71 percent full-time manning level by 2010 
versus the current target of 2012.
    The full-time manning issue will bear close scrutiny as the Army 
National Guard continues to transform, modularize and reset. No matter 
what final decisions are made on Guard end strength and force 
structure, the availability of full-time manning is paramount to the 
Guard's continued success.
    This committee has always been particularly sensitive to the 
equipment needs of the National Guard and generous in funding the 
National Guard and Reserve Equipment Account (NGREA). Mr. Chairman, 
each and every dollar that has been appropriated over the years in this 
account has purchased combat capability. This account is absolutely 
essential to both the Army and Air National Guard and we thank you for 
your continued support of NGREA.
    I want to turn now to a concern that goes to the very heart of the 
National Guard. Bold and innovative Members of the Senate and House 
have recently introduced S. 2658 and its companion H.R. 5200, The 
National Defense Enhancement and National Guard Empowerment Act of 
2006. This legislation offers solutions to the institutional bias 
within the active components that has plagued the National Guard 
(militia) since the birth of the Republic. In our view, this situation 
can no longer be swept under the rug. We must do all that we can to 
provide the American people with the most cost effective defense 
structure. Certainly we believe that structure, in many cases, is the 
National Guard.
    The Department of Defense announced this week its opposition to all 
sections of S. 2658 and launched a campaign in Congress to either delay 
consideration of the legislation by referring it to the Commission on 
the National Guard and Reserves or dismiss the bill completely on the 
grounds that neither the Chairman of the Joint Chiefs or Secretary of 
Defense believes the changes are either necessary or warranted.
    Unfortunately, this same dismissive response to the Guard reaching 
out to be heard as strategic level force structure, policy, and funding 
decisions are being made is the very reason this legislation is needed. 
Senior Pentagon officials will openly tell you that the Guard has been 
and is ``at the table'' and that except for a few isolated incidences, 
their inputs are being regularly factored into strategic 
decisionmaking. If that were true, then why wasn't the Guard ``in the 
huddle'' for the Quadrennial Defense Review (QDR) and other high level 
budget debates that ultimately led to proposed cuts of 17,000 personnel 
in the Army National Guard and 14,000 less in the Air National Guard.
    The fact of the matter is that senior Guard leadership has only 
been involved in Pentagon decisionmaking as an afterthought, requiring 
the adjutant's general, governors, Congress and NGAUS to launch 
vigorous campaigns to reverse decisions that were made without adequate 
Guard input. Action by the Senate was necessary to remind the Army of 
this very fact earlier this year.
    The Guard's only goal is to have a seat at the table and a relative 
voice in the decisions that affect our readiness. Based on the 
Pentagon's standard response to these entreaties, we now have the 
National Guard Empowerment Act of 2006 as a means to achieve that level 
of Defense Department involvement we have earned and deserve.
    In closing, NGAUS would ask that this committee lend its full 
support to favorable consideration of S. 2658. While the Secretary of 
Defense is wont to say, ``The War on Terror could not be fought without 
the National Guard'', clearly a serious disconnect still exists.
    Mr. Chairman, Members of the committee, I sincerely thank you for 
your time today and am happy to answer any questions.

    Senator Inouye. I thank you very much, General. What are 
the latest statistics relating to recruiting and retention in 
the Army National Guard?
    General Koper. The Army National Guard recruiting slope is 
definitely strongly up. We did suffer a minor setback in April. 
However, we believe, the Chief of the National Guard Bureau has 
said in testimony, he believes they will meet the 350,000 
authorized strength by the end of the fiscal year. They have a 
tremendously innovative Guard Recruiting Assistant Program (G-
RAP) recruiting program that is doing wonders. Individual 
guardsmen are bringing other recruits in and receiving bonuses 
for that, and true to the American spirit, they are great 
marketeers. They are doing a pretty fantastic job.
    Senator Inouye. That is encouraging. Thank you very much, 
sir.
    General Koper. Thank you, sir.

                    ADDITIONAL SUBMITTED STATEMENTS

    Senator Inouye. That is the last of the witnesses.
    If there are any additional statements from witnesses, they 
will be included in the record.
    [The statements follow:]

Prepared Statement of the National Brain Injury Research, Treatment, & 
                          Training Foundation

    My name is Dr. George Zitnay, and I am the founder of the National 
Brain Injury Research, Treatment and Training Foundation (NBIRTT) \1\ 
and a co-founder of the Defense and Veterans Head Injury Program 
(DVHIP). On behalf of the thousands of military personnel sustaining 
brain injuries, I respectfully request $19 million be provided in the 
Department of Defense (DOD) Appropriations bill for fiscal year 2007 
for the Defense and Veterans Head Injury Program (DVHIP). This request 
includes the $7 million in the DOD's POM, and an additional $12 million 
to allow the important work of the program to continue during this 
critical time in the war on terrorism.
---------------------------------------------------------------------------
    \1\ NBIRTT is a non-profit national foundation dedicated to the 
support of clinical research, treatment and training.
---------------------------------------------------------------------------
 traumatic brain injury is the signature injury of the war on terrorism
    Over 1,500 military personnel involved in the global war on terror 
have been seen and treated by DVHIP. At Walter Reed alone, over 650 
soldiers with brain injuries from Iraq and Afghanistan have been 
treated. Forty percent of those injured in a blast/explosion and seen 
at Walter Reed had a traumatic brain injury. A little more than half 
(50 percent) of these injuries are moderate to severe and will require 
life long support.
    One of the greatest challenges the military health care and 
veterans systems face is to assure that no one falls through the 
cracks. More than ever we need congressional support to provide for 
active duty soldiers and veterans who suffered a brain injury in Iraq 
and Afghanistan, as a result of explosions, penetrating head injury, 
crashes, and other assaults.
    Improved body armor, the significance of even mild brain injury, 
and the high frequency of troops wounded in blasts all lead to blast-
induced TBI being an important health issue in this war. Many of the 
soldiers and veterans with brain injury treated by DVHIP also have Post 
Traumatic Stress Disorder and other medical complications.
          the defense and veterans head injury program (dvhip)
    The DVHIP is a component of the military health care system that 
integrates clinical care and clinical follow-up, with applied research, 
treatment and training. The program was created after the first Gulf 
War to address the need for an overall systemic program for providing 
brain injury specific care and rehabilitation within DOD and DVA. The 
DVHIP seeks to ensure that all military personnel and veterans with 
brain injury receive brain injury-specific evaluation, treatment and 
follow-up.
    Clinical care and research is currently undertaken at seven DOD and 
DVA sites and two civilian treatment sites.\2\ In addition to providing 
treatment, rehabilitation and case management at each of the nine 
primary DVHIP centers, the DVHIP includes a regional network of 
additional secondary veterans' hospitals capable of providing TBI 
rehabilitation, and linked to the primary lead centers for training, 
referrals and consultation. This is coordinated by a dedicated central 
DVA TBI coordinator and includes an active TBI case manager training 
program.
---------------------------------------------------------------------------
    \2\ Walter Reed Army Medical Center, Washington, DC; James A. Haley 
Veterans Hospital, Tampa, Florida; Naval Medical Center San Diego, San 
Diego, California; Minneapolis Veterans Affairs Medical Center, 
Minneapolis, Minnesota; Veterans Affairs Palo Alto Health Care System, 
Palo Alto, California; Virginia Neurocare, Inc., Charlottesville, 
Virginia; Hunter McGuire Veterans Affairs Medical Center, Richmond, 
Virginia; Wilford Hall Medical Center, Lackland Air Force Base, Texas; 
Conemaugh Health System, Johnstown, Pennsylvania.
---------------------------------------------------------------------------
    DVHIP continues to ensure optimal care, conduct clinical research, 
and provide educational programs on TBI for Active Duty military and 
veterans. All DVHIP sites have maintained and many have increased 
treatment capacity. This has been a direct response to the influx of 
patients seen secondary to Operation Iraqi Freedom (OIF) and Operation 
Enduring Freedom (OEF). WRAMC receives more casualties from theater 
than all of the other military treatment facilities (MTFs) in the 
continental United States. Patients are often seen at WRAMC within a 
week or two after injury and many of these patients have multiple 
injuries (e.g., TBI, traumatic amputations, shrapnel wounds, etc.).
    To meet the increased demand, screening procedures were developed 
by DVHIP headquarters and clinical staff. The DVHIP clinical staff 
reviews all incoming casualty reports at WRAMC and screens all patients 
who may have sustained a brain injury based on the mechanism of injury 
(i.e., blast/explosion, vehicular accident, fall, gunshot wound to the 
head, etc.). DVHIP screening is catching TBI patients that might 
otherwise go undetected, posing a potential threat to patients and, in 
the case of premature return to Active Duty, military readiness.
    To date, DVHIP staff has accomplished the following:
Clinical Care
    Developed the Military Acute Concussion Evaluation (MACE) for use 
in all operational settings, including in-theater.
    Developed management guidelines for mild, moderate, and severe TBI 
in-theater.
    Established a telemedicine network linking DVHIP's military and VA 
sites.
    Initiated a care coordination capacity for persons with TBI in 
regions remote from one of the DVHIP core sites. Still needed (and 
planned if funding is available) are greater treatment capacity, 
particularly at the community reentry level, and an expanded care 
coordination system that meets the special needs of persons with TBI 
and is widely distributed across the country.
Research
    Commenced multiple new projects and collaborations focused on 
defining and understanding blast-related TBI.
    Continued active medication treatment trials for TBI-related 
symptoms.
    Presented preliminary scientific reports on patterns of TBI 
emerging from OIF and OEF.
    Initiated development of a clinical platform for the testing of a 
promising novel rehabilitation intervention for TBI based on animal 
experiments with environmental enrichment.
    Still needed (and planned if funding is available) are more DVHIP-
based investigators and other research personnel to address further the 
many TBI-related issues emerging from OIF and OEF.
Education and Training
    Developed a syllabus for training first responders in the 
management of moderate and severe TBI in-theater.
    Developed the first two modules of a course for first responders 
and other clinicians in the assessment and management of mild TBI.
    Initiated a public awareness campaign on TBI called ``Survive, 
Thrive, & Alive,'' the centerpiece of which is a documentary on TBI in 
military and veterans that will be released this summer.
    Developed an outreach team to train clinical personnel at non-DVHIP 
sites in the assessment and management of mild TBI.
    Still needed (and planned if funding is available), is to build on 
the public awareness campaign and develop a broadly available 
multimedia educational capacity for military and veteran TBI patients, 
their families, clinicians, and all other persons who are touched by 
this significant public health problem.
                    our injured troops need support
    There is no cure for brain injury. That is why the research being 
carried out by DVHIP is critical. We must find a way through research 
to help our injured soldiers with brain injury to return to as near 
normal life as possible.
    Since many of the soldiers with brain injuries will have life long 
needs resulting from their injuries, we need to make sure community 
services are available wherever the soldier lives. This will be done 
through local case management program and linkage to DVHIP sites.
    DVHIP has reached out to screen troops returning from the field to 
make sure no one with a brain injury falls through the cracks. Teams 
from DVHIP have been sent to Fort Dix, Fort Campbell, Fort Knox, Camp 
Pendleton, Fort Carson, Fort Irwin, Fort Bragg, Tripler Army Medical 
Center and others as requested by base commanders. Teams have also 
traveled to Landstuhl Regional Medical Center in Germany to provide 
evaluation and treatment on an ongoing basis. The DVHIP is an important 
tool to assure a continuum of care, but the program requires additional 
resources to assure that no TBI is overlooked or misdiagnosed.
        $19 million is needed in fiscal year 2007 for the dvhip
    The DVHIP needs a plus up of at least $12 million to care for these 
injured soldiers and their families. Last year Congress instructed the 
DVHIP to move to Fort Detrick. This has been accomplished. Our request 
for the DVHIP is simple. In addition to the $7 million in the POM, the 
DVHIP needs a minimum of $12 million dedicated to the work of the DVHIP 
to provide state-of-the-art care to brain injured soldiers regardless 
of where they live, and to continue our scientific research aimed at 
improving outcomes from brain injury, especially from blast injuries.
    Please support $19 million for the DVHIP in the fiscal year 2007 
Defense Appropriations bill under AMRMC, Fort Detrick to continue this 
important program.
    Thank you.
                                 ______
                                 

           Prepared Statement of Vietnam Veterans of America

    Chairman Stevens, ranking member Inouye, and distinguished Senators 
of the Defense Subcommittee of the Committee on Appropriations, on 
behalf of VVA National President John P. Rowan and all of our members, 
we thank you for giving Vietnam Veterans of America (VVA) the 
opportunity to make our views known about the fiscal needs of America's 
service persons and our soon-to-be veterans.

                   THE SEARCH FOR AMERICA'S MIA/POWS

    First and foremost, I wish to note that the highest priority of VVA 
for 25 years has been, achieving the fullest possible accounting of 
those who are still unaccounted for in Vietnam. Today there are 1,805 
missing and unaccounted for since the end of the Vietnam War since 
1975; 1,380 in Vietnam, 364 in Laos, 54 in Cambodia and 7 in PRC 
territorial waters. VVA commends the Defense Prisoners of War and 
Missing in Action Office (DPMO) for their outstanding work in assisting 
with the recovery of our missing Americans.
    The Joint POW/MIA Accounting Command (JPAC) budget for 2006 fell 
about $3.6 million short and caused the cancellation and scaling back 
of many investigative and recovery operations. VVA urges Congress to 
ensure JPAC receives the dedicated funding level of $65 million in 
fiscal year 2007 and that JPAC funding be a mandatory single line item 
budget just as DIA's Stoney Beach Team and DPMO so that these 
accounting operations don't have to compete with other funding 
priorities.
    Mr. Chairman, every President since President Gerald Ford has noted 
that the Nation's highest priority is the fullest possible accounting 
for our Missing in Action (MIAs), whether they be Prisoners of War or 
that this activity be recovery of remains, and returning these remains 
to American soil. In any case, resolution for the families involved is 
essential and we urge this distinguished body, as we approach Memorial 
Day and as ``Rolling Thunder'' is bearing down on the Capitol in honor 
of POW/MIAs, and to press for the fullest possible accounting of our 
MIAs and POWs, to ensure that the resources are there to do the job 
right.

                                TRICARE

    VVA strongly opposes the inordinate and unfair increases being 
discussed for TriCare recipients. These increases would impose yet 
another disincentive for patriotic Americans to serve their career in 
uniform defending our Nation, and do great injustice to those who have 
already done so, and to their families.
    DOD claims rising health costs impinge on weapons programs. The 
Joint Chiefs endorse the fee hikes because their leaders tell them that 
this is the only way there will be enough money to fund needed weapons 
systems, new equipment, and other materiel needed for the defense of 
the Nation.
    For senior Department of Defense leadership to juxtapose caring for 
service members and former service members when they become veterans 
with acquiring hardware is so outrageous that it should be cause for 
public chastisement by the President. If memory serves, the leadership 
of the Senate Armed Services Committee did rebuke that official at the 
first public declaration, in a bi-partisan manner. Yet the persistent 
pattern that would translate this unfortunate attitude into policy and 
practice continues unabated. You have the ability to call a halt to 
this affront to the men and women of our Armed Forces by stopping the 
proposed sharp increases in TriCare cost-shifting to the service 
members and their families.
    Those who prepare the Defense budget request assume the changes 
will save money by causing hundreds of thousands of retirees to stop 
using their earned military benefits. This is a morally wrong policy. 
Top DOD leaders continue to say fees should bring military closer to 
civilian practices. Military service is not analogous to civilian-
sector jobs. Some of those who maintain that it is would better 
understand if they had personally had the honor and privilege of 
serving our country in the military, particularly during wartime. Any 
comparison with private sector benefits and health care practices is 
simply mistaken and inappropriate.
    Traditionally, providing first rate military medical and retirement 
benefits have helped make up for the pay differentials with the private 
sector, and serve as something of a reward for enduring many years of 
often very difficult service. The medial care of retirees is not low-
cost or no-cost. Rather, it is a ``pre-paid'' medical cost by virtue of 
a hard 20 years or more of military service and sacrifice. Recruiting 
problems today show few Americans are willing to pay that heavy premium 
for that benefit.
    VVA notes that the DOD proposed increases for health care would far 
outstrip annual retired pay increases and would greatly erode retired 
compensation value. Again this year, as was the case in the last few 
years, Congress wisely has refused to accept VA health fee increases 
for veterans who are not service connected disabled who had served as 
few as 2 years.
    Tripling and quadrupling fees for those who served their best adult 
years in uniform would be even more inappropriate than charging non-
career veterans exorbitant fees at VA. Our government has a moral 
obligation to provide benefits commensurate with the extraordinary 
commitments it demands from career service members.
    VVA notes that dramatically raising TriCare to what for many 
retirees will be virtually unaffordable levels will also drive many 
retirees, particularly those who are service-connected disabled, into 
what is already an overburdened and under-funded VA healthcare system. 
While the care at VA is excellent when access is gained, there just are 
not enough personnel to meet the demand as it is. The additional burden 
of driving retirees to that system will only displace the burden in an 
inappropriate manner.
    Although we would certainly hope this is not the case, perhaps it 
is the explicit or inadvertent wish of some at DOD to foist their 
responsibilities for the health of service members and former service 
members off onto the VA in a less than responsible manner. Whether this 
is the intent or not, it would certainly be the effect. However, we 
trust that this subcommittee will not allow such tactics, recognizing 
that caring for the men and women who have faithfully and honorably 
served our Nation is in fact an indispensable element of the essential 
cost of national defense, and keeping America free.

                      ELIMINATE THE ``WIDOWS'' TAX

    VVA strongly urges that fiscal year 2007 must be the year that we 
as a Nation move to eliminate the ``widow's tax.'' I speak of course of 
the situation in which there is a dollar-for-dollar reduction in 
Dependency and Indemnity Compensation (DIC) vs. the Survivor Benefits 
Plan (SBP) annuity payments. VVA encourages the Senate not wait for the 
Veterans' Disability Benefits Commission report to do what is so 
clearly the right thing. VVA urges that you end the dollar-for-dollar 
deduction of VA benefits for service-connected deaths from survivors' 
SBP annuities.
    Further, we urge that you move the effective date of the 30-year 
paid-up SBP coverage to October 1, 2005, (this measure affects retired 
military who pay for SBP). VVA believes that there is no justification 
for further delay in eliminating what is essentially an unjust tax on 
widows of our service members.

           RESEARCH: EXTRACORPOREAL SHOCKWAVE THERAPY (ESWT)

    The number and variety of burns and other terrible wounds 
afflicting OIF/OEF veterans have caused great problems with 
regenerating tissue and skin over significant sections of the bodies of 
our wounded soldiers and marines. VVA participated in a briefing last 
weekend with Admiral Donald Arthur, Surgeon General of the Navy, and 
many key staff of the Walter Reed Army Medical Center and the National 
Naval Medical Center (Bethesda) regarding ESWT or a private company, 
Tissue Regeneration Technologies (TRT), which is bringing this 
technology to the United States, made this compelling presentation. All 
are intersted in bringing this hopeful new technology to our wounded.
    The MTS 180 multiwave device is quite simple to use, takes minimal 
time and effort to apply, and most importantly has been demonstrated 
clearly to do no harm. There will be a direct benefit for U.S. soldiers 
wounded in battle should this be approved. TRT believes, as does the 
clinical staff at WRAMC and NNMC, that the multiwave device can provide 
much quicker healing of the war wounds presented and thus save limbs 
from amputation and have each young man and woman return to a more 
normal life with their families after their duty in the military. The 
device promises to have a huge impact on those patients who have a 
difficult time recovering from wounds received in the line of duty.
    Research on this therapy worldwide has demonstrated ingrowth of new 
blood vessels in areas lacking such, destruction of bacterial 
pathogens, production of growth factors and other processes that lead 
to healing of tissues (bone and skin) in a rapid fashion. TRT has 
agreed to donate a device to the WRAMC, assist in writing the protocol, 
and provide Dr. Wolfgang Schaden (with TRT) expertise, training and 
guidance for a study involving those wounded men and women. The Henry 
M. Jackson Foundation has agreed to assist in supporting this effort. 
The end goal, should the device prove efficacious, would be to provide 
devices on the field of battle that would readily support limb- and 
life-saving therapy.
    What is needed is approximately $17 million specifically designated 
large-scale study that would involve WRAMC, NNMC, and hopefully the 
Uniformed Services University (USU), and the National Institutes of 
Health (NIH) in assembling a combined Institutional Review Board (IRB), 
and for actually conducting a rigorous clinical outcomes study of this 
seemingly extraordinary tool.
    An additional benefit of ensuring that this is collaborative effort 
or with a common protocol IRB is to set the stage for many other 
vitally needed clinical research projects that are likely to directly 
and immediately help to provide even more magnificent care than our 
grievously wounded are already receiving today. The cooperation of the 
Department of Veteran Affairs is all that is needed to make this a 
complete loop, and assist with strengthening the continuum of care for 
the seriously wounded and injured.

  DISPOSITION OF THE AIR FORCE HEALTH STUDY (AFHS) DATA AND SPECIMENS

    The Air Force Health Study (AFHS), more commonly known as the 
``Ranch Hand Study,'' is coming to a close. This study, which has 
spanned more than 25 years (1979 to the end date of September 30, 
2006), has produced a wealth of data about the participants. In 
addition, there are more than 60,000 blood and tissue samples 
(biospecimens) that the AFHS never had the time or resources to even 
test, much fully analyze.
    In response to the mandate of being directed to do so pursuant to 
Public Law 108-183, the Secretary of Veterans Affairs contracted with 
the Institute of Medicine (IOM) of the National Academies of Sciences 
to consider the question of whether this data and biospecimens should 
be retained for future analysis and additional study; and, if so, where 
the repository of these biospecimens and data sets should be, in order 
that the integrity of the data and physical samples be preserved and 
that the chain of custody be maintained.
    The IOM recommended three possible sites for this repository, 
assuming that arrangements and permission can be obtained from the 
National Archives: one of the two Epidemiological Information and 
Research Centers (ERICs) of the Department of Veterans Affairs; and, 
the Medial Follow-Up Agency (MFUA) of the Institute of Medicine.
    Vietnam Veterans of America testified that the only one of these 
three that everyone could have full confidence in was MFUA, as it has a 
history of exemplary and impartial scientific work extending back to at 
least World War II. However, any of these three options need additional 
resources to take on this burden. The IOM estimated that it will take 
up to $300,000 per year to manage and support the custodian's data 
management responsibilities, and approximately the same amount to care 
for the biospecimens. First-year costs would be higher because of the 
transfer and set-up costs.
    The time is short, and the funds to maintain the data and 
biospecimens must be available on October 1, 2006 in order to maintain 
the chain of custody, keep the freezers on for the biospecimens, and 
handle all the myraid activities that must be done. Further, the IOM 
recommended that a minimum of 5 years would be needed, with at least 
$250,000 for small grants, to discover whether the reposited material 
and data are of the unique scientific value they are assured to have.
    For all of the reasons outlined above, VVA strongly urges the 
subcommittee to make available $1 million for fiscal year 2007, with a 
commitment of $800,000 in each of the succeeding 4 fiscal years, and 
direct that the data be transitioned to the Medical Follow-Up Agency 
(MFUA) of the Institute of Medicine (IOM) of the National Academies of 
Science (NAS). Further, VVA asks that report language direct the Air 
Force to ensure that there is no lapse in the transition, and that the 
physical integrity and chain of custody be fully maintained, whether by 
Air Force personnel or by the current contractors working on the AFHS.

        HEALTH CARE SCREENING FOR DEPLOYING AND RETURNING TROOPS

    The force readiness plan being developed by the Pentagon at the 
behest of Congress must include a full medical examination, to include 
a blood draw and a psychosocial history by a qualified clinician, for 
all troops prior to their deployment overseas and upon their 
redeployment. This must include a face-to-face mental health care 
encounter. VVA is greatly perturbed by reports of troops on heavy 
medications being sent to the war zones, and of those who receive 
mental health profiles while in Iraq or Afghanistan being sent back 
into combat situations.
    The traditional role of military medicine has always been ``Force 
Readiness,'' i.e., how quickly can service members be returned to full 
duty with a minimal expenditure of resources, and delivery of treatment 
as far forward as possible. In the past 10 years, there has been an 
effort to shift to a model of ``Force Health Protection'' that seeks to 
safeguard to long-term health of the individual service member and 
reduce or avoid severe health consequences of military service in the 
future. However, when there is a situation such as exists today, where 
virtually every service member (or member of the National Guard or 
Reserves) is needed to maintain the mission, ``Force Readiness'' trumps 
all other considerations.

                         MENTAL HEALTH AND PTSD

    The problem is that sending troops back into the war zone for a 
forced second or third tour, including those who already have Post-
Traumatic Stress (PTSD) problems, is to ensure that the severity and 
chronicity of the problems that these individuals will suffer in the 
future will be much more acute. News reports that many who are already 
on medication, including psychotropic and/or heavy anti-depression 
medications because of mental health problems stemming from their 
previous tour(s), are also being forced to deploy yet again are really 
disturbing.
    DOD has long discriminated against anyone who has come forth to 
report any such problems, causing service members who wish to stay in 
the service and wish to be promoted not to seek help from military 
medical personnel, but rather to self medicate and/or seek help at 
their own expense from civilian sources. Now it seems that DOD wants to 
have it both ways, i.e., not promote these service members but still 
send them back to the war zone knowing this will worsen and/or 
exacerbate their condition. How many suicides or breakdowns in the 
field will it take to stop this shortsighted approach?
    Similarly disturbing are reports that both Army and Navy physicians 
have been forbidden to use the diagnosis of Post Traumatic Stress 
Disorder, which is in the Diagnostic and Statistical Manual (DSM-IV), 
as a valid diagnosis. Rather, we understand that military physicians at 
many sites are instructed to use ``combat stress,'' or ``personality 
disorder,'' or other euphemisms in their notes, despite the fact that 
these euphemisms are not defined, validated, or recognized by the 
American Psychiatric Association (APA), the American Medical 
Association (AMA), or any other legitimate medical entity. This is 
apparently being done despite the fact that many of these individuals 
clearly meet all or many of the 14 classic symptoms of PTSD. Why would 
anyone do that? The answer is that because it is not a recognized 
diagnosis, it does not qualify the service member for a medical 
retirement.
    Because our newest veterans appear to be suffering the 
psychological stresses and disorders in far greater numbers than even 
the Vietnam generation, it is imperative that after deployments a 
system of acute stress counseling and PTSD counseling be emplaced, a 
system that is funded by DOD and delivered by VA personnel and private 
practitioners. What is needed is some sort of ``firewall.'' If the 
individual gets better, then he or she will pass their pre-deployment 
face-to-face mental health encounter, and be stronger for having 
admitted to the problem and getting effective help. If they are 
experiencing mental health difficulties, then that same clinical 
encounter will screen them out, whether they have sought treatment or 
not.
    This counseling must be made available to Reservists and members of 
the National Guard and their families in addition to active-duty troops 
when they have returned. As about 60 percent of the Guard and Reserve 
members live in towns of 2,500 or less, there needs to be creative 
solutions in order to get these folks the help they and their families 
so often need. To treat PTSD in the service member or veteran, one must 
treat the whole family or the chances of success are greatly 
diminished. Currently there is little or nothing being done for the 
Guard and Reserve members, or their families, who are far from any 
military hospital, or even a VA facility.
    In this same regard, reports persist that the problem documented by 
Senators Bond and Leahy (co-chairs of the National Guard and Reserve 
Caucus in the Senate) 3 years ago that National Guard and Reserve 
troops were waiting inordinately long periods for medical care at 
military medical facilities has not gone away, and in fact is again 
becoming widespread. Much of the problem, VVA believes, is that like 
most of the military, the military medical organizational capacity has 
been too far downsized in the name of ``streamlining'' and 
``modernizing.'' We urge the subcommittee to increase the funding 
allocation for the number of physicians and allied healthy care 
personnel for fiscal year 2007, with appropriate report language that 
directs DOD to track the care and waiting periods of these individuals, 
who are so vital to the total force concept, to ensure that they are 
not being treated as ``second class citizens'' in the military medical 
system, thereby worsening the medical conditions of these soon-to-be 
veterans.

                         MILITARY SEXUAL TRAUMA

    It has become clear in the last decade that sexual harassment and 
sexual abuse are far more rampant than what had been acknowledged by 
the military. Reported instances of sexual harassment and abuse 
represent only the tip of the proverbial iceberg. While we are pleased 
that both the Departments of Defense and Veterans Affairs seem now to 
be taking this seriously, finally explicitly acknowledging sexual 
trauma as a crime under the Uniform Code of Military Justice (UCMJ) in 
the Defense Authorization Act of 2005, there is still a long road to 
travel to change the current atmosphere that conditions victims of 
sexual abuse to not report this abuse to authorities. VVA urges you to 
include report language directing a comprehensive review of the 
penalties for military sexual trauma under the Uniform Code of Military 
Justice to determine if the penalties are commensurate with the 
offenses, and to act to ensure uniform enforcement in all branches of 
the military, and to explore such mechanisms to achieve quality 
assurance on uniformity of enforcement such as a worldwide Internet 
address and a nationwide toll-free number, that would be staffed by 
counselors 24/7 trained to effectively assist, counsel, and refer 
service members (or family members) who have been the victim of sexual 
assault. VVA believes that only by means of such a mechanism that is 
not dependent on local command can there be uniformity of quality 
assistance and equal application of justice.
    Further, VVA urges that report language direct DOD to do a better 
job of establishing a continuum of care for victims with the VA, so 
that these individuals go from the military into appropriate care at 
the VA nearest to their home.

          NATIONAL VIETNAM VETERANS LONGITUDINAL STUDY (NVVLS)

    While it is not specifically within the purview of this 
subcommittee, VVA brings to your attention the requirement in Public 
Law 106-419, The Veterans' Benefits and Health Care Improvement Act of 
2000, that the VA contract to do a follow-up to the National Vietnam 
Veterans Readjustment Study, done some 20 years ago. Several of the 
distinguished Senators on this subcommittee are also on the Military 
Construction and VA Subcommittee, and all of the distinguished Senators 
are on the full Appropriations Committee. VA has delayed, dithered, and 
is now refusing to do the replication of the earlier study, utilizing 
the very same people--veterans who served in Vietnam, veterans who 
served in the Vietnam Era but who did not serve in Southeast Asia, and 
a non-veteran cohort matched for socio-economic and educational 
factors. The VA is now refusing to do the study, and is in defiance of 
the law and of the Congress. VVA believes that some in the VA and the 
Office of Management and Budget do not want to complete this study 
because of what they believe the results will be in terms of lifetime 
mortality and morbidities of combat veterans. As such, they are being 
contemptuous of the law and the Congress by their continued refusal.
    As the Judiciary is loath to do so in cases such as this (where 
there is a dispute between the other two branches of government such as 
a study mandated by the Congress and the Executive branch does not do 
it), only the Congress can compel the Executive branch to complete this 
legally mandated study, and the only means to that is by means of the 
appropriations process. This study, known as the National Vietnam 
Veterans Longitudinal Study (NVVLS), must be funded--and the VA 
compelled to immediately re-initiate this statutorily mandated study 
and bring it to an early and proper conclusion.
    The NVVLS represents the last best chance we have of understanding 
the nature and scope of the health problems of Vietnam veterans. The 
results of this study will also greatly assist Congress in planning not 
just for the health care needs of Vietnam veterans, but anticipating 
the long-term health care problems of our troops risking their lives in 
Iraq, Afghanistan, and elsewhere in the world today.
    Line item funding for this study and strong explicit report 
language are needed to compel the VA to fulfill its responsibility to 
comply with the mandate set by Congress.
     transition assistance program must be mandatory for commanders
    The greatest barrier to benefits and entitlements that soon-to-be 
separated veterans face is that they simply do not know about them. The 
``Transition Assistance Program'' (TAP) has been developed in the past 
20 years to help remedy this situation. Unfortunately, this program is 
very uneven. This is due partly because it is an ancillary duty for 
most of the people involved, whether they be from the VA, the State 
workforce development agency (funded by the Department of Labor-
Veterans Employment and Training Service), or others in the veterans 
service matrix. The most important thing that this committee can do is 
direct that sufficient resources be allocated for this program, and 
that successfully and effectively mounting TAP sessions for all 
personnel be made a mandatory item on the Officer Efficiency Report and 
evaluation for commanders.
    It is imperative for their future and the well-being of the Nation 
that the transition from service member to fully employed veteran be 
achieved in the overwhelming majority of cases. This includes providing 
all the assistance needed especially for disabled veterans, to be able 
to obtain and sustain meaningful employment at a living wage. Much of 
the key to accomplishing this goal is simply provides useful 
information and educating the departing service member. Former service 
members who successfully transition into civilian life are the very 
best recruiters the services have, and a better-administered TAP 
program will greatly aid that effective and speedy transition.
    Mr. Chairman, this concludes my remarks. Again, VVA thanks you for 
the opportunity to present our views here today regarding a number of 
essential points regarding the fiscal year 2007 Defense Appropriations 
legislation.
                                 ______
                                 

       Prepared Statement of the Coalition of EPSCoR/IDeA States

    Mr. Chairman and Members of the subcommittee, thank you for the 
opportunity to submit this testimony regarding the Department of 
Defense basic scientific research program and the Defense Experimental 
Program to Stimulate Competitive Research or ``DEPSCoR.''
    I am Royce Engstrom, Provost and Vice President for Academic 
Affairs at the University of South Dakota. I am also chair of the 
Coalition of EPSCoR/IDeA States, which is a non-profit organization 
that promotes the importance of strong science and technology research 
infrastructure, and works to improve the research competitiveness of 
States that have historically received less federal research funding. 
Previously, I was Vice President for Research at USD. I mention my 
background because I have had the opportunity to observe from several 
career points that there is great truth in the concept that all States 
and regions have impressive science and technology resources that can 
benefit mission agencies like the Department of Defense.
    I am submitting this statement on behalf of the Coalition of 24 
EPSCoR States in support of increasing the fiscal year 2007 budgets of 
both the Department of Defense's science and engineering research 
program for basic research, and an important component of that program, 
DOD's Experimental Program to Stimulate Competitive Research (DEPSCoR). 
These States have one-fifth of the Nation's academic science and 
engineers and represent an important resource for developing the pool 
of S&T talent that can serve DOD.
    First, I would like to thank the chairman and the rest of the 
subcommittee for your leadership and long-term support of the Defense 
Departments science and technology programs. America's uniformed men 
and women benefit greatly from the high tech products produced through 
DOD funding. Academic basic research is the first step in the process 
of bringing discovery in the research labs to applied research and 
ultimately to development and product creation and availability for the 
front line.
    The Coalition of EPSCoR/IDeA States strongly support increasing the 
Department's budget for basic research. The coalition urges the 
Congress and the administration to provide a significant investment in 
the Science and Technology (S&T) programs of the Department of Defense. 
The EPSCoR/IDeA States are in full agreement with the recommendation 
contained in the National Academies (NAS) report, Rising Above the 
Gathering Storm, and call for a 10-percent increase in basic defense 
research in fiscal year 2007.
    DOD-funded research is an essential component to meeting both the 
economic and security challenges facing our Nation now and in the 
future In the past, national defense investments in science and 
engineering have helped to create a well-trained cadre of U.S. 
scientists and engineers and have provided important educational 
opportunities for several generations of soldiers, veterans, and 
citizens while strengthening our national and economic security.
    DEPSCoR is a small, but significant, part of this larger, multi-
faceted DOD research program. The coalition recommends that Congress 
appropriate $20 million to the Department of Defense budget for the 
DEPSCoR Program in fiscal year 2007. DEPSCoR was initially authorized 
by section 257 of the National Defense Authorization Act of 1995 
(Public Law 103-337), and was created to help build national 
infrastructure for research and education by funding research 
activities in science and engineering fields that are important to 
national defense. DEPSCoR's objectives are: (1) To enhance the 
capabilities of institutions of higher education in DEPSCoR States to 
develop, plan, and execute science and engineering research that is 
competitive under the merit review systems used for awarding federal 
research assistance; and (2) To increase the probability of long-term 
growth in the competitively awarded financial assistance that DEPSCoR 
universities in eligible States receive from the Federal government for 
science and engineering research.
    I would now like to highlight a few ``DEPSCoR-funded'' success 
stories of research projects that have and are, presently, contributing 
to our national defense interests. In my own State of South Dakota, 
three significant research projects at the South Dakota School of Mines 
and Technology are under investigations through the DEPSCoR program. In 
one project, aluminum nanoparticles are being studied for their unique 
energy release characteristics, which can increase the metal 
acceleration from an explosive weapon. The particles also have 
potential use in primers, low-collateral warheads, and solid propellant 
additives. In another project, novel polycarbonate polymers are being 
developed for incorporation into transparent armor for face shields, 
goggles, and windshields. Finally, scientists are developing new 
``spintronic'' devices that combine electronic, magnetic, and optical 
properties into a single chip, resulting in powerful devices that 
operate on a fraction of the energy of today's devices and with much 
less weight.
    Projects from other EPSCoR states include:
  --The University of Alaska Fairbanks' researchers at the Institute of 
        Arctic Biology are examining the central human nervous system 
        with potential applications for reducing the severity of combat 
        casualties by extending the window of opportunity for transport 
        to medical facilities.
  --The University of Hawaii at Manoa's researchers are using DEPSCoR 
        funding to improve tropical cyclone forecasts for the Joint 
        Typhoon Warning Center, which is DOD's operational center for 
        tropical cyclone forecasting in the Pacific and Indian Oceans.
  --University of Kentucky researchers are working on a novel high-
        throughput Piezoelectric Technology, and have built and tested 
        working prototypes and signal processing software. This will 
        allow, for the first time, high-throughput genetic approaches 
        that may answer fundamental questions about sleep and wake 
        behavior. In turn, this knowledge is likely to suggest both new 
        pharmacological and non-pharmacological approaches to deal with 
        performance decrements from sleep disruptions that are so 
        common during military operations.
  --University of Montana researchers are working to understand the 
        cause of oxidative stress in war fighters. This will have a 
        direct impact on every soldier working in extreme environments 
        while carrying heavy equipment. Often these men and women 
        suffer from short-term impairment of metabolic function and 
        cognitive ability. Long-term effects of oxidative stress 
        include neurodegenerative disease and cancer. Understanding 
        this condition in military personal will allow for the design 
        of treatment protocols to minimize this aberrant metabolic 
        state and its subsequent short- and long-term health effects.
  --University of Nevada, Las Vegas researchers are working to further 
        the number of applications for wireless sensor networks in 
        military surveillance and civilian areas. For DOD, the use of 
        unmanned surveillance and monitoring systems using wireless 
        senor networks is of great practical importance, bringing 
        energy efficiency, scalability, dependability, and security to 
        military efforts. These characteristics obviously also can 
        enhance civilian endeavors as well.
  --North Dakota State University is conducting research aimed at 
        lengthening the life of ship structures. This research will 
        lead to significant savings in military spending on marine 
        fuel, maintenance and replacement of ships.
    Again, these are only a few of the many DEPSCoR-funded research 
initiatives that add to our national body of knowledge on varying 
national security issues.
    DEPSCoR awards are provided to mission-oriented individual academic 
investigators to conduct research that has practical military 
applications. However, the program as it is currently implemented has 
not taken into account the significant benefits that can be derived 
from pooling individual investigators efforts into ``centers'' of 
research that meet the ever-increasing challenges and needs of the 
Department of Defense and the Services.
    The DEPSCoR States propose restructuring the program into two 
components. The first component would retain the current structure 
whereby the single investigators are invited to compete for research 
awards in areas identified by the Department and the Services. The 
second and new component would award funding to mission-oriented 
``centers.'' These centers of defense excellence would be 
interdisciplinary areas and would build defense research capacity.
    To achieve important defense research objectives of both the 
components of the program, the DEPSCoR States suggest that the program 
be funded at $20 million for fiscal year 2007 with $10 million 
obligated to the individual investigator awards and $10 million for the 
mission-oriented centers initiative. This twin approach to funding will 
enhance the Department's ability to tap into the best ideas that the 
DEPSCoR States have to offer in support of the Nation's security needs.
    In conclusion, it is important that DOD is able to utilize the 
resources of all States and regions universities and the science and 
technology talent that reside in these institutions. DEPSCoR works to 
enable these resources to be available to advance the DOD mission. 
DEPSCoR is a wise and worthwhile investment of scarce public resources, 
and will continue to contribute research that supports national defense 
needs. Thank you for your consideration of this request.
                                 ______
                                 

             Prepared Statement of Florida State University

    Mr. Chairman, I would like to thank you and the Members of the 
subcommittee for this opportunity to present testimony before this 
committee. I would like to take a moment to briefly acquaint you with 
Florida State University.
    Located in Tallahassee, Florida's capitol, FSU is a comprehensive 
Research I university with a rapidly growing research base. The 
university serves as a center for advanced graduate and professional 
studies, exemplary research, and top-quality undergraduate programs. 
Faculty members at FSU maintain a strong commitment to quality in 
teaching, to performance of research and creative activities, and have 
a strong commitment to public service. Among the current or former 
faculty are numerous recipients of national and international honors 
including Nobel laureates, Pulitzer Prize winners, and several members 
of the National Academy of Science. Our scientists and engineers do 
excellent research, have strong interdisciplinary interests, and often 
work closely with industrial partners in the commercialization of the 
results of their research. Florida State University had over $182 
million this past year in research awards.
    Florida State University attracts students from every State in the 
Nation and more than 100 foreign countries. The university is committed 
to high admission standards that ensure quality in its student body, 
which currently includes National Merit and National Achievement 
Scholars, as well as students with superior creative talent. We 
consistently rank in the top 25 among U.S. colleges and universities in 
attracting National Merit Scholars to our campus.
    At Florida State University, we are very proud of our successes as 
well as our emerging reputation as one of the Nation's top public 
research universities.
    Mr. Chairman, let me briefly tell you about the projects we are 
pursuing this year. The first project is an FSU-led DARPA project that 
involves several other State universities in Florida. The work will 
focus on an Integrated Cryo-cooled High Power Density System, 
particularly as it relates to these systems and their applications in 
electric power systems. The objective of this multi-university research 
program is to achieve cryo-cooled high power densities through improved 
management and integration within the electric power system of heat 
generation and removal. This systems approach to solving this critical 
issue begins with identifying the enabling technologies needed, and 
then pursuing new systems approaches to advance the enabling 
technologies necessary for solution of these problems. Immediate 
applications could be with various electric drive systems currently 
under development by the various services and would include electric-
drive ships, land vehicles, and other emerging electric drive power 
systems.
    The research activities supported within this project will be 
directed in several areas that include development of new materials 
that could be included in conductors, semi-conductors, and insulation 
that would become critical components in cryo-thermal systems and 
system components. The systems integration approach will be critical to 
this entire effort at FSU. We are requesting $3,000,000 for this very 
important new project.
    Our next project is entitled Nanotubes Optimized for Lightweight 
Exceptional Strength (NOLES)/Composite Materials, and is a continuing 
project with the U.S. Army. The U.S. Army's objective of developing a 
lighter fleet of fighting and personnel vehicles may be achieved 
through the diminutive single-walled carbon nanotubes that (1) are the 
strongest fiber known, (2) have a thermal conductivity two times higher 
than pure diamond, and (3) have unique electrical conductivity 
properties as either semi-conducting or metallic based on their 
structure. Work under previous Army funding has led the development and 
production of lightweight multifunctional composite structures. These 
structures are uniquely-created by resins impregnated with carbon 
nanotubes; these new composite materials hold the promise of creating 
structures, which, pound for pound, will be the strongest ever known, 
and hence offer maximum personnel and vehicle protection. Benefits are 
apparent not only to defense, but also throughout the commercial world.
    Partnered with the Army Research Laboratory and a number of defense 
companies, Florida State University's team of multi-disciplinary 
faculty and students has developed unique computational, analytical, 
and experimental capabilities in the field of nano-composite research. 
This research is leading to vital defense applications. For instance, 
in a partnership with Lockheed Martin Missiles and Fire Control-
Orlando, FSU researchers are developing nanotube/polycarbonate (CNT/PC) 
composites that are expected to exhibit outstanding properties for an 
armor program. Initial testing showed that the FSU CNT/PC materials 
demonstrated favorable properties and deserved further investigation. 
The FSU researchers recently delivered the second batch of test 
materials. Additional field tests of the materials have been scheduled. 
In addition, FSU's nanotube composites are being tested for missile 
wings, UAVs, thermal management and missile guidance systems by Boeing, 
Lockheed Martin, Northrop Grumman, and Raytheon.
    Three foci are envisioned for fiscal year 2007: (1) to develop 
nanotubes as a material platform for a new generation of devices and 
systems, giving special attention to the design and demonstration of 
defense applications; (2) to use nanotubes and biological polymers in 
harvesting and conversion of solar and RF energy across the electro-
magnetic spectrum; and (3) to develop processing technology for ultra 
lightweight, exceptionally strong composite materials to improve glass 
transition temperature, through-thickness strength and fire retardance. 
We are requesting $3,000,000 for this project in fiscal year 2007.
    Our third project involves the U.S. Navy, and it examines experts' 
ability to maintain superior performance under stress. The project is 
entitled, Refined Assessment and enhances Acquisition of Skilled 
Performance in the U.S. Navy. It includes a focus on designing 
assessment and training procedures to enhance performance. This project 
will be undertaken by FSU's Learning Systems Institute (LSI), which is 
used for multidisciplinary research on performance; in addition, the 
Virtual Human Performance Laboratory (vHPL) at LSI will enable the 
remote assessment and training of Navy fighter pilots. Researchers will 
utilize the results of studies of expert performance conducted with ONR 
together with new data on real-world and simulated performance under 
stress collected to design assessment and training procedures for 
skilled performance for these key Navy personnel. This research is 
designed to support ``An Evolving Joint Perspective: U.S. Joint Warfare 
and Crisis Resolution in the 21st Century,'' and is being conducted in 
accordance with current CNO guidance. We are requesting $1,500,000 for 
this project.
    Our final project involves the Integration of Electro-kinetic 
Weapons into Next-Generation Navy Ships. The U.S. Navy is developing 
the next generation war ship that will be based on an all-electric 
platform of propulsion loads and electric power systems with rapid 
reconfigurable distribution systems for integrated fight-through power 
(IFTPS). Through the IFTP system, large amounts of energy could be made 
available to new pulsed power weapon systems and other directed energy 
weapons. Many challenging technical issues arise before implementing a 
combat ready system. These include the appropriate topology for the 
ship electric distribution system for rapid reconfiguration to battle 
readiness and the energy supply technology for the weapon systems.
    The goal of this initiative is to investigate the energy delivery 
technologies for electro-kinetic weapons systems and investigate the 
integration and interface issues of these weapons as loads on the ship 
IFTPS through system simulations and prototype tests, and assess the 
capability and security of various system topologies and control 
schemes to operate the weapon systems. The results will provide the 
Navy and its ship-builders with vital information on design of the ship 
power system and weapon power supplies.
    With significant support from the Office of Naval Research (ONR), 
FSU has established the Center for Advanced Power Systems (CAPS). CAPS 
has integrated a real-time digital power system simulation and modeling 
capability and hardware test-bed, capable of testing IPS power system 
components at ratings up to 5MW, offering unique hardware-in-the-loop 
simulation capabilities hitherto unavailable anywhere in the world.
    In support of the proposed initiative, the National High Magnetic 
Field Laboratory (NHMFL) will utilize its world-class research 
expertise and infrastructure for the proposed development. FSU's 
partnership with University of Florida and Los Alamos National 
Laboratory is a key part of the NHMFL. This initiative will be also 
conducted in cooperation with the University of Texas-Austin and 
University of Missouri-Columbia. Each institution offers unique 
capabilities in design and prototyping of the energy storage and pulse 
forming networks needed. We are requesting $3,000,000 for this project.
    Mr. Chairman, we believe the research described above is vitally 
important to our country and the various military services. We would 
appreciate your support.
                                 ______
                                 

       Prepared Statement of the Air Force Sergeants Association

    Mr. Chairman and distinguished subcommittee Members, on behalf of 
the 130,000 members of the Air Force Sergeants Association, thank you 
for this opportunity to offer the views of our members on the fiscal 
year 2007 funding priorities of the Department of Defense. This hearing 
will address issues critical to those serving and who have served our 
Nation. AFSA represents Active Duty, Guard, Reserve, retired, and 
veteran enlisted Air Force members and their families. Your continuing 
efforts toward improving the quality of their lives has made a real 
difference, and our members are grateful. In this statement, I will 
list several specific goals that we hope this committee will consider 
funding during fiscal year 2007 on behalf of current and past enlisted 
members and their families. The content of this statement reflects the 
views of our members as they have communicated them to us. As always, 
we are prepared to present more details and to discuss these issues 
with your staffs.

                           HEALTH CARE ISSUES

    Defense Health Program Funding.--AFSA urges the subcommittee to 
ensure continued full funding for Defense Health Program needs. AFSA 
maintains that this Nation can afford to and must be dedicated to 
funding the weapons systems and the military health care system. We 
strongly recommend against DOD's desire to establish an annual 
enrollment fee for TRICARE Standard. We urge the subcommittee to 
require DOD to pursue greater efforts to improve TRICARE and find more 
effective and appropriate ways to make TRICARE more cost-efficient 
without seeking to shift the burden to those who have already paid a 
great price for their retirement health care benefits. Additionally, 
the DOD plan is based upon questionable assumptions of prospective 
changes in human behavior--a dangerous way to steer a fiscal course. 
Furthermore, if the assumptions upon which the DOD TRICARE plan is 
based are incorrect, military beneficiaries would likely face an ever-
increasing cost for benefits they already paid for by facing unlimited 
liability for an entire career.
    Promoting TRICARE Standard Providers.--One of the great problems 
with TRICARE itself is that many doctors refuse to participate because 
it is not worth their while. AFSA urges this subcommittee to designate 
sufficient funding that will enhance provider participation and thus 
contribute to denying beneficiaries access to care.
    Pharmacy Copayments.--AFSA asks the subcommittee to provide the 
necessary funding prevent DOD plans to once again change the copayment 
rates for prescriptions until all medications are available in the mail 
order program and limiting any future pharmacy copayment increases to 
the lesser of the percentage increase in basic pay or retired pay, 
rounded down to the next lower dollar. The coalition recommends 
eliminating beneficiary copayments in the mail-order pharmacy system 
for generic and brand name medications to incentivize use of this 
lowest-cost option and to generate substantial cost savings.
    Dental Care Support.--AFSA asks this committee to take a serious 
look at additional funding for the dental care program for military 
members and their families. Some members report that the reimbursement 
rates for providers are not adjusted to the various regions. That being 
the case, dentists avoid participation in the program. The situation in 
Alaska, in particular, has been brought to our attention; however, the 
situation needs to be examined across the board to determine where 
there are inadequate providers to support the families of military 
members and the retirees in each region.
    Optometry Benefit for Retirees.--The earned career military benefit 
does not include a funded retiree optometry benefit. This is certainly 
fundamental to the health and well-being of those who have served, and 
AFSA requests this subcommittee's consideration toward supporting the 
implementation of such a benefit.

                            EDUCATION ISSUES

    Increase the value of the MGIB to cover the costs of tuition, 
books, and fees at an average 4-year college or university. Despite 
recent increases in the MGIB which brought the value of the MGIB up to 
$1,034, more needs to be done. If this Nation is going to have a 
program that sincerely intends to satisfy the purpose of the program, 
it certainly should mirror civilian industry by providing a 
comprehensive educational program and not an insufficient one. 
According to the ``College Report,'' an annual evaluative report 
published by the education ``industry,'' average monthly educational 
costs are more than $1,500 at this time. This figure reflects the cost 
of books, tuition, and fees at the average college or university for a 
commuter student. Of course, that average cost will increase in the 
future due to inflation. Payment for full books, tuition, and fees for 
a 4-year degree with annual indexing to maintain the value of the 
benefit, at least, ought to be provided for those who make the military 
a career. In recent months, several members of Congress have expressed 
interest in developing a new, improve ``Total Force MGIB.'' AFSA 
supports such an initiative and encourages this subcommittee to espouse 
it as well.
    An MGIB Enrollment Opportunity for VEAP-Era Military Members.--The 
education program for military members that preceded the Montgomery 
G.I. Bill (MGIB) was the Veterans Educational Assistance Program 
(VEAP). This was a program where you put in up to $2,700 and the 
government matched the amount you used for education on a 2-for-1 
basis. The maximum government contribution was $5,400. Hundreds of 
thousands of military members declined enrollment in that program due 
to very poor educational counseling. Many tell us they were advised by 
education officials not to enroll in the VEAP since a better program 
was coming along. Unfortunately, when the MGIB came along, those who 
didn't enroll in the VEAP were not allowed to enroll in the far-more-
beneficial MGIB. DOD estimates last year indicated that there are still 
serving between 50,000 and 70,000 service members who declined 
enrollment in VEAP. S. 2091, sponsored by Senator Tim Johnson would 
correct this unfortunate situation. These members served since the mid 
1980s, helped preserve peace, and deserve an opportunity to enroll in 
the MGIB program. AFSA urges the subcommittee to fund that opportunity.
    Correct MGIB Enrollment Procedures.--At basic military training or 
boot camp, new servicemembers must make a decision. If they want to 
enroll in the MGIB, they must agree to have $100 per month deducted 
from their pay for each of their first 12 months of military service. 
This is twice as difficult for noncommissioned members because they 
make roughly half the pay of a newly commissioned officer. We urge the 
subcommittee to either eliminate the $1,200 user fee or allow enlisted 
members to make the payments over a 24-month period.
    Allow Transferability of MGIB Benefits to Family Members.--AFSA 
believes the MGIB benefit is earned, and military members ought to also 
be able to share the benefit with their family members, if they chose 
to do so. It would certainly serve to improve the quality of the lives 
of noncommissioned families. Transferability could be offered as a 
career incentive. For example, transferability could become an aspect 
of the program for all enrollees after they complete 12 or 13 years in 
service.
    Full Impact Aid Funding.--Impact Aid is supplemental funding 
provided to local school districts to compensate for the impact of 
having military members in that community. Local schools are primarily 
funded through property taxes. Those military members who reside on 
base do not pay into the property tax base. Recognizing this, each year 
Congress has provided supplemental dollars to such school districts. 
This funding is critical to quality education and the protection of the 
finances of military families; AFSA urges the subcommittee to continue 
the great work it has done on this front in recent years.
    In-state Tuition Rates for Military Members.--Military members are 
relocated from one military reservation to another at the pleasure of 
the government. Of course, servicemembers serve the entire Nation, and 
every State benefits from their service. Although we believe this issue 
would not require any additional funding considerations, we urge the 
subcommittee to do what it can to urge States to provide immediate in-
state tuition rates at State colleges and universities as soon as 
military members and their families are relocated into that State. This 
should apply to the military members, their spouses, and their 
children.

       COMPENSATION AND PERMANENT-CHANGE-OF-STATION (PCS) ISSUES

    Senior NCO Pay Targeting.--AFSA urges the subcommittee to provide 
the necessary appropriations to allow further pay targeting toward the 
senior noncommissioned ranks. These members are critical to the success 
of the military mission, and their roles and responsibilities have 
increased significantly in recent years. It is no exaggeration to state 
the many jobs formerly handled by commissioned officers are now handled 
by senior enlisted members. As such, it is important for the 
subcommittee to take a critical look at the military pay charts and 
increase the pay levels of senior noncommissioned officers.
    Standard Reenlistment Bonus.--Each time military members reenlist, 
they commit to subjecting themselves to unlimited liability--putting 
their lives at risk, if need be, to defend the interests of this 
Nation. As all men and women, these people are choosing to devote a 
significant portion of their days on Earth to freedom. The current 
reenlistment bonus structure is strictly a force manipulation mechanism 
to adequately man hard-to-fill jobs. AFSA urges the subcommittee to 
provide the necessary funding which allows a standard reenlistment 
bonus each time a military member extends their military commitment.
    Increased Household Good (HHG) Weight Allowances for Senior NCOs 
During PCS Moves.--AFSA thanks this subcommittee for role in the modest 
increase in household goods weight allowances for senior NCOs approved 
last year. However, we recommend that these allowances be increased 
even further. Currently, the highest ranking enlisted members (E-9s) 
who are generally career-committed and have served the Nation for over 
two decades are afforded approximately the same HHG weight allowances 
as a commissioned officer who has served only 4 years. An E-7, probably 
at the average career point of 15 years, is given roughly the same HHG 
weight allowance as an O-1, just entering military service. HHG weight 
allowances should have some relation to average time in service, family 
size, probably accumulation of goods as a family grows, etc. It 
certainly should not be significantly different for commissioned and 
enlisted members. We believe the ethical, common-sense, way to provide 
this allowance would be parallel increases between the commissioned and 
enlisted rank charts with an E-1 and O-1 receiving the same HHG Weight 
Allowance, an E-2 receiving the same allowance as an O-2, etc. Such 
changes would require the support and therefore, funding considerations 
of this subcommittee.

                        GUARD AND RESERVE ISSUES

    Age 55 Retirement.--What has been true for years has become 
particularly evident in recent years--that members of the Guard and 
Reserve are full players in the defense of this Nation. Yet they are 
the only federal employees that have to wait until age 60 to enjoy 
their retirement benefits. As it is, their retirement pay is a fraction 
of that received by retired Active Duty members. Guard and Reserve 
retirement is based on an accumulation of service points. AFSA believes 
the right thing to do for the members of the Guard and Reserve is for 
this subcommittee to designate the necessary appropriations enabling a 
change to the law and allow these members the receipt of their 
retirement pay at age 55.
    Health Care.--In recent years, Congress has made great strides in 
addressing the Guard and Reserve health care situation, in part due to 
the great work of this committee. We urge that you continue along this 
path and provide a robust plan by expanding the current provisions and 
decreasing the fees for TRICARE Reserve Select.

                   RETIREMENT/VETERAN/SURVIVOR ISSUES

    Seamless DOD-VA Transition.--AFSA cannot stress enough the 
importance of properly funding programs that allow common use of 
medical records between DOD and the Veterans Administration, and to 
support other aspects of the transition from military service to 
veteran status. You have made great strides in recent years, and AFSA 
appreciates them. The issue of a common-sense transition from one 
status to the other, and the funding of programs to support it, has 
become even more critical during the time of the global war on 
terrorism.
    Concurrent Retirement and Disability Pay (CRDP) and Combat-Related 
Special Compensation (CRSC).--Congress has made progress on this matter 
in each of the last 5 or 6 years, and AFSA urges that it continue. We 
ask that you support expansion of CRSC for those Chapter 61 retirees 
(medically retired) who, through no fault of their own, were unable to 
complete 20 years of service. This would most effectively address those 
with the most serious disabilities and help to serve those fighting in 
the current actions in Iraq and Afghanistan.
    SBP ``Paid Up'' Provision.--This subcommittee acted on this several 
years ago by making this paid up feature effective in 2008. Some of 
these retirees have now been paying into SBP for many more years than 
30. We urge the subcommittee to implement the paid-up provision 
effective October 1, 2006.
    Eliminate the Survivor Benefit Plan (SBP)-Dependency and Indemnity 
Compensation (DIC) Offset.--Currently, survivors receiving DIC from the 
VA see a dollar-for-dollar reduction in their SBP payments (provided by 
DOD). Similar to the CRDP issue, this is a matter that we hope the 
subcommittee can provide funding for this year.
    Allow DIC Survivors to Remarry After Age 55 Without Losing Their 
DIC Entitlement.--Congress provided some relief to these survivors for 
setting the remarriage age without losing DIC entitlement at 57. To 
parallel other federal programs, we urge the subcommittee to change the 
allowable remarriage age for these survivors at 55.
    In conclusion, Mr. Chairman, we thank you for this opportunity to 
present the views of the Air Force enlisted community. As you work 
toward your appropriations decisions, the Air Force Sergeants 
Association and its 130,000 members urge you to ensure sufficient 
funding to provide for the integrity of the entire Department of 
Defense and related programs. Now, more than ever, this funding and 
this Nation's commitment to our servicemembers must be above reproach. 
On behalf of all AFSA members, we appreciate your efforts and, as 
always, are ready to support you in matters of mutual concern.

                         CONCLUSION OF HEARINGS

    Senator Inouye. I thank you all for your testimony this 
morning, and the subcommittee will stand in recess.
    [Whereupon, at 10:49 a.m., Wednesday, May 24, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
